<html>
<title> - IMPACT OF THE ADMINISTRATION'S WILD LANDS ORDER ON JOBS AND ECONOMIC GROWTH</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
 IMPACT OF THE ADMINISTRATION'S WILD LANDS ORDER ON JOBS AND ECONOMIC  
                                GROWTH 

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, March 1, 2011

                               __________

                            Serial No. 112-2

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
          Committee address: http://naturalresources.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

64-954 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Donna M. Christensen, VI
Scott R. Tipton, CO                  John P. Sarbanes, MD
Paul A. Gosar, AZ                    Betty Sutton, OH
Raul R. Labrador, ID                 Niki Tsongas, MA
Kristi L. Noem, SD                   Pedro R. Pierluisi, PR
Steve Southerland II, FL             John Garamendi, CA
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                   Rick Healy, Democrat Chief Counsel
                                 ------                                



















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, March 1, 2011...........................     1

Statement of Members:
    Flores, Hon. Bill, a Representative in Congress from the 
      State of Texas, Prepared statement of......................   135
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     1
        Prepared statement of....................................     3
    Markey, Hon. Edward J., a Representative in Congress from the 
      State of Massachusetts.....................................     4

Statement of Witnesses:
    Abbey, Robert, Director, Bureau of Land Management, U.S. 
      Department of the Interior.................................   118
        Prepared statement of....................................   119
    Bousman, Joel, Sublette County Commissioner, Pinedale, 
      Wyoming....................................................    39
        Prepared statement of....................................    40
    Herbert, Hon. Gary R., Governor, State of Utah...............    11
        Prepared statement of....................................    13
    McKee, Mike, Uintah County Commissioner, Vernal, Utah........    52
        Prepared statement of....................................    54
    Metcalf, Peter, CEO/President and Co-Founder, Black Diamond 
      Equipment..................................................    79
        Prepared statement of....................................    81
        Response to question from Hon. Rob Bishop................    87
    Myers, William G., III, Partner, Holland and Hart LLP........    71
        Prepared statement of....................................    73
    Otter, Hon. C.L. ``Butch,'' Governor, State of Idaho.........     6
        Prepared statement of....................................     8
    Robinson, Lesley, Phillips County Commissioner, Malta, 
      Montana....................................................    57
        Prepared statement of....................................    59
    Smith, Dennis C.W., Jackson County Commissioner, Medford, 
      Oregon.....................................................    60
        Prepared statement of....................................    61
    Squillace, Mark, Professor of Law and Director of the Natural 
      Resources Law Center, University of Colorado Law School....    88
        Prepared statement of....................................    90
        Letter to Hon. Ken Salazar, Secretary, U.S. Department of 
          the Interior, dated September 30, 2009.................    91

Additional materials supplied:
    Matheson, Hon. Jim, a Representative in Congress from the 
      State of Utah, Statement submitted for the record..........   135
    McMorris Rodgers, Hon. Cathy, a Representative in Congress 
      from the State of Washington, Statement submitted for the 
      record.....................................................   136
    List of documents retained in the Committee's official files.   137


  OVERSIGHT HEARING TITLED ``THE IMPACT OF THE ADMINISTRATION'S WILD 
               LANDS ORDER ON JOBS AND ECONOMIC GROWTH.''

                              ----------                              


                         Tuesday, March 1, 2011

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 2:14 p.m. in Room 
1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Hastings, Young, Bishop, Lamborn, 
Fleming, Coffman, McClintock, Thompson, Denham, Duncan, Tipton, 
Gosar, Labrador, Noem, Flores, Harris, Landry, Fleischmann, 
Runyan, Johnson, Markey, Kildee, Holt, Grijalva, Costa, 
Heinrich, Garamendi, and Hanabusa.
    Also Present: Representatives Walden and Pearce.
    The Chairman. The Chair notes the presence of a quorum. The 
Committee on Natural Resources is meeting today to hear 
testimony on ``The Impact of the Administration's Wild Lands 
Order on Jobs and Economic Growth.'' Under Committee Rule 4(f), 
opening statements are limited to the Chairman and Ranking 
Member of the Committee, so we can hear from our witnesses more 
quickly.
    However, I do ask unanimous consent to include any other 
Member's opening statements in the hearing if submitted to the 
clerk by close of business today. Without objection, so 
ordered.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. Last year, just two days before Christmas, 
Secretary of the Interior Ken Salazar issued a Secretarial 
Order implementing a sweeping new wilderness policy for the 
Bureau of Land Management, or BLM. This order directed BLM to 
designate areas with wilderness characteristics as, quote, 
``wild lands.''
    The term ``wild lands'' may be new, but the 
Administration's motives are not. This order is a clear attempt 
to allow the Administration to create de facto wilderness areas 
without congressional approval. I have repeatedly stated that 
oversight of the Obama Administration's actions will be a top 
priority of this Committee. It is decisions such as this that 
make our oversight role a necessity.
    Today's hearing will allow us to closely examine the 
impacts of the Wild Lands Order and hear directly from 
Governors and local officials on its effect upon jobs and the 
economies of the communities across the West. The 
Administration chose not to consult or listen to these elected 
leaders or their communities before the Secretarial Order was 
dictated.
    This hearing provides then the first forum and opportunity 
for them to be heard by their elected government. That is not, 
in my view, how our system is supposed to work. Again, that is 
why the specific purpose of this hearing was to hear from the 
State and local leaders. Additional hearings are planned. I 
want to mention that again. Additional hearings are planned, 
including one featuring Department officials, and allowing them 
a full forum to discuss and defend the Secretarial Order.
    The Administration was eager, however, to also participate 
in today's hearing and requested an opportunity for BLM 
Director Abbey to testify. As Chairman, I honored this request 
from the Administration, with the understanding that previously 
invited citizens traveling here to Washington, D.C., to appear 
as witnesses were not to be displaced. So to accommodate 
Director Abbey, the hearing has been restructured to condense 
all of the local witnesses on one second panel, which I know is 
going to be a tight squeeze.
    Director Abbey will appear on our final panel, and I intend 
to move the hearing along as quickly as we can so we all get a 
fair hearing on this.
    Before examining the widespread impacts of this order, the 
Administration's lack of legal authority to impose such a 
policy deserves emphasis. The Wilderness Act of 1964 very 
clearly gives Congress and only Congress the statutory 
authority to create new wilderness areas. It is absurd for the 
Obama Administration to claim that giving wilderness a 
different label of wild lands will somehow pass legal muster. 
Clever semantics cannot circumvent the law. I will ask 
specifically where this authority comes from.
    Under this Wild Lands Order, approximately 220 million 
acres of BLM land, the majority of which is in the West, is 
under threat of being treated as de facto wilderness. 
Designating land as wilderness imposes the most restrictive 
land use policies. Lands that are currently used for multiple 
purpose, including recreation activities, agriculture, 
ranching, American energy production, and other activities are 
in danger of being placed off limits.
    This Secretarial Order will disproportionately impact rural 
communities which depend on public lands for their livelihoods. 
These communities have already been hit hard by onerous 
existing Federal restrictions and by the current economic 
crisis. They suffer from some of the highest unemployment rates 
in the country. The Wild Lands Order threatens to inflict 
further economic pain.
    This is just one more example of the onslaught of harmful 
actions that the Obama Administration is imposing on rural 
America. The Administration claims that this order will be good 
for jobs. How does preventing public access to public lands 
result in new jobs? If this was such a boon to local jobs, then 
why did they bury this order's announcement on December 23rd, 
just two days before Christmas?
    More job loss is what this order threatens, in my view. I 
am eager to hear from the western Governors and local officials 
who can tell us firsthand how it will impact jobs in their 
states. And I am also eager to hear the opposite view.
    This Secretarial Order is a clear invitation for lawsuits 
and will lead to further divisions among groups and communities 
over the use of public lands. This order will tie the hands of 
BLM land managers, who may fear that any decision will land 
them in court and delay the reasonable and responsible use of 
our public lands.
    I believe in responsible stewardship. There is a need to 
care for our most treasured national lands. Yet, multiple 
purpose public lands must remain open to public enjoyment and 
available to help build our economy and create jobs. The local 
communities that depend on this land must be a part of the 
process, not after the fact, not once the Secretary has issued 
his order, but from the beginning.
    This Administration should be on notice that unilateral 
decisions and orders to impose restrictive, job-destroying 
policies will be met with firm resistance. And with that, I 
look forward to hearing testimony. But before that, I will 
recognize the distinguished Ranking Member, the gentleman from 
Massachusetts.
    [The prepared statement of Chairman Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    Late last year, just two days before Christmas, Secretary of the 
Interior Ken Salazar issued a Secretarial Order implementing sweeping 
new wilderness policy for the Bureau of Land Management (BLM). This 
order directed BLM to designate areas with wilderness characteristics 
as ``wild lands.''
    The term ``wild lands'' may be new, but the Administration's 
motives are not. This order is a clear attempt to allow the 
Administration to create de facto Wilderness areas without 
Congressional approval.
    I've repeatedly stated that oversight of the Obama Administration's 
actions will be a top priority of this Committee. It's decisions such 
as this that make our oversight role a necessity.
    Today's hearing will allow us to closely examine the impacts of the 
``wild lands'' order and hear directly from governors and local 
officials on its effect upon jobs and the economies of communities 
across the West. The Administration chose not to consult or listen to 
these elected leaders or their communities before the Secretarial Order 
was dictated. This hearing provides the first forum and opportunity for 
them to be heard by their elected government. That is not how our 
system is supposed to work.
    Again, that is why the specific purpose of this first hearing was 
to hear from these state and local leaders. Additional hearings are 
planned, including one featuring Department officials and allowing them 
a full forum to discuss and defend this Secretarial Order.
    The Administration was eager, however, to also participate at 
today's hearing and requested an opportunity for BLM Director Abbey to 
testify. As Chairman, I honored this request from the Administration 
with the understanding that previously invited citizens traveling here 
to Washington, DC to appear as witnesses were not displaced.
    To accommodate Director Abbey, the hearing has been restructured to 
condense all of the local witnesses to one second panel, which is going 
to be a tight squeeze. Director Abbey will appear on our final panel, 
in deference to these witnesses.
    Before examining the widespread impacts of this order, the 
Administration's lack of legal authority to impose such a policy 
deserves emphasis. The Wilderness Act of 1964 very clearly gives 
Congress, and only Congress, the statutory authority to create new 
Wilderness areas.
    It's absurd for the Obama Administration to claim that giving 
wilderness a different label of ``wild lands'' will somehow pass legal 
muster. Clever semantics cannot circumvent the law.
    We will ask specifically where this authority comes from.
    Under this ``wild lands'' order, approximately 220 million acres of 
BLM land, the majority of which is in the West, is under threat of 
being treated as de facto Wilderness. Designating land as Wilderness 
imposes the most restrictive land-use policies. Lands that are 
currently used for multiple-use--including recreation activities, 
agriculture, ranching, American energy production and other economic 
activities--are in danger of being placed off-limits.
    This Secretarial Order will disproportionately impact rural 
communities, who depend on public lands for their livelihoods. These 
communities have already been hit hard by onerous existing federal 
restrictions and by the current economic crisis. They suffer from some 
of the highest unemployment rates in the country. The ``wild lands'' 
order threatens to inflict further economic pain. This is just one more 
example of the onslaught of harmful actions that the Obama 
Administration is imposing on rural America.
    The Administration claims that this order will be good for jobs. 
How does preventing public access to public's land result in new jobs?
    If this was such a boon to local jobs, then why did they bury the 
order's announcement on December 23rd, just two days before Christmas.
    More job loss is what this order threatens.
    I'm eager to hear from Western Governors and local officials who 
can tell us first-hand how it will impact jobs in their states. And I'm 
also eager to hear the opposite view.
    This Secretarial Order is a clear invitation for lawsuits and will 
lead to further divisions among groups and communities over the use of 
public lands. This order will tie the hands of BLM land managers, who 
may fear that any decision will land them in court, and delay the 
reasonable and responsible use of our public lands.
    I believe in responsible stewardship. There is a need to care for 
our most treasured national lands. Yet, multi-use public lands must 
remain open to public enjoyment and available to help build our economy 
and create jobs.
    The local communities who depend on this land must be part of the 
process--not after the fact, not once the Secretary has issued his 
order, but from the beginning.
    This Administration should be on notice that unilateral decisions 
and orders to impose restrictive, job-destroying policies will be met 
with firm resistance.
                                 ______
                                 

   STATEMENT OF THE HON. EDWARD MARKEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Markey. I thank the gentleman very much. No issue has 
been more hotly debated in this Committee than wilderness, and 
no issue is more misunderstood. Criticism of Secretary 
Salazar's Wild Lands Order is based on misconceptions that have 
plagued this debate for decades.
    For example, some see wilderness inventories as attempts to 
transform multiple-use lands into wilderness. This is a 
fundamental misunderstanding of the purpose of the Wilderness 
Act, which is, quote, ``to secure for the American people the 
benefits of an enduring resource of wilderness.''
    Properly understood, wilderness is a resource, just like 
timber or natural gas. The Wilderness Act could no more create 
wilderness than the mining law could create gold. The Act 
directs land managers to find wilderness so that Congress can 
preserve it for future generations.
    The Bush Administration did not want Congress to preserve 
wilderness, so they volunteered to stop looking for it. 
Secretarial Order 3310 directs BLM to rejoin the hunt for 
wilderness, as required by the Act. In other words, Secretarial 
Order 3310 is an announcement that Secretary Salazar, unlike 
several of his predecessors, is ready to do his job. And just 
in time, because the Bush no-more-wilderness policy was having 
the desired effect. The Bureau of Land Management has leased 
five times as much public land to oil and gas companies as it 
has set aside for wilderness.
    Over the last five years, the BLM found more than 18,000 
new sites for oil and gas wells, but not a single new site for 
potential wilderness. The BLM has been approving drilling 
permits so fast that energy companies can't keep up. They are 
only producing on about one-third of the acres already leased. 
Among the drilling rigs and the mining sites and the off-road 
vehicle areas on our public lands, there is plenty of room to 
at least look for any wilderness that may remain.
    Another misconception is that wilderness is somehow bad for 
local economies. While the Nation and even the world are 
currently suffering through a difficult recession, the story of 
most communities in the West since the Wilderness Act was 
enacted in 1964 has been one of explosive growth and 
prosperity, much of it driven by tourism, recreation, and a 
rich quality of life, all based on an abundance of beautiful 
open space.
    Secretarial Order 3310 does not designate a single acre of 
wilderness. It will not impede oil and gas production. It does 
not burden local communities, and it is fully consistent with 
congressional intent, something that cannot be said about the 
policy it overturns.
    I thank you, Mr. Chairman, and I look forward to the 
testimony of our witnesses.
    The Chairman. I thank the gentleman for his statement, and 
I want to welcome our first panel, Governor Otter and Governor 
Herbert. And I will yield for purposes of introduction to our 
colleagues on the Committee, first of all the new member of our 
Committee, Congressman Labrador, to introduce Governor Otter, 
and Congressman Bishop to introduce his Governor, Governor 
Herbert. Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman. It is indeed an 
honor to be able to introduce Idaho's 32nd Governor to this 
Committee. I say introduce, but the truth is that Butch Otter 
is no stranger to this Committee, having been an active member 
of it during his time in Congress. I am privileged to list my 
name alongside his as representatives of Idaho's First 
Congressional District, where he served until he became 
Governor in 2006.
    Mr. Otter served with distinction in the Idaho Legislature, 
and served as Lieutenant Governor and President of the Senate 
from 1986 until 2001, when he was elected to the seat I now 
hold. His time in Congress was marked by a focus on 
conservative principles and outspoken advocacy for a limited 
Federal Government.
    Mr. Otter comes to us today as not just an expert in 
western land use issues, and I am looking forward to hearing 
your misconceptions about western land use issues, since you 
apparently don't know enough about it. But also as an expert in 
economic development. Much of his early career was spent 
engaging in the types of activities politicians today hope to 
achieve: increasing exports of domestic products, making Idaho 
a competitive place to do business, and creating jobs for 
Americans.
    And also I would like to recognize his wife, the First 
Lady, Laurie Otter. Please join me in welcoming Mr. Otter back 
to this Committee.
    [Applause]
    The Chairman. Mr. Bishop, for purposes of introduction.
    Mr. Bishop. Thank you. I am pleased to welcome Gary 
Herbert, who is the Governor of the State of Utah, recently 
elected to fulfill the term of his predecessor. And I am 
appreciative of him being here, as well as his lovely wife, who 
is sitting behind him. Even though he comes from Utah County, 
which is some place down in some other district, I don't know, 
in the State of Utah.
    What is significant, though, for Governor Herbert is he 
spent a significant amount of time first in local government as 
a county commissioner, which is in our hybrid Galveston system 
both a legislative and executive function. And he clearly 
understands the distinction between those two. And then having 
a wide background, which made him extremely popular, especially 
with all the local elected officials in Utah, he became a 
Governor, first as Lieutenant Governor, in which these issues 
were one of his primary focuses--he was assigned to that area--
and now as Governor, in which once again the Federal-State 
relationship, as well as what public lands means to the State 
of Utah, is still a prime focus.
    So I am very proud of what you do for the State of Utah and 
our citizens. We welcome and are happy to have you here.
    [Applause]
    The Chairman. I yield to the Ranking Member, just for a 
moment.
    Mr. Markey. I thank the gentleman. We are here at an 
historic time, and that time is to recognize our colleague, 
Rush Holt from New Jersey, who last night defeated in a game of 
Jeopardy the IBM super computer Watson. And Rush is a five-time 
Jeopardy winner in real life, and a nuclear physicist. But I 
think beating the super computer Watson, when all hope had 
failed for humanity to prevail over technology, I think is 
something we should recognize.
    [Applause]
    The Chairman. Well, since there is that much wisdom, there 
is hope in the future as we debate these issues then. Welcome.
    I want to thank you, and I want to welcome Governor Otter 
and Governor Herbert. Like all of our witnesses, your written 
testimony will appear in full in the record. So I ask that you 
keep your oral statements to five minutes.
    The microphones in front of you are not automatic, so 
before you start, press the button. And the timing lights, let 
me explain. I know Governor Otter knows this. But when you 
start, the green light will come on. After four minutes, the 
yellow light comes on, signifying you have one minute, and when 
the red light comes on, you know, wrap it up as quickly as you 
possibly can.
    So with that, Governor Otter, you may begin.

          STATEMENT OF THE HON. C.L. ``BUTCH'' OTTER, 
                 GOVERNOR OF THE STATE OF IDAHO

    Governor Otter. Well, thank you, Mr. Chairman, and it is my 
pleasure to be here on behalf of the State of Idaho. I want to 
thank you, Chairman Hastings, and also Ranking Member Markey, 
for the opportunity to come before this Committee and explain 
the concerns that Idahoans have surrounding Interior Secretary 
Salazar's Secretarial Order No. 3310.
    Since Secretary Salazar's order was released, there have 
been numerous interest groups, Members of Congress, and several 
Governors, including myself and my colleague to my left, who 
have conveyed great frustration and deep concern over this 
designation. The Secretary's Wild Lands Policy has placed a 
higher priority on protection of wilderness characteristics and 
relegated multiple use to a position of lesser importance.
    This drastic change in public policy for public lands was 
done without public input. With land use decisions shifted to 
Washington, D.C., the legitimate rights of states and the 
peoples of those states to have input on activities within 
their borders has been disregarded.
    Once lands are designated as wild lands by the BLM, 
multiple use becomes greatly restricted. These restrictions 
were signified and have the impact on the construction of new 
infrastructure, for example, critical transmission corridors 
and the operation and maintenance of existing facilities on 
these very lands.
    Every project will require a new NEPA analysis. These new 
steps offer opponents of ongoing projects and new adventures to 
delay them all. The order potentially makes the process for 
citing new energy-related projects even more difficult. 
Essentially, it represents an even greater chilling effect on 
developers who already view access to BLM managed property as a 
daunting task.
    More importantly, the implementation of this order could 
impact energy projects that have already begun, and spent 
millions of dollars on projects in the current permitting 
process. In Idaho, several significant energy-related 
projects--and might I add totally green energy projects, such 
as China Mountain Wind, Gateway West Transmission, Boardman to 
Hemingway Transmission--are already fully engaged in the right-
of-way signing process.
    There is no indication that these projects would be spared 
from the potential impacts of this order. The BLM has a history 
of being paralyzed by the mere threat of lawsuits, and any 
pending decisions are likely to be delayed for months, if not 
years. The order provides several new avenues for the anti-
progress groups to challenge BLM's decisions, which eventually 
will lead to endless litigation.
    There is a concern about funding and manpower to complete 
projects currently in progress, while BLM's manpower is 
redirected to re-inventorying lands for wilderness 
characteristics. How does the BLM implement such a vast 
undertaking without undermining projects already underway?
    Congress has indicated that they will not fund the BLM to 
conduct these new wilderness inventories. There is a 
speculation among us already that BLM will require anyone 
seeking a permit to pay for the wilderness inventory on the 
footprint of the project in the surrounding areas. The impact 
to energy projects and grazers and present multiple use could 
be horrendous.
    The BLM contends in its own talking points that this new 
policy will have no effect on lands that are not under BLM's 
jurisdictions. Simple look at the map over here to far left, 
and the yellow area are the BLM lands. And these lands of the 
Western States, as you look at it, you will see that the State 
and private lands are intermingled with endowment lands of the 
states.
    Issues of access and management have not been addressed. 
The Secretarial Order has the potential to economically impact 
the State endowment lands, which are the benefits primarily for 
our school children. The Omnibus Public Lands Management Act of 
2009 designated a new wilderness of 117,000 acres of Owyhee 
County in Idaho, in Southwest Idaho, as wilderness. Area acres 
were released to be managed for multiple use. This 
collaborative effort championed by Senator Mike Crapo for years 
and now approved by Congress is now in jeopardy.
    The partners in this endeavor are concerned that whether or 
not the parcel is released as a result of that agreement and 
the de facto wilderness designation of the wilderness study 
areas will now be re-inventoried as lands with wilderness 
characteristics and could be recognized as wild lands.
    Under the planning rules outline by BLM directive, it only 
follows that lands previously deemed wilderness study areas 
would become wild lands. If this happens as BLM follows the 
Secretary's planning procedures, any future State and local 
collaborative effort, such as the Owyhee Canyon lands, with the 
Federal agencies will be jeopardized.
    The public will have no confidence in the Federal 
Government's process. Secretary Salazar has circumvented the 
authority not only of Congress in the process of designated 
wilderness areas, but the input of the public and the effect on 
Western States and states' rights. This reflects the same type 
of tow-down, one-size-fits-all management approach that Idaho 
was subjected to during the waning hours of the Clinton 
Administration during the Forest Service roadless rule.
    In closing, Mr. Chairman, I urge Congress to take back its 
authority and prevent further development and implementation of 
Secretary Salazar's order. This order exempts stakeholders, 
threatens the spirit of collaboration and cooperation, weakens 
the process, discounts state sovereignty, and sends the message 
to the citizens of Idaho and every state in the West the 
Federal Government will continue to treat the valuable and 
diverse open spaces of the West not as lands of many uses, but 
rather as lands of no use, and no access for the people who 
live and work in Idaho and other Western States.
    Mr. Chairman and Members of the Committee, thank you very 
much for your attention.
    [The prepared statement of Governor Otter follows:]

  Statement of The Honorable C.L. ``Butch'' Otter, Governor, State of 
                                 Idaho

    On behalf of the State of Idaho, I want to thank Chairman Hastings 
and the Committee for this opportunity to communicate Idaho's concerns 
about Interior Secretary Ken Salazar's ``Wild Lands'' directive, 
Secretarial Order No. 3310 (Order). It is an honor and a privilege to 
be here today.
    The Bureau of Land Management (BLM) oversees approximately 245 
million acres in the West. In Idaho, BLM's management responsibility 
includes more than 12 million acres--nearly one-fourth of the state's 
total area. As you can see, the BLM has a marked presence in our state.
    Secretary Salazar's Order directing the BLM to protect wilderness 
characteristics through land use planning decisions ``unless the BLM 
determines, in accordance with this Order, that impairment of 
wilderness characteristics is appropriate and consistent with other 
applicable requirements of law and other resource management 
considerations,'' and requiring the BLM to internally develop policy 
guidance within 60 days after the Order was issued, reflects the ``top-
down,'' ``one-size fits all'' management approach to which Idaho was 
subjected during the waning hours of the Clinton administration with 
the Forest Service Roadless Rule. Without any state or public input, 
the Interior Department has circumvented the sovereignty of states and 
the will of the public by shifting from the normal planning processes 
of the Federal Lands Policy and Management Act (FLPMA) to one that 
places significant and sweeping authority in the hands of unelected 
federal bureaucrats.
    The BLM's multiple-use mission is ``to sustain the health and 
productivity of the public lands for the use and enjoyment of present 
and future generations.'' The agency has carried out its mission by 
managing such diverse activities as outdoor recreation, mineral 
development, livestock grazing and energy production while at the same 
time protecting the resource. State and local governments were treated 
as partners in those activities. However, Secretarial Order No. 3310 
discounted that partnership and unilaterally refocused BLM's management 
objectives. The Order redirected BLM's primary focus in its land use 
planning efforts and placed a higher priority on protection of 
``wilderness characteristics'' than other multiple uses. This drastic 
change in ``public'' policy for ``public'' lands was done without 
``public'' input. With this new direction, any input from state 
governments on activities within their states is severely limited.
    In addition, the Secretary of Interior circumvented the legislative 
process by creating a new land management designation outside of 
Congressional oversight and approval. It is Congress' role and 
responsibility to establish new land use designations. The Order was 
issued with pre-developed draft departmental manuals and handbooks 
which were reviewed internally by BLM. The lack of transparency with 
which this Order was issued and is being implemented is deeply 
disconcerting and is not consistent with the proper role of government.
    The BLM's website asserts, ``Livestock grazing is a major activity 
on Idaho's public lands.'' Indeed, 800,000 AUMs of livestock forage are 
authorized annually in Idaho under BLM management. Livestock grazing is 
outlined in FLPMA and the Taylor Grazing Act as being among authorized 
multiple-uses. There are concerns about the effects that BLM's new 
``Wild Lands'' management direction will have on grazing and the 
subsequent economic consequences to the ranchers who have BLM leases 
and who have been good stewards of public lands. If the BLM had 
developed its new designation in a public forum and provided for 
congressional approval, these concerns would have been addressed.
    The BLM guidance document also provides direction that new proposed 
actions will be limited to minor surface disturbance and for the 
protection of other sensitive areas. This guidance limits the 
management actions/projects that would improve multiple-use management 
and improvement to the land. If BLM uses its existing Wilderness Study 
Area (WSA) interim management guidance to designate ``Wild Land'' 
areas, they will be managed as wilderness areas, which will result in 
long-term restrictions on other multiple-use management and restrict 
access to designated ``Wild Lands.'' The management and control of 
source populations of crickets, grasshoppers, invasive plants and 
animals, noxious weeds and fire also will be restricted. All of the 
above events will have a negative impact on uses of public lands and 
will affect the conditions of the rangelands, crop lands and livestock 
on adjacent private lands, thus reducing the economic sustainability of 
local farms and ranches.
    BLM's website goes on to say, ``The BLM has a key role in 
developing and delivering energy to meet the needs of America's homes, 
businesses, and communities. Promoting dependable and environmentally 
sound energy production on Federal public lands can help the U.S. 
achieve energy independence.'' With the vast stretches of public lands 
in Idaho, the ability to site energy developments on BLM-managed acres 
is crucial to the economic future of our state. The BLM also has 
projected that wind energy production in Idaho could provide enough 
electricity to power 150,000 homes by 2015, and geothermal development 
could generate enough electricity to supply power to 204,000 homes by 
2015.
    The Order potentially makes the process for siting energy-related 
projects to achieve these objectives even more difficult. Essentially, 
it represents an even greater chilling effect on developers who already 
view access to BLM-managed property as a daunting task. More 
importantly, the implementation of this Order could impact energy 
projects on which developers already have spent millions of dollars on 
permitting processes.
    In Idaho, several significant energy-related projects (China 
Mountain, Gateway West, Mountain State Transmission Intertie, and 
Boardman to Hemingway) already are fully engaged in the Right-of-Way 
siting process. There is no indication that these projects would be 
spared from the potential impacts of this Order.
    Specifically, the Order directs BLM to maintain wilderness 
characteristics of non-Wilderness Study Areas, as appropriate, 
considering the manageability and the context of competing resource 
demands. The key phrase in this goal is ``as appropriate.'' This 
appears to create a great deal of discretion and could become a blunt 
instrument to thwart future energy-related projects on federal land. 
For example, the most ``appropriate'' and easiest way to manage BLM 
land under this Order could be simply to reject energy-related projects 
on lands impacted by this Order.
    The Order requires BLM to determine whether ``lands with wilderness 
characteristics'' (LWCs) should be designated as ``Wild Lands'' and 
managed to protect their wilderness characteristics or, alternatively, 
managed for other uses that may be incompatible with the protection of 
wilderness characteristics. While this appears to leave open the option 
of development on lands determined to have wilderness characteristics, 
it more likely will send a message to energy developers that the land 
is off limits.
    Another concern related to a wilderness characteristic designation 
is the potential that view-shed considerations will emerge. If so, the 
impact on future development could extend miles outside of acres that 
receive a wilderness characteristic designation, which could further 
restrict energy resource development on BLM land.
    Approximately 21.5 million acres or 10 percent of the land managed 
by BLM has been designated as Wilderness and Wilderness Studies Areas 
(WSA). WSAs are lands that meet the minimum criteria for wilderness 
designation under the Wilderness Act of 1972, and as you know, only 
Congress has the authority to designate wilderness. However, once an 
area is designated a WSA, BLM is required to manage it to prevent 
impairment of the area's suitability for wilderness designation. The 
new ``Wild Lands'' designation also will take on the restrictions of 
Wilderness and WSAs.
    The Omnibus Public Lands Management Act of 2009 designated 517,000 
acres of Owyhee County in southwestern Idaho as wilderness. During this 
process, 199,000 WSA acres were released to be managed for multiple-
use. This collaborative effort, championed by Senator Mike Crapo and 
approved by Congress, now is in jeopardy. The partners in this endeavor 
are concerned about whether the parcels released from the quasi-
wilderness designation of the WSA now will be inventoried as lands with 
wilderness characteristics and be re-categorized as ``Wild Lands.'' 
Under the planning rules outlined by the BLM directive, it only follows 
that lands previously deemed WSAs would become ``Wild Lands.'' If this 
happens as BLM follows the Secretary's planning procedures, any future 
state and local collaborative efforts with the federal agencies will be 
jeopardized. The public will have no confidence in the federal 
government's promises. In Idaho, trust in the federal government 
already is on shaky ground.
    Included within the Owyhee Wilderness are state endowment parcels. 
These lands and parcels throughout the state were ceded to Idaho by the 
federal government at statehood. These endowment lands were expressly 
for the purpose of benefitting public schools and eight other public 
institutions. Now these endowment lands are ``trapped'' within the 
Owyhee Wilderness. During the collaborative process on the Owyhee 
Initiative, the federal government was directed to develop land 
exchanges for those endowment lands. These exchanges have not taken 
place.
    One of my duties as Idaho's Governor is to act as Chairman of the 
State Board of Land Commissioners (Land Board), which oversees 
management of Idaho's endowment lands. I join my fellow Land Board 
members in concern about the implementation of the directives of the 
Owyhee Initiative to exchange endowment lands for lands outside of the 
wilderness area. I question whether BLM has the financial resources or 
personnel to complete the directives contained in the congressionally 
approved Owyhee Wilderness designation while at the same time 
completing the inventories of all BLM lands for wilderness 
characteristics as directed by the Secretarial Order. The Order has 
become a priority for the Department of Interior, and ongoing BLM 
projects will suffer as a result. In addition to the Owyhee lands, many 
other acres of state endowment land will be surrounded by ``Wild 
Lands,'' thus affecting property values and their ability to generate 
income for beneficiaries.
    Tourism and motorized recreation are important industries in Idaho. 
Cross-country, off-highway vehicle (OHV) travel is not allowed in WSAs 
and, most assuredly, will not be allowed in ``Wild Lands.'' Due to 
repeated closures of roads and trails on federal lands, experience 
tells us that existing trails will be closed and no new trails for OHV 
travel with be authorized in LWCs and areas designated ``Wild Lands.'' 
The impact to motorized recreation in southern Idaho will be dramatic 
and in turn will impact Idaho's economy.
    The complete inventory of BLM lands for LWCs is an exhaustive and 
expensive undertaking. Congress has indicated that it will not fund the 
``Wild Lands'' inventory. Signals from within the agency itself warn 
that any entity seeking a permit will be required to pay for the 
inventory within the footprint of the project, such as an energy 
development or a grazing allotment. The inventory costs will become 
part of the National Environmental Policy Act (NEPA) process and will 
be billed to the entity seeking a permit as ``cost reimbursement of 
actual costs.'' It is likely that BLM's ``actual costs'' will be 
exorbitant for new and ongoing projects and prohibitive for grazing 
permittees. The inventory costs of energy development projects surely 
will be passed on to consumers.
    In BLM's new draft wilderness inventory planning document, the 
criteria for evaluating ``Naturalness'' are outlined for agency 
personnel to, ``Determine if the area appears to be in a natural 
condition.'' ``Naturalness'' is one factor for analyzing wilderness 
characteristics--along with size, solitude and supplemental values. 
Under this heading is a list of examples of human-made features that 
may be considered unnoticeable in designating LWCs. These features 
include, but are not limited to, trails, signs, bridges, fire towers, 
fisheries enhancement facilities, hitching posts, radio repeater sites, 
fencing, and small reservoirs. This list of items that BLM personnel 
may consider ``substantially unnoticeable'' in determining if an area 
qualifies for LWCs will result in thousands of acres, which would not 
normally meet the congressional requirements for a wilderness 
designation, being selected for ``Wild Lands.'' This entire evaluation 
process is very subjective and is quite likely to attract litigation.
    Many questions come to mind with the Secretary's pronouncement. 
Does BLM's ``Wild Lands'' planning process constitute a rulemaking that 
requires public notice and comment? Does the policy warrant a 
programmatic environmental impact statement under NEPA? Since the BLM 
``Wild Lands'' planning manual state that bridges, trails, fencing, 
radio repeater sites and other human-made structures are 
``substantially unnoticeable'' in determining LWCs, does it follow that 
those structures can be built in WSAs and Wilderness Areas without 
violating the ``non-impairment'' standard?
    Secretary Salazar touted his ``Wild Lands'' directive as a means to 
``restore balance in the management of public lands for a variety of 
uses and values.'' This new policy will do exactly the opposite. Under 
the new directive, BLM's management focus shifts from multiple-use to 
``de facto'' wilderness. If the Order is allowed to stand, the default 
position for land use planning will be the protection of the wilderness 
character, which is contrary to the principles of multiple use as 
outlined in FLPMA.
    More importantly, if the Order is allowed to stand, BLM and other 
federal agencies will have license to circumvent congressional 
authority in making these types of decisions. The BLM and other federal 
agencies will have license to circumvent the public process and 
consultation with states affected by their management decisions. The 
BLM and other federal agencies will have license to ignore or to skew 
existing land management laws established to provide for transparency 
of policy formulation.
    In closing, I urge Congress to take back its authority and prevent 
further development and implementation of Secretary Salazar's Order. 
This Order exempts stakeholders, threatens the spirit of collaboration 
and cooperation, weakens the process, discounts state sovereignty, and 
sends the message to the citizens of Idaho that the federal government 
will continue to treat the valuable and diverse open spaces of the West 
not as lands of many uses, but rather as lands of no use and no access 
for the people who live and work in Idaho and other western states.
                                 ______
                                 
    The Chairman. Thank you very much, Governor Otter. Governor 
Herbert.

            STATEMENT OF THE HON. GARY R. HERBERT, 
                    GOVERNOR, STATE OF UTAH

    Governor Herbert. Thank you, Mr. Chairman. And thanks to 
all of you for this opportunity to share my concerns about this 
bureaucratically established policy that dramatically impacts 
our way of life in the West and is, I believe, detrimental to 
our entire nation.
    I recognize that the relationship between the states and 
the Federal Government is a partnership. But unfortunately, we 
are here today because the partnership between the states and 
the Federal Government was recently ignored by an action of the 
United States Department of the Interior. This decision just 
casually casts aside an agreement that was entered into more 
than a decade ago between the Governor of the State of Utah and 
the Secretary of the U.S. Department of the Interior.
    That agreement was reached in order to avoid litigation and 
to provide certainty for those who rely on consistent, clear 
management policies of the BLM lands. Instead, this new order 
will likely lead to renewed litigation while slamming the door 
shut on citizens and communities that are seeking certainty in 
the public lands management process.
    I urge you as representatives and as our partners to undo 
the damage that is being done by Secretarial Order 3310, and 
reaffirm a congressionally established process that established 
clarity and certainty in the management of our public lands.
    In my state, we have beautiful and resource-rich lands that 
support both a strong energy development industry and a vibrant 
outdoor recreation industry. There are some who will tell you 
that you can only have one or the other, that it is somehow a 
zero sum game. I am here to tell you that is simply and 
particularly not true in Utah.
    With new innovative technology, we can protect the 
environment, while at the same time developing our natural 
resources in ways that were never imagined a few years ago. We 
have millions of acres of open land, more than enough for 
development and more than enough for recreation. We have worked 
for years to bring varying groups and opinions together for the 
mutual benefit of our entire state economy, and that also of 
the nation.
    Mr. Chairman, this Secretarial Order has undone years of 
this collaborative and costly work between county officials, 
environmental organizations, natural resource industries, 
citizens, and our local Bureau of Land Management people, as 
they have worked together to craft BLM resource management 
plans throughout our state.
    This order changed the rules right at the end of the game, 
the results of which are having a profoundly negative impact on 
public lands protection and natural resource development in 
Utah. It is harming numerous rural communities throughout Utah 
whose economies do rely on sound and consistent public lands 
management practices.
    Due to this order, the economies in places like Roosevelt, 
Vernal, Price, Kanab, Castle Dale, Blanding and Panguitch are 
going to be harmed. We are being told by oil and gas 
exploration companies that due to regulatory uncertainty that 
they will now curb their activities in Utah. They will not 
invest the time nor the capital necessary to prepare new bids 
on new exploration until the regulatory situation is steadied.
    The lack of this new investment means not only a loss of 
jobs for Utah residents, but also the loss of natural resources 
that only increase our nation's dependence on fuel from foreign 
countries. I don't know if you checked the price of a gallon of 
gas lately, but this Secretarial Order isn't going to help out 
one little bit at the pump.
    Taking an inventory is an important for our public lands. 
But how many times do we need to inventory and re-inventory the 
same land? We have already been through this inventory process 
in Utah, and the only reason to ask for yet another inventory 
is to establish a wilderness designation through a de facto 
bureaucratic process.
    The continual re-inventorying a Federal lands as required 
by Secretary Order 3310 is wasteful and, I believe, wrong. It 
is justifiable only by politics, and not by good policy. This 
order also directly impacts in Utah our school children. Like 
most other Western States, Utah was granted land at statehood 
for the financial support of K through 12 public education and 
other state institutions.
    Utah owns 3.3 million acres of school state trust lands 
interspersed amongst the BLM land. It is safe to say that the 
long-term effect of this policy will be the loss of billions of 
dollars to the permanent school fund and ongoing losses and 
endowment income for each public and charter school in Utah.
    This order also hinders our state's ability to develop a 
long-term sound energy plan. It hinders the ability of all 
public land states to develop their own natural resources. And 
this action serves not to benefit any one group, but to 
endanger the safety and economic well-being of our entire 
nation.
    In closing, this body and your colleagues ought to be just 
as offended as the people of Utah are by this order. This 
action simply usurps the authority of Congress, and for the 
first time ever creates a favored category for multiple use 
management, creates new levels of centralized bureaucratic 
review, contains vague, inconsistent, and overly broad 
definitions of wild lands, and lacks clarity as to what is 
wilderness and what is subject to multiple use and development.
    By bureaucratic fiat, one branch of the government has 
overstepped and overreached, and has devalued the rights of the 
states and of its citizens. I urge you on behalf of the people 
of Utah and for the benefit of the people of our entire nation 
to exercise the congressional oversight that you have to 
correct this grave error and to return reason, certainty, and 
balance to the management of our public lands.
    I thank you for your time, and look forward to your 
questions.
    [The prepared statement of Governor Herbert follows:]

  Statement of The Honorable Gary R. Herbert, Governor, State of Utah

    Thank you Mr. Chairman for holding this hearing.
    Thank you for inviting me and Governor Otter to speak today--to 
share with you and members of this committee our concerns about a 
bureaucratically-established policy that dramatically impact our way of 
life in the West...and is detrimental to our entire nation.
    I express my appreciation to you for listening to us first before 
taking any congressional action. We recognize that the relationship 
between the states and the federal government is a partnership. Our 
Founding Fathers never meant it to be a top down, one-size-fits-all 
system of government. That is what the Tenth Amendment is all about.
    But unfortunately, we are here today because the partnership 
between the states and federal government was recently ignored by an 
action of the United States Department of the Interior.
    This decision cavalierly casts aside an agreement that was entered 
into more than a decade ago between the Governor of the State of Utah 
and the Secretary of the U.S. Department of the Interior.
    That agreement was reached in order to avoid litigation and to 
provide certainty for those who rely on consistent, clear management 
policies for BLM lands. Instead, this new Order will likely lead to 
renewed litigation while slamming the door shut on citizens and 
communities that are simply seeking certainty in the public lands 
management process.
    We urge you...as our representatives and as our partners....to 
undue the damage that is being done by Secretarial Order 3310 and help 
re-establish and reaffirm a congressionally-established process, that 
though often time consuming, established clarity and certainty when it 
came to resolving management issues on our public lands.
    We call upon you to help us right a very real and very damaging 
wrong.
    Mr. Chairman, this Secretarial Order has undone years of 
collaborative and costly work between county officials, environmental 
organizations, natural resource industries, citizens and our local 
Bureau of Land Management offices as they have worked together to craft 
BLM Resource Management Plans.
    It changed the rules right at the end of the game, the results of 
which are having a profoundly negative impact on public lands 
protection and natural resource development in Utah.
    It is harming numerous rural communities throughout Utah whose 
economies rely on sound and consistent public lands management 
practices.
    Due to this order, the economy in places like Roosevelt, Vernal, 
Price, Kanab, Castle Dale, Blanding, and Panquitch is going to be 
harmed.
    That impacts people...real people like Chad Mead from Ferron who 
drives a coal truck to support his family, or Kevin Dunn, who makes his 
living as a plumbing and heating contractor in Carbon County, or 
Natalie Perkins, a teacher in Garfield County whose salary is derived 
from the income tax generated by people who work the land.
    We're being told by oil and gas exploration companies that, due to 
regulatory uncertainty, they'll likely be curbing their activities in 
Utah. They are telling us that they will not invest the time and 
capital necessary to prepare new bids on new exploration, until the 
regulatory situation is steadied.
    The lack of this new investment means not only a loss of jobs for 
Utah residents but also the loss of natural resources that only 
increases our nation's dependence on fuel from foreign, often hostile 
countries. Have you checked the price of a gallon of gas lately? This 
Secretarial Order isn't going to help out one bit at the pump.
    The continual re-inventorying of federal lands as required by 
Secretarial Order 3310 is wasteful and wrong. It is justifiable only by 
politics...not by policy.
    This Order also directly impacts our school children.
    Like most other western states, Utah was granted land at statehood 
for the financial support of K-12 public education and other state 
institutions. Utah owns 3.3 million acres of state trust lands, mostly 
in the form of ``checkerboard'' parcels located within federal public 
land managed by the Bureau of Land Management.
    Revenue from school trust lands is deposited in the Utah Permanent 
School Fund, a perpetual endowment supporting K-12 public schools.
    Mineral development is the largest single source of revenue from 
Utah's school trust lands. Hundreds of thousands of acres of trust 
lands may be captured by the proposed Wild Lands designations. This 
dramatically impacts future mineral development, especially natural 
gas.
    It is safe to say that the long-term effect of this policy will be 
the loss of billions of dollars to the Permanent School Fund, and 
ongoing losses in endowment income for each public and charter school.
    This Order hinders rural economic development and hurts key funding 
sources for Utah's school children. It also hinders our State's ability 
to develop a long-term, sound energy plan. It hinders the ability of 
all public lands states to develop their natural resources. And this 
action serves not to benefit any one group, but to endanger the safety 
and economic well-being of our entire nation and we are forced to 
depend upon foreign sources for our fuel.
    In closing, this body and your colleagues ought to be as offended 
as the people of Utah are by this order...
    This action usurps the authority of Congress, and for the first 
time ever, creates a favored category for multiple use management, 
creates new levels of centralized bureaucratic review, contains vague, 
inconsistent and overly broad definitions of Wild Lands, and lacks 
clarity as to what is wilderness and what is subject to multiple use 
and development.
    By bureaucratic fiat, one branch of the government has overstepped 
and overreached and has devalued the rights of the states and the 
citizens.
    I urge you, on behalf of the people of Utah and for the benefit of 
the people of our entire nation, to exercise the congressional 
oversight you have to correct this grave error and return reason and 
certainly to the management of our public lands.
    I thank you for your time and am happy to answer any questions.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
    The Chairman. I thank both of you for your testimony, and 
this hearing is a start of what you requested, Governor 
Herbert. We will now start the questioning, and each Member 
will have five minutes for the question-and-answer session, and 
I will start. And this is a question for both of you.
    Idaho has over 11 million acres of BLM land, and Utah 
double that, 22 million acres. So you are clearly heavily 
impacted by this order. But we hear assertions, at least coming 
from this Administration and here today, that this is a good 
way to bring jobs to your area.
    So let me just ask both of you very specifically, in your 
state, do families have better job opportunities in multiple-
use areas or in areas subject to wilderness restrictions? And I 
will start with you, Governor Otter.
    Governor Otter. The answer to that, Mr. Chairman, is No. 
The multiple-use characteristics that we have enjoyed for years 
in Idaho has created a lot of jobs. The promise, if we can 
continue under the multiple-use characteristics of these lands, 
has a great opportunity for many more jobs.
    As I explained in my testimony, we now have four different 
power lines that are trying to get across Southern Idaho, 
mostly through the 14-1/2 million acres of BLM land in Idaho, 
from where it is produced, from where the power is produced, on 
wind farms in Idaho, geothermal, and solar farms to the 
southern markets in Las Vegas and in Los Angeles.
    In order to get that power from where it is produced to 
where it is going, we have to create these power corridors, so 
we have to construct power lines. And then we have to maintain 
them. We have to have access to be able to maintain them.
    So I see it as a job killer.
    The Chairman. Governor Herbert.
    Governor Herbert. Well, thank you. I don't see it having 
any advantage to improving the economy of Utah. I think it does 
in fact have a depressing effect. We have good outdoor 
recreation. We have good tourism. Our tourism has increased the 
last few years. This order doesn't do anything but reevaluate 
what we already have. I don't think it will at the end of the 
day change the categorization of wilderness and this non-
wilderness in one little bit.
    We will still have multiple use of the public lands in the 
same fashion we have now. All this does is bring uncertainty to 
the marketplace, and it hurts our industry folks that want to 
invest millions of dollars in natural resource development, 
which we certainly need to have in Utah, particularly our rural 
parts of Utah, which also enhances the opportunity to have some 
energy sustainability in the country.
    So this does not help my economy one bit.
    The Chairman. Good. Thank you. And I have one more 
question. To what extent were both of you consulted in December 
before this order was promulgated on December 23rd? And, 
Governor Herbert, I would like to start with you since this 
order, as you mentioned in your testimony, ended a settlement 
agreement of 2003. So to what extent were you consulted in this 
matter?
    Governor Herbert. Well, maybe that is one of the great 
disappointments to me in this whole thing because I, as a 
Republican Governor, reached out in a significant way to 
Secretary of the Interior Salazar. And we have worked very 
diligently together to come together with a balanced approach 
in Utah on this issue.
    I have the leading Democrat in Utah, who heads up my 
Balanced Resource Council, trying to bring people together and 
trying to find a balanced approach to manage our public lands. 
And so when I was called just two days before Christmas as I 
was going out to pass out some turkeys to the homeless folks as 
part of our traditional Christmas effort, I was surprised for 
him to tell me, oh, by the way, in a couple of hours, we are 
going to have a press conference in Colorado. You ought to be 
aware of what we are going to do. We are going to designate 
this new category called wild lands.
    That was the total amount of my input before I heard about. 
I said, can you postpone the news conference so I can 
understand what you are talking about? And, of course, the 
answer was no.
    To Bob Abbey's credit, he came out and visited with our 
folks a few weeks later. But we had no opportunity to give 
input, no consultation, no by the way, what is your opinion.
    The Chairman. Real quickly, Governor Otter.
    Governor Otter. Same story, Mr. Chairman. We did not find 
out about it until after the press conference, and it was 
disappointing. And it was disappointing on a couple of fronts, 
as Governor Herbert has already alluded to, because we were in 
negotiations on trying to solve the wolf problem in Idaho, and 
I had met personally with the Secretary and many of his staff 
members in early December, and then I was on the phone in 
conversations with them again in the second week of December. 
And nothing was mentioned about this.
    Naturally, we were talking about the wold situation, but I 
would have thought that a courtesy with such a tremendous 
economic impact on the State of Idaho that I would have at 
least gotten the courtesy of a heads-up. I got no such heads-
up, no such courtesy.
    The Chairman. Good. Listen, thank you very much for your 
testimony. My time has expired, and I recognize the gentleman 
from Massachusetts, Mr. Markey.
    Mr. Markey. I thank the Chair. Good to see you again, 
Butch. Welcome back.
    Governor Otter. Thank you.
    Mr. Markey. How would you suggest that good, collaborative 
wilderness proposals should be developed if no wilderness 
inventories can be conducted, and if the areas that are 
identified aren't preserved until Congress can act or not act? 
How would you propose that the inventory ever be established?
    Governor Otter. Well, I guess what concerns us most, Mr. 
Markey, is the process. And a courtesy not unlike what was 
warranted when I was in the Congress, when there were some wind 
farms going to go up in, let's say, a place like Martha's 
Vineyard or Nantucket, that in both cases at least the Federal 
agency that had oversight and could have--would have approached 
those people that were concerned about it, that concern was 
offered to them at that time.
    Now, there was no wilderness study out there in the bay. 
But I would tell you that just the courtesy of these agencies, 
and especially this agency, which can have such a tremendous 
impact on our economies, of letting us know that this was 
something that was going to come forward, I think that we could 
have probably showed them one of a stack quite high that would 
have said, well, here are all the wilderness studies that were 
areas that we did on roadless rule, when we finally came to an 
agreement. And I would remind you that Idaho's roadless rule is 
the only rule that has been accepted because we worked together 
on it. We were notified ahead of time.
    And so I think there are plenty of studies on wilderness. 
If there is something else--and by the way, in your opening 
statement, Ranking Member, you indicate that this is not 
wilderness--these are wild lands. I would refer you to the very 
wording in that Secretarial Order, lands with wilderness 
characteristics. If it walks like a duck in the West and it 
quacks like a duck in the West, we figure it is a duck.
    Mr. Markey. OK. But once they find a potential area, then 
full NEPA protections are in place.
    Governor Otter. Yes.
    Mr. Markey. And so there is a process. And that process is 
something that they have to go through in a public way before 
anything, you know, happens. And so whether it be Nantucket 
Sound or it be, you know, in this area as well, those are the 
rules. That is the law. And that process is in place as part of 
this Secretarial Order.
    Governor Otter. I understand that. But the very uncertainty 
that my colleague talked about--you know, I don't know what 
happened with the land values in Nantucket Sound when all of a 
sudden it was announced that there might be a huge wind farm 
out there in the area of an otherwise place that a viewscape 
that was more desirable than perhaps the one that the wind farm 
would have offered. But I can tell you that it has created just 
the very question of whether or not we are once again changing 
the rules, and more importantly we are changing the rules, I 
repeat, without public input, without congressional approval, 
without a process that should be second nature to this country.
    Mr. Markey. Let me go to Governor Herbert. Good to see you 
again.
    Governor Herbert. Thank you. Yes, twice in the same day, my 
lucky day.
    Mr. Markey. We are going to spend the whole day together. 
Less than 2 percent of BLM land in Utah is wilderness, and 22 
percent of BLM land in Utah is for oil and gas drilling. So 
that is the balance. It is 11 to 1, oil and gas drilling as 
opposed to wilderness area. So that is something, I think, that 
is quite clear.
    But at the same time, your state has a $6.2 billion a year 
tourism industry that is related to kind of the sense that we 
have back in the East that it is a beautiful area of the 
country with all of this wonderful wilderness. So you have a 
balance that is struck that your state is a financial 
beneficiary of it, so that even though you have a $6.2 billion 
tourism industry, you also have the billions of dollars that 
come in from the oil and gas on the 22 percent of the land 
which is leased for that.
    So it seems to me that is something that is already 
factored in, and that there is a process, as I said with 
Governor Otter, you know, for NEPA to be invoked and for all of 
those protections from a public participation perspective to 
have to be finished before anything permanent is ever 
completed.
    Governor Herbert. Well, again I don't know if it is a 
matter of just keeping score. If that is the case, you can see 
by looking at the map that Governor Otter has brought here that 
at least the West has a disproportionate share of wilderness as 
opposed to the East Coast. And so it is not a matter of just 
keeping score. It is a matter of it is in fact wilderness based 
on the law.
    I don't have a problem with wilderness. I am not anti-
wilderness. We started inventorying in Utah--finished the first 
one in 1993 and turned the report into this body here. We 
started again in 1997 and re-inventoried again. I guess the 
question is going to be how many times do you inventory. If we 
go to the closet and I say, hey, how many suits have I got in 
the closet, and I have seven, I can come back a week later and 
count them again. I still got seven.
    There has got to be a time when we finish the process and 
say, OK, this is really it and move ahead with some certainty 
and predictability. We have in the State of Utah as part of 
this process RMPs, resource management plans. We have spent 
six, seven, eight years in bringing people together, 
environmental groups, industry groups, local community leaders, 
and others saying this is how we will manage these lands. And 
now with this new wild lands designation, those resource 
management plans are essentially--we don't know what they mean 
now.
    Again, we are bringing uncertainty. Again, I am just saying 
we ought to inventory once and get it done.
    Mr. Markey. Let me just say, that is not now for the 
wilderness areas. That is now for all BLM lands.
    Governor Herbert. That is right.
    Mr. Markey. Which in Utah only 2 percent is wilderness, and 
22 percent is oil and gas, and much of the rest is grazing and 
other purposes.
    The Chairman. The time of the gentleman has expired.
    Governor Otter. If I might, Mr. Chairman, I would just 
point out that that is right. If we had the wilderness area in 
there, that map would have much more color in it. You are 
right, Mr. Markey.
    The Chairman. Yes. If it had national parks, it would be 
even more larger than that. I am advised we may have a vote 
around 3:15 or thereabouts. So at this time, I would recognize 
the gentleman from Utah, Mr. Bishop.
    Mr. Bishop. Mr. Chairman, I understand there are going to 
be a couple of rounds here at least. I do have questions for 
both of them.
    But I would be remiss if I didn't yield to my colleague 
from Idaho to at least ask his Governor a couple of questions 
first. So I would like to yield to him first. I do have 
questions when we come back at some other point.
    The Chairman. The gentleman is recognized.
    Mr. Labrador. Thank you, Mr. Chairman. I just have a couple 
of questions, Governor Otter. One of the issues that we are 
struggling with in Idaho is how to deal with the invasive plant 
species. And while this wild lands program is supposed to help 
keep areas natural, I am worried that it could actually have 
the opposite effect and allow invasive species like Cheatgrass 
to choke out native species. Do you think that is a legitimate 
concern?
    Governor Otter. Well, thank you very much, Mr. Labrador, 
for that question. My first year as Governor of the State of 
Idaho we had a wild lands fire which lasted about two and a 
half weeks and burnt over 700,000 acres, 700,000 acres of land 
that we used for multiple use. But also more importantly it was 
critical habitat for the sage grouse, for slickspot peppergrass 
and for bull trout, just to name three species. It ruined not 
only the watersheds, but it ruined the habitat.
    Now, what happens after a wildfire is always an invasive 
species, which we call Cheatgrass, recovers quicker than the 
rest of the native grasses, and in fact squeezes those out. As 
a result of that, we are constantly susceptible to more 
wildfires because nothing eats the Cheatgrass. Nothing habitats 
in it, and it only becomes fine fuels for one of the 1,400 
lightening strikes that we get during our storm season in Idaho 
every summer.
    So it becomes very detrimental and very expensive to the 
state. That first year, my fire bill alone was $23 million.
    Mr. Labrador. Now, it seems like we already have plenty of 
rules to create wilderness. Why do you think that the Interior 
Secretary is trying to create a new process that goes beyond 
the existing rules?
    Governor Otter. Well, we have had an awful lot of 
experience, Mr. Labrador and Mr. Chairman. We have had an awful 
lot of experience in Idaho with wilderness because we have the 
largest contiguous wilderness in the lower 48 states. And I 
would tell you that it is a surprise to me because when the 
original wilderness bill was passed, the river of not return, 
statements were made, statements were advanced and purported in 
the U.S. Senate, in the House of Representatives, when that 
bill was--which is now referred to as the Frank Church River of 
No Return Wilderness, is that this is the last acre that we 
will ever ask for wilderness again.
    And so it is always a surprise. I wish that I could answer 
that question. I wish somebody would have asked us, do you 
agree that there should be more wilderness in Idaho, and if so, 
where. I say again in 2009 we created 517,000 acres of more 
wilderness in the State of Idaho at the request of Senator 
Crapo, and the Congress passed that bill.
    We constantly are asked about additional wilderness, and 
our congressmen here representing the State of Idaho and our 
senators are the ones that advanced that. So we have plenty of 
input. Do I agree with all of them? Absolutely not. But I would 
at least like to have the opportunity for the Chief Executive 
of the 43rd star in that American flag to say yes or not.
    Mr. Labrador. Thank you. I yield back the balance of my 
time.
    Mr. Bishop. You yield back to me? Thank you. Let me do a 
couple of things here. Governor Herbert, very quickly. I have 
no idea how much time I have left here. I will never get 
through this. It is right we have 2 percent of the BLM land 
that is wilderness. And, of course, that doesn't include Forest 
Service wilderness, national parks, the rest of it. The reality 
is Utah has 10 percent private property. So congratulations for 
being Governor over 10 percent of Utah. The rest, you are the 
regional administrator for Mr. Abbey.
    What I would like to ask, though, is your concern about the 
continuity of jobs--and like I said, there will probably be 
another round here. I have only got a couple of seconds there. 
Are we losing jobs to other areas of the United States because 
of these provisions, realizing the West has the highest 
unemployment of any region in the nation?
    Governor Herbert. Yes. Again, with the changes and the 
uncertainty that has been caused by the throwing out of the RMP 
process and withdrawal of 77 oil and gas leases, a lot of the 
people in the industry now are concerned about are we going to 
spend six, seven years going through this process, investing 
millions of dollars, and then have the rug pulled out from 
underneath us at the end of the process.
    And so they are going to be looking at more private land 
states where they don't have to go through this process. There 
is more certainty to it, more predictability. And I think you 
will hear later on from some of the local government people it 
is impacting their backyards dramatically.
    But again, it is intuitive to understand. If you don't 
understand if I invest and I have some potential for a good 
outcome, that you are going to invest someplace else where the 
outcome is more certain.
    The Chairman. The time of the gentleman has expired. I ask 
unanimous consent that the gentleman from New Mexico, Mr. 
Pearce, be allowed to sit on the Committee and participate in 
the hearing. Without objection, so ordered. You have a lot of 
friends, Steve.
    Mr. Grijalva is recognized for five minutes.
    Mr. Grijalva.--that some oil and gas activities--oil and 
gas companies will likely curb their activities in your state 
because of the Wild Lands Policy. There are almost 5 million 
acres of land in the state that is open right now to oil and 
gas drilling. Only 22 percent of that land is actively being 
leased and is in production.
    So the question for me is isn't it true there are millions 
of acres of land open for more drilling, and it is not being 
utilized and in production at this point?
    Governor Herbert. Well, that probably is true. And probably 
that question would be better directed to industry that can 
tell you why it is available. I can tell you that my belief is 
that it is not viable economically, or they would be drilling 
it. Some of it is isolated land that is in a remote location, 
and you need to combine acreage in the aggregate so that it 
becomes economically viable to do it.
    So again, that is part and parcel of the process. Now, you 
might have the right to go to some place and drill, but you 
might not have any resource there to drill. I mean, it may be a 
dry hole kind of a location. So there are a lot of factors that 
go into industry drills where they drill. But the problem is, 
given the certainty of if we drill, at least we have an--or if 
we play the game. And in some instances, this has been six, 
seven, eight years, and then to say, oh, by the way, we are 
going to change the rules. They are going to say, you know 
what, I don't think I want to play here anymore. I will go to 
where it is a private land state, where we don't have so many 
hoops to go through and we have a better chance of success.
    Mr. Grijalva. If I may again, a follow-up, Governor. The 
2008 census indicated that 13 percent of the jobs in your state 
were around travel and tourism; 1 percent was in the oil, gas, 
and mining industries. Tourism and other industries. So my 
question is, is one industry more important than the other in 
terms of this job creation issue, given the disparity in terms 
of job creation?
    Governor Herbert. I don't think one job is more important 
than another job, or that one industry is more important than 
another industry. Again, I reject the notion that is going to 
be perpetuated here, which I think is false, that somehow 
tourism and development of our natural resources is somehow 
mutually exclusive. That is not true. And I can prove the 
point.
    We have worked very hard with our Balanced Resource Council 
to bring industry together, our environmental community, and a 
place called the West Tavaputs in Nine Mile Canyon and a 
centralized county called Carbon County in the middle of Utah. 
They had original proposals for around 800 natural gas wells to 
be drilled. By negotiation, by working together and find the 
compromise point, we have cut down 200 of those wells, less 
service interruption, more lateral drilling, protected the rock 
art, and other environmental issues have been addressed there, 
with an agreement.
    Now, that location, they will have--each one of those 
natural gas wells is about $700,000, $800,000. An oil gas well 
is about a million dollars. But over the next 10 to 15 years, 
there will be over a billion dollars invested in that part of 
our state. That is a significant amount of money and economic 
development for a rural part of Utah.
    Mr. Grijalva. OK.
    Governor Herbert. So again, it is not one or the other. 
They both can exist harmoniously.
    Mr. Grijalva. And I appreciate that, Governor. My question 
was not about the qualitative nature of what is going on in 
your state in terms of the balance of natural resource use. 
Mine was a quantitative question about number of jobs per 
industry and acreage available for oil and gas and mining 
exploration that are not being utilized.
    Mr. Chairman, I yield back.
    The Chairman. I thank the gentleman. The gentleman from 
Louisiana, Mr. Fleming.
    Mr. Fleming. I thank you, Mr. Chairman, and, Governors, 
thank you for coming today. I am from Louisiana, and we are not 
directly impacted by this. But I will have empathy for the 
issues that you are dealing with.
    Here is my question, or my first question. Hopefully, I can 
get to my second one. The impact of the Administration's Wild 
Lands Order 3310 has serious ramifications for our domestic 
energy supply and distribution. Today, AAA cited the national 
average cost of regular gasoline as $3.34. This summer, oil 
prices are expected to skyrocket. With more and more turmoil in 
the Middle East, it is imperative that we seek to domestically 
meet our energy concerns as a matter of national security, not 
to mention our economy.
    Utah and Idaho are home to a vast array of potential energy 
sources on and across public lands, from renewable energy 
sources like wind and geothermal to natural gas reserves, and 
both conventional oil reserves as well as shale oil. 
Specifically, how will Order 3310 affect current and future 
energy development on the land designated as wilderness 
characteristics? Let's start with Governor Otter, please.
    Governor Otter. Idaho does not have a lot of gas and oil. 
We recently, as late as the last three or four months, we 
actually hit a gas well in Idaho, and it is the first natural 
gas well. It is sweet gas. We have to demoisturize it a little 
bit. But other than that, 4.2 million cubic feet of natural 
gas, and that is a first for Idaho. We haven't had oil. We 
haven't had gas before. But we expect to have that.
    Now, in answering your question, 35 million acres, or 
roughly 65 percent of the State of Idaho, is quote unquote, 
``Federal land.'' It comes under Federal designation. 
Obviously, getting that gas from where it is, we are going to 
have to end up going across some Federal ground someplace. But 
getting that gas from where it is being produced to where it 
can be consumed, or at least utilized into a gas line that is 
going to take it someplace else, we are going to have to have 
certainty that we can get across those lands.
    Simply asking the question, what are we going to designate 
as wilderness areas has put everything on hold, and will 
continue to put everything on hold in Idaho.
    One of the things that we have been concerned about is the 
upward mobility of our citizens. We know, in answer to a 
previous question, we know right now we have experienced, even 
with only that one gas well, that people that work on gas and 
oil production, gas and oil development, laying of pipelines, 
in that industry make a whole lot more money than somebody that 
makes a bed or serves a tourist someplace.
    So we are concerned about our workforce. We are concerned 
about our citizenry and their upward mobility. I don't want to 
relegate any of them forever to making beds or saving ham and 
eggs for breakfast to a tourist.
    Mr. Fleming. OK. Governor Herbert.
    Governor Herbert. Yes, thank you. Just to give you an 
example, in the Uintah Basin, which is kind of the eastern 
border between Utah and Colorado, that Uintah Basin, 60 percent 
of our oil and gas income--or oil and gas development 
represents 60 percent of the income in that part of our state. 
So a rather large amount of economic development is tied to 
that opportunity.
    I think all of us understand the laws of supply and demand. 
And so we have a demand for energy right now that is going up, 
and our supplies are somewhat limited. So the prices of 
anything related to energy are going to go up, up, and up, 
including the price at the pump.
    I know you have had the tragedy in the Gulf there with the 
oil spill. I don't think any of us are insensitive to that. But 
it would certainly be a lot easier to clean up if the oil was 
in the middle of Utah. We just discovered some new oil in the 
central part of Utah, in an area called Sevier County, maybe up 
to a billion barrels of oil, opportunities to go out there and 
explore and have risk and reward, and increase the supply of 
oil and natural gas that is going to help this economy of ours 
recover. It is going to help keep the cost of energy down, and 
clearly gives us competitive advantage in the marketplace and 
the world.
    So more supply is going to help us, and we can do it today 
with new technology in environmentally sensitive ways so they 
don't have to be a mutually exclusive approach.
    Mr. Fleming. Would you agree--just short answers here; I am 
running out of time. Would you both agree that this is an 
amazing overreach by the Administration, substituting itself 
for the powers of the Congress and the United States as well as 
the states themselves?
    Governor Otter. Yes. That is short.
    Governor Herbert. Yeah. I don't know if I am amazed, but it 
is certainly a concern. It is an overreach, and we ought to be 
working a little better together on this to come up with this 
approach. That is the disappointing part.
    The Chairman. The time of the gentleman has expired. The 
gentleman from New Mexico, Mr. Heinrich.
    Mr. Heinrich. Thank you, Mr. Chairman. I want to start out 
by saying as a former wilderness guide, it didn't relegate me 
to anything. I seem to have done fairly well since then. And 
one of the things that I think has been at the heart of this, 
of your testimony up to now, both of you, Governors, has been 
the issue around process and consultation.
    And certainly with NEPA, with FLPMA, with all of these 
Federal planning processes that we have, the RMP process, that 
is important, asking people their opinions, asking Governors 
their opinions, and citizens their opinions.
    What I wanted to ask both of you is when the Bush 
Administration overturned the process, the Federal 202 process, 
which is very similar in nature to this wild lands process, it 
was in existence throughout the 1990s. It was ended by the Bush 
Administration. They did that with no formal consultation to 
local elected officials, no formal consultation to the public. 
Did you register the same objections when they unilaterally 
ended the 202 process that you are registering now?
    Governor Otter. No, I did not because I agreed with it.
    Mr. Heinrich. So what you are saying, Governor Otter, is 
not that you care about the process, but the outcome.
    Governor Otter. Well, of course, I care about the outcome, 
and, of course, I care about the process. But the reason I am 
here today is because we were totally ignored in that process. 
You know, it is evidenced by what is going on around the United 
States today, that if you disagree with something, you show up 
at the state capital and you let folks know exactly how you 
feel.
    Mr. Heinrich. Well, Governor, my point is that the process 
is important no matter which side you are on. And I think we 
should hold that up as an example. The Bush Administration got 
rid of the 202 process, and they did it without asking local 
elected officials, city councilors like myself at the time, 
what they thought about that.
    I want to move on real quickly to the point that you bring 
up about certainty, which I also think is very important. And I 
think, Governor Herbert, you articulated that very well. To 
really create certainty for these lands, wouldn't the best way 
to do that would be to actually pass legislation that looked at 
these lands and either designated them as wilderness or 
released them to other multiple uses?
    Governor Herbert. Well, again I guess I thought we had done 
that. And I know that we completed the process in 1993. It was 
then re-inventoried by a good Democrat, Bruce Babbitt, and that 
completed that process, started in 1997 and completed in 1999. 
It spurred litigation, which we ended up having a stipulation 
and a settlement that led to that years later.
    But again, I won't defend the indefensible. I think we need 
to have a process. But again, I think, you know, how many times 
are we going to inventory and inventory? It is like we are 
trying to inventory until we get the conclusion that one side 
agrees with. And OK, that is good now.
    Mr. Heinrich. Well, Governor, the inventory process was 
done. The designation and release process was never done for 
Utah. My point is, the process isn't done because no 
legislation was--there hasn't been a statewide wilderness bill 
for the State of Utah. So it is hard to have certainty if you 
don't finish the process.
    Governor Herbert. Again, I won't defend the indefensible. 
We have come up and tried to bring people together for many 
years. Utah has been ground zero on this fight, unfortunately. 
We brought a new temperament to the issue here. We have tried 
in fact to bring people together and say, let's go through the 
process as it currently is outlined. This was a shot out of 
left field, though.
    We have legislation. We created the Washington County Lands 
Bill, which I think was a good one that this body helped pass. 
I would like to do that in every county in the state.
    Mr. Heinrich. Thank you, Governor. Chairman, how much time 
do I have left?
    The Chairman. You have 58 seconds.
    Mr. Heinrich. OK. I will keep this short. Governor Otter 
used the phrase ``lands of no use.'' And as I close, I just 
want to make the point, as a former wilderness guide whose 
livelihood was tied to these very kinds of lands, including the 
Gila Wilderness, which was literally the birthplace of 
wilderness in the American West, the very first wilderness 
protected under an administrative rule before it was designated 
in 1964, that these are not lands of no uses. They are lands 
where hunting and fishing is allowed. They are lands where 
commercial guiding is allowed, and in states like Utah and New 
Mexico and Idaho generate enormous sums of income for people 
who have very real jobs and provide well for their families.
    So thank you both for testifying today.
    The Chairman. The time of the gentleman has expired. Mr. 
Labrador, Idaho.
    Mr. Labrador. Mr. Chairman, I would like to yield my time 
to the good gentleman from Utah.
    The Chairman. The gentleman from Utah, Mr. Bishop, is 
recognized.
    Mr. Bishop. It was the good gentleman, by the way.
    The Chairman. Oh, wait. Do you want me to make that 
determination?
    Mr. Bishop. And in the ecumenical spirit that we have here, 
I am going to yield one minute to Mr. Pearce first.
    Mr. Pearce. Thank you. I appreciate seeing you both here. 
And I would like to follow up. I guess us New Mexico guys are 
all going to ask about process. Last year, the field funds were 
cut by about 15 percent by the majority. Did anyone come out to 
you in the process and ask you what you felt about those 
decreases to your funds?
    Governor Otter. No.
    Governor Herbert. No.
    Mr. Pearce. Well, I just want to make that one point about 
process, and I would yield the rest of my time back to the 
gentleman.
    Mr. Bishop. I do appreciate your efforts on talking about 
process because FLPMA does demand that there be coordination. 
And the fact that there was no coordination with State and 
local governments, despite that is what is in the statute, is 
somewhat troubling here, and especially because, as you said, 
the so-called Leavitt-Norton agreement was a direct result of 
having the process gone through, and then lawsuit after lawsuit 
over the process. So there was a lot of talk that went with 
that.
    I do want to ask two specific questions, though, to each of 
you. Actually, the same question. And because I am old 
schoolteacher, it deals with education. I want you just to very 
quickly tell me the significance of education, the difficulty 
you have in funding education, and then for the State of Utah, 
school trust lands and how difficult they are. And as well for 
Idaho, you have I think school endowment lands, seven or eight 
different kinds or categories of those.
    And once again, as we go through this process, if we create 
a new wild lands designation where we don't know how long it 
will take to finalize that process or designation--I am 
assuming that not all of that land is going to be Federally 
owned. There will be SITLA lands. There will be private 
property and holdings. What does that do to your efforts to try 
and fund education in your states?
    Governor Otter. Mr. Bishop, you are absolutely right. At 
statehood, the State of Idaho was given section 16 and 36 out 
of every township. Those lands ended up being about a little 
over 3 million acres. Those lands were then required by article 
9, section 8 of the Idaho constitution to be managed for the 
long-term financial best interest of the endowment.
    The major endowment is the public school children of Idaho. 
And roughly $32 million a year goes into the public school fund 
from our management, whether it is grazing--and this also 
includes forest. Whenever we have an action such as this, and 
whenever we have a wild lands designation or some kind of a 
restriction on those lands, those Federal lands, that surround 
those sections 16 and 36, it automatically restricts what we 
can do on those endowment lands.
    And so, therefore, we can't fulfill our constitutional 
responsibility for the school children of the State of Idaho. 
You know, there seems to be--and this is part of the push on 
the wild lands. There seemed to be some urgency that if we 
don't do this immediately, and if we don't protect this 
immediately, the outfitters and guides, those people that want 
to enjoy wilderness and do that on a tourism or a for-profit 
base, that all those qualities are going to be immediately 
lost.
    Idaho became a state in 1890. We have been living and 
working and dying and raising families on those same lands that 
now you look at and say, look at these wonderful wilderness 
qualities. Do you think that we are going to run right out and 
ruin them immediately? Not for our school children, and not for 
the future citizens of the State of Idaho.
    Mr. Bishop. Butch, yes, obviously I think that because, 
obviously, wisdom in Washington, and you people out in the 
hinterlands can't handle it. That is why you are there, and I 
am here. Can I ask Gary for the same answer there?
    Governor Herbert. Well, Congressman Bishop, we don't see it 
quite the same way that you do, on either count. But clearly, 
when you have a state that has less than 25 percent of our land 
mass that is privately owned property, it inhibits our ability 
to develop commercially. And where you have payments in lieu of 
taxes as opposed to a property tax, which is like getting five 
cents on the dollar, it inhibits our ability to raise revenue 
to fund anything, particularly education.
    I happen to be uniquely in a state that has a fast-growing 
student population. So I have driving economic expense on the 
education side, and limitations on what I can raise property 
tax-wise because so much of my state is owned by the Federal 
Government. So it definitely is a problem.
    Again, the uncertainty that is brought here, I can tell 
you, we have had our own attorneys, who I think are pretty 
bright people, review all this wild lands designation and what 
does it mean, and we are confused even with the attorneys. Now, 
maybe that is a common status for attorneys. But we are 
confused as far as what does it mean, and what is the impact 
going to be on our ability to move forward.
    So it is not just the Governor saying this. It is a lot of 
people, in industry, in the legal field, and saying we are not 
certain what this is going to do going forward, and certainly 
not helping us economically.
    Mr. Bishop. Thank you, Governor.
    The Chairman. The time of the gentleman has expired. The 
gentleman from New Jersey, Mr. Holt. Or should I say Mr. 
Watson? Whichever is appropriate.
    Mr. Holt. I thank the Chairman, and I thank the Ranking 
Member for the shout out in favor of neutron-based thinking--
neuron-based thinking as opposed to semiconductor-based 
thinking.
    There has been several questions asked that I wish I had 
time to pursue, including how we preserve the kinds of jobs 
that Mr. Heinrich was talking about, since the them of today is 
jobs, which clearly are valuable and large in number 
comparatively in your states. And second, if there were time, I 
would want to pursue the question of why we are paying so much 
attention to other lands that might be drilled and dug, when 
there are so many more acres that have been locked up by 
companies paying good money for the rights to drill there that 
are unused, so many more of those than there are that are being 
used.
    But what I wanted to get to is the more central question, 
which is Mr. Markey's first question, and I am not sure I 
really heard your answer. If you are unhappy with this process 
of designating wilderness areas and getting to wilderness 
areas, what process would you propose specifically? Let's 
hypothesize, and this might be a difficult hypothesis for you, 
that there would be further designation of wilderness areas. 
How would we get there if this process is so unacceptable? Let 
me start with you, Governor Herbert?
    Governor Herbert. Well, again I will reiterate that I 
thought we had a process in place. And whether we got to the 
end game yet or not I guess is debatable. But we have been 
working on this in Utah since the early nineties. I guess I am 
trying to see what is the added value of what has come up with 
this new wild lands designation. All we have done is confused 
the process.
    So I agree we ought to have a process that brings us a 
conclusion, some certainty. Let's go through it. What does this 
do that adds to it? We have already had the ability to 
reevaluate. We have FLPMA that gives us some guidance from 
1976. We know that by definition wilderness is roadless. We are 
in the process of going through our states, at least my state, 
and finding out where there are areas that are roadless and 
where there are roads, which again by definition help us 
identify where are the wilderness areas that we ought to set 
aside.
    I don't think people in Utah are anti-wilderness. We are 
just saying that how many times are we going to go through the 
process. Let's just do it once. Why do we add this extra kind 
of wrench in the gears that causes us to have some concern.
    Mr. Holt. Before Secretary Salazar's policy, I mean, walk 
me through, please, how the policy that existed before and the 
procedure that existed before could actually result in 
designation.
    Governor Herbert. Well, again, part of the problem we have 
had in the past is that we get proposals out there on the 
table. You gentlemen and ladies are the ones that in fact make 
the designation. You are the ones that have the responsibility 
to say this is in fact wilderness.
    So it is brought to you, but we have differing facts that 
they are arguing back and forth. We come up with something that 
we think is probably a reasonable conclusion, and somebody 
files a lawsuit. We have litigation ad nauseam over year after 
year after year. So we in Utah have said, you know what, let's 
not come up with a number, whether it is 5.4 or 9.5. Let's just 
go county by county through it, bring it to this August body 
and say declare this the wilderness lands bill of Washington 
County or any of the other 29 counties that I have in my state, 
and you guys declare it. That process is working.
    Mr. Holt. But Governor, this is after the wilderness 
character is already irrevocably lost. That is the point.
    Governor Herbert. Why?
    Mr. Holt. Well, Governor Otter, I am sorry. I have cut you 
off, and we have only a few seconds. But if you care to try to 
answer that, I would appreciate it.
    Governor Otter. Well, I am sorry, too, Rush. It is good to 
see you again.
    Mr. Holt. It is good to see you.
    Governor Otter. What has been lost? Last year, we created--
or two years ago, we created 517,000 acres of the canyon lands. 
That was not lost. People have lived in those canyons forever. 
People have recreated in those canyons forever. They lived and 
died and farmed in those canyons forever. And yet those 
qualities are all still there.
    The process, as Governor Herbert has said, the process is 
what we were dependent on. We went through a values process 
when we did the roadless bill. I say roadless agreement. I say 
again, Idaho is the only State in the Union that now has a 
roadless agreement that was defended by Secretary Vilsack and 
the Forest Service as an adequate plan to protect those areas, 
the roadless areas.
    And so we were going through that process until December 
23rd, when all of a sudden, it was announced that maybe that 
process wasn't going to work anymore.
    Mr. Holt. My time has expired. I look forward to continuing 
the discussion. Thank you.
    The Chairman. The time of the gentleman has expired. The 
gentlelady from South Dakota, Mrs. Noem.
    Mrs. Noem. Thank you, Mr. Chairman. I want to thank the 
Governors for coming today, too, as well. And you basically 
just gave my speech, Governor Otter, because that is exactly 
what has been going on in South Dakota. You know, last year in 
Congress a bill was proposed that would make about 48,000 acres 
of the Buffalo Gap National Grassland near the Badlands in my 
home state into a wilderness area. It would have changed the 
designation from multiple use into a wilderness area, which 
essentially would change the entire function of that area. And 
it was very concerning.
    During my meetings with all of the local stakeholders, the 
local officials, they were alarmed by this proposal because 
they recognized would it would do to economic development in 
there, how it would change the usage of that land. You know, 
and a lot of times, the conversation would come up that this 
land was in pristine condition and that it needed to be 
protected by the Federal Government so that they could step in 
and continue to protect it for generations.
    And that was exactly the point that I brought up to them in 
many of these meetings, is who do you think kept it in pristine 
condition all these years. It was the farmers and the ranchers 
and the people who are utilizing the land now. Why do we think 
the Federal Government can step in and protect it better than 
they have all of these years.
    So, you know, that is essentially the same argument that we 
have going on in South Dakota. I met with ranchers who have 
permits to graze their livestock out in those Federal 
grasslands. They were concerned with this change in designation 
that could restrict or even end their use of Federal land for 
livestock, and then also limit access by motorized vehicles for 
ranch management.
    So I guess the question that I have for you, it 
specifically means that once one of these designations changes, 
do you know of any decisions that can be appealed to the 
Interior Board of Land Appeals, or what exactly is the appeal 
process once a decision has been made? Can it be appealed to 
the Federal courts? Or what are our options as people that are 
utilizing that land?
    Governor Otter. Well, I thank you very much for that 
question, and for that statement relative to the fact that we 
have been taking pretty good care of it. You know, I would just 
say, and it is too bad that the Congressman has already left, 
but my outfitters and guides are going out of business. They 
are going out of business because of another great Interior 
plan called reintroduction of Canadian gray wolves. All the elk 
and the other--not all of them, but a lot of them have been 
decimated.
    But I would say in answer, that is what we are doing here 
today. This is our first appeal for reason. This is our first 
appeal for following a process that however very difficult has 
been frustrated by all of a sudden a Secretarial edict that 
says this is the way it is going to be, casting uncertainty 
into the capital markets, casting uncertainty into the land use 
of every county, all 44 counties in the state.
    Where do we go to surrender? And that is why I am here 
today, is to make a first appeal for Congress and for this 
Committee to take back your rightful place under your duties, 
under Article 1 of the Constitution that says Congress should 
be in charge of this.
    Governor Herbert. And let me just add to what Governor 
Otter just said. Really, it is the congressional 
responsibility. It is not wilderness unless you say it is say 
wilderness. Nobody else can do that. The concern many have is 
that because of delay and distraction that this just takes a 
long time. It just seems to be eternal in nature, and that is 
why particularly those in industry are saying, you know, we 
will go someplace else. We have to get some resolution here. 
You know, BLM right now is issuing any permits on our BLM 
lands. So our energy folks are saying, hey, we are going to go 
someplace else.
    I believe that we need to have a consensus-based approach 
that is done with a locally based bill. So we can't, if you are 
in Utah, to have comprehensive omnibus bill. It doesn't seem to 
be practical anymore. But we can take it and eat this elephant 
piecemeal, one county at a time or two counties at a time, and 
bring consensus, rather than say we have to start with a number 
and then work backwards, like I think there are going to be 10 
million acres of wilderness in Utah.
    Maybe there is, maybe there isn't. Let's just take a 
county-by-county approach, bring consensus, have you guys pass 
it and bless it and say it is now wilderness. We will total it 
up at the end of the day when this is all done, my 29 counties, 
and say, hey, it was 6 million acres of wilderness. Who knew?
    But that is the approach we ought to take. There is a 
process that works. All this has done is throw a monkey wrench 
into the gears, and there is for us no gain.
    Mrs. Noem. Thank you. I appreciate that. And, Mr. Chairman, 
I would like to yield the balance of my time to Mr. Labrador 
from Idaho.
    The Chairman. Mr. Labrador has 30 seconds.
    Mr. Labrador. Thank you, Mr. Chairman. Just a quick 
question, and maybe you can educate me because I keep listening 
to the other side asking about--it is almost like they believe 
it is mutually exclusive, that if you have wilderness areas, 
then you can't have--you know, if you have these oil 
designations, you can't have outfitters through those areas.
    Is that what happens? Do we close it off completely so 
outfitters can't go out there if all of a sudden there is oil 
exploration in those areas?
    Governor Herbert. Not at all. Again, we have a lot of 
outdoor recreations occurring that is not on wilderness lands. 
And one of the challenges we face, have rather, in some parts 
of our natural resource development is we don't fence--we have 
to fence around the drilling rigs to keep the animals from 
coming in, not to keep them out--or to keep them out rather 
then getting them inside.
    So again, we have the ability to be environmentally 
sensitive. And so there is no reason why you can't have 
hunting, fishing, exploring, hiking at the same time you have 
some natural resource development going on, certainly in areas 
that wouldn't have not visual acuity, but would be within some 
kind of reasonable distance.
    We can balance this and have an approach that makes 
everybody happy. It is those that have hidden agendas out there 
that say, well, I don't want any development, or I want it all 
outdoor recreation. No. There has got to be a balance here.
    The Chairman. The time of the gentleman has expired. The 
gentlelady from Hawaii, Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chair. Governors, thank you 
for being here.
    Governor Otter. Thank you.
    Ms. Hanabusa. As you can imagine, you are far away from 
where I am from and what I am accustomed to. If you could 
provide me with some background, the Governor from Idaho and 
the Governor from Utah, what percentage of your lands are we 
talking about that you feel are directly affected by Order No. 
3310? Either one.
    Governor Herbert. I can tell you that the BLM land in Utah 
is approximately 68, 69 percent of our land mass. So if we are 
going to have to re-inventory that, then that is about the 
percentage.
    Governor Otter. Both BLM and Forest Service is 35 million 
acres in Idaho, which is right at 65 percent of our land mass.
    Ms. Hanabusa. Now, when we talk about inventory--because we 
have had a similar issue in Hawaii--we originally had what were 
called crown lands. We have always had this issue about 
inventory and, of course, part of the lands are mountains and 
areas and, you know, there is just no way you can come up with 
an inventory or something like that.
    So I am curious about of the lands that you are talking 
about, how many do you feel are really the ones at issue? Is 
there like a priority of lands that are at issue, or are you 
just saying that all of those lands are going to be in 
controversy here?
    Governor Herbert. Well, we have some wilderness, and we 
have some wilderness study areas that are just again becoming 
de facto wilderness because we did study, study, study, study, 
and nothing ever happens. There is no reconciliation, no end to 
that study.
    So again, that is why we have tried to move in the 
direction of county by county. Let's bring people together. We 
will study it, and we will bring environmental groups and 
industry and the community together, and hopefully come up with 
a bill that will be brought to you, and we have consensus, and 
you will pass it. That will set that side now once and for all.
    Ms. Hanabusa. So you are not opposed necessarily to an 
inventory. You just don't like the fact that it has to be done 
all at once? If you are willing to do it by county by county--
--
    Governor Herbert. Yeah. I guess my point is we were doing 
it. We actually had had some momentum in getting it done, and 
then all of a sudden this new thing comes up that causes again 
uncertainty, confusion, and is going to hurt us economically 
because of it. We were doing it and working, I thought, 
successfully in bringing people together.
    Ms. Hanabusa. So how many of the lands that you felt that 
you were already doing, what percentage of that are we talking 
about?
    Governor Herbert. You know, there are proposals on the 
table for anywhere from, you know, 3.3 million acres of 
wilderness to 10 million acres of wilderness. And what the 
truth is, I don't know that anybody knows. People just advocate 
from different points of view, and it doesn't matter what the 
reality is.
    Again, by definition, wilderness is roadless. We have a lot 
of roads throughout our rural parts of Utah on these BLM lands. 
And now part of the argument is, well, that is not a road. 
Well, this is a road. Well, that is not a road. And so we are 
going through some pilot programs to see if we can identify 
what are the roadless areas. And at least we know that has 
potential now to become wilderness. So we are doing the 
inventory.
    Ms. Hanabusa. Governor, how long will it take you to do it 
your way? I am just curious. We haven't been able to do ours, 
and that is the reason why when I hear inventory of public 
lands, I go, well, let's see how long. I mean, we have had it 
since, you know, a long time.
    Governor Herbert. You know, I will tell you----
    Ms. Hanabusa. And we still haven't done ours. But doing it 
your way, how long do you think it is going to take?
    Governor Herbert. Who knows? My crystal ball is as foggy as 
anybody's. I just know we have had this fight going on for a 
dozen years in Utah. I have been the Governor of Utah for about 
two years. We have done more on wilderness designation and 
trying to resolve the public land issues in two years that I 
have been Governor than the other 12 years combined.
    Ms. Hanabusa. I understand that, Governor. I guess my thing 
is I want us to talk about the same thing. Inventorying seems 
to be the issue. I just want to get an idea of how long you 
think the inventory is going to take if we do it your way.
    Governor Herbert. Well, it took us two years to get through 
the Congress our one county. Now, we think we have found a 
process that works, and so let's hope we can speed it up. And 
with your help, we can speed it up.
    Again, you guys should be taking some interest here in 
saying let's get it done. Let's not let it go out on ad 
nauseam. Why there has been a lack of, I guess, urgency, and 
why we have allowed this fighting to go on for so many years, I 
am uncertain. But I guess if we could do it in the next decade, 
I think we can at least clear up Utah's issue on wilderness.
    Ms. Hanabusa. Ten years?
    Governor Herbert. Ten years.
    Ms. Hanabusa. Ten years to do your----
    Governor Otter. If I might respond to that as well, and how 
that concerns Idaho. We started round one roadless studies in 
the sixties. We finally submitted our plan in 2001.
    The Chairman. The time of the gentlelady has expired.
    Ms. Hanabusa. Thank you very much.
    The Chairman. The Chair would advise Members that the vote 
is imminent at any time, and I understand that prior both 
Governors had to leave about this time period. If I could ask 
their indulgence to stay at least until you hear the two 
bells--that means we have to vote. And then we will go vote, 
come back, and seat the second panel. So if that is acceptable 
to both of you, I would appreciate that.
    The gentleman from Tennessee is recognized.
    Mr. Fleischmann. Thank you, Mr. Chairman. Governors, thank 
you very much for being here today. I have enjoyed this 
testimony very much, very helpful.
    Governor Herbert, while I was not a Member of Congress in 
the mid 1990s, I recall that then President Clinton 
unilaterally declared a large area of southern Utah to be a 
national monument called the Grand Staircase Escalante under 
the Antiquities Act. I was recently told that the area in 
between the Grand Staircase and Escalante is called the 
Kapirowitz Plateau and contains over 50 billion tons of coal 
and significant oil and gas reserves.
    Wouldn't the current policy of the Secretary essentially be 
doing the same thing with his wild lands declaration, sir?
    Governor Herbert. Well, there are some similarities in the 
fact that when President Clinton did the exercise, his right 
under the Antiquities Act to declare that a national monument, 
we were not told about it. In fact, our congressional 
delegation the day before had asked him, because there had been 
rumors about it, including the Democrat from Utah at the time, 
and they said no.
    So we were surprised and blindsided and disappointed 
because of that lack of I guess honesty. And for us in Utah 
again there was a significant core of really good coal. It is 
some of North America's best coal. It is high BTU. It burns 
hot. It is low sulphur content. It burns clean for coal. And 
that has been taken off the table, and probably in hindsight I 
am not sure that is America's best interest, nor Utah's.
    So the fact that this kind of came out of the blue is 
similar. But I don't want to overstate the point because I 
think that was much more egregious with the Grand Staircase 
Escalante than this issue is here.
    Mr. Fleischmann. Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman yields back his time. The 
gentleman from California, Mr. Garamendi.
    Mr. Garamendi. Thank you very much, Mr. Chairman. 
Governors, thank you very much for your testimony, your 
participation here today. It is extremely important that we 
hear from you and that we pay attention to these issues.
    I happen to have been in the Department of the Interior in 
the mid nineties as the Deputy Secretary and have some 
familiarity with some of these issues, particularly the history 
of the Wilderness Act and the Federal Land Management Act.
    What seems to me to be in this order that Secretary Salazar 
has put out is a continuation of the previous policies prior to 
Secretary Norton's decision to not move forward at all with the 
wilderness study areas. And also, in looking at the details of 
the way in which this particular order has been drafted, it 
appears to me to be, one, consistent with the mandate of the 
law for the BLM to study, to make proposals; and also to 
involve the public in the process.
    It seems that--I don't know if they have done any of the 
things as a result of this, done any process as a result of 
this order. Are you aware of any activity in your areas as a 
result of this new order coming in over the last two and a 
half, almost three months now?
    Governor Otter. I only know that in Idaho's case, our local 
BLM office was given 60 days to reply. Whether or not they 
respond, they didn't ask any of my state agencies, my lands, or 
any of the state agencies, for any input.
    Mr. Garamendi. It seems to me that the reply is probably 
having to do with the procedures that would be put in place, 
how they would proceed. And I am glad they just took 60 days to 
answer that question. Hopefully they did. That then establishes 
a set of procedures that would then lead to the designation of 
study areas.
    But apparently, at least in your area--I don't know about 
Utah. Has any action, has any new study area been determined as 
a result of this?
    Governor Herbert. Not that I am aware of.
    Mr. Garamendi. Well, in looking at the actual language of 
the order, there is a process in that language for involvement 
of the public after a study has been done of an area and making 
the determination that it has the wilderness characteristics. 
And furthermore, there appears to be a way out here.
    You were talking about gas lines cross study areas. There 
is a very specific paragraph that deals with that potential, 
that certain study areas may inhibit development in other 
areas. There is a whole process to deal with that. I would 
assume that has also not been put in place since most of this 
is now less than three months--less than four months old.
    So I guess what I am looking at here is that what the 
Secretary has done is to re-establish what existed prior to 
Secretary Norton's decision, which I would argue from my 
experience is contrary to the underlying laws, the two, the 
Federal Land Management Policy Act and the Wilderness Act.
    Would you agree or disagree with my assessment of what this 
thing actually does, that is, to re-establish the procedures 
that existed prior to Secretary Norton's?
    Governor Herbert. Well, let me give you my observation 
because I have asked the question point blank to the BLM. Does 
this overturn the Leavitt-Norton Agreement? And the answer that 
has come back to me is ``No.'' Now, we have others out there 
that say, oh, this overturns Norton-Leavitt. So there is 
confusion in that regard, even amongst the agency itself, what 
does it do.
    Some are saying it is silent on the issue, and so we don't 
know. And that Leavitt-Norton Agreement, what came out of that 
was a stipulation of setting aside $2.6 million and not in fact 
using it in order to settle a lawsuit. Putting this back on the 
table actually opens us up to more litigation and puts us back 
to square one that we had back in the Leavitt-Babbitt days into 
Leavitt-Norton days.
    So this is a step backwards and not a step forward, and it 
doesn't get us back to where we were before, in my opinion.
    Mr. Garamendi. I think at least part I would agree with it. 
It is unclear how this addresses the Leavitt-Norton. The 
Leavitt-Norton was specific to the State of Utah and what took 
place in that state.
    However, it appears as though Secretary Norton's order went 
way beyond Utah and affected every other state, and literally 
removed from the Department of the Interior the opportunity for 
the Department--and I think it is way beyond the Bureau of Land 
Management. I think it probably goes to other Federal agencies 
also that may have land--that may have responsibilities within 
the Department of the Interior, and affects other states, 
whereas the lawsuit was specific to Utah; hence, the new order 
re-establishing what existed without modifying the lawsuit as 
it applies to Utah. I think that is the way it will work out.
    The Chairman. The time of the gentleman has expired. A vote 
has just been called, but we have time for one final round of 
questioning, and then we will break, dismiss this panel, and 
thank you very much for coming, and seat the second panel. We 
will break for approximately 45 minutes and come back for the 
second panel.
    Mr. Flores, you are recognized for five minutes.
    Mr. FLores. Thank you, Mr. Chairman. Governors, thank you 
for joining us today. I will try to keep this quick in light of 
the vote that is coming up.
    I am from Texas. Like my friends from Louisiana on either 
side of me, I am from a state that has been unilaterally 
damaged by actions of the Department of the Interior. And I am 
also glad that Mr. Labrador asked his question about the mutual 
exclusivity of oil and gas operations and recreation because I 
think each of you disabused those people here inside the 
Beltway from that notion because everybody that works in the 
real world outside the Beltway understands that they can 
coexist peacefully.
    My question is this. Both of you raised the question of 
uncertainty. And almost every American gets what has happened. 
The last few years of uncertainty have cost us 7 million jobs 
in this country. And so we have clear evidence as to what 
uncertainty does to the economy.
    Now, you have new uncertainty facing each of your states. 
Can you individually answer for me what--I know it hasn't been 
that long since this new order came out. But can you tell me 
what the expected impact is in real terms on jobs, the finances 
of your states, and your ability to continue to invest in 
education? Thank you.
    Governor Herbert. Do you want me to go----
    Mr. FLores. Let's go with Utah first.
    Governor Herbert. OK, thank you. It is hard to predict. You 
know, my crystal ball is probably as foggy as anybody's. But 
clearly--and you will hear later on from local government 
officials that this happens in their backyard, where 60 percent 
of their income is derived from oil and gas mining in their own 
backyards and their own valleys. And so the fact that we are 
not getting permits anymore, you know, which is maybe even 
outside of this wild lands Secretarial Order, is clearly a 
concern for them.
    If we can't go out there and develop the economic 
opportunities of their natural resources, it is going to cause 
to have loss of jobs. It is not only loss of jobs, but in our 
state, it is loss of income tax. And that income tax in Utah is 
all designated, earmarked, for nothing but education. It 
doesn't go into cops on the streets. It doesn't go into 
building roads or buildings. It goes directly into education. 
That is the way it is done in Utah.
    So this loss of jobs and the creation of income tax hurts 
my education significantly.
    Governor Otter. Not only is there a major difference in the 
quality of the job and the return on the job between what we 
are talking about and the management of our resources for 
multiple--and the apparent idea that we are going to create a 
bunch of tourism jobs within these same areas, I can tell you 
this, that there are more people in one day probably that play 
golf on the floating green in Coeur d'Alene, Idaho than visit 
the Frank Church No River of Return in a year. And we make more 
money.
    So when you are matching tourism dollars, tell me how many 
people go buy a backpack, and tell me how many people put in 
some granola and go into the Frank Church River of No Return 
wilderness area, and what that dollar impact is on me as 
opposed to those that are tourists and qualify for tourism 
dollar designation that play golf on the floating green. And it 
is only a par three.
    Governor Herbert. Let me just add, too. I mentioned this 
earlier, that each natural gas, that is a $700,000 or $800,000 
investment each time you drill one of those things. And when 
you do 600 down in Carbon County, you can figure that out. And 
that ripples through the economy. So it is a significant 
impact. And I don't want to diminish the tourism and travel 
trade, but my goodness. When you spend a million bucks for an 
oil well, and you do 1,000 of those, that is a lot of money.
    Mr. FLores. Thank you. But the bottom line is the impact on 
each of your states is expected to be significant because of 
the uncertainty that this order is generating. Is that correct?
    Governor Herbert. Absolutely.
    Governor Otter. That is right.
    Mr. FLores. OK. And with all due respect to Mr. Heinrich, 
who is not here to defend himself, I can tell you from 
experience the typical oil and gas employee makes about three 
times what the typical outfitter would. So thank you. I will 
yield back.
    The Chairman. I thank the gentleman. And we will end this 
debate. Not all Members had an opportunity to ask questions, I 
am sure. And if there are Members that want to ask you, I would 
ask you to respond back, and the record will be open for 10 
days.
    So we have two votes or three votes. So what we will do, we 
will dismiss this panel, and we will reconvene at approximately 
4:30, and we can have the second panel seated, and then we can 
proceed right away. And with that, the Committee will stand in 
recess until approximately 4:30.
    [Recess.]
    The Chairman. The Committee will reconvene. I know we said 
4:30, but we have some Members up here that are anxious, and I 
know the second panel has been waiting, and I appreciate your 
waiting.
    We have on the second panel Joel Bousman, from Sublette 
Commission in Pinedale Wyoming. I hope I said that correctly. 
Did I say that correctly?
    Mr. Bousman. Mr. Chairman, it is Bousman, but that is close 
enough.
    The Chairman. All right. Well, you could have been in 
Montana, and I would have, you know, said Bozeman. I would have 
been correct. So Mike McKee from Uintah County Commissioner in 
Vernal Utah; Lesley Robinson, Phillips County Commissioner in 
Malta, Montana; Dennis C.W. Smith, Jackson County Commissioner 
in Jackson County, Oregon; William G. Myers III, a Partner in 
Holland and Hart and a former Solicitor of the Interior 
Department; Peter Metcalf, CEO and President of Black Diamond 
Equipment; And Mark Squillace--did I say that correct?
    Mr. Squillace. Squillace.
    The Chairman. Squillace, OK. Well, you told me when I 
introduced myself, and I thought I might blow it. I just want 
to remind all witnesses, and I mentioned to the first panel, 
that your full written statement will appear in the record, and 
you have the five-minute lights there. The green light will 
signify four minutes, the yellow light meaning one more minute, 
and of course the red light, you are done.
    So if you could hold it to five minutes, I would appreciate 
it. At this time, I would like to ask unanimous consent that 
Mr. Walden from Oregon be able to participate in the panel. 
Without objection, so ordered. I recognize Mr. Walden for the 
purpose of an introduction.
    Mr. Walden. Thank you very much, Mr. Chairman, for that. 
And to my colleagues on the Committee, thank you for letting me 
sit with you. It is good to be home. This is a Committee I 
served on for many years and enjoyed the work, very important 
to especially the rural West.
    I am honored today to introduce the Jackson County 
Commissioner C.W. Smith. C.W. has been on the Jackson County 
Commission in Oregon since 2005, and is current Chairman of the 
commission. He was a sheriff before that from 1983 to 1995, and 
was voted Oregon's Sheriff of the Year for 1989 to 1990.
    He also served as Jackson County's Sheriff's Administrative 
Service Division captain from 2003 to 2004. He is a Vietnam 
veteran in the Air Force. He was interim City Manager in 
Lakeview and Police Chief for the City of Talent. And most 
importantly, Mr. Chairman, he is a former radio talk show host. 
Some of us really admire that quality in a person. Private 
insurance business owner and manager of a large farming 
organization.
    C.W. represents the largest by population county in my 
district. And where we have had to deal with Presidential 
designations of monuments and things in the past, where the 
work wasn't done on the ground, but we got to clean up the mess 
afterwards. And so I think you will find he has a great 
perspective for many ways, both law enforcement and county 
management on these issues. And I appreciate you letting me 
introduce him and his ability to testify.
    The Chairman. Thank you very much, Mr. Walden, and I look 
forward to Mr. Smith's testimony.
    We will start on my left side and move down. So, Mr. 
Bousman, you are recognized for five minutes. And if you would 
press the on button on the microphone, I would appreciate it.

   STATEMENT OF JOEL BOUSMAN, SUBLETTE COUNTY COMMISSIONER, 
                       PINEDALE, WYOMING

    Mr. Bousman. Thank you, Mr. Chairman. I am Joel Bousman, 
Chairman of the Sublette County, Wyoming Commission, and I am 
also President of the Wyoming County Commissioners Association.
    I am opposed to Secretarial Order 3310, and I ask Secretary 
Salazar to withdraw the order. I request that my written 
testimony and attachments be submitted for the record.
    On January 18th, 2011, President Obama signed an Executive 
Order stating that our regulatory system must protect the 
environment while promoting economic growth and job creation. 
Only a month earlier, Secretary Ken Salazar signed Secretarial 
Order 3310, which will have the opposite effect. This order 
will eliminate jobs and wreak havoc with the Western States' 
economies.
    The legal authority to establish wilderness study areas 
ended many years ago. The new implementation documents set for 
the Secretarial Order say that lands with wilderness 
characteristics will be managed under the same legal criteria 
as the original wilderness study area. It is clear that BLM is 
attempting an end run on congressional authority by simply 
changing the name to wild lands. At some point, if it walks 
like a duck and talks like a duck, it is a duck, even if the 
Secretary chooses to call it a chicken.
    Now, let me give an example of the real impact Secretarial 
Order 3310 would have on one specific RMP area in Wyoming. The 
BLM incorrectly identified 20 percent of this area as having 
wild land wilderness characteristics. In this area, BLM 
identified 56 land with wilderness characteristics, LWCs, 
comprising 571,000 acres. Just within this area, there are over 
600 miles of roads, more than 400 reservoirs, 300 miles of 
fence, 154 range improvements, 10 miles of water pipeline, 17 
water wells, 68 miles of oil and gas pipeline, 8 active oil and 
gas wells, 59 plugged and abandoned wells, and almost 250,000 
acres under active oil and gas lease.
    Does this sound like wild lands to you? The identification 
of all of these structures and improvements is not an exercise 
in discretion. They are there. And the term wild lands is not 
appropriate. If BLM chooses to designate this small portion of 
Wyoming as wild lands, what would be the impact on jobs and the 
economy? Understand that BLM is required to protect potential 
LWCs during the planning process so as to not lose the option 
of designating them in the final plan.
    Using the same economic model used by BLM in its planning 
efforts, these LWCs would generate 258 drilling jobs, up to 614 
production jobs by 2025. This would equate to almost $14 
million in labor income per year during the drilling phase, and 
over $51 million in the production phase per year. Using the 
same percentage as an example of LWCs throughout BLM in 
Wyoming, the potential revenue to Wyoming would be nearly $12 
billion. That is billion, not million. And the local, State, 
and Federal tax revenue would be about $3 billion over 20 
years. We cannot afford this loss to our state.
    Livestock grazing in the proposed LWCs will be impacted. 
Grazing may still be allowed, but grazing management practices 
and the ability of permitees to maintain and install 
improvements necessary for livestock distribution will be 
severely restricted. Predatory control efforts will be 
restricted, resulting in more loss to both livestock and 
wildlife.
    Using the same BLM area and economic model as earlier 
described, grazing AUMs within LWCs have an economic value to 
local communities of about $27 million in livestock production, 
over $12 million in employment earnings, and 380 annual jobs. 
Again, this is only one small area of Wyoming.
    We do not live in Wyoming to go to the opera. We live in 
Wyoming because we love to ranch, hunt, fish, hike, camp, ride 
our four wheelers and our snowmobiles. Some of us want true 
wilderness, and we have an abundance of that as well. This is 
our custom and our culture, our way of life, our way of making 
a living.
    Secretarial Order 3310 should be rescinded. It is not 
supported by a law and amounts to de facto creation of 
wilderness. It is contrary to thoughtful public policy, and 
implementation of this order will result in negative economic 
impact and loss of jobs in all our Western States. We can and 
must do better.
    Thank you for the opportunity, Mr. Chairman. I would be 
glad to answer questions.
    [The prepared statement of Mr. Bousman follows:]

   Statement of Joel Bousman, County Commissioner, Sublette County, 
    Wyoming, and President, Wyoming County Commissioners Association

    On January 18, 2011, President Obama signed an Executive Order 
entitled ``Improving Regulation and Regulatory Review.'' Section 1(a) 
of the Order states that,
        Our regulatory system must protect public health, welfare, 
        safety, and our environment while promoting economic growth, 
        innovation, competitiveness, and job creation. It must be based 
        on the best available science. It must allow for public 
        participation and an open exchange of ideas. It must promote 
        predictability and reduce uncertainty. It must identify and use 
        the best, most innovative, and least burdensome tools for 
        achieving regulatory ends. It must take into account benefits 
        and costs, both quantitative and qualitative. It must ensure 
        that regulations are accessible, consistent, written in plain 
        language, and easy to understand. It must measure, and seek to 
        improve, the actual results of regulatory requirements.
    Not one month earlier, Secretary Ken Salazar signed Secretarial 
Order 3310 (SO 3310), a document which, even if read in the most 
favorable light, casts a long shadow across much of our nation's public 
lands.
    To those of us in the West, the paradox of Washington, D.C., is 
only perpetuated in the schizophrenic, contemporary existence of SO 
3310 and the President's order aimed at curbing the very abuses 
furthered through SO 3310. To us, SO 3310 is typecast for scrutiny 
under President Obama's January 18, 2011 Executive Order. It risks 
billions of dollars of private, local, state and federal revenue, 
threatens much-needed job growth and disregards the custom and culture 
of our families, communities, states and nation--and does so without 
even a passing glance at those principles of robust scientific review, 
public participation and predictability outlined in the President's 
Executive Order. But such scrutiny does not seem forthcoming.
    Certainly, the President should be allowed to hear from his 
agencies within the timeframes outlined in his Executive Order before 
we pass final judgment on the sincerity of his effort. Unfortunately, 
the early rhetoric and recently released guidance handbooks from the 
Department of the Interior only underscore a stubborn resolve to defend 
SO 3310. Thus, those of us that are reliant on Bureau of Land 
Management lands for our livelihoods and for their multiple-uses must 
be proactive to underscore our concerns with SO 3310 and the guidance 
handbooks that go with it and direct both the policymaker and federal 
bureaucracy to a more thoughtful course.
    At its core, the legal justification for SO 3310 and the guidance 
that goes with it enlist a healthy dose of bootstrapping. In the 
absence of legal authority to justify the Secretary's Order, general 
provisions of the Federal Land Policy and Management Act (FLPMA), the 
Wilderness Act of 1964 and the National Environmental Policy Act (NEPA) 
were offered to suggest Congress has endorsed the actions that have 
been taken. These same references, in particular references to FLPMA's 
general call to maintain lands in their ``natural condition'' (43 
U.S.C. 1701(a)(8)) and requirements to develop inventories and engage 
in land use planning (Sections 102(a)(2), 201(a), and 202(c)(4) and (9) 
and Section 202), were cited to suggest that the BLM's newly minted 
handbooks (6301, 6302 and 6303) are in accordance with our nation's 
land use laws. The handbooks also cite to the existence of SO 3310 as 
added legal justification, essentially completing the circular legal 
argument.
    Such an overly generalized and bootstrapped legal theory does not 
hold water, however. To begin, the Department of the Interior's use of 
FLPMA is misplaced and does not tell the whole story, even within the 
specifically cited provision found at 43 U.S.C. 1701(a)(8). Certainly, 
there is a discussion of protecting ``natural condition,'' but it is 
noted in a string of other protections that include managing the public 
lands to protect the quality of scientific, scenic, historical, 
ecological, environmental, air and atmospheric, water resource, and 
archeological values, providing food and habitat for fish and wildlife 
and domestic animals and providing for outdoor recreation and human 
occupancy and use. The conjunctive word ``and'' denotes that each of 
these considerations must be overlaid on the landscape to determine 
proper resource allocations.
    The use of the inventory and land use planning citations is, in my 
view, a lawyerly effort at ``perfuming of the pig.'' The public and 
others can be awed by legal citations, but the offered provisions do 
nothing more than reiterate a common practice of knowing what you have 
and making a plan to make the best use of it. The citations in no way 
justify protections for ``lands with wilderness characteristics'' or 
LWCs. Good planners inventory everything before they allocate use. 
Unfortunately, BLM has not been funded nor has it prioritized the 
maintenance of baseline data--for any purpose, much less LWCs. To this 
end, it seems quite peculiar that the Department of the Interior would 
prioritize what functionally equates to the development of baseline 
data for ``wilderness characteristics'' and not even mention the need 
for baseline information for any other use. To the outside observer, it 
would seem that ``wilderness'' will soon be trumping nearly every other 
consideration, both in terms of funding and protection, when the very 
provision cited by the Department to justify LWC inventories and land 
use planning tied to their protection, clearly requires an 
understanding (inventory and plan) of all potential uses.
    But the bootstrapping by the Department of the Interior is more 
insidious than simply being overly general. It neglects statutes and 
long-standing legal precedent that are clearly at odds with SO 3310 and 
its implementing handbooks, as was clearly outlined in the Wyoming 
County Commissioners Association comments on SO 3310 dated January 28, 
2011 (attached hereto as Attachment A). To put these detailed comments 
in a somewhat condensed version, only Section 603 of FLPMA allows BLM 
to manage lands so as to ensure that wilderness characteristics are not 
impaired. Non-impairment only applies in Wilderness Study Areas 
(WSAs)--every other tract of BLM land is to be managed so as to not 
unduly or unnecessarily degrade the resources on those lands.
    One might then simply suggest that you merely need to designate new 
WSAs. That would seemingly be an answer, but the ability to designate 
new WSAs ended on October 21, 1993, when Congress received the 
wilderness suitability recommendations required under Section 603 of 
FLPMA. Clearly, when read together with the Wilderness Act of 1964, 
Congress wanted to reserve to itself--and only to itself--the authority 
to create wilderness and WSAs, and this makes sense when one considers 
the functional effect of a wilderness designation of any sort: it shuts 
things down.
    It also makes sense when you consider the practical reality that 
``new wilderness'' is, in most cases, a fallacy. Little has changed, in 
terms of the environmental landscape, that would change the inventories 
completed pursuant to FLPMA prior to 1993. Where the environment has 
changed, it has most likely moved away from a wilderness condition. 
Simply put, Mother Nature does not ``create'' new wilderness in the 
span of 20 years. She does so either very abruptly with eruptions, 
earthquakes and floods or very gradually, over hundreds of years. Thus, 
this present day call to arms to protect wilderness lands is merely an 
excuse to loop in hundreds of thousands of acres of public land into an 
overly prescriptive management regime, when in fact, the land in 
question is no more wilderness than it was in 1964 following the 
passage of the Wilderness Act or at the conclusion of the FLPMA 
inventory in 1993. It seems that after 20 years of effort to control 
land use in other ways, the radical fringe of the environmental 
movement has once again returned to its old and trusted friend, the 
wilderness designation, even if it no longer fits in the legal and 
physical plane of public land management.
    Regarding NEPA, I anticipate that the Administration's argument 
will be that no areas will be declared ``wildlands'' except through the 
Resource Management Plan (RMP) planning process, which necessarily 
includes NEPA. However, this ignores the reality that the required 
wilderness inventories will immediately and dramatically affect 
activity on the land even without reaching the point of consideration 
under the planning process. Thus, the only way to meet the intent of 
NEPA is to conduct NEPA analysis on the mandate of SO 3310. As a 
corollary, BLM deems it necessary to comply with NEPA in the issuance 
of a grazing permit under the same terms and conditions as an expiring 
permit, even though that action clearly has no resource impacts. There 
are undoubtedly numerous other examples, but the clear and proper 
course is for SO 3310 to undergo prompt and thorough NEPA analysis 
through a full-fledged Environmental Impact Statement.
    A skeptical and calloused view might be that the Department of the 
Interior is attempting an end-run on Congress by repackaging what we 
once knew to be a WSA and simply calling it something different. But 
looking at the guidance used to implement SO 3310, it seems that an 
end-run is exactly what is being attempted. In fact, the Department has 
referred to the guidance manuals for SO 3310 as ``new wilderness 
guidance.'' With wilderness designations being the sole province of 
Congress and existing WSAs already being protected by a non-impairment 
standard, what new ``wilderness guidance'' is truly required and why is 
BLM issuing it? Further, why do BLM and the Department go out of their 
way to say that SO 3310 does not create WSAs when the manuals that 
implement the Secretary's Order use the exact same criteria that were 
used in 1978 to identify WSAs? The manuals even go so far as to say 
that the LWCs will be managed under the same legal criteria as WSAs. At 
some point, if it walks like a duck, talks like a duck and looks like a 
duck--it is a duck, even if you want to call it a chicken.
    Ultimately, SO 3310 is not supported by anything other than itself. 
Disregarding the clear weight of the law for purposes of argument, one 
might suggest that, if properly identified, there is no harm in 
protecting these lands with wilderness characteristics. Such a 
suggestion ignores two serious problems. First, initial, good-faith 
efforts at ``proper identification'' of LWCs by the BLM have been 
fraught with examples of misidentification. Second, the harm in 
protecting lands with wilderness characteristics, especially when they 
are protected under the same legal criteria as WSAs as required in the 
implementing manuals, is severe and real.
    While it would be most instructive to give actual evidence of 
misidentification of LWCs in specific BLM resource management plan 
revisions, as cooperating agencies, counties and other cooperators are 
not permitted to share such ``pre-decisional'' information. However, 
speaking in general terms, it has become very apparent during the 
inventory process that misidentification is real. In specific cases, 
BLM came to the conclusion that a certain area possessed ``wilderness 
characteristics.'' In the same, exact geographical area, the county 
cooperators identified almost 60 miles of two-track roads, almost 11 
miles of ATV trails, nearly 2 miles of graded soil, existing oil and 
gas fields containing 14 oil and gas wells, over 40 miles of fence, 1 
mile of water pipeline, 36 reservoirs, 6 water wells, 2 cattleguards 
and 1 corral chute. Seven, large tracts of state school trust land are 
interspersed in the area as well, which cannot be made subject to 
anything but the management prescriptions set forth by the State Land 
Board or Legislature, unless the BLM wants to take on the obligation of 
funding Wyoming's schools going forward.
    On a more broad scale, in a specific RMP planning area, almost 20% 
of the BLM lands were erroneously identified as having wilderness 
characteristics. In this area, the BLM has identified 56 areas 
comprising a total of 571,000 acres. Within this area there are 634 
miles of roads, of which 518 miles are two track, 442 reservoirs, 296 
miles of fence, 569,273 acres of active allotments, 154 range 
improvements, 10 miles of water pipeline, 17 water wells, 8 oil fields, 
68 miles of oil and gas pipeline, 8 active oil and gas wells, 59 
plugged and abandoned oil and gas wells, and 248,315 acres (43%) have 
oil and gas leases.
    While the new implementing manuals for SO 3310 might add clarity to 
the specific planning effort in question, the identification of oil 
fields, roads and fences is not exactly an exercise in discretion. They 
either exist or they don't and if they do exist, the word 
``wilderness'' is not an appropriate descriptor.
    But assume, again for sake of argument only, that the LWCs in the 
RMP planning area described previously were properly identified, the 
question then becomes: what is [t]he Impact of the Administration's 
Wild Lands Order on Jobs and Economic Growth?
    As an initial matter, it is important to understand what SO 3310 
actually requires. First, it requires the BLM to protect potential LWCs 
during the planning process so as to not foreclose the option of 
actually designating them in the final plan. Even with a conservative 
approach, the temporary ``setting aside'' of possible LWCs could lead 
to hundreds of thousands of acres being rendered functionally useless 
for at least three years and likely much longer. Where groups and 
individuals are motivated to use the process for abuse during the 
interim phases of plan development, millions of acres could be set 
aside as de facto wilderness for 3-7 years. Even where the LWCs are not 
carried forward in planning, they are usually kept as part of the 
analysis no matter how ridiculous they might be in terms of the actual 
state of the landscape, either as one of the alternatives or simply in 
the inventory. Of itself, this would seem a benign proposition. But in 
field offices that experience rampant turnover with very little 
institutional memory retained, the risk of having a new staffer dust 
off an old plan and resurrect either interim or long-term protections 
is real and part of our recent history.
    But beyond these sorts of interim protections, lies the ultimate 
reality that actually designated lands are made subject to a non-
impairment standard. As we have learned with roadless areas and other 
wilderness lands, this standard figuratively and, in most cases, 
literally places a stop sign at the edge of the protected landscape. 
The protective bubble of wilderness and roadless is seldom pierced by 
human disturbance, ending even the thought of a new nature trail, no 
less a drilling rig. It shuts things down.
    Using the very model used by the BLM in its planning efforts, the 
local cooperators were able to quantify the answer to this Committee's 
basic inquiry. Within the areas that have been identified as potential 
LWCs, the reasonable foreseeable development scenario pegs the total 
number of wells that could be drilled during the 20 year life of the 
Resource Management Plan at 569 wells. According to the model, 569 
wells would generate 258.4 jobs per year for drilling and up to 614.5 
jobs for production by the year 2025. This would generate $13,760,344 
in labor income per year for drilling. The average wages for those 
workers engaged in drilling is $53,252.00 per year, a fairly 
substantial sum considering the current state of the economy.
    Beyond the drilling phase, though, there is the production side of 
oil and gas development. Again, using the same model employed by the 
BLM in the same planning area that has previously been discussed and 
even then, only within the LWCs, the counties project that the 
production phase could result in up to 614.5 new jobs during the life 
of the plan. With an average salary of $83,660.00 per year, the yearly 
production phase labor income could total over $51 million per year.
    In addition to jobs, the total revenue generated in the economy, in 
terms of oil and gas production from within the potentially designated 
LWCs would exceed $2.1 billion over the 20 year life of the resource 
management plan. More than $523 million in local, state and federal tax 
revenue would result over the same period of time within the same 
potentially designated LWCs, with the federal share reaching nearly 
$140 million. Please understand that this particular BLM planning area 
contains only a fraction of the federal land in Wyoming. If the same 
percentage (18%) of LWCs were introduced on other BLM lands within 
Wyoming, and the assumptions in the model were carried forward, the 
revenues that could be derived from potentially designated LWCs would 
be nearly $12 billion and the potential local, state and federal tax 
revenue generated from these same lands would top nearly $3 billion 
over a twenty-year period.
    Even with a significant discount factor, the impact is astounding, 
especially in a corner of Wyoming that is depressed economically. Given 
the current economic and employment conditions in our nation, even the 
creation of one job is significant, especially to the family that is 
lucky enough to find it. But oil and gas development is not the only 
industry that would feel the effects from the designation and 
restrictive management of LWCs.
    According to the draft policy, grazing may be consistent with 
wilderness characteristics however; grazing management practices (range 
improvement projects, vegetation manipulation, and motorized access) 
``could conflict with protection of wilderness characteristics''. 
Reservoirs, stock water tanks, pipelines and fences have all been 
installed (often at permittee expense) to distribute livestock across 
the allotments and improve the range resources (water, wildlife, soil, 
vegetation). These projects and their maintenance are vital to the 
economic viability of the ranching unit. Treating grazing and grazing 
management practices differently under this policy would have 
significant cumulative impacts on the grazing industry.
    Restrictions on the placement, construction, or maintenance of 
range improvement projects would have a significant financial impact on 
both the individual operator and local economy, most notably tied to 
increased labor cost associated with potential restrictions on 
motorized use within LWCs. Further, the loss of vital water sources 
(used heavily by wildlife as well as livestock), tied to maintenance 
and water development restrictions, would likely cause livestock to 
concentrate around remaining water sources making it difficult or 
impossible to achieve the Wyoming Standards for Healthy Rangelands (a 
permit requirement). In addition, the loss of range improvements would 
likely result in a reduction in stocking rates (AUMs). Finally, 
predator control would be severely limited due to motorized use 
restrictions, which in turn would increase predation on livestock as 
well as wildlife.
    Within the planning area that was previously mentioned, there are 
687 grazing allotments and of those, 203 have all or a portion of LWCs 
identified within their boundaries. These inventoried LWCs cover 
569,277 acres or approximately 27% of the acres in the allotments. The 
permitted AUMs on these allotments are approximately 138,508. In 
addition there are 154 range improvements (wells, guzzlers, cattle 
guards, stockwater tanks), 296 miles of fence, 442 reservoirs and 10 
miles of pipelines located throughout the LWCs in the allotments. There 
are also 634 miles of two track trails and graded dirt roads within 
these LWCs. This information does not appear to include roads adjacent 
to fences that are used for maintenance or roads used to maintain 
stockwater tanks or reservoirs. Therefore, the miles of road within the 
LWCs could be considerably more.
    Assuming that the AUMs within the potentially designated LWCs are 
necessary for the viability of the ranches that are dependent on them, 
which is a very safe assumption in the West, the economic impact of a 
change in management tied to grazing could be quite significant. Using 
the BLM's model, the AUMs within the LWCs have an economic value to 
local communities within the planning area or $26,900,000 in livestock 
production, $12,400,000 in employment earnings, and 382 annual jobs.
    But Wyoming and the West are not simply dependent on oil and gas 
and agriculture for their well-being. From coal to trona to uranium 
production and the many jobs that are made possible in the grocery 
stores, service stations, schools, cafes and feed stores in our small 
towns because of mineral extraction and agriculture, we are highly 
dependent on the multiple-use mandate of FLPMA for our survival. With 
the burgeoning potential of wind development and value added processes 
tied to coal and natural gas, ``de facto'' wilderness designations 
could literally mark the end of these emerging industries, especially 
as these LWCs would likely preclude transmission line and pipeline 
siting in large swaths of the West. Absent the ability to use our 
public lands, in accord with the thoughtful designs of Congress, the 
West will suffer irreparable harm--but not only in terms of economic 
hardship.
    People do not live and work in Wyoming to go to the opera. We are 
here because we love to hunt, fish, hike, camp and ride our 4-wheelers. 
There are certainly some that want complete solitude--whatever that 
really means--when they head into the backcountry. Frankly, they are 
perfectly suited for the WSAs and wilderness areas. Certainly most of 
our photo albums contain pictures of the wide open spaces and breath-
taking views, but nearly every picture also contains us. We are 
hunting. We are fishing. We are hiking. We are moving cows. We are 
drilling. We are there. While the implementing handbooks for SO 3310 
might pay some heed to such a concept, we are generally adverse to even 
the slightest thought that we might be precluded from engaging our 
surroundings in one way or another. This is truly our custom and our 
culture, in addition to most of our way of life and way of making a 
living.
    Had we been engaged by the Department of the Interior in a truly 
public process, the comments might be a bit less harsh. As it stands, 
SO 3310 and its implementing guidance is a playground for the 
environmentalists. Had we encountered past implementation of land use 
restrictions that was thoughtful and narrowly tailored, perhaps the 
seemingly extensive intrusions of SO 3310 would not be viewed with such 
skepticism. As it stands, we watch the BLM label land as ``containing 
wilderness characteristics,'' when we know that same land is permeated 
with oil wells, roads, fences and man-made reservoirs. Had the 
Department of the Interior shown flexibility and a commitment to 
innovation in its past endeavors, we might not fear the intractable 
bureaucrats we have come to know in our BLM field offices, national 
parks, refuges and national forests. As it stands, we are left to watch 
our trees turn red as the beetles ravage our forests after years of 
inaction by federal officials. We are left to watch wild horse numbers 
skyrocket, affecting both livestock and other wildlife populations, 
only to be controlled when the state steps in and sue. We are left to 
watch wolves and grizzly bears decimate our big game herds and kill our 
livestock, pets, and, as of last summer, our neighbors.
    We do not cast doubt on SO 3310 without good reason. Our recent 
experience with a similar sort of ``de facto'' wilderness designation, 
coming in the form President Clinton's Roadless Rule, lends credence to 
our worst fears. During the pendency of the Roadless Rule, states and 
local governments clamored for access to the process, were promised it, 
and it was never forthcoming. While the maps and inventories were being 
developed for the Roadless Rule, states and local governments suggested 
that the inventory was flawed and that hundreds of millions of acres of 
the forest were being improperly set aside. Today, even a cursory 
glance at a Forest Service map underscores the points we attempted to 
make in 2000, with supposed ``roadless'' areas lined with old clear-
cuts and a spider web of roads that would make the federal and state 
highway departments envious. Finally, states and local governments 
commented and testified that the Roadless Rule would put a halt to 
nearly any human activity, even in areas that were heavily roaded 
already. We were called paranoid and promised revisions once time 
permitted. No revisions have been made and even the slightest intrusion 
into these so-called roadless areas to manage pine beetle killed swaths 
of our dying forests--through the existing road network, mind you--has 
been met with years of delay and a bureaucratic two-step only befitting 
a dance hall. Our fears were well-founded then, and history will no 
doubt reveal that our fears today, relative to SO 3310, are equally 
justified.
    From the other side of the Potomac River, President Obama's 
Executive Order to trigger regulatory reform is about 50 years past 
due. Most certainly, it came about a month late relative to the 
issuance of SO 3310. We can do better than a half-baked, one-sided and 
likely illegal concoction to manage our public lands and the jobs and 
revenues we derive from them. Too much is at stake to leave the 
decision to a faction of our country who can barely stand the thought 
that we would even walk on certain lands. For too long the pendulum of 
public discourse relative to the public's lands has been allowed to 
swing wildly from side to side, never resting in the thoughtful middle. 
We owe the next generation a better discourse and a shot at a good job 
and stable community, state and country. Secretarial Order 3310 is no 
prescription for that sort of future. We can and must do better.
    As an elected official, I easily tire of those that appear at 
commission meetings and rail against a proposal but never offer a 
thought as to how to fix a problem. Clearly, SO 3310 should be 
rescinded, along with the guidance to implement the Order. It is not 
supported by the law and is contrary to thoughtful public policy. New 
wilderness designations are and should remain the province of Congress.
    Should the Department of the Interior re-engage a process to set 
aside millions of acres from FLPMA's multiple-use mandate, it will and 
should meet a very skeptical reception. But, in the event that the 
Department does proceed on such a course, it should only do so after 
offering meaningful notice to and full consultation and coordination 
with city, county and state governments--not just the select few in the 
environmental community that were privileged enough to be invited to 
the process with SO 3310. Then, the Department must be funded to 
complete the required inventories in a thoughtful and science-based 
manner.
    The inventories should include all potential uses and should not be 
conducted with an eye towards finding ``lands with wilderness 
characteristics.'' These inventories must be blind to motive and 
ultimate management and, instead, focus on the reality of our present 
circumstance and the actual baseline scenario from which the planning 
effort should emanate. This has been a constant refrain of every local 
cooperating agency in every BLM plan revision to date in Wyoming, which 
has universally been met with admonitions from the BLM that the 
development of such ``Analysis of the Management Situation'' data is 
not and will not be a priority in the revision.
    In the narrow event that some new protection is required, where it 
impacts private property rights--the affected rights should be fully 
and fairly compensated, but only after the protection is very narrowly 
tailored and made to fit within our public land laws, a tough task to 
be sure, given the nature of those laws. These protections should never 
be drawn to impede the full use of school trust lands and other state 
and local land, either through direct proscriptions tied to the land 
itself or as a function of reduced or discontinued access to the 
parcel.
    To close, the law is clear to preclude even a partial 
implementation of SO 3310. Where the Administration cites to overly 
generalized legal theories to support the Secretarial Order, the law is 
rife with specific prohibitions to not proceed on the course outlined 
in SO 3310 and its implementing regulations. Even in the quietest 
corner of Wyoming, hundreds of jobs and billions of dollars are at 
stake--all to offer the environmental movement another bite at an apple 
that they didn't think to take or were not allowed to take before 1993. 
But almost more importantly, our custom and culture are at stake. From 
the family ranch that has been in production for over 100 years to our 
ability to grab hold of and actively engage our land, SO 3310 requires 
that we elevate so-called ``wilderness use'' above every other use. 
Even if this intrusion into our nation's multiple use mandate is for 
the briefest time--during the pendency of an inventory or otherwise--it 
is an unlawful step on a very slippery slope toward longer and even 
permanent limitations being placed on the landscape. Such efforts, 
being contrary to our laws and the weight of other public laws and 
expectation, must be stopped in their tracks and erased from the public 
discourse, lest they be allowed to lay dormant, germinate and take root 
at a later date. They have no place on our landscape, absent 
Congressional direction to the contrary.
                                 ______
                                 

   ATTACHMENT ``A'' SUBMITTED BY COMMISSIONER JOEL BOUSMAN for ``The 
 Impact of the Administration's Wild Lands Order on Jobs and Economic 
                         Growth'' March 1, 2011

January 28, 2011

Robert V. Abbey, Director
Bureau of Land Management (BLM)
1849 C Street N.W. Room 5655
Washington, DC 20240

Re: Comments on Wild Lands Policy Manuals

Dear Director Abbey:

    The Wyoming County Commissioners (hereinafter WCCA) submits the 
following comments on the draft Manuals that are said to implement the 
Wild Lands Policy. While the Bureau of Land Management (BLM) notice 
does not specifically invite public comment or prescribe a deadline, 
the WCCA believes that public comment is legally required. In addition, 
BLM is legally required to coordinate with the local governments in 
both the development and implementation. The WCCA hopes that instead of 
implementing the Secretarial Order and the Manuals, the BLM will 
proceed to honor its coordination mandate and withdraw both Manuals in 
order to reassess the Wild Lands Policy and the adverse impacts on 
rural communities throughout the West.
    The WCCA is a nonprofit organization formed to strengthen the role 
and communicate the needs of county government. The WCCA members 
include county commissioners from all twenty three (23) counties in 
Wyoming. The use of public lands is an extremely important issue to 
Wyoming counties.

        1.  Summary of Comments

                <bullet>  The Secretary lacks the legal authority to 
                create Wild Lands, because Congress reserved the 
                creation of wilderness to itself and the Wild Lands 
                Policy contradicts the statutory mandates found in the 
                Federal Land Policy and Management Act (FLPMA).
                <bullet>  The Wild Lands are the same as wilderness 
                study areas (WSAs), only the name is changed. Any 
                authority to create new WSAs expired October 21, 1993.
                <bullet>  The Wild Lands Policy contradicts the 
                commitments made to the State of Utah, the U.S. 
                Congress and the public by the Secretary to honor the 
                Settlement Agreement that he made to Senator Bennett in 
                his letter of May 20, 2009. (Answering Yes to the 
                question from Senator Bennett ``Do you agree that 
                currently the Department has no authority to establish 
                new WSAs (Post-603 WSAs) under any provision of law, 
                such as the Wilderness Act of [sic] Section 202 of 
                FLPMA?'' The Secretary also stated BLM had no authority 
                to impose nonimpairment management on non-WSA lands. 
                The adoption of the Wild Lands Policy also makes a 
                mockery of the Secretary's pledge to collaborate and 
                cooperate on public land controversies with the Utah 
                Governor and the Utah local governments in the summer 
                of 2010.
                <bullet>  The Wild Lands Policy violates the Settlement 
                Agreement between the State of Utah, School and 
                Institutional Trust Lands Administration (SITLA) and 
                the Utah Association of Counties (UAC) and the 
                Department of the Interior signed in 2003. The 
                repudiation occurred without the apparent approval of 
                the Department of Justice and without the courtesy of 
                notifying the State of Utah, other than a phone call a 
                few minutes before a press conference.
                <bullet>  Even assuming that the Interior Secretary had 
                the authority to adopt the Wild Lands Policy, BLM has 
                failed to follow following rulemaking procedures that 
                are mandated by FLPMA.
                <bullet>  The Wild Lands Policy will have significant 
                environmental impacts, including increased risk of 
                catastrophic wildfire, which will destroy wildlife 
                habitat, increase soil erosion, increase noxious weed 
                infestations and air pollution. BLM WSA policies also 
                demonstrate that there will be the diminished ability 
                to treat noxious weeds, gather wild horses, and to 
                build range improvements to enhance vegetation and 
                rangeland resources. Ironically, the Wild Lands Policy 
                will deal the hardest blow to the `fast track' clean 
                energy projects that will suffer delays and additional 
                costs due to the need for a wilderness inventory and 
                evaluation, and assuming the affected area is deemed to 
                have wilderness character, the additional measures to 
                avoid impairment or the decision process to proceed 
                regardless of the wilderness character finding.

        2.  No Difference Between WSAs and Wild Lands

    Interior is calling the newly-inventoried lands ``Lands with 
Wilderness Characteristics (LWCs)'''' that will be managed as ``Wild 
Lands.'' The only difference between WSAs or wilderness and Wild Lands 
is the name. Interior admits the lack of difference where the DOI Q&A 
published on December 23, 2010, referred to the Wild Lands Manuals as 
`new wilderness guidance. (``Why is it necessary for the BLM to issue 
new wilderness guidance?'') (emphasis added).
    Elsewhere BLM states that the Wild Lands Policy this does not 
create new WSAs. [Wild Lands Inventory and Planning Guidance Questions 
and Answers, p.2] Its own statements are contradicted by the Manuals, 
where BLM employs the same criteria as it used to identify WSAs in 
1978. DM6300-1.13 para.para.A. B. The Manuals also provide that BLM 
will manage the Wild Lands under the same legal criteria as it 
currently manages the WSAs. DM6300-1.13.B.(2); DM6300-2.06 (`The BLM 
shall protect LWCs when undertaking land use planning and when making 
project-level decisions by avoiding impairment of their wilderness 
characteristics''); Id. .22, .24. There is no substantive difference 
between Wild Lands and WSAs, except Interior's use of a different name.

        3.  Wild Lands Policy Fails to Address or Resolve Difficult 
        Legal Issues That Support the Conclusion that Secretarial Order 
        3310 and the respective Draft Manuals are Without Legal 
        Authority

                a.  No Legal Authority to Implement Secretarial Order 
                3310

    Only Section 603 of FLPMA authorizes BLM to manage lands so as to 
not impair their wilderness character and that nonimpairment standard 
was and is reserved for WSAs. Tri-County Cattleman's Association Idaho 
Cattlemen's Association, 60 IBLA 305, 314 (1981). There is no other 
statutory authority and FLPMA, elsewhere, states that all other public 
lands are to be managed so as to not unduly and unnecessarily degrade 
the resources. 43 U.S.C. Sec. 1732(b) [nondegradation standard].
    Given the lack of authority, the Secretarial Order 3310 is a 
usurpation of authority that Congress expressly reserved to itself in 
FLPMA and in the 1964 Wilderness Act to designate wilderness. It also 
directly conflicts with the management standard for public lands 
established in FLPMA.
    BLM proposes to adopt the Wild Lands Policy and implement it 
through two Manuals, based on its discretion in FLPMA. We assume that 
BLM is relying on its authority in Sections 202 and 302 of FLPMA. Those 
provisions do not support BLM's claimed authority to create new WSAs 
under the guise of Wild Lands or to manage them as if they were 
designated WSAs for nonimpairment of the wilderness character.
    Section 202 of FLPMA provides for the development and revision of 
land use plans. 43 U.S.C. Sec. 1712. Land use planning must have 
coordination with state and local governments, public involvement, and 
be consistent with FLPMA. 43 U.S.C. Sec. 1712(a). The criteria for 
developing and revising land use plans, includes (1) using and 
observing the principles of multiple use and sustained yield set forth 
in FLPMA and other applicable laws, 43 U.S.C. Sec. 1712(c)(1); (2) 
interdisciplinary approach, Sec. 1712(c)(2); (3) priority to designate 
ACECs, Sec. 1712(c)(3), and (4) ``to the extent consistent with the 
laws governing the administration of the public lands, coordinate the 
land use inventory, planning, and management activities of or for such 
lands with the land use planning and management programs of other 
Federal departments and agencies and of the States and local 
governments within which the lands are located;''Sec. 1712(c)(9). FLPMA 
further states: ``Land use plans of the Secretary under this section 
shall be consistent with State and local plans to the maximum extent he 
finds consistent with Federal law and the purposes of this Act.'' Id.
    Unlike the definition of multiple use for National Forests, 16 
U.S.C. Sec. 529, FLPMA does not include wilderness as one of the 
statutory multiple uses. 43 U.S.C. Sec. 1702(c). Wilderness has its own 
definition, which is limited to Section 603. (``(i) The term 
`wilderness' as used in section 1782 of this title shall have the same 
meaning as it does in section 1131(c) of Title 16.'' Sec. 1702(i). A 
word search of FLPMA shows that the term `wilderness' is found only in 
the definition section, 43 U.S.C. Sec. Sec. 1702(i) and the wilderness 
review provisions of Section 603, 43 U.S.C. Sec. 1782; 43 C.F.R. 
Sec. 1601.0-5(i).
    When BLM developed the rules governing land use plans, it 
originally defined a resource management plan as including ``the 
initial determination of whether a wilderness study area shall be 
recommended to the President for recommendation to the Congress as 
suitable or unsuitable as an addition to the National Wilderness 
Preservation System.'' 43 Fed. Reg. 58764, 58768-69 (1978) draft 43 
C.F.R. Sec. 1601.0-5(p)(2). The definition of a resource management 
plan was revised to delete reference to wilderness study area 
recommendations. 44 Fed. Reg. 46386 (1979). Thus, BLM has no 
regulations such as in the land use planning chapter authorizing 
establishment of wilderness type areas or authorizing nonimpairment 
management for such lands other than designated WSAs.

                b.  Conflicts with the Settlement Agreement between the 
                Department of the Interior and the State of Utah, SITLA 
                and UAC

    In 2003, the United States and the State of Utah resolved 
litigation that was filed in 1996 to challenge the wilderness 
reinventory of certain public lands that were determined to lack 
wilderness character in BLM's initial wilderness evaluation and 
redetermination of WSAs between the years of 1980 and 1985. Throughout 
that litigation, BLM maintained that the 1996 Utah wilderness 
reinventory was limited to gathering data for only the State of Utah 
due to unusual controversy regarding the original wilderness inventory 
done in the 1980s. State of Utah v. Babbitt, 137 F. 3d 1193, 1199 (10th 
Cir. 1998). At that time and hence, BLM has admitted that the Utah 
wilderness inventory and study authority expired in October of 1993 
with the final deadline to submit public land wilderness 
recommendations to the Congress. State of Utah v. Babbitt, 137 F. 3d at 
1206 n.17 (referring to letter written by former Interior Secretary 
Babbitt ``''I also agree with you that FLPMA's section 603 no longer 
provides authority to inventory BLM land in Utah for wilderness 
values.'').
    The litigation was resolved in 2003 with a Settlement Agreement 
that was based on facts developed in the case showing that BLM had 
managed the new inventory areas as if they were WSAs, thereby harming 
the local economies and state revenues. The Settlement Agreement was 
challenged by the numerous environmental organizations and affirmed by 
the Utah District Court and the Tenth Circuit Court of Appeals. State 
of Utah v. Norton, no. 96-365B (D. Utah 2006), aff'd 535 F.3d 1184 
(10th Cir. 2008).
    The Utah Settlement Agreement provides that ``Defendants [DOI] will 
not establish, manage or otherwise treat public lands, other than 
section 603 WSAs and Congressionally designated wilderness, as WSAs or 
as wilderness pursuant to the Section 202 process absent congressional 
authorization.'''' para.5, Utah v. Norton, Settlement Agreement Sept. 
2005. This provision was based on the plain language of both the 
Wilderness Act that only Congress can designate wilderness, 16 U.S.C. 
Sec. 1131(c), and the provision providing for a 15-year wilderness 
study and nonimpairment management in FLPMA, 43 U.S.C. Sec. 1782.

                c.  Other Conflicts with Utah v. Norton Settlement 
                Agreement

    The first paragraph of the Settlement Agreement provides:
        1.  The authority of Defendants to conduct wilderness reviews, 
        including the establishment of new WSAs, expired no later than 
        October 21, 1993, with submission of the wilderness suitability 
        recommendations to Congress pursuant to Section 603. As a 
        result, Defendants are without authority to establish Post-603 
        WSAs, recognizing that nothing herein shall be construed to 
        diminish the Secretary's authority under FLPMA to:
                a.  manage a tract of land that has been dedicated to a 
                specific use according to any other provision of law 
                (Section 302(a)),
                b.  utilize the criteria in Section 202(c) to develop 
                and revise land use plans, including giving priority to 
                the designation and protection of areas of critical 
                environmental concern (Section 202(c)(3)), or
                c.  take any action necessary, by regulation or 
                otherwise, to prevent unnecessary or undue degradation 
                of public lands (Section 302(b)).
    Secretarial Order 3310 relies on FLPMA, while excluding Section 
603, without identifying which section of FLPMA authorizes the creation 
of new wilderness areas under the new name of Wild Lands. But as noted 
above in the subparagraphs a through c, FLPMA does not in fact 
authorize Wild Lands. They are not ACECs and are not identified in 
accordance with the procedures and criteria for ACECs. 43 C.F.R. 
Sec. 1610.7-2.
    The Wild Lands are to be managed to not impair wilderness 
characteristics, e.g. DM6300-1.13.B. (2); DM6300-2.06. All public lands 
that are not WSAs are to be managed to avoid unnecessary or undue 
degradation. 43 U.S.C. Sec. 1732(b). Finally, no other law authorizes 
the Secretary to create Wild Lands. Perhaps due to the lack of 
authority, Secretarial Order 3310 does not cite to a specific law.
    Paragraph 2 of the Settlement Agreement also provides
        The 1999 Utah Wilderness Inventory shall not be used to create 
        additional WSAs or manage public lands as if they are or may 
        become WSAs, and the inventory information will be evaluated 
        for its validity and utility at such time as changes are made 
        to the appropriate land use plan.
    The Wild Lands designation appears to apply to the Utah wilderness 
reinventory areas and any other area currently pending before Congress, 
because they are citizen proposed wilderness. DM6300-2.04.C. The 
Manuals do not address what BLM should do in Utah, where BLM analyzed 
all of the citizen proposed wilderness in a supplemental EIS.
    Paragraph 5 of the Utah Settlement Agreement states that 
``Defendants will not establish, manage or otherwise treat public 
lands, other than Section 603 WSAs and Congressionally designated 
wilderness, as WSAs or as wilderness pursuant to the Section 202 
process absent congressional authorization.''
    The Wild Lands Policy directly contradicts this provision. No law 
has authorized the Interior Secretary to treat public lands as WSAs 
[Wild Lands] or as wilderness, except for the WSAs established pursuant 
to the Section 603 wilderness review program or the areas designated by 
Congress. The Secretary, nevertheless, has taken it upon himself to do 
so.
    In Paragraph 6 of the Utah Settlement Agreement, the Secretary 
agreed that ``Defendants will refrain from applying the IMP, H-8550-1, 
to BLM lands other than the WSAs established during the Wilderness 
Review pursuant to Sec. 603.'' The Wild Lands Policy Manuals 
specifically apply nonimpairment management to the identified Wild 
Lands. DM 6300-2.24. There is no question these are `lands other than 
the WSAs established during the Section 603 wilderness review.'
    The Interior Secretary misrepresented his commitments to the law. 
Notably, when the current Deputy Secretary of the Interior testified 
before Congress on this issue (in order to be confirmed); he assured 
Congress that ``BLM does not have authority to apply the non-impairment 
standard to non-WSAs.'' Less than two years later, the Interior 
Department has adopted a ``Wild Lands'' policy that mandates 
nonimpairment management for the new Wild Lands that are not WSAs. See 
draft H-6300-2.24. This policy has been adopted without any stated 
basis for the 180-degree change in the interpretation of the law 
regarding the authority of the agency.

                d.  Wild Lands Policy Making Wilderness Management a 
                Priority Contradicts FLPMA

    The Wild Lands Policy establishes a presumption in favor of 
wilderness or Wild Lands while excluding the statutory principal or 
major multiple uses established in FLPMA. 43 U.S.C. Sec. Sec. 1702(l); 
1712(e). This presumption in favor of wilderness management may only be 
overcome by a specific evidentiary demonstration that the proposed use 
should proceed despite impairment of alleged wilderness. H-6300-2.24. 
It also makes wilderness a priority for public land management, Sec. 
Order 3310, Sec. 1; H-6300-2.06, again contrary to FLPMA's direction 
dedicating the public lands to primary uses that do not include 
wilderness.
    FLPMA does not authorize wilderness as a priority for public land 
management. In fact, FLPMA does not include wilderness in its 
definition of multiple use. 43 U.S.C. Sec. 1702(c). FLPMA creates, 
however, priority multiple uses, for timber, domestic livestock 
grazing, mining and mineral development, outdoor recreation, fish and 
wildlife habitat, and rights-of-way. 43 U.S.C. Sec. 1702(l). Of these 
principal multiple uses, timber, post-1976 mining and mineral 
development, and rights-of-way are prohibited in WSAs. H-8550-1, 
Introduction. Fire suppression are limited due to likely impairment of 
wilderness character and policy favoring using fire for resource 
benefits. H-8550-1, para.12 (emergency only). While the IMP permits 
snowmobiles and motorized vehicles on existing roads, BLM RMPs closed 
WSAs to motorized travel. See e.g. Kemmerer RMP 2-32; Rawlins RMP 2-32, 
2-39. Other multiple uses are permitted only on a limited basis, i.e. 
grazing without increases in forage and without any new structures or 
range improvements. H-8550-1, para.13 (permitting maintenance only of 
range improvements that existed as of October 21, 1976). The WSA 
management Manual also limited motorized outdoor recreation to a few 
specific exceptions, although it does allow bicycles, Id. para.11. 
Thus, it is apparent that the Wild Lands Policy seeks to rewrite FLPMA 
without the benefit of any change in the law by Congress.

                e.  Contradictions with BLM Policy

    The Wild Lands Policy requires that BLM implement ``non-
impairment'' management for all public lands that BLM identifies as 
having wilderness character. H-6300-2.24. The nonimpairment standard by 
law applies only to congressionally designated Wilderness or WSAs, 43 
U.S.C. Sec. 1782(a), H-8550 (1997). The extension of the nonimpairment 
management to other lands violates the FLPMA direction that all other 
lands be managed to avoid undue and unnecessary degradation or non-
degradation standard. 43 U.S.C. Sec. 1732(b); 43 C.F.R. Sec. 3809.1(a).
    BLM concluded, consistent with earlier decisions of the Interior 
Board of Land Appeals, that BLM does not have the authority to manage 
new lands based on the non-impairment standard. See Director's 
Instruction Memorandum No 2003-274 (September 2003), (``Following the 
expiration of the Section 603(a) process [in 1993], there is no general 
legal authority for the BLM to designate lands as WSAs for management 
pursuant to the non-impairment standard prescribed by Congress for 
Section 603 WSAs. FLPMA land use plans completed after April 14, 2003 
will not designate any new WSAs, nor manage any additional lands under 
the Section 603 non-impairment standard.'' (emphasis and bracket 
added)). See also Colorado Environmental Coalition, 386 IBLA 386, 391-
396 (2004); Southern Utah Wilderness Alliance, 166 IBLA 270, 290 
(2005).

        4.  Wild Lands Policy Unnecessary Except to Limit Multiple Uses 
        and Harm Economies of Western Communities

    FLPMA allows BLM to protect individual resources independent of the 
concept of wilderness. Wilderness is defined as:
        A wilderness, in contrast with those areas where man and his 
        own works dominate the landscape, is hereby recognized as an 
        area where the earth and its community of life are untrammeled 
        by man, where man himself is a visitor who does not remain. An 
        area of wilderness is further defined to mean in this chapter 
        an area of undeveloped Federal land retaining its primeval 
        character and influence, without permanent improvements or 
        human habitation, which is protected and managed so as to 
        preserve its natural conditions and which (1) generally appears 
        to have been affected primarily by the forces of nature, with 
        the imprint of man's work substantially unnoticeable; (2) has 
        outstanding opportunities for solitude or a primitive and 
        unconfined type of recreation; (3) has at least five thousand 
        acres of land or is of sufficient size as to make practicable 
        its preservation and use in an unimpaired condition; and (4) 
        may also contain ecological, geological, or other features of 
        scientific, educational, scenic, or historical value.
16 U.S.C. Sec. 1131(a).
    BLM has authority to protect public land resources for scenic 
quality, special recreation management, historical resources, 
ecological resources or special or unique wildlife habitat as ACECs. 
See H-1601, para.5.f.3, p. 21 (2005). When BLM uses its authority to 
specifically protect certain scenic or historic resources, it achieves 
the specific protection without wilderness management under the 
nonimpairment standard. Scientific, ecological or historical resources 
are listed in only one category of the wilderness definition, 16 U.S.C. 
Sec. 1131(c)(4); 43 U.S.C. Sec. 1702(i). Elements 1 through 3 of the 
wilderness definition, 16 U.S.C. Sec. 1131(a) (1)-(3) are unique to the 
concept of wilderness. A wilderness area must be natural and without 
permanent structures, such as roads, transmission lines, or water 
reservoirs. It must feature outstanding recreation or solitude, and it 
must be greater than 5000 acres. Each of these elements must be met to 
fit the definition of wilderness.
    As part of each land use plan, BLM assigns a visual resource 
management (VRM) class, based on the inventory and adjusted by the land 
use allocation. H-8410-1. BLM also designates areas for special 
management, H-1601-1, para.5.f.3, p. 21, including wildlife habitat or 
recreation. BLM manages cultural resources pursuant to National 
Historic Preservation Act (NHPA), 16 U.S.C. Sec. 470, National Historic 
Trails Act, 16 U.S.C. Sec. 1241, and the Archaeological Resources 
Protection Act (ARPA), 16 U.S.C. Sec. 469, 470aa; H-8110-1, H-8130-1, 
H-8140-1.
    For areas that are subject to irreparable harm and which have 
unique resource or process values, BLM can designate them as ACECs. 43 
C.F.R. Sec. 1610.7-5. H-1601-1, I.A.3., V.B.5. ACECs undergo additional 
analysis to document their regional or national significance, the 
threats, and the proposed boundaries. There is also a separate 60-day 
comment period in the Federal Register. 43 C.F.R. Sec. 1610.7-5(b).
    It is unclear what the Wild Lands Policy will add, except to remove 
more public land from the FLPMA's principal multiple uses, for rights-
of-way and mining and mineral development, popular forms of outdoor 
recreation, such as snowmobiles and ATVs, and imposing additional 
restrictions on rangeland projects that are needed to meet rangeland 
health standards and to address sagebrush habitat. The Wild Lands 
Policy is less about protecting resources and more about stopping 
economic uses of the public lands.

        5.  Authority Cited in Secretarial Order 3310 Does Not 
        Authorize the Secretary to Effect Significant Changes in Public 
        Land Management Without Rulemaking Procedures

    Secretarial Order 3310 is purportedly issued in accordance with the 
`housekeeping' authority (5 U.S.C. Sec. 301), but that statute only 
authorizes the head of a department to issue `regulations.' The term 
regulations refers to rules issued in accordance with the 
Administrative Procedure Act (APA), 5 U.S.C. Sec. 551, 553-556. 
Secretarial Order 3310, however, does not contain direction to issue 
regulations. Instead, it directs BLM to issue as go final two draft 
Manuals, which are merely internal guidance to BLM staff. Arizona 
Silica Sand Co., 148 IBLA 236, 243 (1999) (``The provisions of the BLM 
Manual do not have the force and effect of law; nevertheless, as this 
Board has held on numerous occasions, they are binding on BLM.''); 
Howard B. Keck, Jr., 124 IBLA 44, 55 (1992). The Manuals implementing 
Secretarial Order 3310 are being adopted without compliance with 
rulemaking procedures, because there is no notice of public comment and 
no compliance with other procedures that govern APA rulemaking.
    The Draft Manuals were not issued by way of a proper APA process, 
in violation of FLPMA, with proper notice and comment. 43 U.S.C. 
Sec. 1740, 1712(a). FLPMA provides that its provisions shall be 
implemented through rulemaking. 43 U.S.C. Sec. 1740 (``The Secretary, 
with respect to the public lands, shall promulgate rules and 
regulations to carry out the purposes of this Act and of other laws 
applicable to the public lands.'').
    The Order purports to implement the Secretary's authority under 
FLPMA, with the exception of Section 603, 43 U.S.C. Sec. 1782. It would 
appear that Secretarial Order 3310's reliance on Manuals is a 
deliberate effort to avoid complying with the law.
    Rulemaking procedures would also require review by the Office of 
Management and Budget, review by the Small Business Administration to 
evaluate the impacts on small businesses and rural local governments, 5 
U.S.C. Sec. Sec. 601-611, compliance with the Paperwork Reduction Act, 
44 U.S.C. Sec. 3501, as well as notice and public comment. 5 U.S.C. 
Sec. 552.

        6.  Significant Impacts on the Human Environment Ignored

    Secretarial Order 3310 also significantly affects the human 
environment under the National Environmental Policy Act (NEPA), which 
requires that the Secretary prepare an environmental impact statement 
(EIS), including an analysis of the economic impacts of the action, 
before undertaking the action. 42 U.S.C. Sec. 4332(2) (C); 40 C.F.R. 
Sec. 1508.27; H-1790-1, para.3.2.1.
    The BLM draft Wild Lands Manuals provide that all public land 
projects must be delayed for an inventory and study of wilderness 
character on the affected public lands. H-6300-1. Thus, current energy 
projects, including `clean energy projects' must be halted or delayed 
until the inventory and study are completed. It is likely that 
transmission lines and wind turbines will impair wilderness character, 
thus conflicting with the Wild Lands Policy. If these projects are to 
go forward, BLM must decide to impair the alleged wilderness 
characteristics. H-6300-2, para..24. The additional time for a 
wilderness inventory and study with public comment will add years to 
the approval process for these supposedly `fast track' projects. The 
clean energy industry is already suffering due to project delays, 
government delays in distribution of funds and loans, and reallocation 
of funds to other programs. [WSJ Dec. 22, 2010 editorial regarding need 
for additional tax incentives to maintain wind and solar energy 
industry which has lost jobs]. The Wild Lands Policy will add to delays 
and cost, thus making `clean energy' even more expensive than it 
already is.
    Clean energy projects will adversely affect the alleged wilderness 
characteristics. BLM must decide whether to deny the project, revise it 
to reduce the impacts, or to allow it even though it will impair 
wilderness character. Wind energy will require permanent installation 
of turbines and transmission lines, both of which are inconsistent with 
nonimpairment. Moreover, wind turbines kill birds and permanently alter 
the visual resources. This is equally true for solar projects that 
require permanent installations on large areas of land.
    The additional transmission lines necessary for wind and solar 
energy are also permanent structures that change the views. They must 
be located outside of existing natural gas pipeline rights-of-way for 
safety reasons and thus require separate environmental review.
    Requiring these projects to bury transmission lines across 
thousands of miles would also impair the economics of clean energy that 
currently relies on tax incentives and government funding.
    The Order will have additional environmental impacts. Wild horse 
management would be restricted. H-8550-1, III.E (limiting gathers to 
fixed wing or helicopters). Fire management will also be impaired due 
to policies that restrict fire suppression in WSAs to emergencies and 
other policies that favor wildfire in wilderness. Post-burn areas 
typically are infested with noxious weeds. Sage brush habitat lost to 
wildfire could take more than 50 to 60 years to recover due to soils 
and arid climates typical of Wyoming public lands.
    NEPA requires that BLM assess the environmental impacts as well as 
the impacts on the western communities.

        7.  Conclusion

    The Wyoming County Commissioners Association members urge the 
Secretary and BLM to withdraw the misguided and unlawful order. It will 
have significant adverse environmental and economic impacts in the 
rural western states. The rush to implement the order regardless of the 
impacts is both misguided and poor public policy. The harm to western 
communities is out of proportion to any benefits.

Sincerely,

/s/

Joel Bousman
WCCA President, Commissioner, Sublette County, Wyoming

cc: Mr. Don Simpson, Director, Wyoming Bureau of Land Management
                                 ______
                                 
    The Chairman. Mr. Bousman, thank you very much. I 
appreciate that. Commissioner McKee, you are now recognized for 
five minutes.

 STATEMENT OF MIKE McKEE, UINTAH COUNTY COMMISSIONER, VERNAL, 
                              UTAH

    Mr. McKee. Thank you, Mr. Chairman and Members of the 
Committee. Again, I am Mike McKee, County Commissioner of 
Uintah County, Utah. I represent the Utah Association of 
Counties. I also co-chair the Western Homestead Legacy 
Alliance, representing counties and multiple user groups from 
across the West who are deeply concerned about Secretarial 
Order 3310, the Wild Lands Policy.
    In Uintah County, only 15 percent of our land mass is 
privately owned. This fact underscores the importance of having 
sound policy and procedure on our public lands. Policy changes 
during the past two years have had a chilling effect on the 
economy of our county. Many of our citizens have had to leave 
and relocate, hoping that the jobs will return and many times 
leaving family members behind.
    The combination of regressive gas leasing policies and the 
new Wild Lands Policy will result in even further job loss and 
negative impact to our area. Several years ago, the BLM was 
processing 1,000 to 1,300 permits to drill per year. Recently, 
State Director of the BLM in the State of Utah told us that 
they anticipated to process 100 permits for the coming year. We 
are deeply alarmed.
    Our community is suffering, and this suffering can be 
directly tied to the policies of the Department of the 
interior. In Uintah County--this comes from a University of 
Utah study--50 percent of our jobs, 60 percent of our economy, 
is directly tied to the extractive industry. Our county's 
surveyor recently told us that he had six survey crews. Today 
he has one.
    I recently visited with a CEO who has a business with a 
cutting edge technology in the natural gas industry. Yet he can 
see the handwriting on the wall. One year ago, 40 percent of 
his business was local. Today, it is just 5 percent. He will 
likely move his headquarters, having just returned from Dubai 
as an option.
    Why would a business owner even consider such an option 
with all the unrest in the Middle East? What is wrong with this 
picture? Is the business environment better in the Middle East 
than our own public lands?
    There are numerous problems with this new order. The 
proposed wild lands designations do not meet the actual 
definitions of wilderness, but are being managed as wilderness, 
even with dirt roads, livestock, development, drilling rigs, 
pipelines, transmission lines. I had pictures that I was going 
to present that would roll through as we were doing this today, 
but apparently the system is down. But I would like to present 
that as part of the record.
    The Chairman. They will be part of the record.
    Mr. McKee. OK. Thank you.
    [NOTE: The photographs submitted for the record by Mr. 
McKee have been retained in the Committee's official files.]
    Mr. McKee. Let me be more specific. Over the last close to 
a decade, starting in 2001, BLM began a revision of the 
resource management plans for Utah in the Uintah Basin where I 
live. This process was governed by NEPA, was open to the 
public, and Uintah County participated as a cooperating agency. 
Thousands of hours were spent. Well over a million dollars of 
our county funds, if you include the time, was put into this. 
Many other entities, including environmental groups, 
participated to bring to fruition a management plan that takes 
a comprehensive look at all the public land uses in Uintah 
County.
    Although long, sometimes painful, and playing to no one 
group as a favorite, the process worked according to the law. 
Concessions were made on all sides, and nobody got everything 
that they wanted. There is more, though. Toward the end of the 
Vernal RMP, an additional process was added, which was called 
Alternative E. This took an additional two years. And the idea 
here was to look at wilderness quality. To do the full 
evaluation of wilderness quality issues, two years were added 
to that process, and that became part of the decision, part of 
the ROD, record of decision, in the RMP.
    The Wild Lands Policy also directly repudiates the Utah 
Wilderness Settlement Agreement of 2003. In 2003, the 
Wilderness Settlement Agreement essentially said--I am having 
to hurry here--but essentially, outside of the section 603, 
Wilderness Study Areas, these lands were not to be managed as 
wilderness, although they become wilderness. Obviously, with 
this order, you can see that has been turned upside down.
    Let me just mention real quickly, Mr. Chairman, Utah is a 
treasure chest of natural resource. Uintah County has a great 
opportunity to help America become energy independent. Utah has 
6.7 trillion cubic feet of proven natural gas reserves, 
conventional oil reserves of 286 million barrels. We also have, 
according to the Rand report, a staggering 56 billion to 321 
billion barrels of reserves there as well.
    Companies are ready to invest large sums of money in our 
county. All told, these investments could exceed well over $15 
billion over a ten-year period. However, the regulatory 
uncertainty and the adverse policies--and this is in my area, 
this $15 billion. The regulatory uncertainty and the adverse 
policies of the Department of the Interior is preventing these 
companies from investing, and may drive the investments 
overseas. Once this investment is gone, it is very difficult to 
bring it back.
    Our natural resources should be responsibly developed 
pursuant to the laws of the land. We have the responsibility to 
carefully develop our resources for America for energy 
security, for our economy, for jobs, and for our citizens. The 
role of Congress is clear in the terms of wilderness policy, 
and I urge this Congress to preserve its authority and reverse 
this policy to save my county and our country from further 
economic harm.
    We urge this Committee to take every possible action to 
repeal the Wild Lands Policy. Thank you very much.
    [The prepared statement of Mr. McKee follows:]

       Statement of Mike McKee, Commissioner, Uintah County Utah

    Mr. Chairman and Members of the Committee,
    I am Mike McKee, County Commissioner of Uintah County, Utah where I 
represent over 30,000 citizens. I also represent the Utah Association 
of Counties from the State of Utah, who recently joined Uintah County 
in a legal challenge to the Wild Lands Policy Executive order 3310 
(Wild Lands Policy). I co-chair The Western Legacy Homestead Alliance, 
which represents counties and multiple user groups from the west, 
including Wyoming, Colorado, Idaho, Nevada and Arizona, who are deeply 
concerned about Wild Lands Policy. Today I will more specifically speak 
of Uintah County and counties in Utah.
    Thank you for holding this hearing on the Wild Lands Policy and its 
negative impacts on my constituents. In Uintah County we are proud of 
our history, our heritage, and the multiple uses on our public lands 
from recreation to development of our natural resources.
    Uintah County is the largest producer of natural gas in the state 
of Utah, with 63% of the State's natural gas coming from our County. 
Oil and gas have been produced in Uintah County since the early 1900's. 
We remain committed to responsible development of our public lands in 
an environmentally safe manner.
    In Uintah County, only 15% of our land is privately owned. Policy 
changes during the past two years have had a chilling and detrimental 
effect on the economy of our County. In 2009, Uintah County lost 3,200 
jobs in the mining and extraction industry. Many of our citizens are 
relocating to other states in order to retain employment and family 
members are left behind with the hope that the jobs will return. Jobs 
and the economy are not the only consequences of this administration's 
policy actions. Uintah County is concerned about homelessness, drug 
abuse, domestic violence, crime, and other social impacts. Jobs and 
economy are important to the citizens of Utah and Uintah County. In 
Uintah County, 50% of our jobs and 60% of our economy are tied to the 
extractive industry. This fact underscores the importance of sound 
policy and procedure on our public lands. The Wild Lands Policy issued 
by the Secretary will make all of these lands off limits in the 
predictable future for natural gas production, oil production, and 
shale oil, which are in such rich abundance.
    Our community is suffering, and this suffering can be directly tied 
to policies of the Department of Interior.
    Wild Lands Policy which the Interior Secretary signed on December 
23, 2010 directly repudiates a Settlement Agreement signed by the State 
of Utah, the Utah School and the Institutional Trust Lands 
Administration (SITLA), the Utah Association of Counties and Department 
of the Interior. The Interior Department incorrectly describes Wild 
Lands Policy as a revocation of the Norton no-more wilderness policy. 
The fact is that BLM adopted an instruction memorandum to implement an 
out-of-court settlement that resolved litigation between the state of 
Utah and the Department of the Interior.
    Interior officials continue to say that there is no violation of 
this Settlement Agreement, presumably based on the incorrect premise 
that ``Wild Lands'' are different from ``Wilderness Study Areas'' or 
WSAs. But aside from the name, they are identical and are treated the 
same.
    In the Settlement Agreement, the Department of the Interior 
committed to not manage public lands outside of WSAs as if they were 
WSAs. The Wild Lands Policy in fact manages non-WSA public lands under 
the same protective framework that DOI has applied to WSAs for more 
than 30 years. The Wild Lands Policy clearly violates the Utah 
Wilderness Settlement Agreement.
    In the Settlement Agreement, the Department of the Interior also 
pledged not to create new WSAs. The Wild Lands Policy does just exactly 
that and changing the name does not make it any less of a violation.
    No federal law gives the Interior Secretary the authority to 
implement Secretarial Order 3310, the Wild Lands Policy.
    In addition to being poor policy, the Wild Lands Policy is illegal. 
Under the U.S. Constitution, Congress has the sole authority to 
regulate federal lands. For public lands, Congress delegates that 
authority to the Interior Secretary in a series of federal laws, 
including the Bureau of Land Management Organic Act or the Federal Land 
Policy and Management Act (FLPMA). For wilderness designation, Congress 
chose to retain the sole power to designate wilderness. 16 U.S.C. 
Sec. 1131(a).
    The Wild Lands Policy attempts to override the laws that apply to 
public lands in several key respects:
        <bullet>  The Wild Lands Policy declares protection of lands 
        with wilderness character a management priority. SO 3310 
        para.1.
        <bullet>  FLPMA dedicates the public lands to multiple use, 
        with principal emphasis on six multiple uses: including 
        domestic livestock grazing, fish and wildlife development and 
        utilization, mineral exploration and production, rights-of-way 
        [including transmission lines and pipelines], outdoor 
        recreation, and timber production. 43 U.S.C. Sec. 1702(l).
    FLPMA does not include the word `wilderness' in its definition of 
multiple use. 43 U.S.C. Sec. 1702(c). It defines `wilderness' only with 
respect to the now-expired wilderness review program in Section 603.
    The Wild Lands Policy attempts to revise federal law by changing 
land management priorities to promote wilderness protection over all of 
the other uses that, by federal law, apply to public lands. This 
contradicts FLPMA, which dedicates the public lands to other uses, 
several of which, like mineral exploration and development, conflict 
with wilderness management. It also contradicts the Wilderness Act, 
which reserves to the sole authority to designate wilderness only by 
Congress.
    The Wild Lands Policy assumes that the Secretary can manage public 
lands to protect wilderness, although FLPMA provided for a single and 
limited wilderness review program. FLPMA defines wilderness solely in 
terms of Section 603, which prescribed a 15-year wilderness review 
period. It is widely accepted that the authority to study public lands 
for wilderness expired in 1991, 15 years after FLPMA was enacted. There 
is no new authority to manage public lands for wilderness protection 
without attempting to rewrite FLPMA, and only Congress can do so.
    It is also worth pointing out that federal agencies must involve 
the public and local governments when making a significant public land 
management change. These procedures ensure that there is a robust 
discussion of the effects of a proposal, and in the case of federal 
lands, there is coordination with state and local governments. In his 
haste to issue this policy right before the Christmas holiday, the 
Interior Secretary ignored these procedural steps.
    The Interior Department also ignored the significant adverse 
environmental impacts that will come from the Wild Lands Policy. 
Proponents of this policy forget that the Wild Lands Policy will also 
prohibit wind turbines and transmission lines that are necessary for 
the green energy promoted by the Interior Secretary. For two years we 
have heard how the Administration will fund and subsidize green energy 
for wind turbines, solar energy farms, and the transmission lines 
necessary to put these alternative energy projects into the electrical 
power grid. Many energy projects are proposed for public lands, without 
considering the fact that these structures will violate the Wild Lands 
Policy. The structures associated with wind and solar energy are 
prohibited as permanent development and cannot be said to conform to 
the visual standards applied to wild lands. These important impacts are 
entirely ignored in the discussion by the Interior Department. It also 
appears that the Energy Department, which is issuing millions of 
dollars in incentive grants and loans, is not coordinating with the 
Interior Department which has adopted a policy that will prohibit or 
certainly delay implementation of any project.
    Since early 2009, DOI has imposed a de facto moratorium on drilling 
and leasing on these lands. Uintah County initiated litigation in 
October of 2010 because the management policies violated the Settlement 
Agreement, contradicted the approved land use plans for public lands, 
and also were harming the local economy.
    The Wild Lands Policy could potentially close millions of acres to 
oil and gas leasing in the State of Utah. BLM previously studied the 
lands that were said to have wilderness character when it revised the 
land use plans between 2000 and 2008, so we know the scope of the lands 
which may be impacted in Utah. These lands do not meet the actual 
definition of wilderness but are being called wilderness even with dirt 
roads, livestock developments, oil and gas rigs, pipelines and 
transmission lines.
    We are concerned that the Wild Lands Policy now creates defacto 
wilderness. In our County, this policy is already negatively affecting 
areas that were open for multiple use activity. Recently signed 
Resource Management Plans are being turned upside down by this policy. 
For example, current road improvement requests, oil and gas leases, and 
permits to drill are being affected based on Wild Lands Policy.
    Historically, Uintah County, on behalf of its citizens, has fully 
participated in federal land management forums in numerous land 
management issues, including resource management plans, oil and gas 
leasing decisions, transportation corridors on Federal lands, and 
wilderness issues. The County has expended a tremendous amount of 
resources over the past 20 years to engage in these processes in a 
responsible manner and representing our constituents. When Secretary 
Salazar announced the Wild Lands Policy just two days before Christmas 
in 2010, it was not only a shock to our constituents but was clearly an 
effort to circumvent established public processes that have governed 
our federal lands. In an economy and energy situation that is already 
at rock bottom, this action is further proof that Secretary Salazar has 
little regard for jobs or energy security in the West.
    Over the past decade, the BLM began a revision of the Resource 
Management Plan for Utah and the Uintah Basin. This process, governed 
by NEPA, was open to the public and Uintah County participated as a 
cooperating agency. Thousands of hours and well over a million dollars 
of tax payer funds were expended by Uintah County. Other entities 
participated to bring to fruition a management plan that takes a 
comprehensive look at all uses of public lands in Uintah County. 
Although long, sometimes painful, and certainly no one group liked 
everything in the plan; this is what NEPA contemplated. Concessions 
were made on all sides. Uintah County supports open, public processes 
where all views are heard and considered, and then the hard working 
professionals of the BLM make informed decisions. All of the issues the 
Secretary claims to address under the new Wild Lands Policy are 
addressed in the Resource Management Plan--the only difference is that 
the Secretary clearly disagrees with the outcome of this Plan. Instead 
of attempting to short circuit the NEPA process, we urge the Secretary 
to vigilantly defend the BLM's Resource Management Plans. We need to 
end the practice of settling claims with litigants for the sole purpose 
of setting new policy outside the bright light of public input. Simply, 
the Wild Lands Policy undermines the Resource Management Plans.
    We also note that toward the conclusion of the Vernal Resource 
Management Plan process, alternative ``E'' was added. This 
alternative's sole purpose was to evaluate the full spectrum of 
potential wilderness and the management thereof. This process required 
an additional two years to complete. Director Bob Abbey, in a meeting 
recently held in Salt Lake City, Utah, stated that the reason for 
reanalyzing work that was already complete was because not enough 
wilderness was found. This continual upheaval, unrest, change of 
direction, and philosophy, is discouraging. Either the land has 
wilderness quality or it does not. Why, with the huge deficits of 
spending that the Government is going through, do we have the BLM redo 
that which they have already completed?
    In real terms, this policy will make it economically less viable 
for natural resource developers to operate on federal lands in the 
West. The State of Utah processes applications for permit to drill 
(APD's) in 35 days, while BLM takes an average of one and a half years. 
The Wild Lands Policy will add years to the permitting process and 
effectively further reduce access to natural resource production. It 
will yet create another layer of unnecessary bureaucracy that will only 
result in the further loss of jobs in my County and in other public 
lands counties throughout the West. Moreover, Uintah County will be 
forced to spend precious tax payer dollars to fight our own government 
to try to force the Department of Interior to live by the law of the 
land.
    The combination of regressive gas leasing policies and the new Wild 
Lands Policy will result in further job losses and economic impact in 
Uintah County and throughout the west. Recently, I visited with a local 
CEO whose business has a cutting edge technology in the natural gas 
industry, yet, he can see the writing on the wall with the current 
policies. He will likely move his headquarters. He just returned from 
Dhabi as an option. Why would a business owner even consider such an 
option with all the unrest in the Middle East? What is wrong with this 
picture? Is the business environment better in the Middle East than on 
our own public lands in Uintah County? Planned and balanced development 
of these resources takes years to move into production. Driving these 
companies overseas is detrimental to our economy and to our energy 
security.
    Unfortunately, today's policies are stopping responsible 
development and endangering America's energy security. This is not a 
spigot you can simply turn on and off on a whim.
    Many companies stand ready to invest large sums of money in our 
County over the next ten years. All told, these investments would 
exceed two billion dollars over a ten year period. However, the 
regulatory uncertainty and the adverse policies of the Department of 
Interior is keeping these companies from investing, and in many cases, 
driving them overseas where U.S. dollars are being invested in foreign 
economies.
    Eastern Utah is a treasure chest of natural resources. Uintah 
County has a great opportunity to help America become energy 
independent. Utah has 6.7 trillion cubic feet of proven natural gas 
reserves, conventional oil reserves of 286 million barrels, much of 
these are found in Uintah County. According to a Rand Report, the 
Uintah Basin has a staggering amount of shale oil ranging from 56 
billion barrels to 321 billion barrels.
    Each morning our newspapers carry disturbing pictures of 
governmental unrest in the Middle East and news of more and larger oil 
supply disruptions. In less than a month, previously stable countries 
in northern Africa and the Middle East have erupted in violent 
demonstrations. The governmental overthrow of Tunisia and Egypt has 
gone viral in Yemen, Libya, Saudi Arabia, and Bahrain with new calls 
for changes in the governments of the region. These shifts in power 
will have profound changes for the future, especially for the United 
States that produces and transports oil from those regions to the 
United States.
    The Wild Lands Policy threatens national security by sharply 
reducing the nation's energy independence. It applies equally to all 
sources of energy from public lands such that the country is made 
weaker at a time when it needs to be stronger and more self-sufficient.
    In addition to this, the Wild Lands Policy will impact the 
education of our children. The State of Utah was granted upon 
statehood, school trust lands, which by State Constitution are mandated 
to generate income to fund schools in the State of Utah. These lands 
are interspersed with federal lands throughout the State of Utah and 
Uintah County. It is commercially unviable to develop these lands for 
natural resources without access to the surrounding lands. If the 
federal lands become off limits to development, State lands go 
undeveloped as well, and education suffers directly from the Federal 
policies.
    To sum it up, the Wild Lands Policy is a short-sighted initiative 
that undermines the interests of this Country and its people. The Wild 
Lands Policy overreaches by revising federal law when only Congress can 
do so. We urge this Committee to take every action possible to repeal 
it.
    Our natural resources should be responsibly developed pursuant to 
the laws of the land. We have a responsibility to carefully develop our 
resources for America, for energy security, for our economy, and jobs 
for our citizens. I commend the House for choosing to de-fund the Wild 
Lands Policy for this current fiscal year and I urge the Senate to 
follow your lead. The role of Congress is clear in terms of wilderness 
policy, and I urge this Congress to preserve its authority and reverse 
this policy to save my County and our Country from further economic 
harm.
    Thank you for your time and I would be pleased to answer any 
questions you might have.
                                 ______
                                 
    The Chairman. Thank you very much, Commissioner. 
Commissioner Robinson, you are now recognized for five minutes.

  STATEMENT OF LESLEY ROBINSON, PHILLIPS COUNTY COMMISSIONER, 
                         MALTA, MONTANA

    Ms. Robinson. Thank you, Chairman Hastings and Members of 
the Committee. I appreciate you letting me testify today. I am 
Lesley Robinson. I am the Chairman of the Montana Association 
of Counties' Public Lands Committee, and a Commissioner from 
Phillips County. I also serve as the Chairman of the National 
Association of Counties' Federal Land Management Subcommittee, 
and serve on the NACO Western Interstate Region Board.
    Phillips County spans 5,213 square miles. We have 
approximately 4,000 people, about 51,000 cattle in our county. 
Ninety-eight percent of Phillips County's 3.2 million acres is 
classified as agriculture land. Approximately 1.1 million acres 
of that is BLM, and 1.5 million is private land.
    Phillips County's economy is dependent on agriculture and 
natural gas production. 2008 Montana agriculture statistics 
state that cash sales of agriculture commodities for Phillips 
County was $87 million, and that is excluding government 
payments. These raw agriculture commodities are further 
processed and transported to other regions of the U.S. and the 
world, generating $434 million in commerce. That is just from 
our county.
    Based on annual consumption levels, Phillips County 
produces enough beef to feel 280,000 people, and enough wheat 
to feed 1.4 million people. Four of the top 15 taxpayers in 
Phillips County are natural gas companies. The direct 
employment from gas production in Phillips County results in 
100 full-time jobs. The natural gas produced in Phillips County 
is enough gas to heat 48,000 homes.
    The active management of public lands is essential to the 
economy of our community. We strongly oppose Federal Land 
Management Agency actions that limit access and multiple use of 
lands that would be available to the public. As the economy 
continues to recover, access to public lands is necessary to 
provide food and fuel to the American people.
    Phillips County is in the heart of the 2.5 million acres 
referred to in the Department of the Interior's leaked memo as 
possible national monument designation under the Antiquities 
Act. We are referred to as some of the largest unplowed areas 
of grassland in the world, and some of the best wildlife 
habitat regions in the Great Plains.
    I am a fourth generation Phillips County rancher, and the 
people of Phillips County have protected these lands and the 
wildlife for over 100 years. We found a way to stimulate the 
economy and our community. We invited BLM Director Robert 
Abbey, the author of the leaked memo, to Malta to hear 
concerns.
    The local gymnasium had close to 2,000 people from all over 
the State of Montana there to listen and voice their concerns. 
And even though the land that was referred to in the leaked 
memo only affected two counties, there were people from all 
over the State of Montana that understood the impacts to 
everyone if this land was designated as a monument. And I could 
put in, or wild land.
    We support the national Monument Designation Transparency 
and Accountability Act, which recognizes the role of local 
county governments in the designation of national monuments and 
ensures review by local elected officials.
    Last November, I was invited to participate in the BLM's 
National Landscape Conservation System Summit. We spent two 
days, as mostly BLM people and others, but we spent two days 
discussing the BLM's land management with no discussion of wild 
lands. And only one month later, Secretary Salazar and Director 
Abbey announced the wild lands directive.
    Special designations such as wild lands will create more 
restrictions on the land. And even if we lose one family from 
the county due to increased restrictions, it will have a 
noticeable negative impact to our economy. I have real concern 
with the growing trend of the current Administration toward 
land designations developed in D.C.
    Local economies suffer from top-down land use decisions. 
Only Congress has the authority to designate land as 
wilderness, but yet wild lands is a designation not subject to 
congressional approval, and undermines the established process 
for land use planning.
    The first stop should be at the local level. And I am not 
referring to the local BLM office. Counties should be fully 
involved in the drafting and the development of any proposal 
impacting lands within the county's jurisdiction. There is a 
push to substantially increase funding for Federal land 
acquisitions. Phillips County has over a million acres of BLM 
land that we receive PLP payments for.
    These payments don't fully replace tax revenues collected 
by private landowners. Increased ownership of land by Federal 
Government would put a burden on the county and the country.
    In conclusion, I would like to reiterate that any decisions 
to change uses on public lands impacts local economies and the 
economy of the United States. Thank you again for giving me the 
opportunity to testify.
    [The prepared statement of Ms. Robinson follows:]

          Statement of Lesley Robinson, County Commissioner, 
                        Phillips County, Montana

    Chairman Hastings, Ranking Member Markey and members of the 
Committee. I appreciate the opportunity to testify on behalf of the 
Montana Association of Counties and Phillips County Montana on ``The 
Impacts of the Administration's Wild Lands Order on Jobs and Economic 
Growth'.
    I am Lesley Robinson, Chairman of the Montana Association of 
Counties Public Lands Committee and a Commissioner from Phillips 
County. I also serve as Chairman of the National Association of 
Counties (NACo) Federal Land Management subcommittee and serve on the 
NACo Western Interstate Region Board.
    Phillips County spans 5,213 square miles. We have approximately 
4,000 people and 51,000 cattle in our county. 98% of Phillips County's 
3.2 million acres is classified as agriculture land. Approximately 1.1 
million acres is BLM and 1.5 million is private land. Phillips County's 
economy is dependent on Agriculture and Natural Gas production. 2008 
Montana Agricultural Statistics state cash sales of agricultural 
commodities for Phillips County was eighty seven million dollars 
excluding government payments. These raw agricultural commodities are 
further processed and transported to other regions of the US and world 
generating four hundred and thirty four million dollars in commerce. 
Based on annual consumption levels Phillips County produces enough beef 
to feed two hundred and eighty thousand people and enough wheat to feed 
1.4 million people.
    Four of the top fifteen taxpayers in Phillips County are gas 
companies. Direct employment from gas production in Phillips County 
results in 100 full time jobs. The natural gas produced annually is 
enough gas to heat forty eight thousand homes. The active management of 
Public Lands is essential to the economy of our community. We strongly 
oppose federal land management agency actions that limit access and 
multiple use of lands that would be available to the public. As the US 
economy continues to recover, access to public lands is necessary to 
provide food and fuel to the American people.
    Phillips County is in the heart of the 2.5 million acres referred 
to in the Department of Interior's leaked memo as possible National 
Monument Designations under the Antiquities Act. We are referred to as 
some of the largest unplowed areas of the grasslands in the world and 
some of the best wildlife habitat regions in all the Great Plains. I am 
a fourth generation Phillips County rancher. The people of Phillips 
County have protected these lands and the wildlife for over 100 years.
    We found a way to stimulate the economy in our community. We 
invited BLM director Robert Abbey, author of the leaked memo to Malta 
to hear our concerns. The local gymnasium had close to 2,000 people 
from all over the state of Montana there to listen and voice their 
concerns opposing designating a monument The meeting broadcasted live 
on our local radio station and the radios website. If the committee is 
interested in a DVD or CD of the meeting it is available. Even though 
the land referred to in the leaked memo only affected two counties the 
rest of the state understood the impacts to everyone if this land was 
designated a monument.
    Special designation such as Wild Lands historically creates more 
restrictions on the land. This leads to the loss of families in our 
community. If even one ranch or gas company family leaves the county 
due to increased restrictions it will have a noticeable negative impact 
to our economy due to loss of income and fewer volunteers. Our 
ambulance, fire departments and several other local services are run by 
volunteers.
    I have a real concern with the growing trend of the current 
administration toward land designations developed in DC. Local 
economies suffer from top down land use decisions. Only Congress has 
the authority to designate lands as wilderness but yet Wild Lands is a 
designation not subject to Congressional approval. The first stop 
should be at the local level. I'm not referring to the local BLM 
office. Counties should be fully involved in the drafting and 
development of any proposal impacting lands within the counties 
jurisdiction. The leaked memo does not mention once coordinating or 
cooperating with local governments. Secretarial Order 3310 undermines 
the established public process for land use planning.
    Last November I was invited by the BLM to participate in the 
National Landscape Conservation Summit in Las Vegas, Nevada. We spent 
two days discussing the BLM's land management. Secretary Salazar and 
BLM Director Robert Abbey both spoke to us at the conference. I do not 
remember once hearing Wild Lands mentioned. One month later Secretary 
Salazar and Director Abbey announced the Wild Lands directive.
    There is a push to substantially increase funding for federal land 
acquisitions. Phillips County has over a million acres of BLM land that 
we receive PILT payments for. These payments don't fully replace tax 
revenues collected by private land owners. Increased ownership of land 
by the Federal Government would put a burden on the county and the 
country.
    We support the National Monument Designation Transparency and 
Accountability Act, which recognizes the role of local county 
governments in the designation of national monuments and ensures review 
by local elected officials.
    In conclusion I would just like to reiterate that any decisions to 
change uses on public land impacts local economies and the economy of 
the United States.
                                 ______
                                 
    The Chairman. Thank you very much, Commissioner Robinson, 
for your testimony. Commissioner Smith, you are now recognized 
for five minutes.

 STATEMENT OF DENNIS C.W. SMITH, JACKSON COUNTY COMMISSIONER, 
                        MEDFORD, OREGON

    Mr. Smith. Thank you, Chairman Hastings and Congressmen of 
the Committee. I am a Commissioner in Jackson County, in 
Southwest Oregon. I am here to oppose Secretarial Order 3310 
and express extreme disappointment concerning the Federal 
Government's failed forest management.
    The Federal Government owns more than half of Oregon, so 
Federal land policies have a profound effect on my state. 
Fifty-two percent of Jackson County are Federal lands. In my 
county lie a national monument, a national park, three national 
forests, and the BLM Medford District Office.
    These Federal lands once supported a thriving timber and 
wood products industry. Not anymore. Federal policies have 
pulled the rug out from underneath us in Southwestern Oregon. 
Jackson County once had 35 lumber mills employing thousands of 
men and women. But the last of these mills closed within the 
last two years.
    This tremendous loss is largely due to the Federal decision 
to prevent timber harvest to safe forests from even the most 
sustainable timber harvest practices. As a result, my county 
routinely has unemployment rates 50 percent higher than the 
national average, as do the surrounding counties.
    Secretarial Order 3310 promises to make the situation worse 
by locking up even more BLM land, creating de facto wilderness 
areas without congressional action or oversight, and without 
local support. Order 3310 will not only prevent consideration 
of normal forestry, it will eliminate recreational uses such as 
snowmobiling, trail biking, motorcycling, and other motorized 
access. The elderly and the handicapped will be shut out as 
well.
    More withdrawn land means more economic misery. Sadly, 
experts agree that abandoning management is resulting in 
forests that are unhealthy, insect ridden, and increasingly 
prone to catastrophic wildfires. Order 3310 should be reversed 
in its entirety. Or at a minimum, BLM lands in Western Oregon 
should be exempted.
    The Department of the Interior Solicitor has already 
concluded that most of the BLM lands in Western Oregon are not 
legally eligible for wilderness consideration. Order 3310 
overlooks that Solicitor's opinion, and I ask this Committee to 
remind Secretary Salazar of his legal obligations. Let me 
explain.
    The BLM manages about 2.1 million acres in scattered small 
parcels in 18 counties in Western Oregon. Those lands are 
governed by a unique statute, the O&C Act, applicable nowhere 
else. The unusual history of the lands, which were once in 
private ownership, is described in more detail in my written 
testimony before you.
    The O&C Act requires that all O&C lands suitable for 
growing timber must be managed for that purpose, and the timber 
sold, cut, and removed in conformity with the principles of 
sustained yield. The O&C Act requires 50 percent of the 
revenues generated from timber sales be paid to the 18 O&C 
counties. The Ninth Circuit Court of Appeals has stated that 
the O&C Act is a dominant use statute giving timber production 
priority over all other possible uses.
    The O&C lands are not governed by FLPMA's multiple use 
directive. Section 701(b) of FLPMA specifically recognizes the 
dominance of the O&C Act's mandate and defers to it. Virtually 
all of the O&C lands are capable of growing timber and 
therefore must be used for sustained yield timber production, 
and should be exempted.
    There are those that will try to tell you that economic 
benefits of land withdrawals outweigh the benefits of developed 
economic activity. First, show us the money. How are counties 
going to pay for sheriffs' patrols, search and rescue, and 
provide the expected services for the users of public lands.
    Second, how do we replace the family wage jobs with 
seasonal, low-wage employment in tourist related businesses? We 
already have millions of acres of lands in Western Oregon 
reserved from timber harvests. Locking up more lands under 
Order 3310 will produce no tourist industry benefits. If the 
O&C lands are now to be used for ecosystem services instead of 
timber production, it will be necessary to value those non-
consumptive uses and compensate the counties accordingly.
    I am here to ask you to bring rationality back to the 
Federal forest management. The current legal structure is badly 
snarled, a Gordian knot. And those of us who live in forested 
communities are desperate for some sign that the Federal 
Government can be a capable land manager. Rolling back Order 
3310 should be a meaningful first step.
    In closing, Mr. Salazar, take down this order.
    [The prepared statement of Mr. Smith follows:]

             Statement of Commissioner Dennis C.W. Smith, 
                     Chair, Jackson County, Oregon

    Thank you for the opportunity to comment on Secretarial Order 3310. 
I am a Commissioner in Jackson County, located in Southwest Oregon. I 
am here to express opposition to Order 3310, and disappointment, even 
anger, concerning the federal government's failed forest management.
    The federal government owns more than half of the land in Oregon, 
so federal land policies have a profound effect on my State. Jackson 
County has an even greater proportion of federal lands. In my County 
lie the Cascade-Siskiyou National Monument and large parts of Crater 
Lake National Park, the Klamath National Forest, Rogue-Siskiyou 
National Forest, and Umpqua National Forest. Most importantly for my 
comments today, Jackson County also contains most of the BLM's Medford 
District. Nearly all of these federal lands are heavily forested, and, 
except for Crater Lake Park, they once supported a thriving timber and 
wood products industry. Not any more.
    Federal policies have pulled the rug out from under us in 
Southwestern Oregon by shutting virtually all productive economic 
activity out of the woods. Jackson County once had 35 mills employing 
thousands of men and women. The last of the mills operating in my 
county closed within the last two years. This tremendous loss is 
largely due to the federal government's decision to prevent timber 
harvests, to ``save'' the forest from even the most benign, 
sustainable, well planned management activities. This federally caused 
economic loss in Southwest Oregon is part of the reason my county 
routinely has unemployment rates 50 percent higher than the national 
average. Currently Jackson and surrounding Counties have unemployment 
in the 15 to 20 percent range.
    Secretarial Order 3310 promises to make an intolerable situation 
even worse, by locking up even more BLM land, creating de facto 
wilderness areas without Congressional action or oversight, and without 
the support of local communities that will be adversely impacted. This 
Order will not only prevent consideration of normal forestry, it will 
eliminate recreational uses such as snowmobiling, trail biking, 
motorcycling and other motorized access. The elderly and handicapped 
will be shut out entirely. Order 3310 is elitist and exclusive, rather 
than inclusive.
    This can only lead to more unemployment, and more economic misery 
where we already have more than our share. The saddest of all, these 
federal land lockups do not benefit the forest. The experts are nearly 
unanimous that abdication of management responsibility by the federal 
government is resulting in forests that are unhealthy, insect ridden, 
and increasingly subject to catastrophic wildfires.
    Secretarial Order 3310 should be reversed in its entirety. If not 
reversed altogether, then most of the lands managed by the BLM in 
Western Oregon should be exempted from it. The Department of Interior's 
solicitor has already concluded that most of the BLM lands in 18 
Counties in Western Oregon are not legally eligible for wilderness 
consideration. Order 3310 overlooks that Solicitor's opinion, and I ask 
this Committee to remind Secretary Salazar of his legal obligations. 
Let me explain:
    The BLM manages about 2.1 million acres in Western Oregon under a 
unique statute applicable to no other lands in the United States. The 
``O&C lands'' are located in a checkerboard pattern of mostly small 
parcels spread across 18 counties in Western Oregon. The O&C Act 
requires that, on all O&C lands suitable for growing timber, the timber 
shall be ``sold cut and removed'' in conformity with the principle of 
sustained yield. The O&C Act requires 50% of revenues generated from 
timber sales be paid to the 18 O&C counties. The 9th Circuit Court of 
Appeals in the Headwaters v. BLM case recognized that the O&C Act is a 
``dominant use'' statute, giving timber production priority over all 
other possible uses.
    The O&C lands were transferred to private ownership in exchange for 
construction of a railroad in the late 1800's, but the lands reverted 
back to federal ownership in 1915 because the railroad violated the 
grant terms. In 1916 and again in 1926 Congress attempted to make 
things right with local communities for the adverse financial impacts 
that resulted from having taken the lands out of private ownership and 
off the tax rolls. In its third attempt to correct the injury, Congress 
passed the O&C Act of 1937, dedicating the O&C lands to permanent 
forest production to provide revenue for county government services.
    The O&C lands are not governed by FLPMA's multiple use directive. 
Section 701(b) of FLPMA specifically recognizes the dominance of the 
O&C Act's timber production mandate with the following ``savings'' 
clause:
        ``Notwithstanding any provision of this Act [FLPMA], in the 
        event of conflict or inconsistency between this Act [FLPMA] and 
        the Act's of August 28, 1937 [O&C Act]...and May 24, 
        1939...insofar as they relate to management of timber 
        resources, and disposition of revenues from lands and 
        resources, the latter Acts shall prevail.''
    O&C lands that are suitable for growing timber are not eligible for 
wilderness designation and should be excluded from further 
consideration under Secretarial Order 3310. Such lands were excluded 
from the wilderness review process under FLPMA, and should be excluded 
again. An Interior Solicitor's Opinion dated September 5, 1978, 
recognized that the dominant use mandate of the O&C Act requires timber 
production where the lands are capable of growing crops of timber, thus 
preventing preservation of such lands as wilderness. The Solicitor's 
Opinion (p. 11) states that the only O&C lands that can be considered 
further for wilderness preservation are ``roadless areas unsuitable for 
commercial forest management,'' if, in fact, there are any such parcels 
of O&C land. Virtually all of the O&C lands are capable of growing 
timber and therefore must be used for sustained yield timber 
production.
    There are those who will try to tell you that the economic benefits 
of land withdrawals under Order 3310 outweigh the benefits of developed 
economic activity on our public lands. To those who make such 
arguments, I say two things: First, show us the money. How are Counties 
to pay for sheriff patrols, search and rescue, prosecute and 
incarcerate criminals and provide the expected services for the users 
of the public lands? Second how do we replace the family wage jobs with 
the seasonal, low wage employment in tourist-related businesses? Some 
say tourist businesses contribute hundreds of billions of dollars 
annually to our economies, but I assure you we do not see anything like 
these claimed values. We are awash with literally millions of acres of 
lands in Western Oregon already reserved from timber management and 
other economic uses. Our tourist industry does not suffer from lack 
reserved public lands. Locking up even more lands under Order 3310 will 
produce no tourist industry benefits at all. If we are to benefit 
economically from these land lockups, it will be necessary for Congress 
to review policies regarding sharing of receipts from the public lands. 
If the O&C lands are now to be used for ``ecosystem services'' instead 
of timber production, it will be necessary to monetize those non-
consumptive uses and compensate the Counties accordingly. For your 
consideration we are enclosing a copy of a paper by Professor Norman 
Johnson of Oregon State University, arguing that the O&C Counties 
should be compensated for ``ecosystem services'' produced by the O&C 
lands.
    I am here to ask you to bring rationality back to federal forest 
management. The current legal structure is badly broken--a Gordian 
knot, if you will--and those of us who live in forested communities are 
desperate for some sign that the federal government can be a capable 
land manager. Rolling back Order 3310 would be a small but meaningful 
first step.
                                 ______
                                 

           Monetizing Ecosystem Services from BLM O&C Forests

2/14/2011

Dr. K. Norman Johnson
Professor
College of Forestry
Oregon State University
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4c02233e2162062324223f23220c233e292b23223f382d382962292839">[email&#160;protected]</a>)

Debora Johnson
Applegate Forestry
Corvallis, OR
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="195d7c7b7b707c59786969757c7e786d7c7f766b7c6a6d6b60377a7674">[email&#160;protected]</a>)

Executive Summary
    In legislation passed in 1937, management of the BLM O&C lands was 
directed, in part, to provide economic benefits to the counties in 
which they reside through sustained timber production. Historically 
this economic contribution occurred largely through in lieu payments 
and employment associated with timber harvest. In recent years, harvest 
has been sharply curtailed due to mandates to protect endangered 
species and other fish and wildlife. These lands, though, continue to 
provide many ecosystem services, including clean water, outdoor 
recreation, carbon sequestration, and old growth. In this paper, we 
describe the results of our work with the OSU senior forest management 
class in monetizing (estimating the monetary value of) two of these 
services--carbon sequestration and outdoor recreation--from which the 
counties receive little or no revenue through in lieu payments. In this 
assessment, we used 72,000 acres of O&C forests southwest of Corvallis. 
To monetize carbon benefits, we first estimated a ``baseline'' from 
which to measure increased carbon sequestration. We argue that a fair 
baseline for carbon analysis would be continuance of the O&C sustained 
yield management that would have occurred without adoption of the 
Northwest Forest Plan (NWFP)--the Plan that was adopted in 1994 to 
address biodiversity concerns. We then estimated the carbon that has 
been sequestered, and will be sequestered, under the NWFP. We also 
estimated the carbon that would be sequestered under a plausible 
alternative to current management--an ecological forestry strategy 
based on the Western Oregon Plan Revision land allocations (WOPR-EF). 
We monetized the difference in the carbon that has been and will be 
sequestered under these two plans compared to continuation of 
historical O&C management. We found that tens of millions of dollars of 
additional carbon benefits have accrued and will continue to accrue 
under either of these two plans, with slightly more under the NWFP than 
WOPR-EF because of a higher harvest level associated with the latter 
plan. To monetize recreation, we used recent recreation use levels for 
different types of recreation activities in the study area, and 
willingness-to-pay values from various studies across the West for 
these activities. We found that more than ten million dollars of annual 
recreation benefits were associated with use of these lands by the 
public. We argue that the value of these ecosystem services from the 
O&C lands should enter into the discussion about how to compensate the 
counties for the inability of these lands to achieve fully the goals of 
the 1937 Act.
Introduction
    In Spring, 2010, Dr. K. Norman Johnson taught the senior forest 
management ``capstone'' course with the assistance of Debbie Johnson. 
In that course, students developed management options for approximately 
72,000 acres of BLM O&C lands located about 25 miles southwest of 
Corvallis (Figure A1 found in the Appendix). Most of the acreage is 
less than 100 years of age (Figure A2). These lands have been managed 
under the Northwest Forest Plan since 1994. As part of their 
assignment, the students estimated the monetary value of two ecosystem 
services associated with these lands: 1) carbon sequestration and 2) 
outdoor recreation. We summarize the results from these analyses in 
this paper.
Monetizing Carbon Sequestration
    Monetizing carbon sequestration from forest management generally 
involves three steps:
        1.  Estimating the amount of carbon that would be stored over 
        time under a ``base-line'' management strategy. Often this 
        baseline is called ``business as usual.'' This baseline 
        represents the idea that people in carbon markets will pay for 
        carbon storage over that which would occur anyway--they pay for 
        the ``extra'' carbon stored.
        2.  Estimating the amount of carbon stored under an approach to 
        forest management that increases the amount of carbon 
        sequestered. We consider two options here: 1) Continued 
        implementation of the Northwest Forest Plan and 2) A 
        sustainable forestry option based on the Western Oregon Plan 
        Revision allocations.
        3.  Multiplying the difference in carbon storage between the 
        two approaches in each time period by the value/unit stored. 
        The value/unit generally comes from domestic or foreign carbon 
        markets.
The Baseline: O&C Sustained Yield Management
    We argue that the baseline for comparison should reflect the carbon 
storage that would occur if the BLM had continued the management 
approach it had historically used before the Northwest Forest Plan was 
adopted. O&C management was set up to benefit the 18 counties within 
which the lands lie through the income to the counties and associated 
employment in the timber industry from timber harvest. The 1937 
``Organic'' Act states that the O&C lands ``...shall be managed...for 
permanent forest production, and the timber thereon shall be sold, cut, 
and removed in conformity with the principal of sustained yield for the 
purpose of providing a permanent source of timber supply, protecting 
watersheds, regulating stream flow, contributing to the economic 
stability of local communities and industries, and providing 
recreational facilities.'' Toward that end, the O&C forests were 
devoted to sustained timber production for many decades.
    National biodiversity and related environmental concerns have 
greatly reduced the ability of these lands to meet this goal. Issues 
surrounding conservation of species associated with late successional 
forests, especially the Northern Spotted Owl, and habitat for salmonids 
led to protests, lawsuits, and eventually the creation of the Northwest 
Forest Plan (NWFP) in 1994 utilizing the authorities in more recent 
laws such as the National Environmental Policy Act, Endangered Species 
Act, and the National Forest Management Act. This Plan applies to 
national forests and BLM-administered Oregon and California Railroad 
(O&C) forests of western Oregon, along with other federal lands, within 
the range of the northern spotted owl. It shifted the overarching 
objective of these lands from sustained timber production to protection 
of biodiversity focused on species associated with late successional 
forests and aquatic systems, especially species listed as threatened 
and endangered. In the process, the allowable cut for the O&C lands 
were reduced by over 75%. In 2008, the BLM proposed an alternative plan 
for the O&C lands in the Western Oregon Plan Revision that would 
significantly increase harvest, but that plan was subsequently 
withdrawn by the Obama Administration, leaving management of these 
lands under the Northwest Forest Plan.
    The 1937 O&C Act, though, is still on the books and still applies, 
although its meaning in the context of these other laws remains 
unsettled. We argue that a fair baseline for carbon analysis would be 
continuance of the O&C sustained yield management that would have 
occurred without adoption of the Northwest Forest Plan. To meet 
emerging environmental concerns, the O&C lands have had their 
management redirected to other purposes which often provide little 
direct economic benefit to the counties in which they reside, thus 
preventing management of these lands from meeting one of the key goals 
of the 1937 Act. To be equitable, the counties should be credited with 
the increase in carbon sequestration associated with that redirection. 
Thus, we argue for continuance of historical O&C management as the 
baseline for measuring an increase in carbon sequestration.
    To meet the goal stated in the1937 Act of permanent timber 
production under sustained yield, we made the following assumptions: 1) 
85% of the forest available for timber production, with some of the 
forest withdrawn for unstable slopes and areas near streams; 2) an 80-
year rotation--a rotation near culmination of mean annual increment; 3) 
yields associated with a moderate level of management; and 4) acres and 
volume harvested each decade equivalent to that from a regulated forest 
on an 80-year rotation.
Increased Carbon Sequestration Option 1: The Northwest Forest Plan
    We assumed that implementation of the Northwest Forest Plan would 
follow the current approach that focuses on thinning in plantations. 
Most of that thinning occurs in reserves, as they dominate the 
landscape (Figure A3). Over time that thinning will gradually decline 
as will harvest. While regeneration harvest has been allowed under the 
Northwest Forest Plan in the Matrix, little has occurred due to protest 
and litigation, and little is forecast. Beyond initial thinning, the 
stands most likely will be allowed to mature without intervention 
except to suppress fire. Even if some regeneration harvest were to 
occur in the Matrix, it would not alter this analysis significantly as 
the Matrix acreage is relatively small.
Increased Carbon Sequestration Option 2: A Sustainable Forestry Model 
        based on the Western Oregon Plan Revision
    While the WOPR has been withdrawn, it still provides a valuable 
data set for carbon analysis. The land allocation in the WOPR proposed 
plan would approximately double the acreage in the Matrix in the study 
area by shrinking the Riparian Reserves (Figure A4). An approach to 
long-term forest management using the principles of ecological forestry 
(Franklin et al. 2007) was applied to this Matrix landbase, augmenting 
the thinning that would occur in the Reserves. No stands over 150 years 
of age were considered for harvest. This option would sequester 
somewhat less carbon than the first option due to the continued harvest 
over time in the Matrix.
Carbon Calculation Methodology
    In forested areas, carbon is stored in many''pools.'' We recognize 
three pools here: 1) live trees, 2) other forest carbon (snags, downed 
wood, slash, soil organic matter and other), and 3) residue from 
harvests. Carbon sequestered in live trees was derived by using 
standing tree volumes from forest inventory data and site specific 
growth and yield curves. See USDI BLM 2008 Appendix C for more detail. 
Estimates of other forest carbon also came from this source. We made 
the calculations of carbon effects of logging debris. Total carbon was 
estimated as the sum of the three pools in metric tons (tonnes) that 
weigh 2200 pounds
Results\1\
---------------------------------------------------------------------------
    \1\ This analysis draws most heavily on the work of one student 
group composed of Amber Craig, Rachael Heath, Jeremy Karby, William 
Pollack, and Jeremy Sudgen.
---------------------------------------------------------------------------
Difference in carbon sequestered between the two alternatives
    The NWFP shows a higher level of carbon storage than the baseline 
in each period. The difference in period 1 of 3.7 million tonnes in the 
first period reflects the effects of divergent management strategies 
for the last 20 years and the difference in periods 2-5 reflects the 
continuing effects of this divergence (Table 1 and Figure 1).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Value of the added carbon sequestration
    Carbon markets generally buy and sell metric tons (tonnes) of 
carbon dioxide. To convert carbon to carbon dioxide, we multiplied 
total carbon by 44/12 (the ratio of the molecular weight of carbon 
dioxide to carbon). Total carbon was thus multiplied by 3.67 and then 
multiplied by the sale price of CO2 to arrive at each value (Cathcart 
and Delaney 2006).
    We calculated the value of the additional carbon storage as 
follows:
        1.  The value of the initial difference in carbon stored 
        between the two management scenarios was calculated as a lump 
        sum payment which would occur in period one.
        2.  The value of the additional carbon stored in periods two-
        five was calculated as the extra carbon that would accumulated 
        over the initial difference.
        3.  The amount of added CO2 was multiplied by either a ``low'' 
        value of $ 2.75/tonne or ``high'' value of $15.00/tonne. This 
        range of values was reflective of prices found in different 
        carbon markets in spring, 2010. For comparison, California 
        plans to use a minimum of $10/tonne in its climate registry 
        (Wilent 2011).
    Total monetized value of the increased carbon storage for the first 
five 10-year periods from the 72,000 acre study area is approximately 
$87 million at the ``low'' value per tonne and $475 million at the 
``high'' value per tonne for the NWFP and slightly less for WOPR-EF 
(Tables 2 and 3). Approximately one-third of the value accrues in the 
first period reflecting the initial difference in carbon storage. Other 
assumptions about the management strategy in historical O&C management 
and the two options presented here would yield different monetized 
values but the general conclusions would not change: Significant carbon 
value has accrued and will continue to accrue on O&C forests due to 
their redirection to be managed under the Northwest Forest Plan.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Discussion
    Much discussion has occurred about the development of carbon 
markets in the United States, but relatively few have emerged. One 
prominent exception is California which just recently solidified the 
operation of its carbon markets, including the allowance of carbon 
offsets from forestry projects (Wilent 2011).
    Our argument here is not focused on entering the O&C lands into a 
market like California's in which there would be an attempt to sell the 
carbon sequestration that has occurred on the O&C lands since their 
management was redirected toward conservation of endangered species and 
related biodiversity goals. Rather, we argue that the value of this 
sequestration should enter into the discussion about how to compensate 
the counties for the current inability of these lands to achieve fully 
the goals of the 1937 Act.
Willingness-To-Pay for Recreation Activities on BLM O&C Lands\2\
---------------------------------------------------------------------------
    \2\ This analysis draws most heavily on the work of one student 
group composed of Amber Craig, Rachael Heath, Jeremy Karby, William 
Pollack, and Jeremy Sudgen.
---------------------------------------------------------------------------
    We live, work, and play in the context of a market economy. Value 
is understood in terms of dollars exchanged. This system makes it 
difficult to measure the value of opportunities, experiences, and other 
things that are not traded in a market. Many outdoor recreation 
opportunities fall into that category. Fortunately, over the last 
several decades, several systems have emerged to help measure and 
understand the value of ``products'' for which no cash is exchanged, 
such as recreation opportunities and experiences.
    Researchers like John Loomis, Colorado State University, and Randal 
Rosenberger, Oregon State University, have developed and refined 
methods for determining the dollar value of outdoor recreation 
activities. They essentially created hypothetical markets that act as a 
proxy for the processes and outputs of traditional markets. Using 
another important economic concept, willingness-to-pay (WTP), Loomis 
and many others have created equations that help capture the value of 
these activities using consumer surplus. This method is well 
established and has been used all over the world to help determine the 
market value of a range of recreation opportunities, from snorkeling in 
Australia to riding off-highway vehicles (OHVs) in Colorado. Surveys 
are conducted to determine individuals' WTP at specific sites. When 
direct measurements are not available, researchers use a method called 
benefit transfer instead. Values for similar sites and activities are 
used to estimate values for the study site.
Methods
    To determine use levels, we utilized the number of visitor days for 
each activity that were provided by the Salem District BLM for the 
Marys Peak Resource Area. For willingness-to-pay values, we relied on 
Loomis (2005) in which values were compiled from various studies across 
the country. They were broken down by region and most were also 
separated into individual activities. We averaged the values for 
hiking, biking, and horseback riding and also for camping and 
picnicking because the use levels for these activities were reported by 
the BLM in aggregate. When possible we used the values provided for 
Oregon and Washington but several of the values were from regional 
studies that also included California. This may lead to slight 
inflation of some of the values but we thought they were better 
estimates than the values from completely different regions.
Results
    We estimated the total value of the major recreation opportunities 
that are provided in this area to be about $15 million annually (Table 
4). This represents an average of $52.25 per activity day (twelve 
hours). Compare this to the cost of attending a movie which is about $8 
for two hours. An activity day of attending a movie would have a use 
value of $48. Consider the situation: you are sitting at the edge of 
Alsea falls having a picnic with your family. The sky is blue (for 
once), the trees are green and the flowers are fragrant. We anticipate 
that an experience like that would actually be worth far more to many 
people than sitting inside a movie theater for a few hours. We propose 
that $52.25 a day is not at all an unreasonable value for the 
recreation opportunities provided on the O&C lands. Other assumptions 
about willingness-to pay will yield different levels of monetary 
benefits but the general conclusions are clear: significant monetary 
value is being provided through recreation services on the O&C lands.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Discussion
    WTP is a valid measure for recreation benefits. The validity has 
been demonstrated by Loomis and Walsh (1997) in numerous empirical 
studies. It is also the preferred valuation method for the U.S. 
Department of the Interior. The WTP model is based on the economic 
principles of the demand curve and consumer surplus. The value to 
society of the total consumer surplus, as modeled by the WTP method, 
adds up quickly. Our estimate of total value of recreation 
opportunities provided by the BLM on the Marys Peak Resource Area may 
seem high but it is justified by this demand curve model and the well-
established concept of willingness-to-pay.
    We do not argue here that the people should be charged for 
recreation use of the O&C lands. Rather, we argue that the value of 
this recreation use should enter into the discussion about how to 
compensate the counties for the current inability of these lands to 
achieve fully the goals of the 1937 Act.
Literature Cited
Cathcart, J. and M. Delaney. 2006. Carbon accounting--determining 
        carbon offsets from forest projects. In: Forests, carbon and 
        climate change: A synthesis of science findings. Oregon Forest 
        Resources Institute, Portland, OR. pp. 156-174.
Franklin, J. F., R. J. Mitchell, B. J. Palik. 2007. Natural disturbance 
        and stand development principles for ecological forestry. Gen. 
        Tech. Rep. NRS-19. Newtown Square, PA: USDA, Forest Service, 
        Northern Research Station. 44 p.
Loomis, J. B. and R. G. Walsh. 1997. Recreation economic decisions: 
        Comparing benefits and costs. 2nd Edition. Venture Pub. State 
        College, PA. 440 p.
Loomis, J. B. 2005. Updated outdoor recreation use values on national 
        forests and other public lands. General Technical Report PNW-
        GTR-658, 26 p.
USDI BLM. 2008. Final environmental impact statement of the resource 
        management plans of the western Oregon Bureau of Land 
        Management: Salem, Eugene, Roseburg, Coos Bay, and Medford 
        Districts, and the Klamath Falls Resource Area of the Lakeview 
        District. Volume III, pp. 27-30.
Wilent, Steve. 2011. CA approves greenhouse cap-and-trade regulations: 
        program includes protocols for forestry, urban forestry 
        offsets. The Forestry Source, 16:2 pp. 1-3.
 
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
    The Chairman. To quote a famous phrase. Thank you very 
much, Commissioner. Mr. Myers, you are now recognized for five 
minutes.

              STATEMENT OF WILLIAM G. MYERS, III, 
                   PARTNER, HOLLAND AND HART

    Mr. Myers. Thank you, Chairman Hastings and Members of the 
Committee. I appreciate the opportunity to be here, and it is 
good to see Congressman Labrador from my home state of Idaho. 
Good to see you again, Congressman.
    I am going to avoid the temptation to read excerpts of my 
written statement and try to talk a little bit more 
extemporaneously. That necessarily means I will be less 
eloquent than my predecessors on the panel, but it may also 
mean that I will take less time, which I suspect you would 
appreciate. But with an exception that I will read a couple of 
quotes.
    The first quote I want to read is from the Supreme Court 
decision in 2005, Norton v. Southern Utah Wilderness Alliance, 
in which the unanimous Supreme Court said, ``Multiple use 
management is a deceptively simple term that describes the 
enormously complicated task of striking a balance among the 
many competing uses to which land can be put.''
    The question for this Committee is whether the Wild Lands 
Policy announced by the Secretary is an appropriate balance 
well struck by the Department. You have heard already today 
from those who think that the answer to that question is No. I 
will provide you with some insights on the legal issues which 
tend to be more mundane, perhaps less interesting than the 
policy considerations, but nonetheless something I hope you are 
interested in.
    Of course, the basis for the BLM's action in this 
Administration and previously is the Federal Land Policy and 
Management Act, which calls primarily for multiple use and 
sustained yield. I have had an opportunity to read the BLM's 
new manuals that were issued last Friday, although with some 
haste because I was preparing to come here and traveling. So I 
have not had a chance to read them word for word.
    But from what I have read, I would like to comment on a few 
passages. Manual 6301 is the Duty to Inventory. I would like to 
dispatch with one misconception that I think is swirling in 
this discussion. The duty to inventory is not new with 
Secretary Salazar. It was not new with Secretary Norton. The 
Norton-Leavitt Agreement specifically disclaimed any undoing of 
the duty to inventory. In other words, it maintained that duty.
    Judge Dee Benson, Federal district judge in Utah, reviewed 
the Norton-Leavitt settlement because it was challenged by some 
environmental groups. In ruling on that challenge, Judge Benson 
said that the Norton-Leavitt Agreement preserved the duty to 
inventory. The Tenth Circuit, in reviewing Judge Benson's 
decision and upholding it, likewise said the Department has an 
ongoing duty to inventory public lands for all the multiple 
uses and resources that exist there.
    The Ninth Circuit has said the same thing. So I think we 
can put aside for the moment, and perhaps for a while, the 
question of whether the Department has an ongoing duty to 
inventory the public lands. It does. That is not the question. 
The question here is whether the inventorying of one of those 
values or resources, namely, wilderness, perhaps to the 
exclusion of others, is the proper balance.
    Now, Secretary Salazar, to be fair, did not disclaim the 
duty to inventory for other resources. But the fact that he was 
silent on all other resources and focused his efforts and 
energy only on one naturally gives rise to questions as to 
whether he understands the co-equal duty of the BLM to 
inventory for all BLM resources and values.
    Manual 6302 deals with RMP production and basically says 
that an RMP can be created and should be created to sustain 
wild lands if wilderness characteristics exist. In Secretary 
Salazar's order and the manuals, there is no statement that 
says that that designation can be undone in the future by an 
amendment to a resource management plan. Of course, it can be 
undone because that is what FLPMA says. And in reading Director 
Abbey's testimony, I was pleased to see that he said as much. 
These designations can be changed. But the fact that the 
Secretary's order did not say so again has given rise to 
concern and skepticism.
    The question of wilderness characteristics is crucial. What 
are they? Well, size is one of them, but not really because it 
starts out with 5,000 acres or more, but then it is really less 
than 5,000 if you can manage it practicably for less amount of 
acreage. And then it is even less than that. It is islands of 
public land. I don't know the definition of that phrase.
    Outstanding opportunities for solitude, those can be 
cabinet of one portion of an area with wilderness 
characteristics and do not have to apply to the entire area. 
Primitive and unconfined recreation exists, not really, because 
under the order you can include ATV use and mountain biking. So 
that one seems to be out of the way.
    The only criterion that is left is naturalness. And there 
it is the apparent naturalness in the view of the, quote, 
``average visitor.'' I don't know where the mythical average 
visitor lives. I suspect that visitor would have a different 
view if they were from the District of Columbia as if they were 
from Ada County. But that is nonetheless where we are.
    So the three criteria used in the Wilderness Act seem to be 
whittled away and dissolved to a certain extent by the order.
    There are concerns about what the Secretary will do in 
managing these lands, which he deems as chiefly valuable for 
wilderness in the light of the Taylor Grazing Act, which sets 
up grazing districts, which the Secretary has to designate, and 
establishes those grazing districts as chiefly viable for 
grazing.
    The Tenth Circuit said, quote, ``Congress intended that 
once the Secretary established a grazing district under the 
Taylor Grazing Act, the primary use of that land should be 
grazing,'' closed quote. So I don't know how the Secretary is 
going to balance the designation of an area that is already 
chiefly valuable for grazing as now chiefly valuable for 
wilderness. It is silent in the order, again giving rise to 
concerns.
    There are other concerns that arise in the context of the 
APA and whether the process really is a regulation or 
rulemaking that requires APA compliance with public notice and 
comment. There are also concerns or issues related to NEPA. Why 
didn't this order go through a programmatic EIS like the wind 
energy order of the Secretary and the geothermal program of the 
Secretary? Both of those actually dealt with less BLM acres 
than this order does, and yet those both were able to go 
through the public process of a programmatic EIS.
    The failure to apply it in this case could lead to some 
questions.
    The Chairman. The gentleman's full statement is in the 
record, and I appreciate that.
    Mr. Myers. I appreciate your time, Mr. Chairman.
    [The prepared statement of Mr. Myers follows:]

     Statement of William G. Myers III, Partner, Holland & Hart LLP

    Thank you, Mr. Chairman and the members of the House Committee on 
Natural Resources, for your invitation to appear today to address the 
impact of the Administration's Wild Lands policy. I am a partner in the 
law firm of Holland & Hart LLP. The firm has 15 offices in seven 
western states and the District of Columbia. My office is in Boise, 
Idaho.
    In an effort to advance the Committee's understanding of the Order, 
the manuals that have accompanied the Order, and their potential 
impacts, I would like to discuss some of the legal ramifications as I 
currently perceive them. It is important to note that the Order is only 
two months old and the three BLM manuals that accompany the Order were 
published last Friday. I expect that my opinions will evolve once I 
have had the opportunity to spend more time reviewing the documents.
    The U.S. Supreme Court stated in its unanimous decision in Norton 
v. Southern Utah Wilderness Alliance, 542 U.S. 55, 58 (2004), that 
multiple use management ``is a deceptively simple term that describes 
the enormously complicated task of striking a balance among the many 
competing uses to which land can be put.'' The question before this 
Committee is whether Secretary Salazar struck the proper balance with 
his Secretarial Order that focused exclusively on wilderness values and 
uses among the many competing uses to which BLM land can be put.
    Regardless of your perspective on this question, we can all agree 
that the current debate validates the Supreme Court's statement that 
multiple use management is an enormously complicated task. These 
complications have given rise to unending discussion, debate, policy 
pronouncements, and litigation.
    Prior to discussing the issues in detail, some historical 
perspective is useful. For a history of federal land policy related to 
wilderness, I refer the Committee to an article I co-authored last 
summer and attach to this written testimony. That article, entitled 
Along the Trammeled Road to Wilderness Policy on Federal Lands, 
provides an overview of the wilderness debate since the passage of the 
Wilderness Act in 1964.\1\ As noted in the article, the Wilderness Act 
did not directly address BLM's duties with respect to designation or 
management of lands with wilderness characteristics (``LWCs''). The 
Federal Land Policy and Management Act, 43 U.S.C. Sec. Sec. 1701-83, 
(``FLPMA'') changed that by creating a two-step inventory and 
management process applicable to all federal lands. Section 603 of 
FLPMA contained BLM's wilderness study obligations, Sec. 201 contains 
the Secretary's all-encompassing inventorying responsibilities, and 
Sec. 202 requires the Secretary to undertake land use planning. Since 
nearly the moment that FLPMA was signed into law, the debate has raged 
as to what these primary duties of the BLM are with regard to 
wilderness, how the three sections relate to each other, and the 
latitude of the Secretary to interpret the provisions as he or she 
deems best.
---------------------------------------------------------------------------
    \1\ William G. Myers III & Jennifer D. Hill, ``Along the Trammeled 
Road to Wilderness Policy on Federal Lands,'' 56 Rocky Mt. Min. L. 
Inst. 15-1 (2010).
---------------------------------------------------------------------------
    Two years after passage of FLPMA, the BLM published a Wilderness 
Inventory Handbook dated December 27, 1978. Proving that the past is 
prologue, the preface to that Handbook noted four major issues of 
significance in the wilderness inventory process that were revealed to 
the BLM through a series of more than 60 meetings held throughout the 
western United States, in the lake states, and in Washington, D.C. This 
extensive public process was used by BLM in 1978 to review its duties 
under FLPMA regarding wilderness policy. Among the four most 
significant issues was that of public involvement. Many people 
expressed their concern that public participation in the wilderness 
review process was not adequate, particularly because the inventory 
process dealt with such subjective judgments as what is a road, what is 
solitude or naturalness, and even what is meant by the word 
``outstanding.'' The current wilderness policy announcement has 
generated a number of comments among those who would have welcomed a 
public participation opportunity similar to that initiated by former 
Secretary Cecil Andrus in devising the Wilderness Inventory Handbook of 
1978.
    In his public remarks announcing the Order, Secretary Salazar 
stated that the BLM was compelled to produce this initiative because 
its wilderness management guidance was revoked in 2003 as a result of a 
settlement between the Department, under the guidance of then-Secretary 
Gale Norton, and the State of Utah in litigation captioned as Utah, et 
al. v. Norton, et al., 2006 WL 2711798 (D. Utah 2006). The court 
reviewed the obligations of the Department in the context of wilderness 
management.
    It should be noted, however, that the case focuses on the 
Department of the Interior's ability to continue to designate 
Wilderness Study Areas under Sec. 603 of FLPMA after 1991 as opposed to 
Interior's authority under Sec. Sec. 201 and 202. In a written set of 
questions and answers provided with the Secretary's public 
announcement, he stated that the so-called Norton-[Utah Governor] 
Leavitt Settlement does not apply to the FLPMA sections supporting his 
Wild Lands policy. The Secretary's Order and accompanying manuals 
nowhere refer to Wilderness Study Areas which are the result of the 
BLM's 15-year initial inventory process after the passage of FLPMA 
Sec. 603. Secretary Salazar separates the Sec. 603 process for WSAs 
from his current initiative.
    In Utah v. Norton, Federal District Court Judge Dee Benson 
dismissed the environmental groups' claims for lack of standing to 
challenge the settlement, lack of ripeness for adjudication, and lack 
of final agency action with respect to the settlement. The judge did 
not stop there, however. In the event that an appellate court might 
disagree with his dismissal, the judge analyzed the merits of the 
challenge and found that the settlement complied with both FLPMA and 
the National Environmental Policy Act (``NEPA''). The environmental 
groups appealed to the Tenth Circuit Court of Appeals which ruled that 
the case was properly dismissed for lack of jurisdiction on ripeness 
grounds. Utah v. United States Department of the Interior, 535 F.3d 
1184, 1186 (10th Cir. 2008).
    In a prescient passage, the district court stated that the relief 
sought by the environmental groups might ultimately come through the 
political process. Utah v. Norton, 2006 WL 2711798 at *17. That 
political process began in part through a document produced by 28 
environmental groups entitled ``Transition to Green: Leading the Way to 
a Healthy Environment, a Green Economy, and a Sustainable Future'' and 
presented to the Obama Administration transition team in November 2008. 
The document catalogued the groups' most urgent requests of the 
incoming Administration. Three top issues were catalogued for the BLM 
including the preservation of lands with wilderness characteristics and 
the reversal of the ``sweetheart `no wilderness' court settlements and 
policies'' of the previous Administration. Secretarial Order 3310 seems 
to be the Administration's response to that request.
    In reviewing the statutory background for his discussion of 
wilderness issues, Judge Benson stated that FLPMA Sec. 102 established 
Congress' policy that, unless otherwise specified by law, the planning 
and management of inventoried lands must be on the basis of multiple 
use and sustained yield. Utah v. Norton, 2006 WL 2711798 at *7, citing 
43 U.S.C. Sec. 1701(a)(2). The court also noted that ``multiple use'' 
is defined by FLPMA as management of public lands and their various 
resources and values so that they are utilized in the combination that 
will best meet the present and future needs of the American people. Id. 
``Sustained yield'' is defined by FLPMA as the achievement and 
maintenance in perpetuity of a high-level, annual or regular periodic, 
output of the various renewable resources of the public lands 
consistent with multiple use. Id. Secretarial Order No. 3310 focuses on 
one value among the multiple uses protected by FLPMA--wilderness 
characteristics--and in doing so elevates that value above all others. 
It is interesting to note that FLPMA, when discussing that particular 
value, places a caveat that management for wilderness values will be 
undertaken ``where appropriate.'' This caveat is not placed before the 
other resources or values listed in the same section. See 43 U.S.C. 
Sec. 1701(a)(8). Secretarial Order No. 3310 seems to move the modifier 
preceding wilderness preservation and protection and place it in front 
of all other uses.
BLM Manual 6301: The Duty to Inventory
    Prior to Secretary Salazar's announcement, the courts had confirmed 
that the BLM had an ongoing duty under FLPMA Sec. 201 to inventory for 
all multiple use values on BLM lands including wilderness 
characteristics. According to Judge Benson, the Norton-Leavitt 
Settlement recognized this ongoing duty that requires BLM to ``prepare 
and maintain on a continuing basis an inventory of all public lands and 
their resource and other values....'' 43 U.S.C. Sec. 1711(a). Neither 
Secretary Norton nor Governor Leavitt disputed that duty in their 
settlement agreement. Utah v. Norton, 2006 WL 2711798 at *20.
    The Tenth Circuit, in affirming Judge Benson's decision, reiterated 
that duty. Utah v. United States Department of the Interior, 535 F.3d 
at 1187. The Tenth Circuit cited FLPMA Sec. 201 for its provision that 
such inventories do not automatically change BLM's actual management 
practices. See 43 U.S.C. Sec. 1711(a) (``The preparation and 
maintenance of such inventory or the identification of such areas shall 
not, of itself, change or prevent change of the management or use of 
public lands.'') The Ninth Circuit likewise reviewed the Norton-Leavitt 
Settlement and concluded that it did not preclude an inventory or 
management to protect wilderness values, assuming that there was no 
automatic application of the non-impairment standard. Oregon Natural 
Desert Ass'n v. BLM, 531 F.3d 1114, 1135-36 (9th Cir. 2008). 
Consequently, there is no debate on whether BLM has an ongoing duty to 
inventory for wilderness values. It does, just as it has an ongoing 
duty to inventory for all other values on BLM lands.
    Secretary's Salazar's focus on wilderness values only, to the 
exclusion of any other values, raises questions as to whether the 
Secretary places an equal emphasis on BLM's co-equal duty to inventory 
for other resources and values including food and habitat for domestic 
animals, human occupancy and use, range, timber, minerals, watersheds, 
and all other values on the public lands. Additionally, I have been 
unable to locate anywhere within the Secretarial Order or the 
accompanying BLM manuals any statement that LWCs, when designated as 
``Wild Lands'' in the land use planning process, can lose that 
designation through a subsequent land use planning process. The Ninth 
Circuit's interpretation of land use planning duties under Sec. 202 of 
FLPMA confirms that possibility. Secretary Salazar did not disclaim 
that responsibility; he simply did not state it in the documents. As 
Judge Benson put it, managing land under Sec. 202 to protect wilderness 
characteristics or any other values differs from WSAs under Sec. 603 of 
FLPMA because a WSA is a de facto wilderness until Congress acts to 
release it back to multiple use whereas under Sec. 202 the lands will 
be subject to possible changes in management plans. Utah v. Norton, 
2006 WL 2711798 at *23.
Wilderness Characteristics
    BLM Manual 6301 provides BLM staff with policy, direction, 
procedures, and guidance for conducting wilderness characteristics 
inventories under FLPMA Sec. 201. Section .14 guides BLM staff in the 
search for wilderness characteristics. The manual correctly defines an 
LWC as containing three specific criteria taken from the Wilderness 
Act, 15 U.S.C. Sec. 1131(c). Those criteria are size, naturalness, and 
outstanding opportunities for either solitude or primitive and 
unconfined recreation.
        <bullet>  Size--Persons generally familiar with the wilderness 
        debate think that wilderness must be at least 5,000 contiguous 
        acres. This is the first definition of size in the Wilderness 
        Act itself. There is, however, a significant exception in the 
        Act which allows wilderness to be less than 5,000 acres if its 
        preservation and use in an unimpaired condition is 
        ``practicable.'' Id. FLPMA Sec. 603 references the Wilderness 
        Act when describing the BLM's duty to conduct the first 
        wilderness inventory and adopted the 5,000 acre limitation but 
        avoided the notion of practicable management of smaller areas 
        and adopted the phrase ``roadless islands of the public 
        lands.'' 43 U.S.C. Sec. 1782(a). BLM Manual 6301 interprets 
        this phrase as a separate size criterion in addition to the 
        Wilderness Act's two size criteria. In doing so, Sec. .14 
        states that an LWC's size may consist of 5,000 acres or more, 
        smaller areas that are practicable, or any roadless island of 
        the public lands. The manual does not define the phrase 
        ``roadless island.'' Consequently, one could perceive a small 
        island of BLM land in a remote area bounded by roads that, due 
        to its remoteness, meets the other criteria and thus is capable 
        of designation as an LWC. The size criterion begins to lose any 
        significance. Additional legal research may further define this 
        concept of a roadless island. The Tenth Circuit's decision in 
        Utah v. United States Department of the Interior interpreted 
        FLPMA Sec. 603 as requiring a minimum of 5,000 acres including 
        the roadless islands (535 F.3d at 1187-88). In interpreting a 
        1985 federal court decision, Utah Federal District Judge Benson 
        read that case to interpret FLPMA Sec. 603, including its 
        roadless island concept, as not authorizing wilderness reviews 
        of lands of less than 5,000 acres. See Utah v. Norton, 2006 WL 
        2711798 at *25-26, citing Sierra Club v. Watt, 608 F. Supp. 
        305, 313. (E.D. Cal. 1985.)
        <bullet>  Naturalness--Under the Wilderness Act, wilderness 
        does not need to be entirely natural, rather it may be 
        ``primarily'' natural, ``with the imprint of man's work 
        substantially unnoticeable.'' 16 U.S.C. Sec. 1131(c). The BLM 
        manual provides a list of examples of ``man's work'' that would 
        not detract from the definition of naturalness for purposes of 
        defining an LWC. They include such things as trail signs, 
        bridges, fire towers, radio repeater sites, fencing, and the 
        like. BLM staff is instructed to ``avoid an overly strict 
        approach to assessing naturalness.'' Manual at 
        6301.14.B.2.b(2). In Form 2 at the back of the Manual for 
        documentation of wilderness characteristics, BLM staff is asked 
        to answer a simple question: Does the area appear to be 
        natural? If, in the opinion of the BLM staff completing the 
        form, the answer is yes, then the area passes this test for an 
        LWC. ``Apparent naturalness'' is defined as an area that 
        ``looks natural to the average visitor....'' Id. at 
        .2(b)(1)(b).
        <bullet>  Outstanding Opportunities for Solitude or a Primitive 
        and Unconfined Type of Recreation--This criterion is 
        disjunctive, requiring solitude or primitive and unconfined 
        recreation. BLM staff is directed not to disqualify an area 
        based on the finding that outstanding opportunities exist in 
        only a portion of the area. Id at .14.B.3. Consequently, once 
        the malleable size criterion is met, an area may partially 
        contain outstanding opportunities while the rest of the area 
        lacks this mandatory requirement. This criterion must also be 
        read in conjunction with the second BLM Manual 6302, 
        Sec. .13.D, and the third BLM Manual 6303, Sec. .11.A. Under 
        Manual 6302, for land use planning, an LWC's apparent 
        naturalness may remain under a number of impacts. For example, 
        mountain biking or motorized access may be allowed to impact 
        naturalness, even though such uses are expressly prohibited in 
        Wilderness Areas and wilderness is defined the same in both the 
        Wilderness Act and the BLM manuals. Thus, BLM distinguishes 
        between impacts to LWCs and impairment of LWCs. ``Apparent 
        naturalness'' is apparently something less than Wilderness Act 
        naturalness. Under Manual 6303, the BLM describes which lands 
        may be defined as clearly lacking wilderness characteristics 
        when considering project-level decisions. They are lands that 
        do not meet the size criterion or its exceptions and/or the 
        naturalness criterion. Oddly, this manual then states, 
        ``Documentation of a clear lack of wilderness characteristics 
        should not be based on the solitude or primitive and unconfined 
        recreation criteria.'' Manual 6303 leaves BLM staff and the 
        public uninformed as to why the absence of one of the three 
        mandatory criteria for an LWC is insufficient to remove lands 
        from LWC status. A logical conclusion is that while BLM Manual 
        6301 states that outstanding opportunities are a necessary 
        element for definition of an LWC, that mandatory requirement is 
        vitiated by both Manual 6302 that eliminates the primitive 
        nature of recreation and Manual 6303 that discounts the 
        criterion altogether--leaving only naturalness and size as 
        criteria. As noted, these manuals at once adopt the Wilderness 
        Act definition of wilderness and depart from it. Additionally, 
        because ``size'' is liberally defined to mean any island of 
        public lands regardless of size, the only meaningful criterion 
        seems to be apparent naturalness as defined by the ``average'' 
        visitor.
    As stated in the 1978 Wilderness Inventory Handbook, each element 
of the definition of an LWC requires subjective judgments such as, what 
is a road?; what is solitude?; what is outstanding?; what is natural? 
Add to this list, what does the average visitor perceive? Although it 
is clear that BLM must make a series of discretionary decisions in 
defining an LWC, it is not clear whether these decisions are subject to 
public review and, if a party is adversely affected by the decision, 
whether that party may appeal the decision through the Department's 
Interior Board of Land Appeals or to a federal district court. The BLM 
has previously taken the position on its forms documenting wilderness 
characteristics that such decisions are not appealable.
BLM Manual 6302: Consideration of LWCs in the Land Use Planning Process
Chiefly Valuable for Wilderness
    BLM Manual 6302 Sec. .06 reiterates the policy announced in 
Secretarial Order No. 3310 that management of the wilderness resource 
by BLM is a ``high priority'' and that the natural state of such lands 
should be protected to the extent possible in the land use planning 
process by avoiding impairment of those wilderness characteristics. 
This policy might be paraphrased as a determination that LWCs are 
chiefly valuable for wilderness. The Manual discusses uses of such 
lands that might conflict with the LWC designation. Livestock grazing 
is ``ordinarily'' consistent with LWCs. Manual 6302 Sec. .13.D.6. The 
Manual then notes, however, that some grazing management practices 
including new range improvement projects, vegetation manipulation or 
needs for motorized access could impact the overarching duty to protect 
the wilderness characteristics. Id. This restriction on possible 
grazing use seems to be more restrictive than the restrictions that 
apply to that use in FLPMA Sec. 603. Under FLPMA Sec. 603(c), the 
Secretary is directed to manage lands with wilderness characteristics 
designated as WSAs so as to not impair their suitability for 
preservation as wilderness ``subject, however to the continuation of 
existing...grazing uses...in a manner and degree in which the same was 
being conducted [in 1976 and the passage of FLPMA].'' The BLM manual 
fails to recognize this exception within Sec. 603 that grandfathers 
existing grazing uses in existence in 1976. The Wilderness Act itself 
provides for so-called ``non-conforming uses,'' one of which is 
livestock grazing established prior to the effective date of the Act. 
16 U.S.C. Sec. 1133(d)(4)(2).
    The Manual calls into question the compatibility of grazing on 
lands that were not included in the FLPMA Sec. 603 inventory process 
and that are under existing land use planning authorizations. The 
Manual's policy preference that LWCs are chiefly valuable for 
wilderness seems to conflict with the Secretary's obligations to manage 
those lands as chiefly valuable for grazing. Whenever the BLM considers 
a proposal to cease livestock grazing on public rangelands and those 
lands are within a designated grazing district, as the vast majority of 
BLM grazing lands are, the BLM must analyze whether the lands are still 
``chiefly valuable for grazing and raising of other forage crops'' 
under the Taylor Grazing Act, 43 U.S.C. Sec. 315.
    The Tenth Circuit Court of Appeals analyzed this issue in Public 
Lands Council v. Babbitt, 167 F.3d 1287 (10th Cir. 1999), aff'd on 
other grounds, 529 U.S. 728 (2000). The Tenth Circuit's interpretation 
of the Taylor Grazing Act was that grazing districts are to be grazed 
unless range conditions require grazing reductions on a temporary 
basis. The court stated that the presumption is that if and when those 
range conditions improve and more forage becomes available, permissible 
grazing levels would rise. The court criticized the BLM's grazing 
regulations that would have allowed for the placement of grazing 
districts into non-use status for the entire duration of a grazing 
permit. The court found that:
        This is an impermissible exercise of the Secretary's authority 
        under section three of the [Taylor Grazing Act] because land 
        that he has designated as `chiefly valuable for grazing 
        livestock' will be completely excluded from grazing even 
        through range conditions could be good enough to support 
        grazing. Congress intended that once the Secretary established 
        a grazing district under the TGA, the primary use of that land 
        should be grazing.
Id. at 1308.
    Neither the Secretary's Wild Lands Order nor the implementing BLM 
manuals explain how the Secretary reconciles the use of BLM grazing 
districts as chiefly valuable for grazing when those lands also contain 
wilderness characteristics. In the absence of an explanation, the BLM 
is directed to elevate wilderness protection above grazing use in 
seeming contradiction to the Taylor Grazing Act. Perhaps the Secretary 
could weave this course through the land use planning process 
designated in FLPMA but any such determination that would change a 
grazing district boundary requires a secretarial decision through the 
FLPMA process. None of these procedural steps is discussed in the 
Manuals.
BLM Manual 6303: Impact to and Impairment of LWCs at the Project Level
    The only section within the Order or the three manuals that clearly 
defines when an LWC may be ``impacted'' or ``impaired'' is at Manual 
6303, Sec. .14. This section lists five circumstances that would allow 
BLM to issue a project decision that would impact an LWC not yet 
designated as Wild Lands through the land use planning process. It is 
unclear what, if any, projects are allowed to impair Wild Lands 
designated under Manual 6302.
    For areas not analyzed under Manual 6302, the enumerated exceptions 
are:
        <bullet>  For the exercise of valid existing rights
        <bullet>  For renewal of grazing permits (not including range 
        projects)
        <bullet>  If the proposed action will create no more than minor 
        disturbance or minor impacts to the LWCs
        <bullet>  For temporary facilities for wild horse and burrow 
        gatherings, and
        <bullet>  If the proposed action will control expansion of 
        invasive exotic species.
    If the proposed project does not meet one of these five criteria, 
the project may not proceed without concurrence of the BLM State 
Director. In cases where a project would preclude BLM from exercising 
its discretion to designate an LWC as Wild Lands in the future, the 
field staff must forward the decision to the Washington, D.C. office of 
the BLM and the National Landscape Conservation System staff for review 
and permission to allow the project to proceed.
APA Compliance
    It is reasonable to ask whether the Secretarial Order and the BLM 
manuals implementing that Order constitute regulations that should be 
promulgated pursuant to the Administrative Procedure Act with its 
requirements for public notice and comment. As noted in an important 
decision by the United States Court of Appeals for the District of 
Columbia Circuit, a familiar pattern occurs when Congress passes a 
broadly-worded statute, here the Wilderness Act. ``The agency follows 
with regulations containing broad language, open-ended phrases, 
ambiguous standards and the like. Then, as years pass, the agency 
issues circulars or guidance or memoranda, explaining, interpreting, 
defining and often expanding the commands in the regulations....Law is 
made, without notice and comment, without public participation, and 
without publication in the Federal Register or the Code of Federal 
Regulations.'' Appalachian Power Co. v. EPA, 208 F.3d 1015, 1020 (D.C. 
Cir. 2000).
    This pattern occurs in other settings and is seemingly applicable 
to the current Wild Lands policy. As recently as last month, the 
Federal District Court for the District of Columbia ruled against the 
EPA once again, citing Appalachian Power, id., for issuing a 
pronouncement that was actually a legislative rule with the force and 
effect of law. The court cited another D.C. Circuit decision in 2005 to 
the effect that ``new rules that work substantive changes...or major 
substantive legal additions...to prior regulations are subject to the 
APA's procedures.'' National Mining Ass'n v. Jackson, 2011 WL 124194 at 
*8, citing U.S. Telecom Ass'n v. FCC, 400 F.3d 29, 34-35 (D.C. Cir. 
2005).
    Secretary Salazar's Order was not shared with the public prior to 
announcement nor did the public have a formal opportunity to comment on 
the Order or BLM's manuals. Further research could be undertaken to 
determine whether the Order and BLM manuals constitutes a legislative 
rule with the force and effect of law that would necessitate compliance 
with the APA.
NEPA Compliance
    Recently, when BLM has announced major policy initiatives, it has 
performed NEPA analysis. BLM has fulfilled its responsibilities under 
NEPA through the preparation of programmatic environmental impact 
statements to assess the environmental, social, and economic impacts 
associated with the policy or program and to evaluate alternatives to 
address the question of whether the proposed action presents the best 
management approach for the BLM to adopt. See, e.g., Final Programmatic 
Environmental Impact Statement on Wind Energy Development on BLM-
Administered Lands in the Western United States, at ES-1 (June 2005), 
amending 52 land use plans; see also Final Programmatic Environmental 
Impact Statement for Geothermal Leasing in the Western United States, 
October 2008, proposing to allocate 118 million acres of BLM lands as 
open to geothermal leasing. In contrast, the Secretary's Wild Lands 
policy, which will apply to over 90% of BLM's 245 million acres that 
are not already managed as Wilderness Areas or WSAs, has no 
accompanying NEPA analysis.
    NEPA declares that the federal government's continuing policy is to 
cooperate with state and local governments and other concerned public 
and private organizations ``to create and maintain conditions under 
which man and nature can exist in productive harmony, and fulfill the 
social, economic, and other requirements of present and future 
generations of Americans.'' 42 U.S.C. Sec. 4331(a). BLM has adopted 
FLPMA's mission statement as fully compatible with its own as described 
in BLM's National Environmental Policy Act Handbook H-1790-1, Sec. 1.1 
(Jan. 30, 2008). An explication of NEPA's requirements as they relate 
to Secretarial Order No. 3310 and the BLM manuals is beyond the scope 
of this testimony. It seems logical, however, that the Secretary 
intends that his Order will significantly affect the environment by 
protecting wilderness characteristics through land use planning and 
project-level decisions. Secretarial Order No. 3310, Sec. 4.
    Undoubtedly, the BLM would respond that NEPA will be fully complied 
with at such point in time that land use plans are amended pursuant to 
the policy or project-level decisions and that the Order itself brings 
about no environmental impact, significant or otherwise. See Manual 
6302 .13.D. Yet, BLM has recently seen its obligations under NEPA as 
requiring programmatic EISs for other large-scale programs and policies 
including geothermal and wind energy. Additionally, BLM's NEPA 
regulations require BLM, ``whenever practicable,'' to use a consensus-
based management approach for the NEPA process. 43 C.F.R. 
Sec. 46.110(e). This process assures that input from persons, 
organizations, or committees affected by the proposed action will be 
considered. Id. at (a). Persons, organizations, or committees that 
oppose an LWC or Wild Lands alternative may wonder how consensus can be 
achieved in light of the Secretary's order to protect LWCs whenever 
possible.
    A specific issue that arose in the context of NEPA in the legal 
challenge to the Norton-Leavitt Settlement gives rise to interesting 
legal questions in the context of Secretary Salazar's Order. The 
regulation at 40 C.F.R. Sec. 1506.1(a)(2) interprets NEPA and states 
that BLM may not limit the choice of reasonable alternatives that it 
considers when a NEPA process is underway. Query whether the 
Secretarial Order would cause BLM to violate this regulation by 
limiting its choices among reasonable alternatives for a proposed 
action because of the required protection of wilderness values in the 
land use plan following designation as Wild Lands.
    In other words, if the land use plan follows the Secretary's Order 
and elevates Wild Lands above all other uses and a project proponent 
seeks to use BLM lands for a purpose that would conflict with Wild 
Lands designation, will the BLM be able to consider such conflicting 
uses or alternatives in the face of Secretary Salazar's Order? The 
Order states repeatedly that exceptions to Wild Lands protection may be 
made so as to impair wilderness characteristics but the BLM manuals are 
not clear as to the method for doing so except in the context of the 
very narrow exceptions for certain projects. If those exceptions do not 
provide BLM with a realistic opportunity to consider reasonable 
alternatives other than wilderness protection, the result may be a 
violation of the NEPA process. As noted, this legal theory needs 
further development.
    Thank you, Mr. Chairman and members of the Committee, for inviting 
me to appear today. I would be pleased to answer any questions.
Attachment
    [NOTE: The attachment has been retained in the Committee's official 
files.]
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Myers. Mr. Metcalf, 
you are now recognized for five minutes.

          STATEMENT OF PETER METCALF, CEO/PRESIDENT, 
                    BLACK DIAMOND EQUIPMENT

    Mr. Metcalf. Mr. Chairman and Members of the Committee, 
thank you for this opportunity. I am Peter Metcalf, CEO and Co-
Founder of Black Diamond Equipment, a publicly traded company, 
and Vice Chair of the Outdoor Industry Association of America. 
I am here in support of Secretarial Order 3310 requiring the 
inventory of BLM lands.
    I am concerned this policy is being framed as a jobs killer 
initiative. On the contrary, I connect the inventory and 
protection of wilderness characteristics to three core points: 
one, job creation and sustainable economies across the American 
West; two, adherence to multiple-use principles on BLM lands; 
and third, the balanced use of the natural and economic 
resources these lands provide.
    With 125 million a year in revenue and a NASDAQ listing, 
Black Diamond manufactures and globally distributes human-
powered outdoor recreational equipment. We employ over 475 
employees worldwide and 250 at our Salt Lake City headquarters.
    We began in the late 1980s with a commitment to create 
innovative gear and to champion the access to and preservation 
of back-country environments where our customers go to 
recreate. In this month's issue of the Harvard Business Review, 
Michael Porter's cover piece is entitled, quote, ``How to Fix 
Capitalism and Unleash a New Wave of Growth.'' And I quote: 
``Companies must take the lead in bringing business and society 
back together. They must reconnect company success with social 
progress and not from a philanthropic way. They must recognize 
that optimizing short-term financial gain while overlooking the 
needs of their customers and the depletion of natural resources 
vital to their business is not sustainable,'' end quote.
    The outdoor recreation industry is dependent upon healthy, 
diverse public lands. The American people need quality places 
to play, to hunt, to fish, including well-managed back-country 
wild lands and wilderness. These lands and waters in their 
natural state have economic value.
    Together, we can replace the jobs versus conservation 
debate with a jobs versus jobs discussion, one that recognizes 
first the vast natural and economic resources for our public 
lands, and second the spectrum of jobs that build and sustain 
communities.
    For too long, the active outdoor industry's economic clout 
has been overlooked. Annually, active outdoor recreation 
contributes over 730 billion to our country's economy, 
generates 88 billion in taxes, and supports 6.5 million 
American jobs. This isn't pocket change.
    Americans spend 46 billion each year on active outdoor 
gear, apparel, and services. Additionally, they spend 
approximately 243 billion on active outdoor excursions totaling 
289 million in direct expenditures. The 441 billion in indirect 
expenditures are a result of a ripple effect.
    Hunters and anglers are an important segment of our 
industry. Over 13 million Americans hunt and 33 million fish. 
This supports over 900,000 jobs and over 6 billion in taxes. 
Sportsmen are dependent on public lands. In the wild back 
country, fish and wildlife can thrive. The conservation of 
these areas is vital to the economic future of hunting and 
fishing.
    Our industry hosts out to retail and trade shows in Salt 
Lake City. These two annual shows bring over 2,000 companies, 
40,000 people, and 40 million in direct spending to the city. 
Yet in the summer of 2003, when then Governor Leavitt walked 
the show with me in the sold-out Salt Palace, he commented, 
quote, ``I had no idea that such an industry existed.''
    Well, we do exist, and we do need to be heard. We ask that 
the natural landscapes we depend upon for the success of our 
businesses are sustained. Order 3310 properly places 
preservation and stewardship of outdoor recreation venues on 
equal footing with other uses of public lands. It puts our 
industry, with its need for the protection of wilderness 
characteristics, back in the multiple-use mix, along with other 
important economic drivers like oil and gas, mining, and coal.
    Order 3310 is not about designating wilderness. Only 
Congress has that authority. The policy will inventory and 
provide them with current data, and will require that 
wilderness quality to be considered in planning appropriate 
uses of Federal lands. If wilderness qualities are altered now, 
the American people may lose options and resources.
    In our quest to create a vital society, we learned that 
zoning communities keeps them vibrant. In zoning for 
manufacturing, commercial, residential, we understand that a 
vibrant community needs these facets in specific areas. The 
same is true for our public lands. They are lands of multiple 
use, but a civilized and vibrant culture understands that you 
achieve that through thoughtful zoning and not by allowing all 
uses of all lands.
    There is room for all of us. Utah has 22.9 million acres of 
BLM lands. Only 260,000 are designated wilderness, and 3.2 
million are wilderness study areas. Five million acres are 
under lease to the oil gas industry. Only 1 million of these 
leased lands are actually under production.
    For generations, our public lands have helped define us as 
a people, and they provide a platform for one of America's most 
vibrant and sustainable economic sectors, the outdoor industry. 
Well-known futurist Stewart Brand, and I quote, ``Natural 
systems are priceless in value and nearly impossible to 
replace, but their cheap to maintain. All you have to do is 
defend them.'' BLM's policy will do just that, restore a 
balanced and economically smart approach to the management of 
our uniquely American natural landscapes. Thank you.
    [The prepared statement of Mr. Metcalf follows:]

       Statement of Peter Metcalf, CEO/President and Co-Founder, 
                        Black Diamond Equipment

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear today. My name is Peter Metcalf and I am an 
entrepreneur and capitalist, the CEO/President and co-founder of Black 
Diamond Equipment, as well as the Vice Chair of the Outdoor Industry 
Association (OIA) which represents the country's leading outdoor gear, 
apparel, and footwear companies in the active, outdoor industry. I ask 
that my written testimony be included in the hearing record.
    I am here today to speak in support of Secretarial Order 3310, that 
would require the Bureau of Land Management (BLM) to inventory lands 
under its jurisdiction. I'm concerned this policy is being framed by 
opponents as a jobs killing initiative. On the contrary, I believe the 
BLM policy has the potential to produce more jobs and sustainable local 
economies across the West.
    Black Diamond Equipment develops, manufactures, and distributes 
outdoor recreation equipment worldwide. Our products include rock and 
ice climbing equipment, mountaineering and backpacking/travel gear, 
free-ride ski equipment, technical and high-end day packs, tents, 
trekking poles, and gloves. We are a 125 million dollar/year, publicly 
traded, NASDAQ-100-listed company. We employ 475 people worldwide, 
including approximately 250 in Salt Lake City, UT.
    Started in 1989, our founding idea was simple: ``If we did good for 
the community, we would be rewarded by doing well as a business.'' Our 
commitment was and remains to create innovative gear, champion the 
access to and preservation of outdoor environments where our customers 
go to recreate, and do all this in a highly ethical manner.
    We are now 22 years later, and in this month's issue of the Harvard 
Business Review, is a thought-provoking piece authored by the guru of 
Competitive Strategy, Michael Porter. In his cover story entitled ``How 
to fix capitalism and unleash a new wave of growth,'' he writes, 
``...that companies must take the lead in bringing business and society 
back together; they must reconnect company success with social progress 
and not from a philanthropic way. They must recognize that optimizing 
short term financial gain while overlooking the needs of their 
customers and the depletion of natural resources vital to their 
business is not sustainable.''
    The outdoor recreation industry is dependent on the health of our 
public lands. Natural resources are what our customer's need--access to 
well preserved and stewarded outdoor landscapes including Wilderness 
and wild lands and waters. These lands, in their natural undeveloped 
state, have economic value.
    We need to replace the ``jobs vs. conservation'' debate of today, 
with a ``jobs vs. jobs'' discussion--one that is about the type of 
jobs; the long-term sustainability of those jobs; their contributions 
to the health of a community and society; economic balance; and about 
what sort of economic, natural, and societal legacies we want to leave 
our children.
    I'd like to start that discussion today. For too long, the outdoor 
industry's contribution to the health and vibrancy of the American 
economy has been overlooked. Our industry in highly recession 
resistant; contributes over $730 billion to the American economy each 
year; and generates $88 billion in annual state and federal tax 
revenue. 6.5 million Americans jobs are supported by the active outdoor 
recreation economy. This ain't pocket change.
    The outdoor sector is a truly major part of the U.S. economy; one 
that America still dominates globally; and one that represents 
opportunities for sustained economic growth in communities, rural and 
urban, across America; The outdoor industry's global brand is built 
upon America's iconic and unique wild lands and wilderness--natural 
resources that are recognized and respected around the globe. There is 
a reason why Utah's license plates feature Delicate Arch and not an oil 
rig. You cannot copy in China what we, the American people, have had 
the wisdom to preserve here, nor can you do it more cheaply in 
Bangladesh.
    The direct and indirect impacts of the industry can be broken down 
as follows: Americans spend $46 billion each year on active, outdoor 
equipment, apparel, footwear, accessories, and services. Additionally, 
they spend approximately $243 billion on outdoor excursions within our 
sector every year. This adds up to $289 billion in direct expenditures. 
The indirect expenditures, totaling $441 billion, are the result of a 
ripple effect--the sum total of economic interactions that impact and 
benefit each other. This ripple effect encompasses manufacturing, 
transportation and warehousing, real estate and rentals, accommodations 
and food services, financing and insurance, professional services (such 
as technical and scientific).
    Many rural towns that border BLM lands have experienced both the 
boom and the bust that come with resource extraction. In Moab, Utah, 
uranium exploration and mining put the town on the map. When the bust 
came unemployment was rampant. Today, recreation drives nearly 65 
percent of the town's economy.(2). Moab attracts climbers, mountain 
bikers, hikers, and boaters from around the world. It has been a beacon 
for similar rural towns near BLM lands throughout the country. In 1995, 
the town of Fruita, Colorado was suffering. At that time there were 
some 50 miles of trail on BLM lands and a single bike shop in town that 
did about $200,000 in annual revenues.(3) By 1998 volunteers had worked 
with the BLM to increase the miles of trail to 300 and the bike shop's 
sales went to over $1,000,000. Now there are several bike and outdoor 
shops in Fruita, in addition to dozens of restaurants and related 
businesses. If you look you can find examples like Fruita and Moab in 
every state in the West. Time and time again we have seen that outdoor 
industry jobs from retailers to outfitters and guides endure and remain 
stable despite fluctuations in resource extractive industries. As 
finite natural resources decrease and alternatives are developed, these 
booms and busts will continue. Whereas, the popularity and demand for 
opportunities to visit land in its natural state will only increase as 
population grows and these natural places increase in esthetic and 
economic value.
    While we all recognize that motorized recreation such as 
snowmobiling brings money into communities, we cannot overlook the 
economic power of active outdoor recreation. 2007 figures provided by 
the USDA Forest Service show that, in the White River National Forest 
in Colorado--the most heavily visited national forest in the nation--
four times as many visitors said that cross-country skiing was the 
primary purpose of their visit than said snowmobiling was the primary 
purpose. Using modeling from the Forest Service's National Visitor Use 
Monitoring Program, it's estimated that cross country skiers outspent 
snowmobilers $3.45 to $1.00 during their visits. That is, for every 
dollar spent by snowmobilers in the local economy on gas, food, 
lodging, souvenirs and incidental purchases, cross country skiers spent 
an estimated $3.45 that year. (4)
    Hunters and anglers represent an important segment of our 
industry--over 13 million Americans hunt and 33 million fish. They 
collectively support over 900,000 jobs nationwide and over $6 billion 
in federal and state taxes. U.S. Fish and Wildlife Service estimates 
there were 375,000 anglers in Utah in 2006, fishing some 3.5 million 
days, and 166,000 hunters compiling 1.7 million days of hunting.
    Successful sportsmen need wild, unroaded backcountry for hunting 
and angling, for habitat, and as breeding grounds. These lands have 
long been recognized as places where fish and wildlife can thrive and 
hunters and anglers can experience the outdoors in a wild, natural 
state. In addition to their social and recreational importance, 
backcountry lands contribute to biodiversity and watershed health. The 
conservation of these areas is vital to the economic future of hunting 
and fishing on our public lands.
    I would like to submit for the hearing record a letter from 20 
hunting and angling organizations in support of the Secretarial Order 
3310. These organizations, representing hundreds of thousands of 
sportsmen, recognize the Order creates an open and transparent public 
process for protecting the prized places in our country that remain 
wild and unroaded.
    Our industry hosts the Outdoor Retailer tradeshow in Salt Lake 
City. The two annual shows bring over 2,000 companies, 40,000 people 
from all over the world, and $40 million in direct spending to the 
city. Yet, in the summer of 2003, when Governor Leavitt walked the 
floor of the tradeshow with me, in the sold-out Salt Palace convention 
center, he commented, ``I had no idea that such an industry existed.''
    We are critical to Utah and, with national contributions of $730 
billion annually, we need to be heard. We just request that the natural 
environment and landscapes we depend upon for the success of our 
businesses are sustained. Protecting natural areas is proving good for 
quality of life, business and local communities as noted by Paul Lorah, 
Ph.D, in his study entitled, Environmental Protection, Population 
Change and Economic Development in the Western United States:
    ``In counties where the shift to services is most advanced, the 
relationship between the environment and local economic security has 
fundamentally changed. Economic security no longer depends on exporting 
raw materials. Instead, the presence of natural amenities--pristine 
mountains, clean air, wildlife, and scenic vistas--stimulates 
employment, income growth and economic diversification by attracting 
tourists (and their credit cards), small business owners (and their 
employees), and retirees (and their stock portfolios). Because of this, 
previous research (Ullman 1954, Williams and Sofranko 1979, Rasker 
1993, 1994, 1995, Power 1991, 1995, Loomis and Walsh 1997, Rudzitis 
1993) suggests that natural amenities are an increasingly important 
component of economic development in rural regions of the western 
United States, and are likely to be associated with relatively 
diversified economies, rapidly growing service sectors, and population 
growth.'' (5)
    Secretarial Order 3310 properly places preservation and wise 
stewardship of outdoor recreation venues and wildlife habitat on equal 
footing with other uses of public lands. It puts our industry, with its 
need for the protection of wilderness characteristics, back in the 
multiple-use mix, along with activities such as oil and gas leasing, 
hard rock mineral claims, coal leasing, and timber sales.
     The policy requires the agency to inventory its lands and compile 
information on whether the lands have wilderness qualities, which 
Congress mandates BLM to do under FLPMA. Any good business owner takes 
routine inventories of existing stock to know what products are 
available, what they're low on, what needs to be managed better. 
Assessments by experts in land resource management can lead to a more 
efficiently run agency.
    Secretarial Order 3310 is NOT about Wilderness--only Congress has 
the authority to designate land as part of the National Wilderness 
Preservation System. Rather, the Order aims to provide Congress the 
most up-to-date and comprehensive information possible, so Members of 
Congress are able to make the best and most-informed decisions possible 
IF they choose to consider BLM lands for Wilderness designation. By 
protecting lands with wilderness characteristics, it preserves the 
prerogative of Congress to determine whether or not these lands warrant 
formal Wilderness designation at some future date. If wilderness 
quality lands are damaged, Congress loses this option. We, as a 
civilized culture, in our quest to create a vital society, long ago 
learned that we must zone our communities to make them vibrant. We have 
areas zoned for manufacturing, commercial, residential, and 
recreational uses. We do so understanding that a community needs all of 
these facets but that a healthy, vibrant, community needs these facets 
in specific, well thought out, areas. It is mutually incompatible to 
have manufacturing in residential areas or heavy commercial near 
schools or churches.
    The same is true for our public lands--they are lands of multiple-
use, but a civilized and vibrant culture understands that you achieve 
that through thoughtful zoning and not by allowing all uses on all 
lands.
    I believe there is room for all of us. Utah has 22.9 million acres 
of BLM lands. Of these lands, approximately 260,000 are designated 
Wilderness and 3.2 million are Wilderness Study Areas. Five million 
acres of BLM lands are under lease to the oil and gas industry; only 
one million of these leased lands are under production.
    For generations, our public lands have helped define us as a 
people. They have played an integral role in forging our uniquely 
American culture of self-reliance and independence. And they provide 
the platform for my industry--one of America's fastest growing, 
vibrant, entrepreneurial, recession resistant, and sustainable economic 
ecosystems. Human-powered outdoor recreation also helps to keep our 
populations active, exercising, and healthy.
    Well known futurist, Stuart Brand, stated, ``Natural systems are 
priceless in value and nearly impossible to replace, but they are cheap 
to maintain. All you have to do is defend them.'' BLM's policy will do 
just that--restore a balanced and economically smart approach to the 
management of our uniquely American natural landscapes.
    Thank you. I ask that the attached letter from over 25 businesses 
supporting the BLM wild lands policy be submitted as part of the 
hearing record, along with the aforementioned sportsmen's letter.
Sources
        1.  Outdoor Industry Foundation, The Active Outdoor Recreation 
        Economy, Fall 2006 report
        2.  Moab BLM Resource Management Plan
        3.  Source--Over the Edge Bike Shop
        4..  Data from 2007 Forest Service National Visitor Use 
        Monitoring results; compiled by Michelle Haefele, Ph.D, 
        resource economist with The Wilderness Society.
        5.  Environmental Protection, Population Change and Economic 
        Development in the Western United States; Paul Lorah, Ph.D., 
        Assistant Professor, Department of Geography,University of St. 
        Thomas.
Attachments--submitted for hearing record
        1.  Conservation Alliance/Outdoor Industry Association Wild 
        Lands Letter
        2.  Sportsmen's Wild Lands Letter
                                 ______
                                 

    Theodore Roosevelt Conservation Partnership * National Wildlife 
   Federation * Association of Northwest Steelheaders * Backcountry 
    Hunters & Anglers * Bull Moose Sportsmen's Alliance * Colorado 
 Backcountry Hunters & Anglers * Colorado Wildlife Federation * Idaho 
    Backcountry Hunters & Anglers * Idaho State Bowhunters * Idaho 
     Traditional Bowhunters * Idaho Wildlife Federation * Montana 
   Backcountry Hunters & Anglers * Montana Wildlife Federation * New 
Mexico Wildlife Federation * New Mexico Backcountry Hunters & Anglers * 
Renewable Resources Coalition * Southwest Consolidated Sportsmen * Utah 
   Backcountry Hunters & Anglers * Washington Backcountry Hunters & 
                Anglers * Washington Wildlife Federation

February 24, 2011

Dear Senator:

    We the undersigned organizations represent hundreds of thousands of 
hunters and anglers with a stake in public lands management that 
sustains productive habitat for fish and wildlife. We support the 
Department of the Interior's Secretarial Order 3310, which provides for 
public input on the management of backcountry fish and game habitat on 
Bureau of Land Management lands and restores the decision-making 
ability of local land managers. To that end, we request you oppose any 
effort that would prohibit the Bureau of Land Management from 
implementing Secretary Salazar's Wild Lands policy in the Senate 
Continuing Resolution Appropriations Bill for FY 2011.
    Issued by Interior Secretary Ken Salazar in December 2010, this 
order amends a Department of the Interior policy adopted in 2003 when 
then-Interior Secretary Gale Norton determined the BLM would no longer 
consider new lands for ``wilderness study area'' designation. The 9th 
U.S. Circuit Court in Oregon confirmed that the BLM is required to 
consider lands with wilderness characteristics as specified in the 
Federal Lands Policy Management Act. The recent order restores federal 
law and creates new opportunities for the public to be involved in the 
conservation of valuable fish and wildlife habitat.
    America's wild, unroaded backcountry is a great natural asset. 
These lands long have been recognized as places where fish and wildlife 
can thrive and hunters, anglers and others can experience the outdoors 
in a wild, natural state. In addition to their social and recreational 
importance, backcountry lands contribute to biodiversity and watershed 
health. These areas offer refuge to native trout and salmon, provide 
secure habitat for big-game animals such as mule deer, elk and wild 
sheep and may be carefully managed to maintain their habitat values. 
The conservation of these areas is vital to the future of hunting and 
fishing on public lands.
    Our organizations strongly support cooperative efforts to determine 
how prized backcountry areas are to be managed, and Secretarial Order 
3310 creates an open and transparent public process for doing so. This 
order affirms the value of backcountry areas, the importance of public 
participation and the decision-making authority of local land managers.
    We ask that you strongly oppose any efforts to undermine this order 
in the budget so we can ensure that BLM lands are managed in ways that 
sustain healthy fish and wildlife habitat, support quality hunting and 
fishing and meet the needs of local communities.

Sincerely,

Theodore Roosevelt Conservation Partnership
National Wildlife Federation
Association of Northwest Steelheaders
Backcountry Hunters & Anglers
Bull Moose Sportsmen's Alliance
Colorado Backcountry Hunters & Anglers
Colorado Wildlife Federation
Idaho Backcountry Hunters & Anglers
Idaho State Bowhunters
Idaho Traditional Bowhunters
Idaho Wildlife Federation
Montana Backcountry Hunters & Anglers
Montana Wildlife Federation
New Mexico Wildlife Federation
New Mexico Backcountry Hunters & Anglers
Renewable Resources Coalition
Southwest Consolidated Sportsmen
Utah Backcountry Hunters & Anglers
Washington Backcountry Hunters & Anglers
Washington Wildlife Federation

cc:  Ken Salazar, Secretary of the Interior
    Wilma Lewis, Assistant Secretary, Land and Minerals Management
    Will Shafroth, Deputy Assistant Secretary for Fish and Wildlife and 
Parks
    Bob Abbey, Director, Bureau of Land Management
    Steve Black, Counselor to the Secretary
                                 ______
                                 
     

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 

March 4, 2011

The Honorable Rob Bishop
Member
Committee On Natural Resources
United States House of Representatives
Washington, DC 20515

Dear Mr. Bishop:

    On March 1, 2011, I testified during the full committee hearing on 
the Impact of the Administration's Wild Lands Order on Jobs and 
Economic Growth.
    During this hearing you requested I submit, in writing, detail on 
when and by whom I was contacted concerning my participation in 
Secretary of the Interior Ken Salazar's December 23, 2010 press 
conference announcing the release of Secretarial Order 3310.
    I was contacted the afternoon of Friday, December 17, 2010 in a 
telephone call from Frank Hugelmeyer, President and CEO of the Outdoor 
Industry Association. Frank asked if I would like to participate in the 
announcement and speak to the economic impacts of outdoor recreation 
and the use of public lands and Wilderness by Black Diamond's 
customers.
    Please let me know if I can answer additional questions.

Sincerely,

Peter Metcalf
Black Diamond Equipment
2084 East 3900 South
Salt Lake City, Ut. 84124
801-278-5551
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8cdce9f8e9fea2c1e9f8efede0eacceee8e9e0a2efe3e1">[email&#160;protected]</a>

cc:  James Streeter, Majority Staff
    David Watkins, Minority Staff
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Metcalf. And Mr. 
Squillace, you are now recognized for five minutes.

   STATEMENT OF PROFESSOR MARK SQUILLACE, DIRECTOR, NATURAL 
    RESOURCES LAW CENTER, UNIVERSITY OF COLORADO LAW SCHOOL

    Mr. Squillace. Thank you, Mr. Chairman. I will try to be 
brief. I know that it is getting late and that we still have 
one more witness and one more panel.
    My name is Mark Squillace. I am a Professor of Law and the 
Director of the Natural Resources Law Center at the University 
of Colorado Law School. It is my pleasure to appear before the 
Committee today in support of Secretarial Order 3310, which 
promotes the protection of wilderness characteristics for lands 
managed by the BLM.
    I offer this support because I believe that this order is 
grounded in the law and is good policy. And I would like to 
briefly explain why. As I said, I am going to depart from my 
prepared remarks, and I want to talk about two issues that 
appear to be of major concern to the Committee. They are the 
question of whether or not the Secretarial Order effectively 
allows the designation of de facto wilderness; and second, 
whether the process that the Secretary used in promulgating 
this order was appropriate.
    So first, let me turn to this question about whether or not 
the order somehow leads to de facto wilderness. I don't think 
you can say that it does, and I say this because under the 
Secretarial Order, we are simply going to be following the land 
use planning process that is outlined in FLPMA. Wilderness, as 
we have heard many times today, is designated by Congress. Land 
use designations are, of course, designated by the agency, in 
this case the BLM, and those decisions are to some extent 
ephemeral. They can be changed by the agency once they follow 
the land use planning process. Indeed, under the order, the 
initial decision to determine that land is wild land is not 
required, even if that land has wilderness characteristics.
    I hope that we can all agree that lands that have 
wilderness characteristics do have some special value for that 
purpose. So the question becomes how do we deal with lands that 
may have those wilderness characteristics. And I think in this 
situation, the Secretarial Order does a very good job.
    As we have talked about today and as Mr. Myers just noted 
in his testimony, the first step in the process is to inventory 
the lands, and to identify the lands that have wilderness 
characteristics. I would point out that that specific 
requirement, that is, to inventory the lands with wilderness 
characteristics, was specifically required by the Ninth Circuit 
Court of Appeals in the case Oregon Natural Desert Association 
v. The BLM in August of last year.
    But then there is a second step, of course, and that is the 
decision as to whether or not to designate the lands as wild 
lands. And as I noted, that decision is discretionary. I want 
to just read briefly from the language in the Secretarial 
Order, and this is from section 4, which is entitled Policy. 
This is really the heart of the Secretarial Order.
    It states that, ``All BLM offices shall protect these 
inventoried wilderness characteristics when undertaking land 
use planning, unless the BLM determines that impairment of 
wilderness characteristics is appropriate.'' Note that the 
language is imbued with the discretion on the part of the 
agency, and this decision as to whether or not designating 
these lands as wild lands, whether that is appropriate, is 
going to be done through the public land use planning process.
    So I think what you would have to conclude from this is 
that what the BLM has done with this order is simply good 
policy. They identify what they have, they inventory what they 
have, and then they make a considered judgment as to whether or 
not it makes sense to protect the wild lands that are there.
    Let me turn briefly to the issue of process. There are I 
think two aspects to this process issue, one policy and one 
legal. I want to touch briefly on both of them. The policy 
question I suppose basically is whether or not this was unfair, 
whether or not the states and the parties who were affected by 
the policy somehow had no understanding that this might in fact 
be the way that BLM lands would be governed.
    I would point out, as I noted in my written testimony, that 
the policy embodied in the Secretarial Order is a policy that 
goes back literally to the time that FLPMA was passed in 1976. 
And every administration since that time, until 2003 and the 
second Bush Administration, followed this policy.
    I included in my testimony a legal opinion that was written 
by the Solicitor's Office to the Director of the BLM during the 
Reagan Administration pointing out that section 202, the land 
use planning provisions of FLPMA, specifically allow the 
designation or the recognition of wilderness characteristics of 
land under that process even if those lands weren't protected 
under the wilderness study area provision of FLPMA, that is, 
section 603.
    So this is something that has been around for a long time. 
The change that really occurred was in 2003 in the private out-
of-court settlement that I believe is not enforceable.
    I want to talk briefly about the legal issue as well, 
because there is a question about whether or not the agency 
should have followed a notice and comment process, as might be 
required by the APA.
    I see I am out of time. I think I will just wrap up briefly 
by noting that the process that was used here was adequate 
under the law, that it did not really change the law in any 
significant way. It was always there. There was no process used 
during the previous administrations that followed this policy. 
And so it seems appropriate to recognize that this policy 
should be upheld and should be endorsed by this Committee. 
Thank you very much.
    [The prepared statement of Mr. Squillace follows:]

           Statement of Professor Mark Squillace, Director, 
    Natural Resources Law Center, University of Colorado Law School

    My name is Mark Squillace. I am a professor of law and the Director 
of the Natural Resources Law Center at the University of Colorado Law 
School. I am pleased to appear today before the House Committee on 
Natural Resources to offer my support for Secretarial Order No. 3310, 
signed by Secretary of the Interior Ken Salazar, which addresses the 
issue of protecting the wilderness characteristics of lands managed by 
the Bureau of Land Management. Before getting to the merits of the 
Order itself, let me briefly review the legal context in which this 
Order was issued.
    Section 201(a) of the Federal Land Policy and Management Act 
requires the Secretary of the Interior to ``prepare and maintain on a 
continuing basis an inventory of all public lands and their resource 
and other values....'' The Secretary is required to use this inventory 
in the development and revision of the land use plans that are required 
by Section 202 of FLPMA. A separate requirement in FLPMA--Section 603--
required the Secretary to identify roadless areas of at least 5,000 
acres with wilderness characteristics, and to report to the President 
by October 21, 1991, on the suitability of such areas for wilderness. 
Pending congressional action on these lands, the Secretary must manage 
them so as not to impair their suitability for wilderness.
    At the heart of this controversy is a question about whether 
Congress intended this 15-year review to be static or whether the 
Secretary should revise this report as new or better information became 
available, or alternatively, whether the Secretary should simply 
identify other areas with wilderness characteristics in accordance with 
the multiple use and land-use planning provisions of FLPMA. The 
language of FLPMA plainly suggests that Congress intended an ongoing, 
dynamic process where new information would be used to correct 
erroneous findings from the initial inventory. In particular, the 
inventory requirement of Section 201 is supposed to be ``maintain[ed] 
on a continuing basis'' and to be ``kept current.'' Furthermore, while 
FLPMA imposes a general mandate to manage public lands ``under 
principles of multiple use and sustained yield,'' FLPMA, Section 
302(a), it defines ``multiple use'' explicitly to recognize that some 
lands should be managed ``for less than all of the resources.'' FLPMA, 
Section 103(c).
    Given this language it is not surprising that successive Presidents 
from Carter to Reagan to George H.W. Bush to Clinton all recognized a 
continuing responsibility under Section 202 of FLPMA to identify and 
set aside new areas with wilderness characteristics that might have 
been missed during the initial Section 603 inventory. (See, for 
example, the attached Memorandum from the Associate Solicitor for 
Energy and Minerals to the Bob Burford, the Director of the Bureau of 
Land Management during the Reagan Administration.) More than 100 
additional wilderness study areas, beyond those designated under 
Section 603, have been set aside under Section 202. This policy is not 
only consistent with the letter and spirit of the law; it also makes 
good practical sense. Our BLM public lands encompass 240 million acres 
of land. No effort to catalog and identify roadless areas from among 
all of these lands could possibly be perfect or complete. When Congress 
required the Secretary of the Interior to identify and protect areas 
with wilderness characteristics it surely did not intend that such 
areas should be sacrificed simply because they might have been 
inadvertently or mistakenly missed during the initial inventory.
    In 2003, however, in response to a lawsuit filed by the State of 
Utah, the Department of the Interior abandoned its longstanding 
interpretation of FLPMA and entered a private settlement disavowing its 
authority to designate new wilderness study areas beyond those included 
in the recommendations submitted to Congress in 1993. This private, 
out-of-court settlement agreement is neither enforceable nor binding on 
the current Administration. Nonetheless, in May, 2009, the Interior 
Department sent a letter to former Utah Senator Bennett indicating that 
the Department did not intend to claim the authority to designate new 
wilderness study areas or apply the non-impairment standard to any new 
areas, as previous Administrations had done under Section 202 of FLPMA.
    This brings us to Secretarial Order No. 3310. Since sending the 
May, 2009 letter to Senator Bennett, the Department has been under 
substantial pressure to return to the long-standing policy that 
successive Administrations had followed until the George W. Bush 
Administration entered the private, out-of-court settlement in 2003. 
That pressure included a letter sent to Secretary Salazar by 55 law 
professors from around the country, including me.
    Under this new Secretarial Order, the BLM is required to identify 
lands with wilderness characteristics that are outside of those areas 
previously designated under Section 603 of FLPMA. The Order then 
requires the BLM to protect these areas from impairment unless the BLM 
determines that impairment of these lands is appropriate, documents the 
reasons for these decisions, and takes measures to minimize the impacts 
to wilderness characteristics. If the BLM determines that protecting 
the wilderness characteristics of these lands is appropriate then it 
will designate these lands as ``wild lands.''
    Secretarial Order No. 3310 is simply and unequivocally a good 
government measure. Lands with wilderness characteristics are a 
diminishing resource. Their destruction is irrevocable and it would be 
irresponsible for the BLM to allow their destruction either because it 
was ignorant of their wilderness characteristics or because it had 
failed to make a considered judgment regarding the relative value of 
other uses. That is all that this new Secretarial Order requires.
    As our population grows, the wild lands that remain a part of our 
public lands grow ever more precious. Future generations will rightly 
praise us for those wild lands that we have chosen to protect. I am 
skeptical that they will be so grateful for a decision to open these 
lands for private mineral development that primarily benefits a few 
members of the present generation. For all of these reasons, I am 
pleased to endorse Secretarial Order No. 3310, and I urge this 
Committee to recognize that it is well grounded in the law, and worthy 
of their support.
Attachments:
        1.  Law Teacher's Letter to Secretary Salazar, September 30, 
        2009.
        2.  Memorandum from the Associate Solicitor for Energy and 
        Minerals to Bob Burford, Director of the Bureau of Land 
        Management.
                                 ______
                                 

September 30, 2009

The Honorable Ken Salazar
Secretary of the Interior
1849 C Street, NW
Washington, DC 20240

Re: Authority of the Department of the Interior to Designate and Manage 
Wilderness Study Areas and Other Potential Wilderness Areas

Dear Secretary Salazar:

    We, 55 teachers of natural resources law and related subjects at 
law schools across the United States, write to express our deep concern 
about legal positions stated in an attachment to a May 20, 2009, letter 
from Christopher J. Mansour, Director of your Office of Congressional 
and Legislative Affairs, to Utah Senator Robert F. Bennett of the 
Committee on Energy and Natural Resources. That attachment sets forth, 
on your behalf, answers to questions posed in an April 30, 2009, letter 
from Senator Bennett to you. The attachment states that the Department 
of the Interior is without authority either (a) to designate any new 
Wilderness Study Areas (WSAs) after October 21, 1993, or (b) to manage 
any areas that are not designated as WSAs under the same ``non-
impairment'' standard under which WSAs are managed.
    We believe that these positions are contrary to legal precedent and 
to the Federal Land Policy and Management Act (FLPMA), are contrary to 
past administrations' interpretation and application of FLPMA, 
unnecessarily hinder the Department's ability to manage lands with 
wilderness characteristics, and could result in the irreversible 
degradation of some areas that would otherwise be excellent and worthy 
additions to the National Wilderness Preservation System. We therefore 
urge you to reconsider these positions.
Background
        Section 201(a) FLPMA, 43 U.S.C. Sec. 1711(a), requires the 
        Secretary of the Interior to prepare and maintain on a 
        continuing basis an inventory of all public lands and their 
        resource and other values (including, but not limited to, 
        outdoor recreation and scenic values), giving priority to areas 
        of critical environmental concern. This inventory shall be kept 
        current so as to reflect changes in conditions and to identify 
        new and emerging resources and other values.
    Section 202(c)(4) of FLPMA, 43 U.S.C. Sec. 1712(c)(4), requires the 
Secretary to rely on the inventory in the development and revision of 
land use plans.
    The inventory prepared and maintained pursuant to section 201(a) is 
also the basis for the wilderness review required by section 603 of 
FLPMA, 43 U.S.C. Sec. 1782. Section 603(a), 43 U.S.C. Sec. 1782(a) 
required the Secretary, by October 21, 1991, to review roadless areas 
larger than five thousand acres identified by the inventory as having 
wilderness characteristics and to report to the President his 
recommendations as to the suitability or unsuitability of each such 
area for preservation as wilderness. Section 603(b), 43 U.S.C. 
Sec. 1782(b), required the President, within two years thereafter, to 
advise Congress of his recommendations with respect to the designation 
as wilderness of each area identified in the Secretary's review. 
Section 603(c), 43 U.S.C. Sec. 1782(c), requires the Secretary to 
manage such areas ``in a manner so as not to impair the suitability of 
such areas for preservation as wilderness'' unless and until Congress 
directs otherwise.
    In effect, section 603 set a deadline for the Secretary to take a 
snapshot of the section 201 inventory and to ensure that the wilderness 
characteristics of areas identified in that snapshot were protected so 
as not to limit Congress' future options for legislative wilderness 
designations. Nothing in section 603, however, suggests that the 
inventory itself was to be frozen in time. Specifically, nothing in 
section 603 contravenes section 201(a)'s mandate that the Secretary 
``maintain [the inventory] on a continuing basis'' and that ``[t]his 
inventory shall be kept current....''
    Areas identified in the section 201 inventory as having wilderness 
characteristics have become known as ``wilderness study areas'' (WSAs). 
``Wilderness study area'' is not a statutory term, but rather is 
defined in the BLM's Manual as ``a roadless area or island that has 
been inventoried and found to have wilderness characteristics as 
described in Section 603 of FLPMA and Section 2(c) of the Wilderness 
Act of 1964.'' BLM Manual H-8550-1, Interim Management Policy for Lands 
Under Wilderness Review, Glossary, page 5. The Manual states the BLM's 
policy ``to continue resource uses on lands designated as WSAs in a 
manner that does not impair the area's suitability for preservation as 
wilderness.'' BLM Manual 8550.06.A. The Manual also includes a Handbook 
with detailed guidance for implementing that policy. BLM Manual H-8550-
1.
    Given the enormous extent of the lands inventoried pursuant to 
section 201 (over 200 million acres), it was inevitable that the 
inventory was imperfect and that the resultant snapshot under section 
603 missed some areas that were subsequently identified as having 
wilderness characteristics. See, e.g., Utah Wilderness Ass'n, 72 IBLA 
125 (1983) (setting aside, as inadequately supported, BLM 
determinations that twenty-one units, totaling over 800,000 acres, 
lacked wilderness characteristics). Fortunately, Congress' mandates to 
maintain the inventory on a continuing basis and keep it current 
(section 201(a)), and to ``maintain, and, when appropriate, revise'' 
land use plans that rely on the inventory (section 202(a), 43 U.S.C. 
Sec. 1712(a)) have provided the mechanism for ensuring that Congress' 
options with regard to the preservation of such areas as wilderness are 
kept open. The Carter administration, which came into office just three 
months after the passage of FLPMA, and all succeeding administrations--
Democratic and Republican alike--until 2003 recognized that the BLM's 
continuing land use planning authority under section 202 includes the 
authority to designate WSAs and to protect those WSAs from development 
pending decisions by Congress whether or not to legislatively protect 
them as wilderness. See John D. Leshy, Contemporary Politics of 
Wilderness Preservation, 25 J. Land Resources & Envtl. L. 1, 10--11. 
See also U.S. General Accounting Office, Federal Land Management: 
Status and Uses of Wilderness Study Areas 3 (GAO/RCED 93-151) (1993) 
(``Under section 202(c) of the act, the Secretary of the Interior may 
identify candidate wilderness areas through its land use planning 
process; .... As required by FLPMA, BLM's studies and recommendations 
for section 603 and 202 study areas have been sent to the President and 
he has sent these recommendations to the Congress.'') Such ``section 
202 WSAs'' include areas smaller than section 603's 5,000-acre 
threshold as well as additional areas identified when updates to the 
section 201 inventory reveal lands with wilderness characteristics that 
were not included in the section 603 review. By 1993, the BLM had 
already identified 97 such section 202 WSAs as well as 51 other WSAs 
that had been identified in the section 603 review but, after further 
study in the section 202 land use planning process, were expanded. Id. 
at 16.
    In 1995, just two years after the end of the statutorily-mandated 
wilderness review period under section 603, the BLM issued guidance in 
its Manual reaffirming that WSAs include not only those lands 
identified in the section 603 review but also ``WSAs identified through 
the land-use planning process in Section 202 of FLPMA.'' BLM Manual 
8550.02.A(3).\1\ The Manual provides that both categories of WSAs are 
to be managed so as not to impair their suitability for preservation as 
wilderness.
---------------------------------------------------------------------------
    \1\ The Manual also identifies a third category of WSAs not 
relevant here, namely, those specifically established by Congress.
---------------------------------------------------------------------------
    In 2001, the BLM issued its Handbook on Wilderness Inventory and 
Study Procedures, which again reaffirmed the BLM's authority to 
designate new WSAs as part of its land use planning under section 202 
and to manage them under the non-impairment standard. The Handbook 
instructed State BLM Directors to, among other things, ``determine 
whether an inventory area should be designated as a WSA under the land 
use planning provisions of Section 202 of the FLPMA'' and to 
``[p]rotect areas designated as Section 202 WSAs under the provisions 
of H-8550-1, Interim Management Policy for Lands Under Wilderness 
Review.'' BLM Manual H-6310-1, Wilderness Inventory and Study 
Procedures 2--3 (2001).
    Until 2003, the BLM continued to use its inventory and land use 
planning authority to identify additional areas with wilderness 
characteristics that had been omitted from the section 603 review. Over 
50,000 acres of land that were placed in section 202 WSAs during this 
period have been legislatively designated as wilderness by Congress, 
whereas only about 2,000 acres of such WSAs have been released from WSA 
status by Congress. There remain over 100 Section 202 WSAs, comprising 
approximately 270,000 acres in nine western states, awaiting 
congressional action. These parcels vary in size from as few as ten 
acres to almost 30,000 acres. Of these areas, about 35, totaling 
approximately 43,000 acres, have been recommended by the BLM as being 
suitable for future designation by Congress as wilderness.
The 2003 Reversal
    In 2003, in response to a lawsuit filed by the State of Utah, the 
Interior Department abruptly reversed the legal interpretation that had 
been followed by all previous administrations and which had led to the 
designation and protection of over 100 WSAs under the land-use planning 
authority of section 202 of FLPMA. On April 11, 2003, the Department 
filed a stipulation in the United States District Court for the 
District of Utah. In the stipulation, the Department disavowed any 
authority to designate any new WSAs after the submission of the 
wilderness suitability recommendations to Congress pursuant to FLPMA 
section 603, which had been required to occur by October 21, 1993. The 
stipulation also stated that the Department ``will not establish, 
manage or otherwise treat public lands, other than Section 603 WSAs and 
Congressionally designated wilderness, as WSAs or as wilderness 
pursuant to the Section 202 process absent congressional 
authorization.'' See Utah v. U.S. Dep't of the Interior, 535 F.3d 1184, 
1190.
    The district court initially approved the stipulation as a consent 
decree. After the Southern Utah Wilderness Alliance and nine other 
conservation organizations (collectively, SUWA) intervened in the 
lawsuit and objected, the district court vacated the consent decree. 
The State of Utah and the Interior Department then refiled the 
stipulation in the form of a private settlement which, they claimed, 
did not require court approval. The district court then granted their 
joint motion to dismiss the original lawsuit, but allowed SUWA to file 
cross-claims challenging the settlement. Ultimately, the district court 
dismissed the cross-claims on standing and ripeness grounds.
    SUWA appealed to the Court of Appeals for the Tenth Circuit, 
arguing that the settlement was unlawful, that SUWA had standing to 
challenge it, and that the case was ripe for judicial review. Twenty 
professors of natural resources law from law schools across the United 
States, including many of the signatories of this letter, filed a brief 
of amici curiae in support of SUWA's argument that the settlement was 
unlawful. The Tenth Circuit, however, affirmed the district court's 
dismissal of SUWA's claims on ripeness grounds and therefore did not 
reach the merits of the legality of the settlement. Id. at 1198.
The May 20 Answers to Senator Bennett's Questions
    The 2003 agreement between the Department of the Interior and the 
State of Utah is an unpublished and unenforceable out-of-court 
settlement, whose legal effect was nothing more than to terminate the 
litigation that it purported to settle. It did not bind the new 
administration brought in by the 2008 election, and the new 
administration is free to adopt the same interpretation of FLPMA that 
was followed by all previous administrations from the passage of FLPMA 
in 1976 until 2003, namely, that the BLM has continuing authority under 
section 202 of FLPMA to designate WSAs and to manage them so as not to 
impair their suitability for preservation by Congress as wilderness.
    However, this May the Interior Department unnecessarily and, in our 
opinion, imprudently, issued a written statement endorsing and adopting 
the same restrictions on its own authority that were expressed in the 
2003 settlement. The statement was in the form of an attachment to a 
May 20, 2009, letter from Christopher J. Mansour, Director of your 
Office of Congressional and Legislative Affairs, to Utah Senator Robert 
F. Bennett of the Committee on Energy and Natural Resources. According 
to the letter, the attachment was prepared ``[o]n behalf of Secretary 
Salazar'' and contained supplemental responses to questions attached to 
an April 30, 2009, letter from Senator Bennett to Secretary Salazar. 
Among other things, the attachment
        <bullet>  answered ``Yes'' to the question ``Do you agree that 
        the Department currently has no authority to establish new WSAs 
        (post-603 WSAs) under any provision of federal law such as the 
        Wilderness Act [or] Section 202 of FLPMA?'', and
        <bullet>  answered ``No'' to the question ``Does the BLM have 
        authority to apply the non-impairment standard, as enumerated 
        in the Interim Management Plan [sic; should be Policy] for 
        wilderness study areas to lands that are not designated as WSAs 
        under section 603?''
    These answers directly contradict not only the 2001 Wilderness 
Inventory Handbook but also the 1995 Interim Management Policy for 
Lands Under Wilderness Review which, as discussed above, explicitly 
applies the non-impairment standard to ``WSAs identified through the 
land-use planning process in Section 202 of FLPMA.'' BLM Manual 
8550.02.A(3). As discussed above, they also are contrary to the 
interpretation of FLPMA that was followed by all previous 
administrations from the passage of FLPMA in 1976 until 2003
The Implications of the May 20 Answers
    Standing alone, the May 20 letter's disavowal of continuing 
authority to designate new WSAs might be viewed as merely a matter of 
semantics. As explained above, ``Wilderness Study Area'' (WSA) is a 
non-statutory term that is given meaning only by the BLM Manual's 
Interim Management Policy for Lands Under Wilderness Review, which 
defines it to mean an area ``that has been inventoried and found to 
have wilderness characteristics as described in Section 603 of FLPMA 
and Section 2(c) of the Wilderness Act of 1964.'' So long as an area is 
managed according to the non-impairment standard, it arguably does not 
matter whether the area is labeled a WSA.
    However, the additional statement in the May 20 letter, to the 
effect that the BLM lacks authority to apply the non-impairment 
standard to lands that are not designated as WSAs under section 603 of 
FLPMA, could have very serious consequences for the future of hundreds 
of thousands, if not millions, of acres of potential wilderness. On its 
face, this statement not only disavows the Department's authority to 
extend the non-impairment standard to lands where it is not currently 
being applied, but also denies the Department's authority to continue 
to manage nearly 300,000 acres of existing section 202 WSAs under the 
non-impairment standard. This statement throws the current and future 
management of these areas of potential wilderness into great doubt. 
While we hope that the Department did not intend to announce that these 
areas are now open to wilderness-impairing activities, such is the 
implication of the May 20 letter. The letter leaves both the public and 
BLM staff uncertain as to how these areas are being managed, or how 
they will be managed, now that the Department has stated that it lacks 
authority to apply the non-impairment standard that, until May 20, was 
applied to them.
The May 20 Letter Is Contrary to FLPMA and to Precedent
    All administrations from the passage of FLPMA in 1976 until the 
abrupt change of course in 2003 concluded that sections 201 and 202 of 
FLPMA provide ample authority for the Department to designate WSAs and 
to manage those WSAs so as not to impair their suitability for 
preservation as wilderness. Section 201 requires the BLM to update and 
maintain its inventory of the public lands on a continuing basis and 
section 202 requires the BLM to rely on that inventory to develop, 
maintain, and, when appropriate, revise its land use plans. Such land 
use plans are required to follow the principle of ``multiple use,'' and 
multiple use includes the preservation of some land, including 
potential wilderness areas, in a natural condition. See 43 U.S.C. 
Sec. Sec. 1712(c)(1), 1702(c) (requiring that multiple use management 
take into account the needs of future generations for ``natural scenic, 
scientific, and historical values''); see also id. Sec. 1701(a)(8) 
(declaring congressional policy to ``preserve and protect certain 
public lands in their natural condition''), 16 U.S.C. Sec. 529 (stating 
that ``[t]he establishment and maintenance of areas of wilderness are 
consistent with'' multiple use).\2\ Therefore, a designation that 
protects the natural condition of certain public lands is well within 
the authority conferred by section 202. See Sierra Club v. Watt, 608 F. 
Supp. 305, 340--41 (E.D. Cal. 1985) (holding that, under sections 202 
and 302 of FLPMA, the Secretary of the Interior ``clearly had'' 
discretion to study lands for possible wilderness designation and to 
protect them as WSAs in the interim, even if they did not qualify as 
WSAs under section 603 because they were smaller than 5,000 acres); 
accord, Tri-County Cattlemen's Ass'n, 60 IBLA 305, 314 (1981) 
(``Although an area of less than 5,000 contiguous acres would not 
qualify as a WSA under section 603(a), BLM is not precluded from 
managing such an area in a manner consistent with wilderness 
objectives, nor is it prohibited from recommending such an area as 
wilderness.''); The Wilderness Society, 81 IBLA 181, 184 (1984); New 
Mexico Natural History Institute, 78 IBLA 133, 135 (1983).
---------------------------------------------------------------------------
    \2\ 16 U.S.C. Sec. 529 is from the Multiple Use, Sustained Yield 
Act (MUSYA), which applies to National Forests. However, FLPMA's 
definition of multiple use for the BLM (43 U.S.C. Sec. 1702(c)) is 
virtually identical to MUSYA's definition for the National Forests (16 
U.S.C. Sec. 531(a)).
---------------------------------------------------------------------------
    The office of the Solicitor of the Interior in both the Reagan 
administration (1985) and the Clinton administration (2000) concluded 
that the Department has continuing authority under section 202 to 
designate WSAs and to manage them under the non-impairment standard. 
See Memorandum from Solicitor to Secretary Re: Jack Morrow Hills 
Coordinated Activity Plan (December 22, 2000) (``[T]he BLM may 
designate new WSAs in accordance with section 202. ... [T]he BLM may 
not refuse to consider credible new information which suggests that the 
WSA boundaries identified in the late 1970s do not include all public 
lands within the planning area that have wilderness characteristics and 
are suitable for management as wilderness.''); Memorandum from 
Associate Solicitor, Energy and Resources, to Director, Bureau of Land 
Management, Re: Wilderness Review of Lands Placed Under Bureau of Land 
Management Administration After October 21, 1976 (August 30, 1985) 
(``[T]he fact that wilderness review of certain categories of public 
lands is not mandated by section 603(a) does not preclude the Secretary 
from choosing to do so. Section 302 of FLPMA [requiring multiple use 
management], as underscored by section 202 of the statute, gives the 
Secretary that choice.'')
    Section 603 of FLPMA set a deadline to force BLM to act to ensure 
that potential wilderness areas would not be developed before Congress 
decided whether to extend them permanent legislative protection. But 
nothing in section 603 suggests that that deadline was meant to 
preclude protection under section 202 of areas that were missed by the 
initial inventory. To disallow the designation and protection of 
additional WSAs after the passage of the deadline would turn section 
603 on its head, making it a bar, rather than a spur, to protection of 
potential wilderness areas.
    Disallowing the designation and protection of additional WSAs is 
also contrary to Congress' expressed intent to keep for itself the 
ultimate authority to decide whether an area should be preserved as 
wilderness. If an area is protected as a WSA, then Congress can decide 
whether to designate it as a wilderness or to release it from WSA 
status. But if an area is denied WSA protection and developed, its 
wilderness character may be irreversibly degraded before Congress acts.
Conclusion
    We believe that the statements in the May 20, 2009, letter to 
Senator Bennett, to the effect that the Department lacks authority 
under section 202 of FLPMA to designate Wilderness Study Areas and to 
manage them under the non-impairment standard, are incorrect. We are 
also concerned that the Department has, in the private settlement of a 
lawsuit, reversed a longstanding interpretation of an important 
statutory provision, and then confirmed that reversal in a letter. We 
believe that the adoption of such a new, and controversial, legal 
interpretation should be undertaken in a more considered, public, and 
transparent process. Finally, we fear that this interpretation of FLPMA 
could result in the needless loss of worthy additions to the National 
Wilderness Preservation System, including numerous areas that have 
already been designated as section 202 WSAs by previous 
administrations. On its face, the May 20 letter seems to require the 
immediate lifting of the non-impairment standard from these existing 
section 202 WSAs, a result that we hope you did not intend. We 
therefore urge you to reconsider the positions stated in the May 20 
letter and to conclude, as did every previous administration from 1976 
to 2003, that section 202 of FLPMA provides the Department with ample 
authority to designate new WSAs and to manage them so as not to impair 
their suitability for future preservation by Congress as wilderness.

Sincerely,

(Institutions are listed for identification only. The opinions 
expressed herein are those of the authors and not necessarily those of 
the institutions with which the authors are affiliated.)

Robert W. Adler
James I. Farr Chair and Professor of Law
University of Utah S.J. Quinney College of Law

Robert T. Anderson
Associate Professor of Law
Director, Native American Law Center
University of Washington School of Law

Peter A. Appel
Associate Professor
University of Georgia
School of Law

Hope Babcock
Professor of Law
Georgetown University Law Center

Bret C. Birdsong
Professor of Law
William S. Boyd School of Law

Michael C. Blumm
Professor of Law
Lewis and Clark Law School

John E. Bonine
Professor of Law and Dean's Distinguished Faculty Fellow
University of Oregon School of Law

Barry Boyer
Professor of Law
State University of New York at Buffalo

Rebecca Bratspies
Professor
CUNY School of Law

Maxine Burkett
Associate Professor
William S. Richardson School of Law
University of Hawai'i

Alejandro E. Camacho
Associate Professor of Law
Notre Dame Law School

Cinnamon Carlarne
Assistant Professor
University of South Carolina School of Law
School of the Earth, Ocean, and Environment

David N. Cassuto
Professor of Law
Pace Law School

Federico Cheever
Professor of Law and Associate Dean for Academic Affairs
Sturm College of Law
University of Denver

Kim Diana Connolly
Associate Professor
University of South Carolina School of Law

Barbara Cosens
Associate Professor
University of Idaho
College of Law
College of Graduate Studies, Waters of the West
Joseph W. Dellapenna
Professor of Law
Villanova University School of Law

Debra L. Donahue
Professor of Law
University of Wyoming College of Law

Holly Doremus
Professor of Law
University of California, Berkeley

David M. Driesen
University Professor
Syracuse University

Timothy P. Duane
Associate Professor of Law, Vermont Law School
Associate Professor of Environmental Studies
University of California, Santa Cruz

Myrl L. Duncan
Professor of Law
Washburn University School of Law

Joseph Feller
Professor of Law
Arizona State University

Richard J. Finkmoore
Professor of Law
California Western School of Law

Robert L. Fischman
Professor of Law
Indiana University Maurer School of Law

Eric T. Freyfogle
Max L. Rowe Professor of Law
University of Illinois College of Law

David H. Getches
Dean and Raphael J. Moses Professor of Natural Resources Law
University of Colorado School of Law

Robert L. Glicksman
J.B & Maurice C. Shapiro Professor of Environmental Law
The George Washington University Law School

Dale Goble
Margaret Wilson Schimke Distinguished Professor of Law
University of Idaho College of Law

Oliver A Houck
Professor of Law
Tulane University Law School

Steve Johnson
Associate Dean for Academic Affairs and Professor
Mercer University Law School

William S. Jordan, III
Associate Dean and C. Blake McDowell Professor of Law
University of Akron School of Law

Madeline June Kass, J.D., M.E.S.
Associate Professor of Law
Thomas Jefferson School of Law

Robert B. Keiter
Wallace Stegner Professor of Law
Distinguished University Professor
University of Utah S.J. Quinney College of Law

Amy K. Kelley
Professor of Law
Gonzaga University School of Law

Christine A. Klein
Chesterfield Smith Professor of Law
University of Florida Levin College of Law

Sarah Krakoff
Professor of Law, Associate Dean for Research
University of Colorado School of Law

Howard A. Latin
Professor of Law and Justice Francis Scholar
Rutgers University School of Law

John D. Leshy
Harry D. Sunderland Distinguished Professor of Law
University of California, Hastings College of the Law

Andrew Long
Assistant Professor
Florida Coastal School of Law

Professor Linda A. Malone
Director, Human Security Law Program
William and Mary Law School

James R. May, B.S.M.E., CEIT, J.D., LL.M, Esq.
Professor of Law
H. Albert Young Fellow in Constitutional Law
Professor of Graduate Engineering (Adjunct)
Associate Director, Environmental Law Center
Widener University

Patrick C. McGinley
Judge Charles H. Haden II Professor of Law
College of Law
West Virginia University

Joel A. Mintz
Professor of Law
Nova Southeastern University Law Center

Timothy M. Mulvaney
Visiting Associate Professor of Law
Texas Wesleyan University School of Law

Richard L. Ottinger
Dean Emeritus
Pace Law School

Dave Owen
Associate Professor
University of Maine School of Law

Zygmunt Jan Broel Plater
Professor of Law
Boston College Law School

Judith Royster
Professor and Chapman Chair in Law
Co-Director, Native American Law Center
University of Tulsa College of Law

Amy Sinden
Associate Professor
Temple University Beasley School of Law

Mark S. Squillace
Professor of Law and Director of the Natural Resources Law Center
University of Colorado School of Law

Annecoos Wiersema
Assistant Professor of Law
Michael E. Moritz College of Law
The Ohio State University
Charles F. Wilkinson
Distinguished University Professor
Moses Lasky Professor of Law
University of Colorado School of Law

Mary Christina Wood
Philip H. Knight Professor
University of Oregon School of Law

Sandra Zellmer
Law Alumni Professor of Natural Resources Law
University of Nebraska College of Law
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Squillace. I 
appreciate it very much. And I appreciate all of you for your 
testimony. We will now begin with a round of questioning. Each 
Member will have five minutes, and I will begin with myself.
    And I had a question for Solicitor Myers. We have seen that 
there is a lot of discussion from a lot of different people on 
the process. So let me try to be as specific here as I can. In 
justifying the Wild Lands Order, the Administration cites 
section 102, 201, and 603 of the Federal Land Policy and 
Management Act to argue that they are compelled to impose this 
Wild Lands Order.
    Do these sections compel this order?
    Mr. Myers. Mr. Chairman, I think I need to answer your 
question in two parts. The first part is I think that section 
603 of FLPMA, which has set up a 15-year window in which the 
BLM would conduct its initial inventory for wilderness, is 
really separate and apart from today's issue. Today's issue is 
the question of whether section 201 and 202 give the agency the 
authority to what it does.
    Secretary Salazar himself has said that he is not relying 
on section 603 and that he doesn't believe that his policy is 
undoing the Norton-Leavitt settlement. I will take him at his 
word. But the question that you raise is whether these give the 
authority--my understanding from again reading the testimony of 
the BLM and others is that they thought that the duty to do 
this was compelled not by these sections of FLPMA, but by the 
fact that the BLM was without a current wilderness inventory 
handbook, and so that because they had no existing authority 
that was clearly distributed to all of the BLM staff westwide, 
they had to undertake this effort to create one. And that is 
what the three manuals are that they have published.
    So I don't see it as a question of statutory compulsion. I 
see it as a question of the BLM deciding they needed to put 
some direction, or they wanted to put out some direction, to 
their staff, and this is how they did it.
    The Chairman. So they are not compelled by the Wilderness 
Act, in your view, by your testimony, to do this?
    Mr. Myers. No, sir, I don't think so. Judge Benson, when he 
reviewed the Norton-Leavitt settlement, said that the 
settlement was legal under both NEPA and FLPMA.
    The Chairman. OK. And so NEPA is out, too, from our--
nothing in NEPA compels this then.
    Mr. Myers. Well, at least according to that Federal 
district judge who is the one who looked most specifically.
    The Chairman. Well, then let's get right down there. Is 
there any court order that compels this to happen for this 
order?
    Mr. Myers. Not that I know of.
    The Chairman. OK, good. Thank you very much. I will end 
mine, and we will go--Mr. Holt is recognized.
    Mr. Holt. Thank you, Mr. Chairman. And I thank the 
witnesses. Mr. Metcalf, much of the call from the other 
witnesses for jobs seems to focus on extraction industry type 
jobs. You seem to be saying that there is job creation from 
conservation. It is not a jobs versus conservation approach. 
How would you characterize kind of short-term, mid-term, and 
long-term the job prospects?
    Mr. Metcalf. For the active outdoor industry? Is that what 
you are referring to?
    Mr. Holt. Yes, yes.
    Mr. Metcalf. Very promising, so long as we work to maintain 
the integrity and health and vibrancy of our public lands, of 
which we include wilderness within that. The outdoor industry 
in America was one of the industries least impacted by the big, 
great recession of 2008-2009, rebounded more quickly than any 
other industry, continues to grow and employ people. And if you 
just look at visitation in places like Utah at the national 
parks in 2010, it was at just about an all-time high.
    Mr. Holt. And mid-term and longer-term?
    Mr. Metcalf. So long as we work to maintain the integrity 
of the lands that this industry is predicated upon, the 
prospects are very good. It is a great competitive advantage 
this industry has. This industry is the global leader in part 
because our brands are dependent upon these iconic landscapes 
we have here in the West. They are a magnetic draw to people 
from all over the world. You can't copy these in Bangladesh, 
and you can't do them more cheaply in China. People come here 
for these amazing landscapes.
    And, you know, that is probably the reason why we have on 
the Utah license plate Delicate Arch and not an oil drilling 
rig.
    Mr. Holt. No. I hope there is time to pursue that further 
because it is curious to me that the other witnesses aren't 
saying that. And I am genuinely trying to figure out why 
because for so many of us, that is what Utah is. That is what 
Idaho is. That is what--anyway.
    So, Professor Squillace, let me make sure that we state it 
clearly and simply. Your view is that Secretary Norton's 
interpretation was an aberration, that it was a departure from 
what had existed for, well, decades before, and that what is 
before us now is a return to or a restoration of what existed 
before. Is that a clear statement, and accurate?
    Mr. Squillace. That is correct. I would just add one brief 
point about that, which is that the issue of whether or not it 
was lawful, that Secretary Norton's settlement was lawful, was 
never tested in the courts because once the settlement went 
through and it was basically challenged in the courts, the 
plaintiffs were deemed not to have standing to pursue the issue 
further. And so it never really came up on the merits.
    Mr. Holt. Now, you also spoke about the consistency with 
the previous law. Several of the witnesses have suggested or 
even stated that this usurps congressional authority regarding 
wilderness designations. Do you think that there is anything 
inconsistent with congressional intent or congressional 
prerogative?
    Mr. Squillace. I would say there is clearly nothing 
inconsistent with the Wilderness Act or any other legislation 
that I am familiar with in this order. I mean, you can go back 
to well before the Wilderness Act and see how the agency has 
protected lands as primitive areas and as other kind of 
protected classes of lands, and it has continued to happen 
since FLPMA was enacted, since the Wilderness Act was enacted. 
You know, there are over 100 wilderness study areas that have 
been designated under section 202 of FLPMA already.
    So we already have a longstanding record, history, practice 
of designating these sort of protected lands for a host of good 
reasons that aren't part of this sort of classic wilderness 
study area provision in section 603 of FLPMA. So I think the 
record is clear on that.
    Mr. Holt. OK, thank you. And which interpretation, the--
let's for simplicity call them the Norton interpretation or 
Salazar interpretation--is more consistent with the anticipated 
role of the public participation in the designation?
    Mr. Squillace. Well, again I want to emphasize here that 
all we are doing is putting this issue of whether we should 
protect lands with wilderness characteristics on the table. And 
if people disagree with that decision, if they think that there 
are better uses for the lands that have wilderness 
characteristics, then the public participation is allowed to 
work around that and help the agency in making the best 
decision that they can make.
    So I think absolutely keeping this question on the table of 
this important resource that we know by definition is a 
diminishing resource--they are not making lands with wilderness 
characteristics anymore. So we really ought to be focused on 
this as part of the public process.
    If the judgment is we shouldn't protect these roadless 
wilderness characteristics lands, then the agency is free to 
make that decision, but only after they have made this through 
a considered process.
    Mr. Holt. Thank you. I thank the witnesses. And thank you, 
Mr. Chairman.
    The Chairman. The time of the gentleman has expired. The 
Chair recognizes the gentleman from Colorado, Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. Boy, I tell you, 
growing up in Colorado, my father retired from the Army, and my 
family made a living from outdoor recreation. So, what I love 
about having a significant part of your economy engaged in 
outdoor tourism is that it forces you to maintain the 
environment.
    But at the same time, I got to tell you, I got a concern. 
And my concern, I guess, is having my own military career, 
having spent five assignments outside the United States, four 
of which took me to the Middle East, and understanding the 
instability of that region and the fact that whether we like it 
or not, America probably very likely may have an energy crisis 
that may cause a double dip recession in this very fragile 
economic recovery.
    And so the question is, where is the balance? And it does 
seem to me that we are not in balance, and that, you know, 
Americans ought to be able to responsibly develop American 
energy. And we don't seem to be able to do that. And I guess my 
question about the Wild Lands Order is, from the Commissioners 
and also from anybody that wants to answer this, will this hurt 
oil and gas development in the United States at a time when 
families in my district who are already hurting--and, you know, 
and we got gas at the pump going north of three dollars a 
gallon, and I think we are going to see it go north of four 
dollars a gallon, and I think it is going to stay there for 
awhile.
    And so I would like anybody to comment on that who would 
like to. Commissioner?
    Mr. McKee. Yes, thank you. In my county, we have the 
Western Energy Alliance, which is a group of small producers. 
They have done a survey among their members, and they have 
shown that there is about $1.8 billion of investment that has 
left over the last two years because of policies that we have 
had over the past two years, and that investment that has 
already left.
    We are very concerned with this new Wild Lands Policy 
because what we see happening from here and in the directive 
that was just sent out two or three days ago, it talks about 
that if there is any project that is going to be moving forward 
outside of emergency provision, that it will be measured. It 
needs to go to the Washington office for review. So this is 
taking out the local field manager. It is taking out the state 
office. Everything has to come here to Washington. There will 
be further delays, and also the opportunity to say no. And we 
have already seen this in our area, where these projects and 
other issues come to Washington and gets buried.
    Mr. Coffman. Commissioner?
    Mr. Bousman. Yes, Congressman and Mr. Chairman. I would 
like to give an example in my county and in Wyoming. Many of 
you may have heard of the Jonah Field. It is considered about 
the third largest gas field in the nation. The Jonah Field has 
about two to four more years of level production, and it is 
going to start tapering off. In order to continue the flow of 
gas and the production of gas to the country, that company, 
EnCana, has instigated the start of another planning process 
close to the existing Jonah Field. In other words, they need to 
expand.
    Part of that expansion is NEPA with BLM. Our county is the 
cooperating agency with BLM in that process. The problem, as I 
see it--now that we have introduced the wild lands discussion--
part of that NEPA process in designating even potential wild 
lands--as we amend our RMPs, that will likely forestall that 
planning process for energy development until such time as a 
decision is made. Should this be wild lands or should it not be 
wild lands? That decision can take anywhere from three to five 
years.
    The planning process for an energy development process, 
another separate EIS, environmental impact statement, could 
take--some of these that we have been participating in have 
been taking five to seven years to get through the process. The 
red tape, the bureaucratic process is so cumbersome, and this 
is adding another layer onto that. And we are very concerned 
that gas flow could very likely stop under this scenario, and a 
huge impact on the economy.
    Mr. Coffman. Thank you very much.
    The Chairman. The time of the gentleman has expired. The 
gentlelady from Hawaii, Ms. Hanabusa.
    Ms. Hanabusa. Thank you very much, Mr. Chairman. My 
question is for--I am sorry, Professor. How do you pronounce 
your name?
    Mr. Squillace. Squillace.
    Ms. Hanabusa. Squillace?
    Mr. Squillace. Yes.
    Ms. Hanabusa. It is for Professor Squillace. First, in 
reading both your statements as well as the statement by Mr. 
Myers there, one of the things that if you would just bear with 
me and walk me through this. It seems to me that the first 
misperception we have even from this morning's testimony, that 
somehow the inventory in and of itself would then determine 
wilderness, that somehow you get classified as this wilderness 
characteristic, that that will then make you a de facto 
wilderness area.
    Is that correct? Is that our misperception in what we are 
seeing here?
    Mr. Squillace. Yes. I think it is clear that under the 
policy, the inventory is just that. It is just a judgment about 
what kinds of resources exist. Wild lands are not. But it is 
not a judgment as to whether or not they will be protected in 
that way.
    Ms. Hanabusa. And what was interesting to me was the 
reference to the word ``characteristic'' that everyone seems to 
be glossing over. So then, the next question is--because there 
are references--and I think it was your letter to the 
Secretary, which was signed by 50-some other professors----
    Mr. Squillace. Right.
    Ms. Hanabusa. There was a discussion of the APA, the 
Administrative Procedures Act. That leads me to believe that 
somewhere in that that person who may have an interest, whether 
there be in natural gas or whatever else, that may somehow have 
leases that may become then affected, I would assume that there 
would be some kind of a contested case process or 
administrative proceeding which they then could avail 
themselves if they disagree with that.
    Am I wrong? I notice that the rules just came out.
    Mr. Squillace. I am glad you brought that up. I mean, I was 
hoping to get to that, and I didn't have time in my opening 
testimony. But the point is that in making a decision on land 
use planning for an individual district of the BLM, there will 
be a full public process. And so if the judgment is made or if 
there is a proposal made to protect or not protect certain 
parts of that district as wild lands, that will be open for 
full discussion with the public and debate, and presumably a 
decision will then be made that would be fully appealable by 
somebody who objected.
    So there is a full public process with that decision.
    Ms. Hanabusa. And I assume that whenever anyone is using 
Federal lands, that there is probably a lease in place, so they 
would have some sort of a vested right of some sort. But it 
doesn't give one an inherent right into the future to the use 
of all public lands. So that would also be something that I 
would assume would also be calculated into this process.
    Mr. Squillace. That is exactly right. Typically, we protect 
what we call valid existing rights. And so if someone had a 
valid existing right within one of these areas, presumably it 
would be protected or perhaps grandfathered in the process in a 
way that would assure that those rights were not unduly 
trampled on.
    Ms. Hanabusa. So would it be correct to say--what it seems 
to me is that the Norton case kind of sent a whole bunch of 
things kind of off-track. So this is an attempt to put it back 
into a process. And it looks like the fundamental choices that 
we are discussing here is really a process to preserve lands 
into the future, which may or may not be used for different 
purposes now. But if it is affected by this characteristic, 
whatever that characteristic may become, whoever is an affected 
or an injured party at that point will have the opportunity to 
contest it and to make their case. Would that be a correct 
statement?
    Mr. Squillace. I think that is correct. It arguably is not 
even that strong, so it is not necessarily a process to reserve 
lands, but a process to preserve options. A choice can be made 
about whether or not you want to preserve lands in the process.
    Ms. Hanabusa. And just so that we are clear, in the process 
of a designation in the inventory, they would have the 
opportunity to challenge even that inventory in that 
characteristic category of wilderness.
    Mr. Squillace. Absolutely.
    Ms. Hanabusa. Thank you very much. Thank you, Mr. Chair. I 
yield back.
    The Chairman. I thank the gentlelady. The gentleman from 
Colorado, Mr. Tipton, is recognized for five minutes.
    Mr. Tipton. Thank you, Mr. Chairman, and thank you, panel, 
for being here. I have a couple of questions, and I think I 
would like to start first maybe with our county commissioners. 
You deal with this on a very intimate basis. I come out of 
Colorado, and we currently in my district 20 million acres of 
Federal land, 20 million; 7.2 million of that happens to be BLM 
land. I have had extensive interaction through my office and 
then living there.
    Has the BLM in your districts, have they ever requested any 
land to be taken out of a study area that you are aware of?
    Mr. McKee. If I might, in 1991--and this again is in my 
county. This is an area that is known as the Winter Ridge area. 
That area was recommended by Secretary Lujan at the time not to 
be a wilderness study area. However, that continues to be on 
the books today as a wilderness study area.
    Mr. Tipton. Since 1991?
    Mr. McKee. Since 1991, yes.
    Mr. Tipton. Any other----
    Mr. McKee. That is the one that I am familiar with because 
it is in my county.
    Mr. Tipton. OK, great. Any others? OK. That is interesting. 
We have talked about full public process a lot. How many of you 
had public meetings when it came to wild lands that were held 
prior to this designation?
    Mr. Smith. We had a series of public meetings, but it was 
over the Siskiyou Monument designation under Secretary Babbitt.
    Mr. Tipton. So nothing over wild lands?
    Mr. Smith. Nothing over wild lands.
    Mr. Tipton. That just came into being. And, Professor, I 
had kind of a question. This was based a little bit off of your 
statement in the last questioning period here, and your comment 
was that inventory is not a judgment. I just left my district 
after being out in the Third Congressional District of 
Colorado. I met with the BLM, and they said under the wild 
lands that they were going to be inhibiting lateral drilling, 
which would not impact the surface areas at all.
    But that seems to be inhibiting the inventory process. It 
does seem to be inhibiting and driving and basically 
classifying it as a wilderness area. Would you comment on that?
    Mr. Squillace. Yeah. I am not familiar with that particular 
situation. What I meant by my comment was simply that the 
purpose of the inventory is simply factual, to determine what 
is out there. You may be suggesting that maybe we don't know 
exactly what is out there, even after we have done an 
inventory.
    There may be some debate at least about what is out there, 
and that is fair. And I think as the previous questioning 
suggested, I think that is open for discussion and debate, and 
that is part of the public process that we would have in land 
use planning.
    Mr. Tipton. OK. Thank you. And a lot of this hearing is 
really about jobs, jobs and the economy. I come from rural 
Colorado. We have a lot of outdoor recreation. We have a lot of 
oil and gas development as well. And it seems to be actually 
living harmoniously.
    You can speak for your counties, but I grew up in mine, and 
I have lived there my entire life. We value our public lands. 
We want to be able to protect them. And, Ms. Robinson, I think 
that you had mentioned in some of your testimony that you were 
some of the best custodians on that.
    Do you see these--when we really need to be able to get 
America back to work, to reference back to Congress Coffman's 
comments about being able to provide energy for this country to 
be able to keep the lights on and reasonable prices for 
struggling families that are out there, can you see these two 
elements actually working in harmony?
    Ms. Robinson. Well, they have been working, and thank you 
for giving me the opportunity to address this because we have 
been working in harmony, multiple uses in our county, and we do 
have recreation. We have plenty of recreation. We have tons of 
hunters come hunting season in the fall on our ranch and 
everywhere in the county. And everybody is using public lands 
together. And it has been protected for over 100 years, and we 
are the center of focus because we have been protecting it, and 
it has been working in harmony.
    Mr. Tipton. You know, I have done--and I would love your 
comment on this because I think we often seem to make a 
mistake. It is either one way or the other. And it is a lot of 
my purpose, actually, I think, to try and develop win-wins to 
where we can work in harmony. We can achieve both goals in a 
responsible way.
    I want to be able to protect our land. I want clean water. 
I want clean air. And I bet if we asked everyone in this room, 
everybody would raise their hand in accordance with that.
    But has it been your experience--and maybe even from the 
outdoor end of the world as well. We have made the observation 
in the Third Congressional District of Colorado that where 
there has been some development of natural resources, that it 
hasn't actually impacted wildlife negatively. Has that been 
your experience?
    Mr. Smith. It has actually enhanced wildlife and wildlife 
habitat by creating a varied landscape rather than a mono-
landscape. We have a heavy overcast timber area. By opening up 
certain areas, the landscape and herds, birds of prey seem to 
flourish in that kind of environment. And I think that is what 
is coming out now with the latest scientific information 
regarding forest practices and multiple-use issues.
    You know, this isn't exclusionary of recreational. Right 
now, we have lots of backpacking. We have wilderness area to 
the north of us, to the east of us, to the south of us, and to 
the west of us that have people hiking and enjoying it, and the 
beauty is maintained. But the point is that these additional 
takings by the Federal Government and BLM is not an old 
process. By their own representation, it is new. And this means 
that it is an exclusionary, not inclusionary. It excludes a 
whole segment of people from economic purpose.
    The Chairman. The time of the gentleman has expired. The 
gentleman from Arizona, Dr. Gosar.
    Dr. Gosar. Mr. Squillace, can you tell me that the 
definition of wild lands is the same as a wilderness study 
area?
    Mr. Squillace. It is not the same as a wilderness study 
area in this respect. A wilderness study area, that term is 
actually not used in section 603, but it is those areas that 
were designated under section 603 of the statute. And those 
areas must be managed so as not to impair their suitability for 
wilderness until Congress releases them. That is not true of 
wild lands. Wild lands are managed to protect their wilderness 
characteristics only so long as the BLM land use plan requires 
that they do so, and that can be changed at any time.
    Dr. Gosar. So it goes through a holding process.
    Mr. Squillace. The wild lands----
    Dr. Gosar. Yes.
    Mr. Squillace.--designation? I wouldn't call it a holding 
process. It is a designation of what the BLM has determined on 
that particular tract of land to be the highest and best use 
for that particular tract of land. It is a judgment call that 
some may disagree with. But it is a judgment call that is being 
made by the land use managers.
    Dr. Gosar. It actually takes into account minimal 
standards, does it not?
    Mr. Squillace. I am not sure what you mean by minimal 
standards.
    Dr. Gosar. Well, it doesn't have to go through the 
wilderness study requirements. It has minimal requirements, not 
the 5,000, but also it only has to have one characteristic of a 
wilderness area, does it not?
    Mr. Squillace. Well, what I would say is it has to go 
through whatever process the BLM decides is sufficient to 
protect the land, to protect the characteristics that it thinks 
are important. But again, I would emphasize that through the 
public process, the BLM has the discretion, wide discretion, to 
decide whether or not particular lands should be protected, or 
whether or not particular wilderness characteristics should be 
protected.
    So there is nothing in any way automatic under the policy. 
It is simply a way in which we look at that issue and make a 
considered judgment as to whether or not protecting those 
wilderness characteristics is a good idea.
    Dr. Gosar. I just see minimal standards being evaluated 
down, not carrying it--you know, I have seen that we are 
reverting back, and we are trying to carry a past law forward, 
and it really isn't.
    Mr. Metcalf, you know, I enjoy the wilderness as well, and 
jobs in regards to that, and their resources drive our economy. 
We have to a diversified economy, do we not?
    Mr. Metcalf. We certainly do.
    Dr. Gosar. And so in order to utilize our resources right, 
it allows to enjoy nature, does it not?
    Mr. Metcalf. That is----
    Dr. Gosar. If we have no oil and gas, we are not going to 
get to the wilderness areas, are we not?
    Mr. Metcalf. Neither are mutually exclusive of one another.
    Dr. Gosar. But if we don't have means for utilizing our 
resources in a proper manner, we are not going to be enjoying 
the outdoors, particularly wilderness areas, because they take 
some traveling to.
    Mr. Metcalf. There is no question.
    Dr. Gosar. Thank you.
    Mr. Metcalf. But, look, could I just add to that? You know, 
there is a question here relative to what the outdoor industry 
is advocating. Let's take an area like the Vernal Basin that 
Mr. McKee was referring to. You know, I had the great pleasure 
of getting up in Governor Olene Walker's plane, the King Air, 
to fly over that area because she was of the belief that 
perhaps should be protected. So we flew over the Vernal Basin. 
It is a huge area.
    It is in oil and gas development. We are very supportive of 
that. But what the outdoor industry is really seeking is that 
the area Deso-Gray, one of the great wild rivers still in 
America that you have to get in a lottery to run that river--
people come down there. I have been through it. It provides a 
great deal of economic generation for the area. And what we are 
advocating is that that is one of these areas that deserves 
protection. I believe under this action it will temporarily get 
protection.
    So the real question is, is it all or nothing? Or is there 
some lands, some things like the Grand Canyon, the Tetons, that 
deserve protection. Are they deserving--are they as important 
as drilling every oil well or every gas well? And it is the 
industry's belief that we as Americans, as a civilized society, 
do believe that some of these iconic landscapes really do 
deserve protection and preservation because they generate so 
much income from active outdoor recreation.
    Dr. Gosar. I understand, and I think that--I live in 
Flagstaff, Arizona, that had a wilderness area that went 
through some mismanagement.
    Mr. Metcalf. Yeah.
    Dr. Gosar. And we are suffering some consequences of that. 
And I think that is the caution that we have here, is that we 
didn't have some common sense in that adjudication. And when we 
are talking about wilderness areas, we are taking things to a 
point where there is no return. We want to make sure that we 
are doing it fairly, and make sure that we have some ways of 
compensation on that because, frankly, the Schultz Pass fire is 
an atrocity that should have never occurred.
    Mr. Metcalf. You know, I am not familiar with that area. 
But I will say that we are talking about multiple use. And I 
think this is what this action of Secretary Salazar does do. It 
protects multiple use because currently we have multiple use, 
and we are at risk of losing multiple use because these lands 
that we are talking currently protecting and inventorying are 
currently in a wilderness state, or they would not be up for 
this potential inventory.
    So what we are trying to do is maintain the integrity of 
this country's multiple-use philosophy and approach. If we 
don't do this, we do lose multiple use because there are 
certain types of incompatible use, just as I referred to. In a 
civilized society, we do not put a big factory by a school. We 
do not put residential by other areas.
    The Chairman. The time of the gentleman has expired. The 
gentleman from Alaska.
    Mr. Young. Mr. Chairman, this is more of a statement in the 
sense that if I thought that the BLM and its professionals were 
able to make decisions, I might say this has some merit. But I 
have been through this for 40 years. And I have watched the 
interest groups that say, OK, you let this lease, but you 
didn't take into consideration before you let the lease we will 
file a lawsuit. And that professor knows that.
    The lawsuits have been used and manipulated the laws that 
we pass to the benefit of taking away the rights of other 
people, and usually out of New York or Miami or San Francisco. 
And they don't really care about these counties, these small 
countries. I saw countries. These should have been countries. 
That is what I wanted to Alaska to be, and I got voted out.
    The fact of the matter is I have watched this wilderness 
battle in Alaska. And I have watched how it has been subverted 
by the interest groups that can file lawsuits, great, big 
lobbyist interest of the greenies that do not want this country 
to survive, and don't care about those people that work for a 
living.
    So, Mr. Chairman, that is a statement. So I don't have a 
great deal of faith in the Secretary, the Administration, or 
those agencies that say we are going to save more wilderness 
when there is so much wilderness already. Millions of acres of 
it set aside. Now they are going to take the one agency, that 
BLM lands, that was multiple use, and say, oh, now we have to 
consider it as wild lands. What is the difference between wild 
lands and wilderness? Nothing, Mr. Chairman. It is semantical 
words.
    And so that is back door approach, doing what Congress said 
we will do not anymore. We will have this body of land for 
resources and development for the good of this nation. Mr. 
Chairman, I am going to tell you, we are not going to tolerate 
it in this Congress as far as I am concerned. I will cut all of 
their funding off. Every nickel that is being used that they 
can subvert the Congress's, our intent. Right in this hall, 
right in this room.
    We put millions of acres aside. And enough is enough. Thank 
you, Mr. Chairman.
    The Chairman. Thank you, Mr. Young. Appreciate that. The 
gentleman from Utah, Mr. Bishop.
    Mr. Bishop. You want me to follow that? Before you start 
counting my time, I would like to ask unanimous consent for the 
Utah Association of Counties, Utah Multiple Use Coalition USA, 
All-Western Business Roundtable, American Motorcyclists 
Association, Western Energy Alliance, who have requested a 
hearing and have submitted letters or documents on this topic 
opposing the Wild Lands Policy. I would like that to be 
presented for the record.
    The Chairman. Without objection, it will be part of the 
record.
    [NOTE: The letters and documents submitted for the record 
by Mr. Bishop have been retained in the Committee's official 
files. A list of those documents can be found on page 137.]
    The Chairman. The gentleman is recognized.
    Mr. Bishop. Thank you very much. I have a lot of questions 
for everyone here, and I apologize. I will get as many as I can 
through here.
    Mr. McKee, you are Commission from my state. Let me start 
with you, if I could, and just walk through the process. I 
think what Mr. Markey, Mr. Holt, and the gentlelady from Hawaii 
asked were some significant questions in the land, and were not 
quite answered properly. So let me talk about the RMP, the 
resource management plan.
    Every area for BLM has to have an RMP, how they are going 
to handle the land. Now, the one in your area, how long did it 
take the most recent one? How long did it take to develop that?
    Mr. McKee. Thank you. The Federal Register was sent out--I 
believe it was April 11th, 2001. It was signed the end of 
October 2008. So it was a seven and a half year process.
    Mr. Bishop. Was there public comment in that process?
    Mr. McKee. Absolutely.
    Mr. Bishop. OK. So the professionals on the ground, for 
whom I have very little disregard--they are great people--on 
the BLM, they conducted it. They did the inventory. That is why 
we are talking about how the inventory has already been done. 
They did the inventory, took seven to eight years, depending on 
where you were in that process. This is the process that 
Secretary Salazar said was a rush to judgment. And in that, 
they looked at the land for wilderness characteristics.
    Now, I understand in Utah, they came up with 2.8 million 
acres of land that had wilderness characteristics. But since 
the concept is wilderness is not all or nothing, they developed 
kind of scale of those. And those professionals on the ground 
said 400,000 of that 2.8 million had wilderness characteristics 
to the point that they should be managed for their wilderness 
characteristics.
    The 2.4 million acres had some characteristics, but were 
not to be managed because there were other issues that were 
available. Now, is that correct so far?
    Mr. McKee. That is correct. And if I could just add, in my 
area, there was over 400,000 acres, to my recollection, that 
was analyzed. There was a separate alternative that was looked 
at, alternative E, to look at wilderness character, 
specifically to look at that very issue. We spent two----
    Mr. Bishop. How long?
    Mr. McKee. Two extra years to go through that process. Now 
we have done that. That was fully done. BLM, it was their 
professionals on the ground that went through and did this. We 
just get through with that. We have a signed resource 
management plan. And now we are turning it upside to do it all 
over again.
    Mr. Bishop. So this is the issue at hand that the 
commissioners are talking about, the Governors were talking 
about. What Secretary Salazar's order did arbitrarily was 
taking the resource management plan that went through the law, 
obeyed the law, and had the input, and he is saying, I don't 
like the answer. We are going to start all over again.
    Mr. McKee. Absolutely.
    Mr. Bishop. Without a reason, rationale, or justification 
of why they don't like the answer.
    Mr. McKee. Absolutely. And that is why we are standing up 
for the resource management plans. We might not have agreed 
with everything in there. But at the end of the day, that was 
the public process, and we are standing behind them.
    Mr. Bishop. Let me shift gears here if I could for just a 
second. Mr. Myers, I am going to see how far I can go. Mr. 
Myers, if I could, I do appreciate your response and your 
questions in here. I like the fact that you emphasize how the 
so-called Norton agreement, which has been vilified by a lot of 
people, has been upheld by the court system, and also was 
upheld by this Administration, who said they weren't going to 
change it at any time.
    Now, am I right, though, in saying if you go back to FLPMA, 
and section 102, that the policy is unless otherwise specified 
by law, the planning and management of inventoried lands must 
be on the basis of multiple use and sustained yield?
    Mr. Myers. That was the decision of Judge Benson in the 
litigation challenging the Norton-Leavitt agreement. And I 
should I guess clarify. Of course, the best thing to do is read 
the decision itself. It speaks for itself.
    Professor Squillace is correct that Judge Benson dismissed 
the case on procedural grounds. But then he went on to say, if 
an appellate court should deem my decision on procedural 
grounds to be incorrect, I am going to go ahead and opine on 
the merits of the agreement under FLPMA and NEPA. And in that 
context, he said it was legal under both.
    Mr. Bishop. So the circuit court looked at that. They did 
not overturn what Judge Benson.
    Mr. Myers. They affirmed him on procedural grounds.
    Mr. Bishop. OK. Can I ask your opinion? Because one of the 
things that was said by the judge in the district court--stated 
that if relief from this process should be sought by 
environmental groups, they might ultimately come through the 
political process. How would you interpret what he meant by 
that?
    Mr. Myers. That they weren't going to get what they wanted 
in this courtroom, so their option was to go to the legislative 
branch or the administrative branch.
    Mr. Bishop. We could flip that side around here, that if 
indeed the Administration wanted to have a Wild Lands Policy, 
they could also use the political process. They could come up 
to Congress and simply say to us, this is our idea, make it 
statutory. Is that process not available to them?
    Mr. Myers. Well, of course, it is, Congressman.
    I21Mr. Bishop. You mentioned in your report the transition 
to green. I am assuming you know what I am talking about.
    Mr. Myers. Yes, sir.
    Mr. Bishop. And that the transition to green had an idea 
similar to what we are hearing back in 2008 when it was 
presented to the Department of the Interior.
    Mr. Myers. This was a document put together by I think 28 
environmental groups providing their basically wish list to the 
new Obama Administration on what they ought to do on 
environmental issues across the Administration. They identified 
three priorities for BLM. This was one of the three.
    Mr. Bishop. So on page 187, 191-194, what is here before us 
now as a decree by the Secretary was exactly specifically 
mentioned almost verbatim by these special interest groups?
    Mr. Myers. It is more nuanced than that, Congressman. What 
they wanted was----
    Mr. Bishop. I have never been nuanced. What are you talking 
about here?
    Mr. Myers. They wanted to come in, I think, and simply say 
that the Norton-Leavitt settlement was no longer enforceable 
within the Administration. Secretary Salazar did not say that. 
He said he was going to not stand by it, but he was not going 
to overturn it. So what they have done is find another route to 
achieve basically the same goal.
    Mr. Bishop. OK. How much time do I have, sir?
    The Chairman. You have minus one minute and 25 seconds.
    Mr. Bishop. Oh, I am sorry.
    The Chairman. Yes.
    Mr. Bishop. I run through those red things all the time, 
too. That is one of my problems. I apologize.
    The Chairman. I mean, in deference, I don't see anybody on 
the other side who is timed, so I am being a little bit--I 
mean, Mr. Labrador is next, and he is recognized for five 
minutes. If he would like to yield, I am sure you would be 
appreciative of that. Mr. Labrador?
    Mr. Labrador. Mr. Chairman, I will yield two minutes to the 
good gentleman from Utah.
    Mr. Bishop. If you have questions, go ahead.
    Mr. Labrador. OK.
    Mr. Bishop. Go ahead.
    Mr. Labrador. I just have a few questions, Mr. Chairman. 
Mr. Metcalf, I don't represent Utah, but I actually lived in 
Utah some of the happiest years of my life. I met my wife 
there, and I have a son in Utah right now who is going to 
college. And I appreciate the work you are doing. It sounds 
like you have a very successful business.
    I don't know if you were here when the Ranking Member 
spoke, gave his opening statements. He was very upset because 
over the last few years, we have had no wilderness designation, 
yet we have allowed gas and oil companies to take some of 
public lands.
    Over that same year period, it sounds like you said your 
industry has been the least impacted by the recession. So I am 
having a hard time with your testimony because I really 
appreciate what you have done with your private business, and I 
really appreciate that you have been very successful. But yet 
without having to find any new wilderness areas in the United 
States, you and your industry have actually done very, very 
well. Can you explain that to me?
    Mr. Metcalf. Sure. I would be glad to, and thank you for 
the question. First off, it is a global industry, and we 
benefit immensely from the brand that is Western America. That 
is number one.
    Number two is that there are groups, outfitters, wilderness 
schools that have been hurt by some of this. You take some of 
the oil and gas development post-Norton-Leavitt, out by Deso 
and the White River and that area, people quit operations 
there. I mean, I know that for a fact. So there were people, 
outfitters, schools that were hurt from this.
    At the same time, on a larger scale, until you actually 
start to manage the lands differently and begin to auction off 
the bids for oil or gas development, or coal, or whatever, the 
lands are still in a pristine state and still usable by people. 
I think the point here is that once you begin to lose those 
lands, they are lost forever. But it takes a while for them to 
be lost. And a case in point is when we are talking about the 
oil industry.
    Utah has 5 million acres under lease, but only 1 million 
are developed at this point in time. So it takes, obviously, a 
while for the oil industry to develop those, and they have 
quite a bit of inventory to do. But my point is the lands are 
still in--many of them are still in a pristine state and are 
still usable as pristine wilderness, wild land recreation 
venues.
    Mr. Labrador. But my point is, under the current plan that 
we have, it is not mutually exclusive. We don't have one 
industry hurting the other one. It sounds like both industries 
can thrive, and we can actually allow industry to actually do 
better and help us be more energy independent.
    Mr. Metcalf. Yes. I think the point that we are trying to 
make is that this is not--and I think it is the same point you 
are trying to make. This is not a winner take all battle. It is 
one about how do we find a thoughtful approach to managing the 
lands. And the point of the industry is that within that 
thoughtful management approach some of the lands do need to be 
preserved.
    And since I spoke about Deso-Gray, this is a great one. You 
have a vast area of a lot of oil and gas development, but there 
is this one wild river, which has the potential to be the 
longest wild river in the lower 48. It is still possible. But 
wells are going in. It is beginning to change. And the question 
is, will we have the backbone and the guts for the industry, 
for the preservation of a great draw to Utah, be able to 
preserve that corridor, that sight and sound, to make this one 
of the great wild rivers in North America.
    Mr. Labrador. OK. Mr. Myers, he just mentioned a thoughtful 
management approach. Do we not have a thoughtful management 
approach right now to preserve the areas that are pristine?
    Mr. Myers. Yes, Congressman, we do. And in fact, under the 
NEPA process, the BLM has a regulation that has a stated 
preference in the regulations for a consensus-based approach to 
management.
    Mr. Labrador. Now, I am also a lawyer, and I think about, 
you know, in my career and the law--I was always looking for 
that new angle that would give me the ability to maybe file a 
new lawsuit or do something different than what was being done 
before. What kind of havoc is this new process going to create 
for the future?
    Mr. Myers. Well, I think what has happened is that the 
Secretary had stated repeatedly in his order and in the manuals 
that wilderness characteristics are now a high priority for the 
BLM. By definition, if one thing is a high priority, something 
else must be a low priority. FLPMA does not distinguish on that 
basis. It states a number of uses and values and resources, but 
doesn't elevate one over the other.
    By elevating one over the other in this process, those who 
are now in the lower end of the priorities are going to feel as 
though their rights and opportunities are being transgressed. 
That usually leads to litigation.
    Mr. Labrador. And OK.
    The Chairman. The time of the gentleman has expired. The 
gentleman from Massachusetts, Mr. Markey.
    Mr. Markey. Very briefly, Professor Squillace----
    Mr. Squillace. yes.
    Mr. Markey. Could you just give us the one minute you want 
the Committee to remember? Can you give us that one----
    Mr. Squillace. Yeah. I will try. I know this feels 
contentious, and I know that both sides feel very strongly 
about what they are saying. But I hope that we can all agree 
that good management requires that we know something about the 
resource, we know as much as we can about the resource. And if 
we know that land has wilderness characteristics, then we need 
to use that information to make a judgment about whether or not 
protecting those lands is a good idea or not.
    To my mind, that is all this debate is about. The 
Secretarial Order does not require that we protect lands that 
have wilderness characteristics. It requires that we do our 
best to know what is there and to make a reasoned judgment, a 
considered judgment about what the best use. If we decide that 
oil and gas development is more important on a particular tract 
of land that has wilderness characteristics, that is allowed 
under the policy.
    So I hope that we can come away with this notion that this 
is just good policy. This is good management of our public 
lands, and it deserves our support.
    Mr. Markey. Thank you. Mr. Metcalf, can you give us the one 
minute you want us to remember on the Committee?
    Mr. Metcalf. OK. Thank you. You know, I think the most 
important point I want to make, because we just were talking 
about it, is that we are talking about good, thoughtful 
management. Is that occurring now or is it not? And relative to 
this question about is that happening, especially, for example, 
by the BLM--if you look at the BLM's Vernal research and 
management plan, it is a one-inch thick document primarily on 
oil and gas. There is not a single mention of the potential 
impact of that on recreation, hunting, angling, and tourism.
    So what this is really about is attempting to come up with 
truly a thoughtful approach to managing our public lands in a 
balanced way between recreation and the jobs that that brings 
on pristine wild lands, as well as the extractive industries.
    Mr. Markey. Great. Thank you, Mr. Chairman.
    The Chairman. Mr. Flores recognized for five minutes.
    Mr. FLores. Thank you, Mr. Chairman. Thank you for 
testifying today. It is interesting. I can identify with you, 
Mr. Metcalf. I was CEO of a $150 million company until I 
decided to do this. And, Commissioner Robinson, I am part of a 
multi-generational family that grew up in a small county with 
5,000 people and about quarter million cattle. So I know what 
you are dealing with.
    I was glad to hear that, Mr. Metcalf, all of you, that you 
and each of the commissioners agree that you can have 
coexistence, peaceful coexistence, between good land management 
and recreational activity and extractive activities.
    Mr. Metcalf, I have a question for you. You talked about 
you are part of a $46 billion industry. Where does that money 
come from that people spend in your industry?
    Mr. Metcalf. Where does it go or where does it come from?
    Mr. FLores. Where did it come from?
    Mr. Metcalf. It comes from the jobs that they themselves 
have. That could be in the outdoor industry, that could be as 
bankers or investment bankers. It could be as----
    Mr. FLores. It comes from the economy, the national 
economy, right?
    Mr. Metcalf. Yes.
    Mr. FLores. Right, from a robust national economy. This 
policy interjects a new level of uncertainty into our land 
management process or land inventorying process. Uncertainty 
hurts businesses. Is that correct?
    Mr. Metcalf. It can.
    Mr. FLores. OK.
    Mr. Metcalf. It is a dynamic world out there, let's face 
it.
    Mr. FLores. Right. Every one dollar change in the price 
of--increase in the price of gasoline reduces discretionary 
income by about $120 billion. What sort of impact is that going 
to have on the recreational industry if gas prices go up to 
four dollars or five dollars? What is that going to do to your 
industry? And we have seen what it has done in the past.
    Mr. Metcalf. You know, I am challenged by your question, 
sir, because we have 4 million acres that are leased for 
drilling development right now in Utah, and they are not 
developed. We have 11,000 permits for drilling rigs, of which 
4,400 aren't even in use. So I don't understand where the issue 
is relative to lack of lands available to drill on or the lack 
of permits that have been given out.
    Mr. FLores. Well, what we are trying to do--what we are 
saying is that an arbitrary redlining of--first of all, just 
because you lease an acre of land doesn't mean that there is 
some sort of resource under it. The way the leasing rules work, 
you sometimes have to lease big footprints so that you can try 
to extract the resources on a small postage stamp of that 
footprint.
    I would further like to say that even if you drill on 
property that is in a pristine state, it doesn't mean that it 
is not pristine after you have concluded those operations and 
after the resources have helped our economy.
    Where I am trying to go with this is what is the impact of 
when we arbitrarily reduce our ability to have access to 
resources, and we raise the cost of doing business on our 
economy, and lower discretionary income, what does that do to 
your business?
    Mr. Metcalf. Let me begin by responding to the first part 
of your question, though, which was about being able to return 
the land to its pristine state. I spent two winters as a 
roughneck throwing chain on oil rigs in Red Desert, Long 
Sutter, Bangs, Camera, Echo Canyon, Utah. So I am familiar with 
the industry and what it does and doesn't do. And, no, some of 
these sites can never be returned to any kind of pristine 
state. So I just want to clarify that.
    I think the question is for the amount of land that we are 
asking to be protected here in Utah in the West, is that really 
meaningful in the price of oil? And I think if you really 
brought an oil expert into this room and talked to him, they 
would tell you absolutely not. It is not a meaningful amount of 
oil.
    Mr. FLores. Let me help you out a little bit. I was in the 
oil and gas business.
    Mr. Metcalf. OK.
    Mr. FLores. And I know what the regulations require, and 
they require us to put the property back in its original state. 
And I can tell you that I have some experience with this. I 
understand about drilling for oil and gas. So I don't think you 
are going to win that argument with me. So I ask you again, 
what impact are higher oil and gas prices going to have on your 
business?
    Mr. Metcalf. When you--if there is a relationship to what 
we are talking about, I don't see it. But higher oil prices 
affect all of us in the economy, of course.
    Mr. FLores. Thank you. I yield back.
    The Chairman. There has been a request for another round, 
and I will recognize myself and immediately yield to the 
gentleman from Utah, Mr. Bishop.
    Mr. Bishop. All right. Let me try something. Mr. Metcalf--
--
    Mr. Markey. May I ask if it is OK for Mr. Abbey to take a 
bathroom break at this point waiting? Would that be OK?
    The Chairman. Mr. Abbey can, if he can do it within four 
minutes.
    Mr. Markey. Oh, there will only be one round of questions? 
Oh, OK. No problem.
    Mr. Bishop. Am I free to go? All right. Like I say, there 
are so many other questions I wanted to ask. But, Mr. Metcalf, 
the last time you were here, I gave you a pass. I can't do it 
this time around here. I would like you to provide for the 
record one answer. So you don't have to do it right now. You 
apparently were at the presentation, the unveiling of this new 
regulation in Colorado. I would like you for the record, in 
written form, to tell us how you knew about it, who gave you 
the invitation, when you received the invitation, how you were 
prepared to be there at this particular moment, and a whole lot 
of other people weren't.
    But this is where I wanted to talk to you because your 
testimony here has sounded very good when you talk about the 
ability--it is not an either/or situation. We should all live 
together, and that what we should have is an equal footing for 
all of those multiple uses.
    The problem is, that is the status quo. That is what the 
RMPs were doing. What this proposal for wild land does is shift 
that status quo to give one of the multiple uses an advantage 
over the other multiple uses. And so, yes, it is the Federal 
Government picking winners and losers.
    Now, I am very grateful that you are a successful 
entrepreneur, and you are making lots of money in this. I think 
that is wonderful. There is no reason that should happen. But 
here is the question I want to go with, which goes to something 
that the two Governors were saying. I am assuming you know what 
the WPU is in Utah. It is the weighted pupil unit for 
education. This is--OK. Then I will show you. The minimum 
amount of money for educating one kid through a year. And in 
certain areas like necessarily small and distant schools, they 
add to that.
    Utah equalizes, and they have always equalized in 
maintenance and operation before I got to the Legislature--and 
I was 26, so you know that was a long time ago. And they are 
equalizing capital outlay right now, which means if a local 
school district can generate enough revenue from their local 
sources to meet that WPU, they don't have to get anything more 
from the state. And if they overcome that, they supercede that 
limit, then that is recaptured and spread around the districts 
that cannot meet that basic level from the state.
    When I was in the Legislature, we had a recapture program. 
To your memory, is there any recapture program that has 
happened in any school district that has been directly related 
to your industry?
    Mr. Metcalf. I am unaware if there is or not. It is not my 
area of expertise. I apologize.
    Mr. Bishop. Well, that is OK, because the answer is No. It 
has not happened. I am not trying to denigrate tourism in Utah. 
But I want it very clear because that was not the focus of your 
written testimony, which was much harsher than your oral 
testimony here, as jobs versus jobs. Tourism is an important 
component, but it is not a component that can bypass the other 
elements we have, which is manufacturing and mining. Those are 
the elements that drive our education budget. That is where the 
money comes, and the only place we have had recapture is from 
those industries. And when we now come up with new policies 
that restrict the ability to do that, that is the problem, and 
that is why it hurts--this proposal hurts kids in Utah.
    Now, I want Mr. McKee simply to tell me what happened in 
the amount of--the unemployment issues that took place in your 
county the last time Secretary Salazar decided there had been a 
rush to judgment, so he decided to fix it with an arbitrary 
situation, which by the way, the Inspector General said what 
Secretary Salazar said was actually arbitrary and capricious 
and a rush to judgment.
    What is the impact in your county from these types of 
decisions?
    Mr. McKee. Thank you, Congressman Bishop. What happened, we 
lost 30--we only have 30,000 people in the county to begin 
with. We lost 3,200 jobs. I will tell you at the end of 2008, 
because we are an extractive economy, there was a recession 
going on nationwide. We didn't feel it. But immediately with 
those change of policies, we lost 3,200 jobs that fast.
    Mr. Bishop. OK. Let me interrupt you because I am about to 
run out of time, and I won't go over this time. Mr. Metcalf, 
you criticized boom and bust policies. I am sorry. This policy 
will create a bust and bust policy, which is exactly what has 
happened to these counties, and neither what is happening in 
Uintah County or secure rural school funding can compensate for 
that, or over-compensate for that. I yield back.
    The Chairman. The time of the gentleman has expired. Does 
any other Member wish to have a follow-up on this? If not, then 
I want to thank the panel very, very much for, number one, 
waiting when we had this series of votes, and I want to thank 
you all for your very good testimony.
    If there is a follow-up by any Member, we would like to 
have, as was requested by Mr. Bishop and Mr. Metcalf, a written 
response back in a timely manner, a timely manner meaning 
within 10 days. I think that would be in order. And so if you 
could all do that, if there are follow-ups, I would appreciate 
it. And with that, this panel is dismissed.
    [Pause]
    The Chairman. While you are getting the next panel settled, 
may I ask unanimous consent that the following documents be 
added to the record? From the Governor of Alaska, the Western 
States Land Commissioners Association, the Association of O&C 
Counties, the Alaska Miners Association, the Resource 
Development Council, the Northwest Mining Association, EP 
Minerals, Fronteergold, and letters to the Secretary from the 
Governors of Alaska, Idaho, North Dakota, Wyoming, Arizona, New 
Mexico, and Utah.
    The Chairman. Without objection, so ordered.
    [NOTE: The documents submitted for the record have been 
retained in the Committee's official files. A list of these 
documents can be found on page 137.]
    The Chairman. Mr. Young.
    Mr. Young. Thank you, Mr. Chairman. I would also like to 
have the testimony from Alaska State Senator John Coghill 
submitted, along with the Alaska Miners Association testimony, 
and a resolution from the Fairbanks Chamber of Commerce in the 
Southeast Conference. And you already mentioned the Alaska 
Governor, did you not? OK.
    The Chairman. Without objection, so ordered.
    [NOTE: The documents submitted for the record by Mr. Young 
have been retained in the Committee's official files. A list of 
these documents can be found on page 137.]
    The Chairman. I want to call in our last panel, and I see 
that Mr. Abbey is seated, and I appreciate your taking the 
time. I know you have been here, but this is a very, very 
serious issue. And as you can tell, there is a lot of passion 
on all sides.
    You are reminded that your complete testimony, as I have 
reminded the other panels, will be submitted for the record. 
You have five minutes for your oral testimony. And with that, 
you know how the lights work. I don't need to go through that 
again. So with that, Mr. Abbey, you are recognized now for five 
minutes.

STATEMENT OF ROBERT ABBEY, DIRECTOR, BUREAU OF LAND MANAGEMENT, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Abbey. Well, thank you, Mr. Chairman and Members of the 
Committee. I know it has been a long day for everyone, so I 
will keep my remarks brief.
    I do appreciate the opportunity to discuss Secretarial 
Order 3310 regarding wilderness characteristics on lands 
administered by the Bureau of Land Management. The Wild Lands 
Policy established under that order directs the Bureau of Land 
Management to work collaboratively with the public to determine 
how best to manage their public lands, taking into account all 
of their potential uses.
    This is not only our obligation to today's generation, but 
our responsibility to future generations as well. I might add, 
it is also required by law. Lands with wilderness 
characteristics are valued for their outstanding recreational 
opportunities, as well as for their important scientific, 
cultural, and historic contributions. Failing to consider 
protecting these wild places would undermine the careful 
balance of management mandated by law, a balance that we need 
for our public lands.
    I worked for over 30 years in public service. Twenty-five 
of those years has been as a BLM career employee. I believe in, 
and I am dedicated to, the BLM's multiple-use mission. The BLM 
has over 41 million acres leased for oil and gas development. 
Over 6 million acres were offered for lease in 2009 and 2010. 
Millions of more acres have been permitted or leased for other 
mineral and energy products, including transmission lines.
    We also have over 18,000 grazing permits and leases 
encumbering 157 million acres. Over 375,000 mining claims have 
been staked on public lands, and an estimated 190 million board 
feet of timber will be offered for sale this year.
    However, multiple use does not mean every use on every 
acre. The BLM strives to be a good neighbor and a vital part of 
communities across America. Public lands contribute 
significantly to the nation's economy that in turn have a 
positive impact on nearby communities.
    In 2010, the BLM's management of public lands contributed 
more than $112 billion to the national economy and supported 
more than a half a million jobs.
    On December 23rd, 2010, I joined Secretary Salazar in 
announcing clear direction for implementing the BLM's mandate 
under the Federal Land Policy and Management Act to conduct 
wilderness characteristics inventory and decide how best to 
manage the public's land.
    There has been a great deal of confusion about what this 
new policy is and is not. Be assured that this new policy 
itself does not immediately change the management or status of 
the public lands. The BLM's new manuals set out a two-step 
process for inventorying and managing lands that may have 
wilderness characteristics.
    The first step is to maintain an inventory of lands with 
wilderness characteristics as required by section 201 of the 
Federal Land Policy and Management Act. It simply documents the 
current state of the land.
    Step two, deciding how lands with wilderness 
characteristics should be managed, is an open, public process 
undertaken through BLM's land use planning. A decision may be 
made to protect lands with wilderness characteristics as wild 
lands, or to manage them for other uses.
    For example, the BLM may determine the impairment of land 
with wilderness characteristics is appropriate for some other 
areas due to other resource considerations. I have heard 
concerns that the new Wild Lands Policy has put a halt to new 
projects and will prevent important economic activity in local 
communities. This claim is false.
    Recently, a potash lease proposal in Utah was approved by 
the Bureau of Land Management through our new process. Using 
NEPA, the BLM has undertaken a review of a proposal to offer a 
competitive lease sale for potash on Sevier Lake, a dry lake 
bed in Southwestern Utah. Following the issuance of the 
Secretarial Order just two months ago, the BLM completed an 
inventory of the lands involved and determined that the area 
does not meet criteria for lands with wilderness 
characteristics.
    Secretary Salazar and I are personally committed to working 
with Congress and key stakeholders to ensure that the Wild 
Lands Policy that we have proposed and are implementing will 
work. This policy provides the public with a strong voice in 
the decisions affecting their nation's public lands. Working 
cooperatively with our stakeholders and being sensitive to 
local needs, we will ensure that all of the potential uses of 
the public lands--and let me repeat that--all of the potential 
uses of the public lands and the BLM's multiple-use mission are 
taken into account when determining how best to manage those 
lands.
    [The prepared statement of Mr. Abbey follows:]

          Statement of The Honorable Robert Abbey, Director, 
       Bureau of Land Management, U.S. Department of the Interior

    Thank you for inviting me to discuss Secretarial Order 3310 
regarding wilderness characteristics on lands administered by the 
Bureau of Land Management (BLM). The Wild Lands policy, established by 
Secretarial Order 3310, restores balance and clarity to the management 
of our public lands and follows clear legal direction. This order 
directs the BLM to work collaboratively with the public and local 
communities to determine how best to manage the public lands, taking 
into account all of their potential uses, including uses associated 
with the wilderness characteristics of certain public lands. It does 
not dictate the results of that planning process.
    Section 102 of the Federal Land Policy and Management Act (FLPMA) 
declares that preservation and protection of public lands in their 
natural condition are part of the BLM's mission. Just as conventional 
and renewable energy production, grazing, mining, off-highway vehicle 
use, and hunting are considered in the development of the BLM's 
Resource Management Plans (RMPs), so too must the protection of 
wilderness characteristics be considered in the agency's land use 
plans.
    Lands with wilderness characteristics are valued for their 
outstanding recreational opportunities (such as hunting, fishing, 
hiking, photography, or just getting outdoors) as well as for their 
important scientific, cultural, and historic contributions. Failing to 
consider protecting these wild places would undermine the careful 
balance in management mandated by law, a balance that we need on our 
public lands. Public lands provide billions of dollars in local 
economic benefits and they should be managed for multiple uses and many 
values, including energy production, recreation, and conservation.
The BLM's Multiple-Use Mission/Economic Contributions
    I have worked for over 30 years in public service, 25 of those 
years as a career BLMer. I believe in, and am dedicated to, the BLM's 
multiple-use mission. This multiple-use mission is what makes the 
agency unique among Federal land management agencies, and it is what 
makes us welcome members of every community in which we work and live. 
However, multiple-use does not mean every use on every acre.
    The BLM strives to be a good neighbor and a vital part of 
communities across America. Public lands managed by the BLM contribute 
significantly to the nation's economy and, in turn, often have a 
positive impact on nearby communities. The BLM's management of public 
lands contributes more than $100 billion annually to the national 
economy, and supports more than 500,000 American jobs.
    A key component of these economic benefits is the BLM's 
contribution to America's energy portfolio. The BLM expects its onshore 
mineral leasing activities to contribute $4.3 billion to the Treasury 
in Fiscal Year 2012. The BLM currently manages more than 41 million 
acres of oil and gas leases, although less than 30 percent of that 
acreage is currently in production. More than 114 million barrels of 
oil were produced from BLM-managed mineral estate in Fiscal Year 2010 
(the most since Fiscal Year 1997), and the almost 3 billion MCF 
(thousand cubic feet) of natural gas produced made 2010 the second-most 
productive year of natural gas production on record. The coal produced 
from nearly a half million acres of federal leases powers more than 
one-fifth of all electricity generated in the United States.
    The BLM is also leading the nation toward the new energy frontier 
with active solar, wind, and geothermal energy programs. The BLM has 
proposed 24 Solar Energy Zones within 22 million acres of public lands 
identified for solar development, and in 2010 approved nine large-scale 
solar energy projects. These projects will generate more than 3,600 
megawatts of electricity, enough to power close to 1 million homes, and 
could create thousands of construction and operations jobs. Development 
of wind power is also a key part of our nation's energy strategy for 
the future. The BLM manages 20 million acres of public lands with wind 
potential; currently, there is 437 MW of installed wind power capacity 
on the public lands. Geothermal energy development on the public lands, 
meanwhile, accounts for nearly half of U.S. geothermal energy capacity 
and supplies the electrical needs of about 1.2 million homes.
    Energy production is not the only way in which the BLM contributes 
to local communities and the national economy. The combined economic 
impacts of timber-related activities on BLM-managed lands, grazing-
related activities, and activity attributable to non-energy mineral 
production from BLM-managed mineral estate total more than $5 billion 
each year.
    Recreation on public lands also provides major economic benefits to 
local economies and communities. In 2010, more than 58 million 
recreational visits took place on BLM-managed lands and waters, 
contributing billions of dollars to the U.S. economy. The diverse 
recreational opportunities on BLM-managed lands draw crowds of 
backpackers, hunters, off-road vehicle enthusiasts, mountain bikers, 
anglers, and photographers. In an increasingly urbanized West, these 
recreational opportunities are vital to the quality of life enjoyed by 
residents of western states, as well as national and international 
visitors. It should be noted that many of these recreationists are 
seeking the primitive experience available in BLM's wilder places.
    The BLM's multiple-use mission is all about balancing public land 
management, and balancing all of the myriad resource values of this 
nation's great public lands. Wilderness character is one of these many 
resource values, and the BLM's new Wild Lands policy is a rational 
approach to ensuring that balance.
Secretarial Order 3310--Wild Lands Policy
    The BLM's authority to designate new Wilderness Study Areas (WSAs) 
under section 603 of the FLPMA expired after President George H.W. Bush 
completed his recommendations for wilderness designation to Congress in 
January 1993. However, the BLM was still required to inventory and 
consider wilderness characteristics in the land use planning process.
    Secretary of the Interior Gale Norton and the State of Utah entered 
into an out-of-court settlement agreement (the ``Norton-Leavitt 
settlement'') in 2003 that resulted in BLM rescinding the agency's then 
existing guidance on wilderness inventory. Since that time, the BLM has 
been without long-term national guidance on how to meet the FLPMA 
requirements to inventory and manage lands with wilderness 
characteristics. In 2008, the Ninth Circuit Court of Appeals in Oregon 
Natural Desert Association v. BLM stated that FLPMA's requirement that 
BLM maintain an inventory of public lands and their resources and other 
values includes inventory of wilderness values and that BLM must 
consider those values in its land use planning when they are present in 
the planning area. Secretarial Order 3310 and the related BLM manuals 
address that previous lack of direction on inventorying and managing 
lands with wilderness characteristics.
    On December 23, 2010, I joined Secretary Salazar in announcing 
clear direction for implementing the BLM's mandate under FLPMA to 
conduct wilderness characteristics inventories and decide how best to 
manage those lands. The BLM also issued draft manuals that were 
recently finalized. This Wild Lands policy restores balance to the 
BLM's multiple-use management of the public lands in accordance with 
applicable law. It also provides the field with clear guidance on how 
to comply with FLPMA and more specifically how to take into account 
wilderness characteristics in the agency's planning process.
    With this consistent guidance, we believe that the BLM will enhance 
its ability to sustain its land use plan and project level decisions. 
In the past, some of these decisions have been invalidated because the 
courts in the Ninth and Tenth Circuits have found the analysis of 
wilderness characteristics lacking.
Policy Implementation/BLM's Manuals
    There has been a great deal of confusion about what this new policy 
does, and perhaps more importantly, what it does not do. Be assured 
that the new policy itself does not immediately change the management 
or status of the public lands. I would like to outline for you the 
facts about the new policy and its implementation. The BLM's new 
manuals set out a two-step process for inventorying and managing lands 
that may have wilderness characteristics. The first step is to maintain 
an inventory of Lands with Wilderness Characteristics (LWCs) as 
required by section 201 of FLPMA. The BLM's new manual on Wilderness 
Characteristics Inventory provides guidance on both updating existing 
inventory information and inventorying lands not previously assessed.
    The manual carefully spells out the process for making these 
determinations, based on size, naturalness, and outstanding 
opportunities for solitude or a primitive and unconfined type of 
recreation--using the same Wilderness Act criteria the agency has 
always used. This process makes no determination about how the lands 
should be managed; it simply documents the current state of the lands.
    Step two of the process, deciding how LWCs should be managed, is an 
open, public process undertaken through the BLM's land use planning 
process. Through this public process, a decision may be made to protect 
LWCs as ``Wild Lands'' or to manage them for other uses. For example, 
the BLM may determine that impairment of LWCs is appropriate for some 
areas due to other resource considerations, such as energy development. 
Other areas may be managed as Wild Lands with restrictions on surface 
disturbance and the construction of new structures. In addition, Wild 
Lands designations must be consistent with other applicable 
requirements of law. The BLM must consider these additional statutory 
requirements, where appropriate, in determining whether LWCs can be 
managed to protect their wilderness characteristics.
    It is important to emphasize that if lands are designated as Wild 
Lands they are not wilderness and they are not WSAs. First, Wild Lands 
may only be designated administratively through an open, public 
planning process. The designation of Wild Lands may be revisited, as 
the need arises, through a subsequent public planning process. Second, 
allowed uses in Wild Lands may include some forms of motorized and 
mechanized travel. Allowed uses in each specific Wild Land will be 
determined by the land use plan governing those lands and will be 
accomplished through a process that allows the public and local 
communities full access to that decision-making. These decisions will 
be made locally, not in Washington, D.C. This policy doesn't change the 
delegation of authority for land use planning decisions. The BLM's 
state and field offices will continue to be responsible for those 
planning decisions.
    The BLM regularly makes project-level decisions for activities on 
public lands. These decisions can involve a wide range of proposals 
such as locating roads and power lines, filming commercials and movies, 
and permitting mineral extraction activities. When considering these 
proposals, the BLM relies on existing land use plans, as well as any 
new information, to make a determination of how and if these projects 
can be accommodated within the BLM's multiple-use mission. This 
determination is necessarily a balancing act, taking into account all 
of the resources for which the BLM is responsible--including wilderness 
characteristics--as mandated by FLPMA.
    A Wild Lands designation will be made and modified through an open 
public process, and therefore these designations differ from designated 
wilderness areas and WSAs. Wilderness areas can only be designated 
through an act of Congress and modified through subsequent legislation. 
The BLM manages WSAs to protect their wilderness characteristics until 
Congress designates them as wilderness or releases them from WSA 
status.
    I have heard concerns that the new Wild Lands policy has put a halt 
to new projects and will prevent important economic activity in local 
communities. This claim is, simply put, false. A recent example 
involves a potash lease proposal in Utah that the BLM has approved 
through this new process. Through the NEPA process, the BLM has 
undertaken a review of a proposal to offer a competitive lease sale for 
potash on Sevier Lake, a dry lake bed in southwestern Utah. Following 
the issuance of the Secretarial Order roughly two months ago, the BLM 
completed an inventory of the lands involved and determined that the 
area does not meet the criteria for LWCs. The project is moving forward 
and it has been reported that it may result in as many as 300 permanent 
jobs in the local community.
Conclusion
    The BLM is committed, and I am personally committed, to working 
with Congress and other key stakeholders to ensure that the Wild Lands 
policy works. My staff and I have spoken with many of you directly 
about the policy. In January, I traveled to Utah at the request of 
Governor Herbert, and participated in several meetings and forums on 
the policy. We have heard your concerns, and we are listening.
    The BLM's Wild Lands policy affirms the agency's responsibility to 
take into account all of the public land resources for which the BLM is 
responsible. The policy provides local communities and the public with 
a strong voice in the decisions affecting the nation's public lands. 
Working cooperatively with our stakeholders, and being sensitive to 
local needs, we will ensure that all of the potential uses of the 
public lands and the BLM's multiple-use mission are taken into account 
when determining how best to manage the nation's public lands.
                                 ______
                                 
    The Chairman. That was right on time. Thank you very much, 
Mr. Abbey. I appreciate that.
    Mr. Abbey. I have had a lot of practice.
    The Chairman. Well, in that case, Mr. Abbey, we might call 
you back here many times to continue that practice. We will 
start with a round of questioning, and I will recognize myself.
    In the discussion and the testimony that I have heard from 
the Governors and certainly from the commissioners, is that 
this order adds an area of uncertainty into how these lands 
will be managed. So my question is pretty specific. What 
guarantee can you give to us that if Congress legislatively 
releases WSAs, that that legislation would not in fact be 
nullified by adding that legislative released land to the wild 
lands category? What guarantee can you give us that that 
wouldn't happen?
    Mr. Abbey. Well, let me say this, Mr. Chairman. We respect 
the congressional process, and have included in our planning 
manuals, which we just released last Friday, a provision 
requiring that congressional action be taken into account in 
all of our planning decisions on how we would manage lands with 
wilderness characteristics in the future.
    The Chairman. Well, you recognize that. But I just laid out 
a scenario where we release lands, and then that means that 
this order would be in effect. I am asking you how can you 
guarantee that that would not be affected by this order. That 
is a specific question.
    Mr. Abbey. Again, we would defer to your release language 
that you would include in your wilderness legislation.
    The Chairman. So what you are saying is that you are 
imposing another step on us legislatively to do something that 
you are doing administratively.
    Mr. Abbey. No, I am not saying that at all. What I am 
saying is that we respect the actions that the Congress takes 
as far as designating areas as wilderness, and designating 
other areas as not.
    The Chairman. Listen, I appreciate that, and you respect 
the actions that Congress has taken. If I heard testimony once, 
I heard it a number of times today that there is a process for 
designating wilderness areas. And in the minds of those that 
were testifying, they were suggesting that this usurps that or 
clouds it up. Now, is that respect for what the law is that has 
been in effect for some 40 years?
    Mr. Abbey. Our policy, our initiative, does not designate 
areas as wilderness. It identifies areas with wilderness 
characteristics, and using our very public land use process, we 
will make a determination on whether or not those lands should 
be protected to protect those wilderness characteristics, or we 
will make a decision to allow other uses that might----
    The Chairman. All right. Director Abbey, I want to ask you 
again, going back--and I would like you to respond to me, not 
only here orally, but in writing specifically. Can you 
guarantee, and how that guarantee would be, that this order 
would not nullify that order of taking land out of WSAs. Could 
you respond to me in writing to that question?
    Mr. Abbey. We will.
    The Chairman. OK. I would like to yield to the gentleman 
from Utah the balance of my time, which is two minutes.
    Mr. Bishop. Chairman, let me just ask then a couple of--can 
I also add some other written requests then, the following?
    Mr. Abbey. Give us your list.
    Mr. Bishop. To what extent was the Wild Lands Order--you 
already answered this. The Wild Lands Order was not initiated 
or developed in our office in BLM. Is that correct?
    Mr. Abbey. We did propose the wild land policy. We wrote 
the policy.
    Mr. Bishop. OK. Then to what extent was it initiated and 
developed in the BLM office? And these I want for written 
reply. Who were the key people in the Department who led that 
effort? I also want to know what group or individual outside 
the Department were involved in developing the wild lands 
policies. So those are three things. We will give you obviously 
this stuff written down again.
    Mr. Abbey. OK.
    Mr. Bishop. I would actually like also you to define one 
other term that you used with the Chairman, which is 
congressional actions. For indeed, the Secretary has justified 
some of his decisions in the past by potential actions that may 
happen, justified some decisions because Congress would have 
done something that would be stronger than what he did. I want 
to know specifically if when you talk about your respect for 
congressional actions that means something that actually took 
place in Congress or what was introduced as a bill or might 
possibly come from here. I want to see how that phrasing is 
defined.
    I also want to say that I took from heart your concepts 
that you want to work with Congress. I am sorry. The actions so 
far of introducing this the day after we got done with the lame 
duck session, just before Christmas, to come up with the third 
of your guidance manuals last Friday, just before this, does 
not give us a whole lot of comfort level that you really are 
wishing to work with us.
    Had the Department come to us with a proposal for 
legislation to create a new Wild Lands Policy, that is working 
with Congress. We don't have a great deal of warm and fuzzies 
that you really want to work with Congress. It looks as if you 
want to circumvent that process. You haven't built that 
relationship, and the Department desperately needs to do that.
    Can I--time is up.
    The Chairman. My time has expired. I think you get the 
sense, and we may have time for a second round. The Chair 
recognizes the gentleman from Massachusetts, Mr. Markey.
    Mr. Markey. Thank you. Mr. Abbey, as I read your testimony, 
2010 saw the highest level of oil production on BLM lands since 
1997, and the second highest level of gas production ever? Is 
that correct?
    Mr. Abbey. Yes, it is, Congressman Markey. Production of 
oil and natural gas shows an increase above what was produced 
on public lands since 2009. As far as oil production, we have 
had four years of successive increases from production on 
public lands.
    Mr. Markey. So you are putting the drill into ``Drill, 
Baby, Drill'' on public lands. Now, in your written testimony, 
you state that energy companies are producing on less than one-
third of the acres that they have under lease. If that is true, 
could we double or even triple the oil and gas production on 
public lands without even issuing a new lease?
    Mr. Abbey. I wouldn't go that far, you know, because each 
lease doesn't necessarily have equal production. But I would 
say that we are quite pleased with the actions that have been 
taken by the industry to move forward to develop their leases. 
That hasn't always been the case over the past several years. 
But because of the market, because of the price of oil and gas 
at this point in time, we are seeing more activity on public 
lands.
    Mr. Markey. OK. So what impact would the Wild Lands Order 
have on oil and gas production on public lands?
    Mr. Abbey. It would have no impact on existing leases.
    Mr. Markey. None whatsoever? Now, please describe the 
public process required by Secretarial Order 3310 to determine 
how areas with wilderness characteristics are to be managed?
    Mr. Abbey. Well, first, what we are asking our offices to 
do is part of the review of specific projects or as part of 
their routine land use planning, to inventory public lands and 
identify those public lands that might possess wilderness 
characteristics using the mandatory criteria as defined in the 
1964 Wilderness Act.
    At that point in time, if we identified lands with 
wilderness characteristics, it doesn't change the status of 
those lands until we go through a very public land use planning 
process. That includes all kinds of input from members of the 
local communities, elected officials, members of the public, 
all stakeholders, to help us analyze the various alternatives 
that are under consideration through that land use plan process 
to reach a common sense decision.
    Mr. Markey. OK. And critics of this policy assert that it 
will create a de facto wilderness wherever you move, and the 
order itself clearly allows uses of some area with wilderness 
characteristics that might impair those characteristics. Can 
you provide some examples of how that might work? How is that 
different from management of designated wilderness, that is, 
what you would do in this wild lands process?
    Mr. Abbey. Well, we certainly have much more flexibility 
relative to land with wilderness characteristics are designated 
wild lands than what we would have in areas that have been 
designated by Congress as wilderness. For example, if we 
identify public lands that are managed by BLM as lands with 
wilderness characteristics, and through our planning process 
determine that the highest and better use of those particular 
parcels would be to allow a right of way, a transmission 
corridor, to go through those lands, then we could make a 
decision to allow that corridor to go forward. Under a 
designated wilderness, that would not be the case.
    Mr. Markey. So you have much more latitude, discretion.
    Mr. Abbey. Much more.
    Mr. Markey. And that allows you then to make distinctions 
that if something was already designated wilderness, it would 
be illegal for you to do so.
    Mr. Abbey. It would. You know, again we purposely wrote 
into our manual sections in the Secretarial Order the 
discretion that we sought and need in order to best serve the 
American public. There are a lot of things that may occur in 
the future that we don't have good information today, and that 
as we go forward and address future uses, we will have the 
discretion, using our land use planning process, to amend those 
land use plans if areas had been designated as wild lands, and 
to do something different than protect those existing 
wilderness characteristics.
    Mr. Markey. OK. Well, I think the Secretary has acted 
within his discretion, and I think that you are acting in a way 
that reflects the fact that this is not wilderness, and that 
you have to as a result make a lot of tough decisions, which I 
think you are doing right now, and I appreciate that. And I 
yield back the balance of my time.
    Mr. Abbey. Thank you.
    The Chairman. The gentleman did again a very good job on 
that, and I appreciate the gentleman from Massachusetts. The 
Chair recognizes the gentleman from Alaska for five minutes.
    Mr. Young. Thank you, Mr. Chairman. Mr. Abbey, my concern 
is this whole process, especially in Alaska. Under the Alaska 
National Interest Land Clams Act, ANILCA--you are aware of that 
act, aren't you?
    Mr. Abbey. Yes, I am.
    Mr. Young. OK. You know, this Act provides sufficient 
protection--this is section 101--for the national interests and 
the scenic natural culture and environmental values on public 
lands in Alaska. At the same time, it provides adequate 
opportunity for satisfaction of the economic and social needs 
of the State of Alaska, its people accordingly. The designation 
and disposition of public lands in Alaska pursuant to this Act 
are found to represent a proper balance between the 
preservation of national conservation system units and those 
public lands necessary and appropriate for more intensive use 
and disposition. And thus Congress believes the need for future 
legislation designating new conservation system units, new 
national conservation areas, or new national recreational areas 
have been abbreviated thereby.
    Would you agree with that?
    Mr. Abbey. I would say, Congressman, that the ANILCA also 
recognizes the Secretary may identify areas in Alaska which he 
determines is suitable for wilderness.
    Mr. Young. No. Section 1326, no future executive branch 
action which withdraws more than 5,000 acres from public lands 
within the State of Alaska shall be effective. In fact, the 
wild lands designation is an administrative withdrawal, and 
that is against the law. My Governor is going to sue you, and I 
think he will win. You are trying to circumvent the law.
    Mr. Abbey. There is nothing----
    Mr. Young. You have 86 million acres of land. Fifty-six 
million acres in Alaska have been set aside already. There is 
enough, as I said before, of wild lands in Alaska. And what you 
are trying to do now is stir up the pot to make sure that you 
can have another opportunity with your Administration to take 
away the rights of Alaskans and this nation to develop 
resources on those lands because you took the rest away from 
them, right in this room. You are trying to circumvent. There 
is no difference between wild and wilderness. None.
    And I have listened to you talk, and your Administration. I 
have listened to that lawyer on that end. And if I had thought 
you could work--if you work one on one without interference 
from outside interests--because you will be sued. You will not 
have any development on BLM lands. Whatever you say, it will 
happen. You will be sued. I watch it time and time again 
because you are circumventing this law. And when we get done 
with you, hopefully, and section 1320, not with any standing 
provisions of 603, the Federal Land Policy Act of shall not 
apply to any lands in Alaska. That is the law. Do you agree or 
disagree?
    Mr. Abbey. I disagree.
    Mr. Young. You disagree? And you are a lawyer?
    Mr. Abbey. I am not a lawyer.
    Mr. Young. You are not a lawyer. What did your lawyer say 
about that?
    Mr. Abbey. They disagree with you.
    Mr. Young. Well, that is fine. That is the Administration. 
And I agree with Mr. Rob right here. I want to find out who 
instigated this program. You didn't instigate it. You would 
take credit for it?
    Mr. Abbey. I will take credit for it.
    Mr. Young. You take credit for it. And did you consult your 
lawyers?
    Mr. Abbey. We did.
    Mr. Young. And they disagree with what I have to say?
    Mr. Abbey. They did.
    Mr. Young. And, Mr. Chairman, I suggest one thing. I would 
like to say this Committee ought to file a lawsuit, too, 
because this is against the law. This is the law, and you 
circumvented it, thumbed your nose at the Congress. That is 
what you did. That is what you are doing right now, thumbing 
your nose at the Congress, because that is the law right here, 
written. I was here when this law was written. This is what Ted 
Stevens wrote. This is what I wrote. And this is what the 
Congress agreed to. And your Administration stinks right now 
because you are going against the law. Follow the law once in 
awhile, and you get a lot more done.
    Thank you, Mr. Chairman.
    The Chairman. The time of the gentleman had not expired, 
but he yields back. The gentleman from New Jersey. Or no--yes, 
the gentleman from New Jersey, and then the gentlelady from 
Hawaii.
    Mr. Holt. I thank you, Mr. Chairman, mild-mannered 
Chairman. I thank you for coming. And I apologize for the long 
wait that you have been subjected to. It really is good of you 
to come.
    We did talk with a lawyer who was a witness a few minutes 
ago, and he stated that what I might call the Salazar Wild 
Lands Policy is very consistent with the policy that existed 
prior to the Norton land policy, for many years before that. Do 
you agree with that characterization?
    Mr. Abbey. I do. The process is very similar. Actually, the 
Secretarial Order that Secretary Salazar issued provides us 
greater flexibility than what we had in the previous process.
    Mr. Holt. OK. Now, it has been claimed that the policy is 
unprecedented, and you are just saying not really. It is return 
to what existed before. But to expand on this thought a little 
further, is it the case that this policy is substantially 
similar to the policies of the Forest Service, the Parks 
Service, the Fish and Wildlife Service, and the policies that 
they have had for decades?
    Mr. Abbey. Well, the policies are similar from the 
standpoint of the need to inventory lands that are managed by 
those bureaus or agencies. They take that same information and 
use it through their land use planning process to reach 
decisions. Areas that are recommended from the agencies 
themselves for possible wilderness designations are then 
forwarded to Members of Congress for you to make a 
determination of whether or not to actually designate those 
areas as wilderness.
    Mr. Holt. And I would like to, at risk of asking you to 
repeat yourself, I would like to revisit the question that Mr. 
Markey asked about public participation. How would you 
characterize the degree of public participation under the 
policy before December and the policy since then?
    Mr. Abbey. Well, the dilemma that we faced prior to the 
Secretary's initiative is that we did not have a process since 
2003 and the settlement agreement that was entered into by 
then-Secretary Norton and Governor Leavitt from Utah. There was 
no emphasis given at all to inventorying public lands to 
determine which of those public lands might have wilderness 
characteristics, much less given to how best to manage any of 
those lands with wilderness characteristics as part of our land 
use planning process.
    As a result, our offices were doing their own thing. There 
was no consistency in how they were dealing with similar issues 
across the administrative boundaries. One of the first issues 
that was raised to my attention when I was brought in as the 
Director of the Bureau of Land Management from BLM employees 
themselves is that we need a wilderness policy to direct us on 
how to deal with the issues that are coming before them every 
day, every opportunity that they are conducting land use plans.
    We have been working on this policy since 2009, since the 
fall of 2009. And we finally came up to something that the 
Department of the Interior would support, and that is what you 
see that was issued as part of the Secretarial Order.
    Mr. Holt. Well, thank you. That is a very clear answer. I 
appreciate that. Changing the subject from policy just to a 
factual question, you comment that there is nearly half a 
gigawatt of wind power installed on public lands. There are 
tens of millions of acres of public lands with wind potential. 
What is your projection of what will be installed, and on what 
sort of time line? Are you prepared to answer that at this 
point?
    Mr. Abbey. We could certainly get you some background 
information and a list of projects that we are reviewing this 
Fiscal year 2011. And we have some other projects that have 
been proposed, but we haven't started the NEPA process at this 
point in time. We are----
    Mr. Holt. Are there under consideration as much as already 
is installed, or more?
    Mr. Abbey. The potential is for much greater than what has 
been approved. The same holds true with solar and geothermal. 
We are very committed to helping this nation diversify our 
nation's energy portfolio, which is very, very important, not 
underestimating the need for continued conventional energy 
sources. We understand that we need to continue to make 
appropriate public lands available for the development of oil, 
natural gas, and coal.
    Mr. Holt. Thank you. And thank you, Mr. Chairman.
    The Chairman. The time of the gentleman has expired.
    Mr. Holt. Thank you very much.
    The Chairman. The gentleman from Utah. It is your turn, and 
then----
    Mr. Bishop. I am going to try and go through six questions, 
if I could, to you, very quickly.
    Mr. Abbey. OK.
    Mr. Bishop. You have offered the third guideline on Friday, 
as I understand, right?
    Mr. Abbey. I am sorry. What was that?
    Mr. Bishop. You offered your guideline on this issue on 
Friday. Is that correct?
    Mr. Abbey. We issued three manuals on Friday.
    Mr. Bishop. OK. Now, is there any precedent for that? I 
know in the past, you have done on one particular issue two 
different memos. Is there any precedent for having that many 
manuals, guidelines, et cetera?
    Mr. Abbey. They were all related to the Secretary's 
initiative.
    Mr. Bishop. Is there any other program where you have done 
that many guidelines, of which you are aware?
    Mr. Abbey. Not recently.
    Mr. Bishop. OK.
    Mr. Abbey. I am sure that that is not the exception, but 
not recently.
    Mr. Bishop. You have already had resource management plans 
that have been placed into effect. Is the decision of the 
Secretary voiding all of those resource management plans?
    Mr. Abbey. No, they are not.
    Mr. Bishop. If it doesn't void that, that means you have to 
amend those resource management plans.
    Mr. Abbey. Not necessarily.
    Mr. Bishop. So you are claiming you don't have to go 
through the APA process to amend a resource management plan 
under this provision?
    Mr. Abbey. What I am suggesting is that our manuals and the 
Secretarial Order requires us to ask our field offices to 
review their existing land use plans to determine whether or 
not they are consistent and in compliance with the Secretarial 
Order. Based upon that review, they will come back to us and 
let us know what amendments might be necessary.
    Mr. Bishop. Until that is--oh, so then you will go through 
the amendment process.
    Mr. Abbey. Not necessarily. If they come back, Congressman 
Bishop, and let us know that their land use plans are 
consistent with the Secretarial Order, then we don't 
necessarily have to amend any land use plan.
    Mr. Bishop. All right. And you are not requiring a non-
impairment standard until that time takes place?
    Mr. Abbey. We are reviewing specific projects, undertaking 
inventories as a result of any specific project that would come 
before us to determine whether or not those projects are being 
proposed on lands that we have determined to have wilderness 
characteristics. And as part of that NEPA process, will make a 
determination of whether or not to approve that project.
    Mr. Bishop. Thank you. I appreciate that. The Energy Policy 
and Conservation Act, which I think was done actually at the 
end of the Clinton Administration, required an inventory of all 
Federal lands an estimate of oil and gas resources, and was 
required to be part--or utilized as part of the BLM plan to 
identify areas in that. And that was part of the resource 
management plans that you have used in the past. Is that still 
part of your process under your new guidelines, your new 
manual?
    Mr. Abbey. Information relating to mineral potential is 
part of our land use planning.
    Mr. Bishop. So it is still--OK. Let me ask the hypothetical 
that you were trying to get to. Let's say that after three 
years the BLM decides that those wilderness characteristics on 
certain land do not need the extra protection that one may 
save. Does that mean you would have to do another re-inventory 
before you would change the management plan for those parcels?
    Mr. Abbey. No, it doesn't require us to re-inventory, 
especially in that type of time line. It would require us to go 
back and amend that land use plan decision.
    Mr. Bishop. You will not have as much money in the next 
upcoming years as you had in the past. That is probably a 
given. Are you really sitting there and wanting to tell me that 
you would rather spend money on this proposal than you would on 
wild boroughs, wild lands, fire suppression issues? You are 
going to have to make those decisions. Is this the priority 
that is going to take money away from those other entities?
    Mr. Abbey. The priority for the Bureau of Land Management 
is to manage public lands for multiple uses. We believe 
conservation is part of those multiple use.
    Mr. Bishop. I am asking for prioritization. Are you willing 
to do that?
    Mr. Abbey. We do that through our budget appropriation 
process.
    Mr. Bishop. And if you have less money, are you will take 
it from borough management, wild horse management, to do this?
    Mr. Abbey. We are looking at actions to reduce the costs 
associated with wild horses and boroughs every day.
    Mr. Bishop. Sir, I appreciate everything you said. Your 
answers to Representative Markey were spot on accurate. But 
what you said was, as has been said by others, is that this new 
proposal gives you a great deal of flexibility. I hope you 
realize that is what has us concerned. It is totally possible 
that there may never be a conflict. We may never get on your 
case with this land possibility. But when you have elements in 
there as talking about what congressional actions may be or 
what the average visitor may view or islands of whatever the 
noun is you put on that prepositional phrase, there are 
problems.
    So I am going to ask you the last question here, and I 
won't extend the pain any longer. When you are in my office, I 
asked you this question. I still haven't gotten an answer from 
it. The professionals on the ground that did the RMPs, you 
don't criticize their work at all. Is that correct?
    Mr. Abbey. I have not criticized their work.
    Mr. Bishop. And that is consistent with what you said. What 
is it then about the RMP plans that were done after those years 
and years of study that would impel the Secretary to say we 
don't like the answer; we need to redo it again. And I want to 
be very specific. What about their work product was wrong?
    Mr. Abbey. No one has said that their work product is 
wrong.
    Mr. Bishop. Then why aren't you just going forward with 
their work product?
    Mr. Abbey. Because we want them to go back and review their 
land use plan to see if it is consistent with the Secretary's 
initiative.
    Mr. Bishop. For what? What is the smoking gun that makes 
you want to redo this?
    Mr. Abbey. We would like to know that in the six resource 
management plans that were completed in Utah, the most recent 
planning that was completed in Utah--there were 4.8 million 
acres identified through BLM's inventory process as possessing 
wilderness characteristics. As a result of that land use plan, 
there was 400,000 acres that were identified to protect as 
natural areas. We are just looking to determine what criteria 
was used by the district offices to make that determination.
    Mr. Bishop. There is the problem. If they are smart, if 
they did it the right way, their decision should be able to go 
forward, unless there is something that gives you pause to 
think that they were wrong. Is there one specific thing that 
gives you pause to think they were wrong?
    Mr. Abbey. Not at this point.
    The Chairman. Quickly.
    Mr. Bishop. I am done. I am done. Sorry.
    The Chairman. We may have another round. So the gentlelady 
from Hawaii.
    Ms. Hanabusa. Thank you. Thank you, Mr. Chair. Thank you, 
Director Abbey. I would like for you to bear with me. I don't 
have the years as my colleagues do, so they use all these 
different acronyms that mean nothing to me. So can you tell me, 
what is the difference between wilderness characteristics and 
how that interplays with--I think I heard the Chair use it--
WSA, which I believe are wilderness study areas. Is there a 
relationship between the two?
    Mr. Abbey. The similarity is that wilderness 
characteristics and areas that were identified as wilderness 
study areas were all based upon possessing mandatory wilderness 
values. Those would be size, naturalness, and opportunities for 
outstanding--or opportunities for solitude or outstanding 
recreation.
    Ms. Hanabusa. You mentioned I think in one of your 
testimonies that only Congress can do a wilderness designation.
    Mr. Abbey. That is true.
    Ms. Hanabusa. So wilderness study area, does that have any 
basis in law? Does it have any statutory authority? Is it equal 
to a wilderness designation?
    Mr. Abbey. The Federal Land Policy and Management Act 
directed the Bureau of Land Management to conduct inventories 
of all public lands when it was passed in 1976. The Bureau of 
Land Management went out and identified those lands with 
mandatory wilderness characteristics.
    Under the Federal Land Policy and Management Act, we 
identified those lands as wilderness study areas, which 
included not only protecting those wilderness values that 
existed, but also to do further analysis and studies, and then 
make recommendations to Members of Congress on which of those 
areas that had been identified as wilderness study areas the 
agency recommends for designation by Congress.
    The agency completed that work in the early 1990s. Since 
that time, there has been 8.6 million acres of lands managed by 
the Bureau of Land Management that has been designated as 
wilderness by Congress. There are a little over 13 million 
acres that are being managed as wilderness study areas, which 
means we are protecting those wilderness values and not 
allowing any actions that would impair those wilderness values 
until Congress releases those areas for wilderness study 
status.
    Ms. Hanabusa. So do I understand this correctly? Congress 
can then disagree with you as to whether it is a wilderness 
study area? Is that correct? I mean that the wilderness study 
area could then be a wilderness designation.
    Mr. Abbey. Congress would have to pass legislation to 
release areas from the wilderness study area status.
    Ms. Hanabusa. Right.
    Mr. Abbey. They would also have to pass legislation to 
designate areas as wilderness.
    Ms. Hanabusa. Is there anything that reverses the 
wilderness to something else? In other words, if lands are 
designated wilderness, can Congress then designate or 
undesignate it? Or is the designation out of the wilderness 
study area? Do you understand what I am saying?
    Mr. Abbey. Well, Congress always has the discretion to go 
back and revisit areas that they have designated as wilderness. 
I am not aware of any time they have done that, but they 
certainly have that discretion. Usually through legislation, 
when they designate areas as wilderness, more times than not, 
they will release areas that have been identified as wilderness 
study areas that they chose not to designate as wilderness for 
other purposes.
    Ms. Hanabusa. And my last question is this 15-year study 
that we hear so much about. Now, the 15-year study, is that 
tied to what we are calling the regional plans? Or is that a 
separate thing that there is the requirement that, in 15 years, 
all these areas are studied, and you either include them in 
wilderness study areas, or you do whatever with it. What is the 
secret behind this 15 years?
    Mr. Abbey. Well, we normally believe that the life of a 
land use plan is around 10 to 15 years. Now, that hasn't been 
the case because the West has been changing so rapidly that we 
see a need to amend land use plans routinely for purposes like 
renewable energy development, where we have done programmatic 
EISs for wind energy or solar energy, that we will then go 
forward once we have the analysis completed as part of the 
programmatic EIS, and if necessary we will amend that land use 
plan to accommodate those type of projects in certain areas.
    Ms. Hanabusa. So absent that, is there a requirement to at 
least review every 15 years, the maximum outside date?
    Mr. Abbey. There is a requirement through policy for us to 
routinely review our land use plans to see if there is a need 
for updating it.
    Ms. Hanabusa. Thank you. Thank you.
    The Chairman. I thank the gentlelady. At the risk of doing 
one more, I have some questions. And, Director Abbey, you have 
been very patient. I hope your wife will understand that 
patience because you are going to probably get home much later, 
and I hope the food will be warm when you get home. So my wife 
is in Washington, so I know my won't be.
    Mr. Abbey. My wife is in Mississippi, so I am not sure she 
is holding the meal.
    The Chairman. So we are both in the same place then. All 
right. I just have one observation, and with the line of 
questioning that we have heard from a variety of people--and 
this is kind of what I heard. Nobody disputes, and the court 
has affirmed, that BLM has the authority to inventory lands on 
a regular basis. That doesn't seem to be the issue here. But 
the sticking point seems to be--and I would like you to be 
specific with what I am going to say, where you get the 
authority to make this distinction. BLM is used for multiple 
purpose. And it appears that the dispute is one of the uses is 
given a higher authority than other uses, and that may be where 
the sticking point is.
    So I would like you, if you can, to tell me specifically 
where you have the authority under BLM, under land inventory, 
or however that is characterized, to give higher authority over 
other uses. And in this case, of course, the fear is, from what 
the testimony we have heard, that wilderness or wild lands, 
i.e., wilderness--at least one of the Members here felt there 
was no difference--is a higher authority. So could you give me 
that?
    Mr. Abbey. Mr. Chairman, I think the challenge that we face 
in dealing with lands with wilderness characteristics is the 
sensitivity of those characteristics, the wilderness values 
themselves. If we allowed certain uses to go forward to impact 
those wilderness characteristics, it may be that those values 
are lost forever.
    The Chairman. But wait, listen. That is a judgment call.
    Mr. Abbey. That is a judgment.
    The Chairman. There is no question. I am asking where you 
get the authority, where you get the authority, under statute, 
to make that determination, because that for the first part is 
a judgment call. I recognize that.
    Mr. Abbey. As we go forward with our land use plan, Mr. 
Chairman, all uses are on the table.
    The Chairman. Right, right.
    Mr. Abbey. We look at the alternatives.
    The Chairman. I know. And the dispute here, as I pointed 
out, it appears from the testimony that all of the uses, higher 
authority has been given to this wild lands. And again, I am 
asking again. Where do you get the authority to make that 
determination of which is a higher priority? It could be 
another one. You happen to make in this case wild lands. Where 
do you get that authority statutorily?
    Mr. Abbey. I am not sure it exists statutorily.
    The Chairman. Well, then that begs the question of why did 
you do it?
    Mr. Abbey. Because we wanted to demonstrate the values that 
we are placing on wilderness characteristics to make sure it 
does not get lost as part of our inventory----
    The Chairman. But that is a judgment call that Congress 
makes under the Wilderness Act of 1964. We heard ample 
testimony on that earlier today, that we had that authority. 
And now you are saying you don't have the authority to do that, 
and yet you are doing that.
    Mr. Abbey. We have the administrative authority to go 
forward and do land use planning based upon our policies that 
we ourselves enact.
    The Chairman. Right. I am asking you again--I mean, you 
have answered that you have no authority to give higher 
authority to multiple uses. You just answered that. And yet 
that is what you are doing.
    Mr. Abbey. We are using the authorities under 201 and 202. 
Again, it is not elevating any single resources higher than 
anything else.
    The Chairman. Well, maybe I am missing something, but I 
thought I heard very specifically that you don't have the 
authority to do this, to make this determination of which 
multiple use is higher than the other. You were just doing it. 
And that is the fear that we hear from those that are impacted 
by this, the uncertainty that I spoke about earlier. I have to 
say, Director, that disturbs me when I hear you say that you 
don't have that authority.
    Mr. Abbey. The point being, Mr. Chairman, is that we want 
to make sure that lands with wilderness characteristics that we 
ourselves identify through our inventory process consistent 
across the Western United States are given due consideration as 
part of our land use plan.
    The Chairman. But you have no statutory authority to weigh 
one over the other, as you just said a moment ago.
    Mr. Abbey. I am not aware of one.
    The Chairman. All right. Mr. Bishop.
    Mr. Bishop. One last question to try and clarify something 
Representative Hastings earlier said. He asked about WSAs, 
whether they would be eligible for this. Let me just ask 
specifically. If a WSA were released by Congress, would it then 
be eligible for wild land designation?
    Mr. Abbey. It would qualify as lands with wilderness 
characteristics, or it would have never been a wilderness study 
area.
    Mr. Bishop. So it would be eligible then unless Congress 
passes another law to specifically say you cannot do.
    Mr. Abbey. Congress provides direction to the Bureau of 
Land Management every day through their release language with 
wilderness legislation.
    Mr. Bishop. OK. But it would be eligible then for wild 
lands if it were released from WSA status.
    Mr. Abbey. It could be, but let me repeat myself. We would 
defer to the language that would be in the wilderness bill that 
was passed by Congress to provide us with direction on how to 
treat these lands.
    Mr. Bishop. I know. But we are giving you flexibility. Let 
me just say at the very end, I do appreciate you being here and 
staying this late. We apologize for keeping you here this long. 
This is an important issue for a whole lot of people. This 
hearing, I am sure, is about to conclude. But this will be not 
the last time we are talking about this particular issue again.
    But I do appreciate your willingness to stay here and 
answer these questions to the best of your ability, and I thank 
you for doing that, sir.
    Mr. Abbey. Well, I appreciate those remarks. And let me say 
we do know the importance of the Secretarial Order. We would 
have never issued the Secretarial Order if we did not think it 
was important, and to have this type of discussion, to be able 
to defend the actions that we have taken.
    Mr. Bishop. Maybe it would have been better if we had this 
discussion before you issued the order. Never mind.
    The Chairman. The gentleman yields back. And I apologize to 
the gentlelady from Hawaii. So OK. You have no questions then? 
Well, I too want to thank you, Director Abbey, for being here. 
This was a long day. And as I said at the outset, I know that 
you will be asked back here. And, of course, we welcome you. 
And I do want to say, as you can tell by the testimony, 
sometimes passions ride pretty hard on these issues. That is 
not something that you are not aware of. But the best way to 
have a logical discussion on this would be to respond to what 
our requests are of you, as we did when we asked you to write.
    If you could do that, that helps. There has been times when 
we have Secretary Salazar up here on Thursday--there are some 
times we weren't afforded that opportunity. And we just don't 
think that is the proper way to do business in a transparent 
way because this is a government of the people, as you well 
know.
    Mr. Abbey. You bet.
    The Chairman. So with that, I want to thank you very, very 
much for being here and for your patience. And I see some of 
the other witnesses in the audience, and I want to thank you 
also for your traveling here and coming to this meeting.
    With that, the hearing is adjourned.
    [Whereupon, at 6:55 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    [The prepared statement of Mr. Flores follows:]

       Statement of The Honorable Bill Flores, a Representative 
                  in Congress from the State of Texas

    Mr. Chairman, thank you for holding today's important hearing on 
the impact of the Administration's Wild Lands Order on American jobs 
and our economy. Last month, the House of Representatives passed a 
resolution instructing the committees to review existing and proposed 
regulations from Federal agencies, and I am pleased that our committee 
will be discussing the impacts of this inappropriate unilateral 
regulation from BLM today.
    We can all agree that our Nation's public lands should be 
protected, however this designation of ``wild lands'' can be highly 
restrictive and have serious effects on our economic well-being, our 
conservation goals, and national security needs. I find it puzzling 
that the Obama Administration, at a time of 9+ percent unemployment and 
gas prices at the highest ever for this time of year, would recklessly 
make the decision to lock up domestic energy sources and recreational 
opportunities that have the potential to provide much-needed jobs and 
contribute to the economies of local surrounding communities. This rule 
also circumvents Congress, our federal rulemaking process and any local 
stakeholders by allowing a federal agency to designate millions of 
acres of publicly owned lands as de facto Wilderness areas.
    I look forward to hearing from our witnesses today on how they see 
the impact of the Secretary's decision and to working with my 
colleagues on the committee to ensure we have a balanced policy 
approach so that our public lands meet both our environmental and 
economic needs.
                                 ______
                                 
    [The prepared statement of Mr. Matheson follows:]

   Statement submitted for the record by The Honorable Jim Matheson, 
          a Representative in Congress from the State of Utah

    Mr. Chairman, I appreciate the opportunity to submit this statement 
for the record.
    Secretary Salazar's December announcement of a new ``Wild Lands'' 
policy was unexpected and another example of a top-down, Washington-
driven approach to public lands issues that fails to recognize the 
importance of local input and what is best for states and communities. 
This is not the first time this approach has been taken. In fact, the 
history of public lands discussions in Utah has been dominated by 
highly charged rhetoric with all-or-none attitudes toward the issues. 
Though it's easier to address complex issues with simple rhetoric and 
polarized points of view, it results in little real progress and many 
unresolved concerns.
    There is a better way to approach stewardship of public lands. An 
inclusive approach where all stakeholders participate offers a path 
forward to resolve these many-sided topics. A bottom-up, stakeholder-
driven process works best whether in implementation of an 
administrative proposal or development of legislation. This approach 
may take significant time and effort, but it allows the complexity of 
public lands issues to be addressed in a way that builds consensus and 
receives broad local support.
    Administratively, this approach is supposed to be adopted and 
implemented under the Federal Land Policy and Management Act of 1976 
(FLPMA). Under FLPMA, the Bureau of Land Management (BLM) is required 
to develop a comprehensive land use plan for multiple uses commonly 
referred to as a Resource Management Plan (RMP). The RMP serves as a 
roadmap for potential energy development, OHV usage, preservation of 
sensitive areas, protection of endangered species, harvesting of 
timber, grazing and wildlife protection. As the BLM develops its RMP, 
many different interest groups are encouraged to participate and 
provide feedback on the proposals.
    A stakeholder-driven process can also create successful legislative 
actions regarding public lands. Senator Bob Bennett and I worked for 
over five years to develop and eventually enact the Washington County 
Growth and Conservation Act of 2008. This legislation resolved several 
critical public lands issues in Washington County, Utah including the 
identification of utility corridors and transportation routes, the 
disposal of surplus federal lands, the designation of wilderness and a 
Wild and Scenic River. This legislation provided a greater degree of 
certainty for all of the local interest groups so that their vision of 
the future recreational and economic landscape could be realized.
    Prior to Secretary Salazar's announcement of Order No 3310., the 
Administration made several public statements that appeared to support 
such a locally-driven stakeholder approach to public lands issues. 
Specifically, on October 1, 2009, when BLM Director Bob Abbey testified 
before the House Natural Resources Committee, he voiced support for 
legislation that is ``home-grown'' and ``geographically-focused'' as 
was consistent with the Washington County Growth and Conservation Act. 
In particular, Director Abbey mentioned the legislation as a milestone 
in Utah regarding public lands issues. In addition, in February of 
2010, a draft list of monument designations was leaked from the 
Department of Interior, including several in Utah. I wrote to Secretary 
Salazar condemning any discussions that did not involve stakeholders in 
local communities. I referenced the lingering anger in our state from a 
1996 monument designation in Utah. Secretary Salazar responded on 
February 22, 2010, stating, ``I also believe that any new designations 
and conservation initiatives work best when they build on local efforts 
to better manage places that are important to nearby communities.''
    The announcement of the Secretary's most recent order calls into 
question the substance of RMPs that were recently completed in Utah 
after several years of work. In fact, the Order seems to ignore all of 
the work that was done on these RMPs and creates renewed uncertainty 
for all stakeholders. Going forward, I believe it both fair and 
imperative that we resolve discrepancies between the words and actions 
of Secretary Salazar and Director Abbey regarding public lands issues 
in Utah and throughout the country. I feel strongly that any plan for 
land use in Utah must be developed through a collaborative process, 
involve local stakeholders, and seek consensus on future use of our 
shared resources. Additionally, it is critical for the economic 
prosperity of cities and counties in my district and throughout the 
state that we resolve inconsistencies in a timely manner so that they 
are able to adequately plan for the future and seize economic 
opportunities.
    Mr. Chairman, I believe that this Secretarial Order undermines 
local efforts in Utah, is a heavy-handed decision by the Secretary, and 
creates economic uncertainty for our communities. On numerous 
occasions, we have been told that a locally-driven, collaborative 
approach is the right course to pursue in land use plans. This is a 
radical departure from those discussions. I look forward to a response 
from the Department of Interior as well as future dialogue with federal 
land managers regarding how local stakeholders can engage in the 
process.
    Thank You.
                                 ______
                                 
    [The prepared statement of Mrs. McMorris Rodgers follows:]

          Statement of The Honorable Cathy McMorris Rodgers, 
       a Representative in Congress from the State of Washington

    Thank you, Chairman Hastings for convening this hearing. This is a 
critical issue in our home state of Washington and for all Americans 
who are concerned about the impact that yet another land designation 
will have on jobs and economic growth in this country.
    What many of my colleagues may not know is that over 30% of 
Washington State is owned by the Federal government--and in Eastern 
Washington the percentage is even higher, with some counties, such as 
Okanogan at 80% owned by the Federal government. When the Federal 
government controls such large segments of land, whether through a 
Wilderness or Wild Land designation, it effectively limits, if not 
eliminates, all economic vitality.
    Let me give you an example, it has been brought to my attention 
that the United States Department of Fish and Wildlife Service, in 
coordination with the State of Washington, has allocated 10% of the 
entire Department of Fish and Wildlife Cooperative Endangered Species 
Conservation Fund toward the purchase of additional land in Okanogan 
County. Collectively, these purchases have left approximately 18% of 
Okanogan County land in private ownership. Unfortunately, this is yet 
another example of the Federal government ignoring the impact that its 
bureaucratic decisions will have on our local communities. Moreover, I 
am concerned that the Fish and Wildlife Service has yet to conduct 
environmental impact studies to assess the economic impact that these 
purchases will have in Okanogan County, as required under the National 
Environmental Policy Act.
    When looked at collectively, the land acquisitions in Okanogan 
County and elsewhere have had and will have significant economic 
implications, not to mention national security implications as well. By 
removing lands from private ownership and thus from the local municipal 
tax rolls--the Federal government is stifling locally driven 
development and making rural communities more dependent on the Federal 
government. The Administration proposal to designate land as Wild Land, 
similar to its push for more Wilderness, will slow true economic growth 
and prolong lasting job creation.
                                 ______
                                 
    The documents listed below were submitted for the record 
and have been retained in the Committee's official files.
        <bullet>  Alaska Miners Association, Inc., Letter to Chairman 
        Hastings and Ranking Member Markey
        <bullet>  American Motorcyclist Association, Letter to Chairman 
        Hastings
        <bullet>  Arctic Slope Regional Corporation, Statement for the 
        record
        <bullet>  Consolidated Goldfields Corp., Letter to Chairman 
        Hastings
        <bullet>  Dail, Christopher, Spokane, Washington, Letter to 
        Chairman Hastings
        <bullet>  Fox, Fred, Letter to Chairman Hastings
        <bullet>  Johnson, Dr. K. Norman, Professor, Oregon State 
        University, and Debora Johnson, Applegate Forestry, Corvallis, 
        Oregon, ``Monetizing Ecosystem Services from BLM O&C Forests''
        <bullet>  Kaufman, M.A., Letter to Chairman Hastings
        <bullet>  Kinsell, Sheldon, Letter to Chairman Hastings
        <bullet>  Markey, Hon. Edward, Ranking Member, Committee on 
        Natural Resources, along with various House Members, Letter to 
        Secretary Salazar
        <bullet>  Mauck, Tim, Commissioner, Clear Creek County, 
        Colorado, and other Colorado County Commissioners, Letter to 
        Secretary Salazar
        <bullet>  Olivas, John, and other outfitter groups, Letter to 
        Chairman Hastings and Ranking Member Markey
        <bullet>  Outdoor Alliance, Letter to Chairman Hastings and 
        Ranking Member Markey
        <bullet>  Outdoor Industry Association and The Conservation 
        Alliance, Letter to Chairman Hastings and Ranking Member Markey
        <bullet>  Parker, Doug, Missoula, Montana, Letter to Chairman 
        Hastings
        <bullet>  Parnell, Hon. Sean, Governor, State of Alaska, Letter 
        to Chairman Hastings with attachments
        <bullet>  Parnell, Hon. Sean, Governor, State of Alaska, and 
        Governors of Arizona, Idaho, New Mexico, North Dakota, Utah, 
        and Wyoming, Letter to Secretary Salazar
        <bullet>  Petzel America, Letter to CongressmanBishop
        <bullet>  PEW Campaign for America's Wilderness, Letter to 
        Congressman Mike Simpson
        <bullet>  Public Lands Advocacy, Letter from Commissioner Doug 
        Robertson, President, to Secretary Salazar
        <bullet>  Ranchers-Cattlemen Action Legal Fund (R-CALF), United 
        Stockgrowers of America, Statement submitted for the record
        <bullet>  Resolution by the Association of O&C Counties in 
        Opposition to Order No. 3310 Issued by the Secretary of the 
        Interior
        <bullet>  Resource Development Council, Letter from Carl 
        Portman, Deputy Director, to Chairman Hastings
        <bullet>  Roberts, Mac, Spokane, Washington, Letter to Chairman 
        Hastings
        <bullet>  Schenk, Robert, San Francisco, California, Letter to 
        Chairman Hastings
        <bullet>  Schultz, Thomas M., Jr., President, Western States 
        Land Commissioners Association, Letter to Secretary Salazar
        <bullet>  Skaer, Laura, Executive Director, Northwest Mining 
        Association, Letter to Chairman Hastings
        <bullet>  ``Small and Temporary--Assessing the Impact of 100 
        Years of Oil and Natural Gas Development in Western 
        Colorado''--Background information submitted for the record
        <bullet>  Spalding, Vance, Production Manager, Fronteergold, 
        Letter to Chairman Hastings
        <bullet>  Thomas, Randy, Vice President, Operations, EP 
        Minerals LLC, Letter to Chairman Hastings
        <bullet>  Weldin, Robert D., Letter to Chairman Hastings
        <bullet>  Western Energy Alliance, Kathleen Sgamma, Director of 
        Government and Public Affairs, Denver, Colorado, Position Paper 
        and Background Information
        <bullet>  White River WC Field Photos
        <bullet>  ``Wilderness Characteristics Insert''--Background 
        Information
        <bullet>  The Wilderness Society and Outdoor Industry 
        Association, Letter to Chairman Hastings and Ranking Member 
        Markey

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
